U.S. Department of Housing and Urban Development




                                                    Office of Inspector General
                                                   Semiannual Report to Congress

                                                   October 1, 2003 through March 31, 2004
                                                PROFILE OF PERFORMANCE
                                                                    FOR THE PERIOD
                                                         October 1, 2003 through March 31, 2004

                    Audit and Investigation Results                                           Audit                Investigation            Combined
Recommendations That Funds Be Put to Better Use                                           $1,865,688,100                                  $1,865,688,100
Management Decisions on Audits with Recommendations That Funds Be
                                                                                           $766,584,070                                    $766,584,070
    Put to Better Use
Questioned Costs                                                                           $67,111,824                                     $67,111,824
Management Decisions on Audits with Questioned Costs                                       $39,796,808                                     $39,796,808
Collections from Audits                                                                    $13,206,6771                                    $13,206,6771
Investigative Receivables/Recoveries                                                                               $300,080,255            $300,080,255
Funds Put to Better Use                                                                                            $266,005,577            $266,005,577
Indictments/Informations                                                                                               690                      690
Convictions/Pleas/Pre-Trial Diversions                                                                                 353                      353
Administrative Actions                                                                            6                    467                      473
Civil Actions                                                                                                           29                      29
Months in Prison                                                                                                      5,512                    5,512
Months of Probation                                                                                                   11,837                  11,837
Hours of Community Service                                                                                            3,446                    3,446
Personnel Actions                                                                                 1                     38                      39
Arrests                                                                                                               1,137                    1,137
Subpoenas Issued                                                                                 24                    335                      359
Search Warrants                                                                                                         39                      39
Weapons Seized                                                                                                          3                        3
Value of Drugs Seized                                                                                                 $7,457                  $7,457

1
    Collections reduced by $209,470 which represents collections on report number 2003-NY-1801 which was claimed by the Office of Investigation.
INSPECTOR GENERAL’S MESSAGE


    It is with pride that I present the U.S. Department of Housing and Urban
Development Office of Inspector General Semiannual Report on our activities for
the half year beginning October 1, 2003.

    Before highlighting all the OIG’s recent activities, I want to acknowledge the
excellence and competence of the auditors, investigators, and support personnel
who form the core of the HUD OIG. During the last half year, scores of our employ-
ees have been selected for awards and commendations by the President, the
President’s Council on Integrity and Efficiency, U.S. Attorneys’ Offices, the
Department of Justice, elected officials, and editorial boards for the superior work
they have performed.

    The HUD OIG is serving the American taxpayer by our oversight of HUD program administration through our
audits of the Department’s financial statements and through internal control reviews. Further, the American tax-
payer is served through our investigations of white collar crime and program abuse. Departmental employee mis-
conduct is checked through our vigorous efforts in investigating and resolving reported abuses. We continue to
assess information security efforts, report on Departmental compliance and accountability, and identify manage-
ment and performance challenges.

    During the past half year, we have seen the HUD OIG’s “return on investment” increase fourfold to 51 to 1. This
performance measure, which is more fully explained in the next section of this report, means that OIG is producing
audits and investigations that have a potential monetary impact of 51 times more than we are spending.

    The following highlights some of the areas detailed in this report.

    A centerpiece to many of HUD OIG’s investigations and audits is the effectiveness of our OIG Hotline. As an
intake point for allegations of waste, fraud, abuse, or mismanagement in HUD or in HUD funded programs, the OIG
Hotline has garnered a reputation for excellence that is acknowledged and copied throughout many other federal
OIGs. Since October 1, 2003, the OIG Hotline has logged more than 9,000 phone calls and letters.


     The Federal Housing Administration’s Single Family Program continues to be a major management challenge
for the Department, and the HUD OIG has been active on two fronts to preserve and improve this program. Our
investigative efforts have targeted predatory lending activities and single family housing property flipping. These
efforts have met with great success. In addition, our auditors have assessed the indemnification of claims on HUD
single family insured loans, the HUD Philadelphia Homeownership Center’s system of quality controls over its FHA
single family mortgage insurance process, the Home Equity Conversion Mortgage Program, and the Officer/
Teacher Next Door Programs, to name a few.

     In addition, we reviewed HUD management of public housing agency (PHA) development activities, the portabil-
ity features of the Section 8 Housing Choice Voucher Program, the Moving to Work Program, and other activities
at various PHAs. Moreover, we are reporting on our audit work that resulted in a qui tam lawsuit involving over-
billing by a security company. We also audited Community Development Block Grant Disaster Assistance Funds in
the State of New York, the Section 108 Loan, the Community Development Block Grant, the HOME, and the Home
Investment Partnership Programs, effecting over $60 million in funds put to better use.
    In our discussion of the audit resolution process, we are pleased to report that, for the sixth consecutive semian-
nual reporting period, we have no items to report on significant audits where a management decision had not been
reached for audits that were more than six months old. We attribute this accomplishment to the ongoing support
provided by the Department and their priority to resolve OIG audit report recommendations as expeditiously as
possible.

    It is clearly evident that the HUD OIG has had a positive impact on the Department’s performance, thanks to the
dedicated and talented men and women who truly believe in the mission of the Department: that of safe, decent, and
sanitary housing for people and of the economic vitality of our communities. We will continue our work with Secre-
tary Jackson to achieve a Department that administers the country’s housing programs effectively and efficiently,
free from waste, fraud, and abuse.




                                                             Kenneth M. Donohue
                                                             Inspector General
Information About the HUD Office of Inspector General

    HUD’s Office of Inspector General is one of the original 12 designated by the Inspector General Act of 1978. The OIG oversees HUD’s programs
and operations with its audit and investigative personnel. While organizationally located within the Department, the OIG has separate budgetary
authority. The IG’s mission is to provide independent and objective reporting to the Secretary and the Congress. OIG activities seek to:

¾   Promote efficiency and effectiveness in programs and operations;
¾   Detect and deter fraud and abuse;
¾   Investigate allegations of misconduct by HUD employees; and
¾   Review and make recommendations regarding existing and proposed legislation and regulations affecting HUD.

    The Executive Office and the Offices of Audit, Investigation, Counsel, and Management and Policy are located in Headquarters. Also, the Offices
of Audit and Investigation have field staff located in ten regions and many field offices. The following charts provide information on the OIG’s return on
investment for the six-month reporting period, along with audit and investigation reports/cases, recoveries, and funds put to better use by program area.

Return on Investment

     OIG developed a Return-On-Investment (ROI) computation as one method to measure its contribution to the Department’s mission. This measure takes
the total dollars of Recommended Funds To Be Put To Better Use 1 and Questioned Costs2 together with Investigative Receivables and Recoveries3 and
divides that total by OIG’s operating costs, including salaries, for the period. The resulting ratio represents the potential amounts that could be realized per
dollar of OIG expenditures either during current or future periods. Many factors affect when and how much is actually returned, so OIG uses Recommended
amounts in our ROI calculation, rather than Management Decision amounts, to better relate results to the work that was actually done during the period.
Much of this period’s ROI results from the annual financial audit finding regarding the need to deobligate more than $1 billion in HUD funds. The majority of
remaining contributing factors to the ROI are the results from reviews of external parties who administer or benefit from HUD funded programs. HUD refers
many matters such as these to OIG for audit or investigation, as appropriate.
                                                                                                                          OIG Results 10/1/03 to 3/31/04
              OIG Cost of Operations 10/1/03 to 3/31/04                                                                           $2.5 Billion
                           $49 M illion                                                                     $266,005,577                                  $300,080,255
                                                                                                       Funds Put to Better Use                Investigative Recoveries/Receivables
                                                                                                           (Investigation)
                          $9,378,558                               $4,528,532
               Centrally Managed/Funded Services                                                                                                                              $67,111,824
                                                                 Administration &                                                                                           Questioned Costs
                                                                   Operations




                                                                                                                                     $1,865,688,100
           $35,172,329                                                                                                            Funds Put to Better Use
        Personnel Services                                                                                                               (Audit)


                                                      OIG Return on Investment: $2.5 billion/$49 million = 51 to 1 return




Footnotes
1
  Funds To Be Put To Better Use is an item required by Congress and is defined in the IG Act as “a recommendation by the Office that funds could be used more efficiently if management
of an establishment took actions to implement and complete the recommendation, including: (1) reductions in outlays; (2) deobligations of funds from programs or operations; (3) with-
drawal of interest subsidy costs on loans or loan guarantees, insurance, or bonds; (4) costs not incurred by implementing recommended improvements related to the operations of the
establishment, a contractor, or grantee; (5) avoidance of unnecessary expenditures noted in pre-award reviews of contractor grant agreements; or (6) any other savings which are specifically
identified.”

2
 Questioned Costs are “a cost that is questioned by the Office because of: (1) an alleged violation or provision of law, regulation, contract, grant, or cooperative agreement, or other
agreement or document governing the expenditure of funds; (2) a finding that at the time of the audit, such cost is not supported by adequate documentation; or (3) a finding that the
expenditure of funds for the intended purpose is unnecessary or unreasonable.”

3
  Investigative Receivables and Recoveries are based on the total dollar value of: (1) Criminal cases—the amount of restitution, criminal fines, and/or special assessments based on a criminal
judgment or established through a pretrial diversion agreement; (2) Civil cases—the amount of damages, penalties, and/or forfeitures resulting from judgments issued by any court (Federal,
state, local, military, or foreign government) in favor of the U.S. government; or the amount of funds to be repaid to the U.S. government based on any negotiated settlements by a prosecut-
ing authority; or the amount of any assessments and/or penalties imposed, based on actions brought under the PCFRA, civil money penalties, or other agency-specific civil litigation
authority, or settlement agreements negotiated by the agency while proceeding under any of these authorities; (3) Voluntary repayments—the amount of funds repaid on a voluntary basis or
funds repaid based on an agency’s administrative processes, by a subject of an OIG investigation, or the value of official property recovered by an OIG during an investigation, before
prosecutive action is taken, any of which result from a case in which an OIG has an active investigative role.
        Audit Reports Issued by Program
                          13%

                                     14%
11%

                 7              8                    21%           Single Family

        6                                                          M ultifamily

                                        12                         PIH

                                                                   CPD

                     23                                            Other



        41%




      M onetary Benefits Identified by Program in
               M illions – Office of Audit
 1600
                                                                   $1,459.6
 1400
 1200
 1000
  800
 600
 400
 200         $73.5                           $98.0         $62.6
                             $10.5
   0
            Single        Multifamily        PIH           CPD     Financial
            Family                                                 Audit and
                                                                    Other
          In v estig a tio n C a ses O p en ed
                              by Program
 600                                         Single Family
 500
                                             Public Housing
 400
                                             Multifamily
 300

 200                                         Community Planning
                                             & Development
 100
                                             Other/GNMA
   0




                 Investigative Recoveries
               Multifam ily     Other/GNMA
                                    8%              Single Fam ily
                   2%                                   89%
Public Housing
      1%




  Investigation Funds Put to Better Use
                              by Program
 140,000,000                                 Single Family
 120,000,000
                                             Public Housing
 100,000,000
  80,000,000                                 Multifamily
  60,000,000
                                             Community Planning
  40,000,000                                 Development
  20,000,000                                 Other/GNMA
          0
                                          Reporting Requirements

     The specific reporting requirements as prescribed by the Inspector General Act of 1978, as amended by the
                         Inspector General Act Amendments of 1988, are listed below:

                                         Source/Requirement                                            Pages

Section 4(a)(2)-review of existing and proposed legislation and regulations.                           99-100

Section 5(a)(1)-description of significant problems, abuses, and deficiencies relating to the
administration of programs and operations of the Department.                                        1-89, 101-104

Section 5(a)(2)-description of recommendations for corrective action with respect to significant
problems, abuses, and deficiences.                                                                      7-89

Section 5(a)(3)-identification of each significant recommendation described in previous Semi-       Appendix 2,
annual Reports on which corrective action has not been completed.                                    Table B

Section 5(a)(4)-summary of matters referred to prosecutive authorities and the prosecutions
and convictions that have resulted.                                                                     7-89

Section 5(a)(5)-summary of reports made on instances where information or assistance was
unreasonably refused or not provided, as required by Section 6(b)(2) of the Act.                    No instances

Section 5(a)(6)-listing of each audit report completed during the reporting period, and for each
report, where applicable, the total dollar value of questioned and unsupported costs and the         Appendix 1
dollar value of recommendations that funds be put to better use.

Section 5(a)(7)-summary of each particularly significant report.                                        7-89

Section 5(a)(8)-statistical tables showing the total number of audit reports and the total dollar   Appendix 2,
value of questioned and unsupported costs.                                                           Table C

Section 5(a)(9)-statistical tables showing the total number of audit reports and the dollar value   Appendix 2,
of recommendations that funds be put to better use by management.                                    Table D

Section 5(a)(10)-summary of each audit report issued before the commencement of the re-             Appendix 2,
porting period for which no management decision had been made by the end of the period.              Table A

Section 5(a)(11)-a description and explanation of the reasons for any significant revised man-
agement decisions made during the reporting period.                                                   102-103

Section 5(a)(12)-information concerning any significant management decision with which the          No instances
Inspector General is in disagreement.

Section 5(a)(13)-the information described under section 05(b) of the Federal Financial Man-
agement Improvement Act of 1996.                                                                        104
                                                             Table of Contents
Chapter 1 - HUD’s Management and Performance Challenges .............................................................................. 1

Chapter 2 - HUD’s Single Family Housing Programs
       Audits............................................................................................................................................................7
       Investigations..............................................................................................................................................11

Chapter 3 - HUD’s Public and Indian Housing Programs
       Audits.........................................................................................................................................................33
        Investigations.............................................................................................................................................41
        Fugitive Felon Initiative ............................................................................................................................54

Chapter 4 -HUD’s Multifamily Housing Programs
       Audits..........................................................................................................................................................57
       Investigations..............................................................................................................................................62

Chapter 5 -HUD’s Community Planning and Development Programs
       Audits..........................................................................................................................................................71
       Investigations..............................................................................................................................................77

Chapter 6 - Other Significant Audits and Investigations/OIG Hotline
       Audits..........................................................................................................................................................83
       Investigations..............................................................................................................................................87
       OIG Hotline................................................................................................................................................88

Chapter 7 - Outreach Efforts...................................................................................................................................91

Chapter 8 - Review of Policy Directives
       Notices of Funding Availability (nofas).....................................................................................................99
       Computer Match Agreement ......................................................................................................................99
       Notices......................................................................................................................................................100
       Congressional Report ...............................................................................................................................100

Chapter 9 - Audit Resolution
       Delayed Actions .......................................................................................................................................101
       Significant Revised Management Decisions ............................................................................................102
       Federal Financial Management Improvement Act of 1996 (FFMIA)......................................................104

Appendix 1 — Audit Reports Issued
Appendix 2 — Table A - Audit Reports Issued Prior to Start of Period with No Management Decision at
                       03/31/04
             Table B - Significant Audit Reports Described in Previous Semiannual Reports Where Final Ac-
                       tion Had Not Been Completed as of 03/31/04
             Table C - Inspector General Issued Reports with Questioned and Unsupported Costs at
                       03/31/04
             Table D - Inspector General Issued Reports with Recommendations that Funds Be Put To Better
                       Use at 03/31/04
Chapter 1 — HUD’s Management and Performance Challenges

                                                          programs. HUD’s budget approximates $31 billion
The HUD Office of Inspector                               annually. Additionally, HUD assists families in obtain-
General                                                   ing housing by providing Federal Housing Administra-
                                                          tion (FHA) mortgage insurance for single family and
    The HUD Inspector General is one of the original      multifamily properties. FHA’s outstanding mortgage
12 Inspectors General authorized under the Inspector      insurance portfolio exceeds one half trillion dollars.
General Act of 1978. Over the years, our audit and        Ginnie Mae, through its Mortgage-Backed Securities
investigative staff have forged a strong alliance with    Program, gives issuers access to capital markets
HUD personnel in recommending ways to improve             through the pooling of federally insured loans.
Departmental operations or in prosecuting program
abuse. We strongly believe that we have made a                 While HUD may appear to be a small agency, with
difference in HUD’s performance and accountability.       about 9,200 staff nationwide, numerous partners are
We are committed to our statutory mission of detect-      relied upon for the performance and integrity of a
ing and preventing waste, fraud, and abuse, and           large number of diverse programs. Among these
promoting the effectiveness and efficiency of govern-     partners are hundreds of cities that manage HUD’s
ment operations. While organizationally we are            Community Development Block Grant funds, hun-
located within the Department, we operate indepen-        dreds of public housing agencies and thousands of
dently with separate budgetary authority. This inde-      nonprofit and for-profit housing sponsors that manage
pendence allows for clear and objective reporting to      assisted housing funds, thousands of HUD approved
the Secretary and the Congress. Our activities seek       lenders that originate and service FHA insured loans,
to:                                                       and hundreds of Ginnie Mae mortgaged-backed
                                                          securities issuers that provide mortgage capital.
¾Promote efficiency and effectiveness in pro-
 grams and operations.                                         Achieving HUD’s mission continues to be an
                                                          ambitious challenge for its limited staff, given the
¾Detect and deter fraud and abuse.                        agency’s many distinct programs. HUD’s management
¾Investigate allegations of misconduct by HUD             problems have for years kept HUD on GAO’s list of
 employees.                                               agencies with high-risk programs. HUD’s manage-
                                                          ment team, the GAO, and the OIG share the view that
¾Review and make recommendations regarding                improvements in human capital, acquisitions, and
 existing and proposed legislation and regulations        information systems are essential in removing HUD
 affecting HUD.                                           from its high-risk designation. More specifically,
    The Executive Office and the Offices of Audit,        HUD must focus these improvements on Rental
Investigation, Counsel, and Management and Policy         Housing Assistance Programs and Single Family
are located in Headquarters. Also, the Offices of         Housing Mortgage Insurance Programs, two areas
Audit and Investigation have staff located in ten         where financial and programmatic exposure is the
regions and numerous field offices.                       greatest. That HUD’s reported management chal-
                                                          lenges are included as part of the President’s Man-
                                                          agement Agenda is indicative of HUD’s important role
                                                          in the federal sector. HUD’s current Administration
Major Issues Facing HUD                                   places a high priority on correcting those weaknesses
    The Department’s primary mission is to expand         that put HUD on GAO’s high-risk list.
housing opportunities for American families seeking           Each year, in accordance with the Reports
to better their quality of life. HUD seeks to accom-      Consolidation Act of 2000, the HUD OIG is required to
plish this through a wide variety of housing and          submit a statement to the Secretary with a summary
community development grant, subsidy, and loan            assessment of the most serious challenges facing the

Chapter 1 - HUD’s Management and Performance Challenges                                                         1
Department. We submitted our last assessment on           by the previous Administration. The current Adminis-
November 12, 2003. These reported challenges are          tration made changes to include:
the continued focus of our audit and investigative
                                                          ¾Placing the Departmental Enforcement Center
effort. HUD is working to address these challenges,
                                                           (DEC) under the direction of the General Counsel to
and in some instances has made progress in correct-
                                                           consolidate legal resources in support of a strong
ing them. HUD’s Executive Management Meeting
                                                           program enforcement effort. HUD’s program
focuses on the actions taken by each Assistant Secre-
                                                           enforcement efforts were previously under the
tary in meeting the President’s Management Agenda
                                                           Office of General Counsel before the creation of a
(PMA). The PMA includes government-wide as well as
                                                           separate DEC.
HUD specific initiatives. The HUD specific initiatives
are intended to formulate viable strategies and plans     ¾Placing the Real Estate Assessment Center (REAC)
to address the major problems facing the Depart-           under the direction of the Assistant Secretary for
ment.                                                      Public and Indian Housing (PIH), in order to im-
                                                           prove REAC’s working relationships with program
     The Department’s management challenges and
                                                           staff and program partners and strengthen account-
current efforts to address these challenges are as
                                                           ability for resource use and results.
follows:
                                                          ¾Placing the Office of the Chief Procurement
Department-wide Organizational Changes                     Officer (OCPO) and the Office of the Chief Infor-
    For more than a decade, the Department has             mation Officer (OCIO) under the direction of the
struggled with organizational and management               Assistant Secretary for Administration/Chief
changes in an effort to streamline its operations.         Information Officer, to streamline HUD’s organiza-
These changes were necessary as HUD tried to               tional structure and improve service delivery to
manage more programs and larger budgets with               HUD’s program and administrative components.
fewer staff. The former HUD Administration tried to       ¾Establishing the Office of Field Policy and Manage-
realign the Department along functional lines, sepa-       ment as an independent office reporting to the
rating outreach from program administration. Also,         Deputy Secretary, with responsibility for oversight
they attempted to place greater reliance on automated      of HUD’s field management and assistance to
tools, processing centers, and contracted services. As     program Assistant Secretaries in meeting program
HUD implemented these realignments, many employ-
                                                           goals at the field office level.
ees were assigned new duties and responsibilities and
many new employees were hired. HUD also experi-           ¾Redeploying staff in the outreach function to under-
enced a serious “brain drain” as many senior staff         staffed program delivery and oversight functions,
took buy-outs and left the Department. While these         where there was a critical need.
organizational changes were well intended, the            ¾Creating new regional management positions to
disruptions caused by these sweeping changes further       give HUD’s field operations greater operational
compounded problems in effectively managing HUD            control over the administrative budget resources
operations. Among the problems were unclear lines          they need to pursue their operating and program
of authority, many staff in the wrong location, staff      goals, and to strengthen the local focus on workload
not trained in new duties, and difficulty in providing     management to meet national performance goals.
supervision to remote staff.
                                                               These operational changes delegate additional
    Our past Semiannual Reports noted that many           authority to the field, and represent positive steps that
organizational changes were slow to be put in place,      bring HUD’s operational activities and authority closer
and some of those in place were ineffective. For          to the customers it serves. However, we continue to
example, they lacked delegations of authority, written    see the changes as a management challenge until
policies and procedures, and training support. HUD’s      Departmental realignments become fully functional.
current management team likewise found problems           Our audits will evaluate the effectiveness of many of
with the organizational and operational changes made      these changes. For example, we have recently com-


Chapter 1 - HUD’s Management and Performance Challenges                                                           2
pleted a review of the operations of the Enforcement      Adequate and Sufficiently Trained Staff
Center and will issue a report in the next few weeks.
                                                              For many years, the Department has lacked a
Financial Management Systems                              system for measuring work and reporting time,
                                                          thereby making it a difficult task to determine staff
     The lack of a HUD integrated financial manage-
                                                          resource needs. HUD worked with the National
ment system that complies with federal financial
                                                          Academy of Public Administration (NAPA) to develop
system requirements has been reported in our finan-
                                                          a methodology or approach for resource management
cial audit as a material weakness since Fiscal Year
                                                          that would allow the Department to identify and
(FY) 1991. To correct financial managaement defi-
                                                          justify its resource requirements for effective and
ciencies in a Department-wide manner, HUD initiated
                                                          efficient program administration and management.
a project to design and implement an integrated
financial management system consisting of both                HUD’s current Administration has embraced
financial and mixed systems. Over the years, these        standards of management accountability. However,
plans have experienced significant changes and delays.    HUD needs to more effectively manage its limited
                                                          staff resources. Many of the weaknesses facing HUD,
    Because of the large volume of financial transac-
                                                          particularly those concerning HUD’s oversight of
tions, HUD relies heavily on automated information
                                                          program recipients, are exacerbated by HUD’s
systems. For several years, our financial audits
                                                          resource management shortcomings. Accordingly, we
reported on security weaknesses in both HUD’s
                                                          consider it critical for the Department to address
general processing and specific applications such that
                                                          these shortcomings through the successful completion
HUD could not be reasonably assured that assets were
                                                          of ongoing plans. To operate properly and hold
adequately safeguarded against waste, loss, and
                                                          individuals responsible for performance, HUD needs
unauthorized use or misappropriation. Progress in
                                                          to know that it has the right number of staff with the
improving these controls has been slow. The weak-
                                                          proper skills.
nesses noted in our FY 2003 Consolidated Financial
Audit relate to the need to improve:                           To address staffing imbalances and other human
                                                          capital challenges, the Department has implemented
¾Controls over the computing environment; and
                                                          the Resource Estimation and Allocation Process
¾Administration of personnel security operations.         (REAP). The last phase of REAP (a baseline for
                                                          staffing requirements) was completed in January
     We also noted the need for HUD to improve the
                                                          2002. Also completed in 2002 was the development of
process for reviewing outstanding obligations to
                                                          the Department’s resource management strategy in
ensure that unneeded amounts are timely deobligated.
                                                          the implementation of the Total Estimation and
A lack of integration between accounting systems and
                                                          Allocation Mechanism (TEAM). TEAM is the valida-
the need for accurate databases has hampered HUD’s
                                                          tion component of REAP and collects actual workload
ability to evaluate unexpended obligations.
                                                          accomplishments and staff usage data for comparison
    One of the most significant financial management      against the REAP baseline. The REAP/TEAM process
deficiencies exists in FHA, where FHA’s ADP system        and data are being used to support the HUD budget
environment needs enhancement to effectively              justification, and discussions with OMB and Congress.
support business and budget processes. A recent key
                                                               Last year, the Department began implementing
improvement was the implementation of the FHA
                                                          its Strategic Human Capital Management Plan. The
Subsidiary Ledger financial system, which automated
                                                          plan requires a comprehensive workforce analysis of
several manual processes. Nevertheless, FHA contin-
                                                          core business program offices. These analyses will
ues its day-to-day business processes using many
                                                          identify mission critical positions and assess present
legacy-based systems.
                                                          and future workload. They will be conducted in HUD’s
                                                          four core business areas: Housing; Public and Indian
                                                          Housing; Fair Housing and Equal Opportunity; and
                                                          Community Planning and Development. The plan, to
                                                          be implemented over the next three to five years,

Chapter 1 - HUD’s Management and Performance Challenges                                                        3
requires a serious focus on human capital manage-         penalties, have become the norm in recent Mortgagee
ment.                                                     Review Board actions. Additionally, HUD has tackled
                                                          and continues to strengthen important buyer protec-
     In recent years, HUD’s programmatic responsi-
                                                          tion concerns, especially property valuation (ap-
bilities have increased, given the reduction in HUD
                                                          praisal) and disclosure of loan closing costs.
staffing and the growth in programs. Exacerbating
this problem is the more than 50 percent of HUD’s             The FHA financial audit reported a need to place
employees with vast amounts of historical knowledge       more emphasis on monitoring lender underwriting
that are retirement eligible. Most of these retirement    and continuing to improve early warning and loss
eligible employees are in Grades 13 to 15, and have       prevention for single family. In response, HUD is
spent the majority of their federal career acquiring      developing proposed rule changes that will require
complex program and technical knowledge. Managing         lenders to report 30- and 60-day delinquencies to the
human capital effectively will require new ways of        Default Monitoring System. Timely identifying
capturing knowledge, transferring the knowledge and       lenders with unacceptable early default rates is a key
experience from those who will retire, and attracting     element of FHA’s efforts to target monitoring and
and developing a new cadre of employees. This will        enforcement resources toward lenders that represent
ensure that HUD continues to maintain a professional,     the greatest financial risk to FHA. Potentially problem
customer focused, high quality, and diverse               lenders must be identified before FHA can institute
workforce.                                                loss mitigation techniques and lender enforcement
                                                          measures that can reduce eventual claims.
FHA Single Family Insurance Program                           During this semiannual reporting period, we
     Procedures and practices in HUD’s Single Family      issued three internal audit reports on HUD’s Single
Mortgage Insurance Program have undergone consid-         Family Programs. An audit of the insurance claims
erable change, particularly in the last five years. The   process disclosed that HUD was neither timely billing
changes have been both programmatic and organiza-         nor adequately collecting over $44 million in FHA
tional. Among recent program changes, HUD intro-          claims losses that lenders had agreed to reimburse.
duced an automated underwriting scorecard that            Another audit of FHA’s quality controls over insurance
lenders can use to evaluate the overall credit worthi-    endorsement processing and underwriting found
ness of FHA mortgage loan applicants. HUD also            deficiencies in HUD’s oversight of its mortgage
issued new rules to reduce fraud committed through a      insurance contractors at the Philadelphia
predatory practice known a “property flipping.”           Homeownership Center. A regional review of HUD’s
Organizationally, HUD continues to rely on contrac-       Reverse Mortgage Program in New England found
tors under the oversight of HUD’s Homeownership           only minor technical deficiencies in the administra-
Centers to perform monitoring of virtually all aspects    tion of this program for seniors. We recommended
of single family mortgage insurance production. As a      ways for HUD to ensure timely collection of obliga-
consequence, staff responsibilities have changed,         tions from lenders and also perform more effective
requiring greater emphasis on contract administration     monitoring of the endorsement and quality assurance
and oversight.                                            contractors. We are currently expanding our review of
                                                          HUD/FHA claims processing and expect to issue a
    The Single Family Mortgage Insurance Program          report of our findings during the next semiannual
remains a high-risk area, as identified by GAO.           reporting period. More details on the completed
However, HUD has committed to addressing the              internal reviews can be found in Chapter 2 of this
higher risks through the President’s Management           Report.
Agenda. More staff have been dedicated to lender
monitoring. New technologies now allow for the quick           We currently have 27 lender audits in various
identification of poor lenders and the withdrawal of      stages of completion based on a targeting strategy that
their authority to originate FHA loans. This includes     identified lenders with poor performing FHA portfo-
the “Credit Watch” and “Appraiser Watch” pro-             lios. Results from two completed audits found signifi-
cesses that play an important role in risk reduction.     cant lender loan origination irregularities, including
Moreover, stronger sanctions, including civil money       document falsifications and misrepresentations, and

Chapter 1 - HUD’s Management and Performance Challenges                                                         4
prohibited contract loan originations by mortgage loan    (3) establishing better controls, incentives, and
officers that were not FHA approved. We should            sanctions. Paralleling this effort, our investigative and
complete the majority of these reviews during the next    audit focus is concentrating on fraudulent practices in
reporting period.                                         the Section 8 Program. Public and Indian Housing
                                                          staffs are conducting on-site reviews to ascertain the
Public and Assisted Housing Program                       validity of family assertions about the sources and
Administration                                            amount of income.
                                                              HUD continues to implement its performance-
    HUD spent about $24 billion in FY 2003 to provide
                                                          oriented, risk-based strategy for carrying out its PHA
rent and operating subsidies that benefited over 4.8
                                                          oversight responsibilities. However, as noted in
million households. HUD provides housing assistance
                                                          previous financial audits, further improvements need
funds through competitive awards, formulas, and fair
                                                          to be made in the field office monitoring of PHAs in
share allocations to public housing agencies (PHAs)
                                                          other key areas. The Public Housing Assessment
and multifamily project owners (both nonprofits and
                                                          System provides a condition status of the housing
for-profits). These intermediaries, in turn, provide
                                                          stock. It has been successful in identifying troubled
housing assistance to benefit primarily low-income
                                                          PHAs and helping PIH management ensure corrective
households. PHAs use the funding and subsidies to
                                                          action. Likewise, a companion system, the Section 8
provide decent and affordable housing to qualified
                                                          Management Assessment Program, has been able to
low-income tenants.
                                                          identify problem providers of Section 8 assistance.
    Multifamily project owners provide housing
                                                               In prior years, we have also reported on long-
through a variety of Assisted Housing Programs,
                                                          standing weaknesses with the processing of subsidy
including parts of the Section 8 Program and the
                                                          payment requests under the project-based programs
Section 202/811 Programs. This funding is called
                                                          administered by the Office of Housing. Historically,
“project-based” because the subsidy is tied to a
                                                          this process has been hampered by the need for
particular property. Therefore, tenants who move
                                                          improved information systems to eliminate manually
from “project-based” properties may lose their rental
                                                          intensive review procedures that HUD has been unable
assistance.
                                                          to adequately perform.
     Material weaknesses in the monitoring of PHAs
                                                               Office of Housing staff or their Contract Admin-
and assisted multifamily projects were first reported
                                                          istrators (CAs) are to perform management reviews to
in our financial audit in 1991 and continue to chal-
                                                          monitor tenant eligibility and ensure that accurate
lenge HUD. Material monitoring weaknesses seri-
                                                          rents are charged at multifamily projects. The
ously impact HUD’s ability to ensure that its interme-
                                                          primary tool is to conduct on-site reviews that assess
diaries are correctly calculating housing subsidies. A
                                                          the owner’s compliance with HUD’s occupancy
2000 HUD study found that 60 percent of all rent and
                                                          requirements. HUD’s continued implementation of the
subsidy calculations performed by administrative
                                                          CA initiative resulted in a substantial increase in the
intermediaries contained some type of error. The
                                                          total number of management reviews. However, a
Secretary has rightly made the reduction of subsidy
                                                          comprehensive plan needs to be developed that would
overpayments a top priority of his Administration. In
                                                          result in an increase in on-site reviews that would
2002, HUD set a goal for a 50 percent reduction in the
                                                          assess and ensure that all owners of assisted multi-
frequency of calculation processing errors and the
                                                          family projects comply with HUD’s occupancy re-
amount of subsidy overpayments by 2005. As of 2003,
                                                          quirements.
HUD had attained a 32 percent reduction in the
original $2.3 billion estimate of erroneous payments.         HUD’s plans include a variety of continuing
To achieve this goal over the next two years, HUD         efforts. Principle among these are: continued imple-
initiated the Rental Housing Integrity Improvement        mentation of the CA initiative; increased enforcement
Project. The project is designed to reduce errors and     efforts; implementation of more targeted property
improper payments by: (1) simplifying the payment         inspections; increased frequency of management/
process; (2) enhancing administrative capacity; and       occupancy reviews for assisted projects; and develop-

Chapter 1 - HUD’s Management and Performance Challenges                                                            5
ment of an integrated risk reporting system. We
support these efforts.




Chapter 1 - HUD’s Management and Performance Challenges   6
           Chapter 2 — HUD’s Single Family Housing Programs

     Single Family Housing Programs are meant to
provide mortgage insurance that enables individuals                             Single Family Housing Dollars
to finance the purchase, rehabilitation, and/or con-
struction of a home.                                       $70,000,000




Audits
                                                           $60,000,000


                                                           $50,000,000
    During this reporting period, the OIG issued eight
reports: three internal audits, one internal memoran-      $40,000,000


dum, and four external audits in the Single Family         $30,000,000
Housing Program area. These reports disclosed over
$1.6 million in questioned costs and about $71.9           $20,000,000

million in recommendations that funds be put to better
                                                           $10,000,000
use. We reviewed the indemnification of claims on
HUD single family insured loans, the Philadelphia                  $0

Homeownership Center’s system of quality controls                          Internal Audits               External Audits

over its FHA single family mortgage insurance                            QuestionedCosts         Funds Put to Better Use

process, the Home Equity Conversion Mortgage
Program, the Congress of National Black Churches,
Inc., the Officer/Teacher Next Door Programs, and        Indemnification of Claims on Single
three non-supervised loan correspondents.                Family Insured Loans
                                                              The OIG audited the indemnification process for
                                                         claims on single family insured mortgage loans. Our
                                                         primary objective was to determine the adequacy of
                 Single Family Housing                   HUD’s internal controls over billing and collections of
                    Reports Issued                       insurance losses from FHA mortgage lenders that had
                                                         agreed to indemnify the Department. Loan indemnifi-
                                                         cation information entered into HUD’s automated
                                          4              systems was generally complete and reliable for
      1
                                                         billing and collection purposes. However, HUD did not
                                                         bill lenders for $44.4 million in insurance losses owed
                                                         the Department through indemnification agreements
                                                         on 1,231 loans. When lenders were billed, HUD was
                                                         also often late. HUD took an average of six months to
             3
                     Internal Audits
                                                         send the first bill for 590 loans. Additionally, HUD’s
                                                         collection process did not aggressively support the
                     Internal Memoranda                  reduction of FHA indemnified loan debt, as required
                     External Reports                    by the U.S. Treasury. Accrual of interest and penal-
                                                         ties on delinquent debt was improperly suspended;
                                                         debts delinquent more than 90 days were not properly
                                                         reported; and debts totaling $15.8 million that were
                                                         delinquent 180 days or more were not transferred to
                                                         the U.S. Treasury for collection.



Chapter 2 - HUD’s Single Family Housing Programs                                                                           7
    The Department took steps during our review to         the recovery of over $400,000 for reviews not per-
improve the tracking of indemnified loans, updated the     formed or not performed at the acceptable perfor-
language of the indemnification agreements, and            mance level. (Report No. 2004-PH-0002)
disclosed indemnification information to the single
family housing industry. However, more work is             Home Equity Conversion Mortgage
needed to correct the processes for billing and debt
collection. Additional controls over data entry into       Program
HUD systems may further improve the integrity of                We audited the Home Equity Conversion Mort-
indemnification agreement information.                     gage (HECM) Program, which enables elderly
     We recommended that HUD: (1) initiate the billing     homeowner families to stay in their home while using
process to collect $44.4 million from the 1,231            some of its accumulated equity. Our audit was limited
indemnification cases not billed; (2) enhance systems      to loans endorsed for insurance in Connecticut,
to automate the billing process and accurately calcu-      Maine, Massachusetts, New Hampshire, Rhode
late the current profit and loss on sale amount; (3)       Island, and Vermont. The maximum dollar amount
implement policies to ensure that the Department is        that HUD will pay on a claim for insurance benefits is
in compliance with debt collection requirements,           based on a property’s value. The New England Region
including transferring debt delinquent 180 days or         is considered a higher priced housing market area
more to the Treasury; (4) actively pursue collection of    than most of the rest of the country, which represents
delinquent debts; and (5) implement policies related       a potentially higher risk for HUD. Although our scope
to the processing of indemnification agreements used       was limited to the New England Region, we generally
by the Homeownership and Enforcement Centers to            found the HECM to be a sound and beneficial program
ensure and maximize the quality, utility, objectivity,     for elderly homeowners and their families. We did,
and integrity of indemnification information. (Report      however, make four minor observations that, if
No. 2004-DE-0001)                                          properly addressed, should further strengthen the
                                                           program.
Philadelphia Homeownership Center                          ¾The calculation of the mortgage principal limit was
                                                            not accurate in three of the 74 sample case files we
    We audited the Philadelphia, PA Homeownership           reviewed. These three loans were overstated by
Center’s (HOC) system of quality controls over its FHA      nearly $10,000. Based on our estimate of the actual
single family loan insurance endorsement process.           error rate and our universe of 1,680 loans, we
We identified two significant weaknesses in the HOC’s       projected that four percent of the HECM loans were
monitoring of the endorsement and post-endorsement          overstated by an average of $3,300 per loan, or a
processes. Specifically, we found the HOC was not           total of over $221,500 for all of the loans.
aware that its contractors performed fewer quality
control reviews than required by their contracts.          ¾Lenders did not complete the appropriate form to
Further, the HOC staff did not accurately evaluate the      document that repairs were finished in accordance
post-endorsement contractor’s performance in                with appropriate agreements. In addition, lenders
determining the level of payments for services that the     did not ensure that borrowers completed repairs in
contractor was entitled to receive. As a result of these    a timely manner, or follow proper procedures for
monitoring deficiencies, the HOC overpaid the en-           granting extensions for completing repairs.
dorsement contractor by more than $75,000; overpaid        ¾Reverse mortgage housing counseling was provided
the post-endorsement contractor nearly $327,000; and        by an agency that also held and serviced the mort-
increased the risk that HUD will insure unacceptable        gage on the client’s property, an apparent conflict of
loans. Management action to correct these deficien-         interest.
cies will put nearly $145,000 to better use over a 12-
month period.                                              ¾The data shared between various HUD information
                                                            systems were not always compatible among the
    We recommended that the HOC improve controls            separate systems, and did not always coincide with
related to monitoring reviews of the endorsement and        data shared in HECM files.
post-endorsement contractors. We also recommended
Chapter 2 - HUD’s Single Family Housing Programs                                                                 8
    We recommended that the Philadelphia                        We attributed these deficiencies to CNBC’s board
Homeownership Center establish a quality control           of directors not providing adequate oversight of the
plan for the review of HECM loans that will avoid any      executive director and other key management offi-
overstatements; strengthen procedures to ensure that       cials’ administration of the program, or ensuring that
lenders adhere to the provisions of the repair agree-      adequate management controls were in place to
ments; determine if a conflict of interest exists with     enable them to detect and prevent these problems.
the mortgagee that provided HECM counseling ser-           Due to the severity of the deficiencies and abuses,
vices; and determine if lenders followed program           CNBC’s affiliates were forced to curtail or suspend
requirements, and take appropriate action if required.     their housing counseling services. Further, CNBC
(Report No. 2004-BO-0001)                                  itself was forced to suspend all program operations.
                                                               The audit recommended that HUD’s Assistant
The Congress of National Black                             Secretary for Housing take appropriate administrative
Churches, Inc.                                             action against CNBC as a designated National Housing
                                                           Counseling Intermediary, and take debarment action
     In response to a Hotline complaint, we audited        against the former executive director and chief
the Housing Counseling Program administered by the         financial officer. In addition, we recommended that
Congress of National Black Churches (CNBC) in              CNBC reimburse its affiliates and HUD for ineligible
Washington, DC. The complaint alleged that CNBC            expenditures and provide adequate support for the
drew down funds from the housing counseling grant          unsupported expenditures. (Report No. 2004-PH-1003)
and then failed to reimburse its affiliates for services
rendered. The complaint also noted that CNBC
affiliates were performing services without sub-grant
                                                           Officer/Teacher Next Door Programs
agreements, which is a violation of the grant agree-           In following up on abuses identified in a June 2001
ment between HUD and CNBC.                                 nationwide audit of the Officer Next Door and
     We found CNBC did not administer its Housing          Teacher Next Door Programs (OND/TND), we
Counseling Program according to the grant agree-           identified a management control weakness that
ments with HUD and applicable HUD rules and                warranted corrective action. Recent OIG work with
regulations. Specifically, CNBC used over $521,000 in      the U.S. Attorney’s Office, in preparation for possible
grant funds to pay for ineligible payroll expenses,        civil or criminal cases involving violations of OND/
                                                           TND Program requirements, disclosed that certifica-
operating costs, and payments to several affiliates,
and could not support another $424,000 of grant funds      tion statements required of homebuyers were not
it received from HUD. In addition, CNBC could not          adequate to support Assistant U.S. Attorneys’ efforts
demonstrate that it provided the required leverage         to prosecute civil and criminal cases. The language
funding it agreed to under its grant agreement with        within the certifications was prospective of future
HUD.
                                                           actions and did not adequately address completed
                                                           portions of the three-year occupancy term. Conse-
      Description          Ineligible Unsupported          quently, legal actions were unnecessarily difficult and
                                                           prosecutors were reluctant to proceed with civil and
     Unauthorized           $394,933                       criminal actions when occupancy violations occurred.
     Payroll Costs
                                                               During the course of our work, we advised HUD’s
    2000 Operating          $72,629
                                                           National Servicing Center about the Assistant U.S.
        Costs
                                                           Attorneys’ suggestions to improve the language of
     Contracts with         $53,500         $417,547       certifications and require a final certification as a
       Affiliates                                          condition of releasing a second mortgage. The
     No Support                              $6,037        National Servicing Center made improvements in the
    Documentation                                          standard recertification statements at that time, and
                                                           forwarded the second suggestion to the Director of
        TOTAL               $521,062        $423,584       HUD’s Asset Management and Property Disposition


Chapter 2 - HUD’s Single Family Housing Programs                                                                9
Division for appropriate action. (Report No. 2004-AT-     OR, and found that SHYA disregarded HUD/FHA
0801)                                                     requirements and entered into agreements with
                                                          outside contractors to originate FHA insured loans.
Non-Supervised Loan Correspondents                        The contractors acted as independent branches or
                                                          leased employees. Further, SHYA did not adequately
    Based on its high default and claim rates, we         supervise the contractors’ employees as required.
audited Treehouse Mortgage, LLC, a HUD approved           Loan applications completed by the non-SHYA employ-
non-supervised loan correspondent in Denver, CO.          ees contained misleading certifications that full time
The review found that contrary to FHA requirements,       SHYA employees processed the applications. HUD/
Treehouse used contract loan officers that were not       FHA considers the practice of mortgagees using
approved by HUD to originate FHA insured loans.           unauthorized branches and non-employees for the
Treehouse contracted with several independent loan        origination of insured loans a significant risk to the
officers, and paid these officers a commission on         FHA insurance fund. We also found that SHYA disre-
each FHA loan. Because these loan officers worked as      garded its own approved Quality Control Plan and
independent contractors, Treehouse management was         HUD’s quality control requirements, and allowed the
not able to oversee their performance with the same       person responsible for conducting SHYA’s quality
level of control as its own employees. HUD considers      control reviews to also process and originate FHA
proper oversight and control of the loan origination      insured loans.
process as key to reducing FHA mortgage insurance
risks.                                                        We recommended that SHYA reimburse HUD/FHA
                                                          over $266,000 for claims paid on three inappropri-
    Treehouse did not have a formal written quality       ately originated loans and nearly $7 million for any
control plan and was deficient in its overall quality     future losses on 52 other loans. Also, HUD/FHA
control activities. In addition, Treehouse did not        should consider seeking civil monetary penalties
perform the required quality control reviews on all       against SHYA, its unapproved branch offices, and its
defaulted loans or meet FHA’s minimum sampling            “leased employees” for submitting false certifications
requirements. In addition, Treehouse failed to submit     to HUD/FHA. We further recommended that HUD/FHA
written reports to senior management that identified      determine whether SHYA’s deficiencies in its loan
deficiencies noted in the files reviewed. Treehouse’s     origination activities warrant its removal from
non-compliance with HUD requirements prevented            participation in HUD’s Single Family Mortgage
management from taking corrective actions on              Insurance Programs. (Report No. 2004-SE-1002)
deficiencies noted or ensuring the completeness,
accuracy, and validity of loan origination files.             Based on identified risk factors and indications
                                                          that it originated loans at an office that had its origina-
    While our audit was in process, we recommended
                                                          tion approval terminated under HUD’s Credit Watch
that Treehouse Mortgage convert its contract loan
                                                          authority, we audited Keystone Mortgage and Invest-
officers to full time employees. Treehouse imple-
                                                          ment Company, a non-supervised loan correspondent
mented this change and two of the remaining loan
                                                          mortgagee in Phoenix, AZ. Forty-eight of the 65
officers are now full time employees while the third is
                                                          loans we reviewed (74 percent) contained false or
no longer allowed to originate FHA insured loans. We
                                                          altered borrower credit and/or employment docu-
also recommended that Treehouse fully implement its
                                                          ments, including fabricated or altered W-2 forms, pay
quality control program and complete monthly or
                                                          stubs, and verification of employment forms, fabri-
quarterly quality control reviews. Treehouse has
                                                          cated or altered credit reference letters showing
already written a comprehensive quality control plan
                                                          invalid accounts or inaccurate credit history informa-
that, if followed as written, should provide adequate
                                                          tion, and false credit reports listing invalid borrower
assurance to management that its operations comply
                                                          credit history information. We identified a pattern of
with HUD directives. (Report No. 2004-DE-1002)
                                                          apparent mortgagee complicity in the loan origination
                                                          process that allowed false documents to be used, and
    Because of their high default and claim rates, we
                                                          a serious lack of due professional care by mortgagee
audited Scheller Hess-Yoder and Associates (SHYA),
                                                          personnel. Based on information obtained during the
a non-supervised loan correspondent in Portland,
Chapter 2 - HUD’s Single Family Housing Programs                                                                  10
audit, it appears that one Keystone employee was          Fairbanks’ willingness to settle alleged charges that it
primarily responsible for the false and fabricated        engaged in illegal practices while servicing sub-
documents.                                                prime loans. The settlement calls for Fairbanks,
                                                          located in Salt Lake City, UT, and Basmajian to pay
    Keystone’s failure to implement a quality control
                                                          $40 million and $400,000, respectively, to compensate
plan allowed the pervasive use of falsified loan
                                                          individual borrowers who paid improper amounts and
origination documents to continue over a period of at
                                                          suffered from improper servicing practices. Approxi-
least three years. As a result, loans were approved
                                                          mately 500,000 consumers are eligible to participate
based on false information, causing FHA to assume
                                                          in the settlement. The average payout per consumer
over $5 million in unnecessary insurance risk.
                                                          will be about $88. The U.S. District Court for the
    Keystone improperly originated FHA loans at its       District of Massachusetts must approve the proposed
home office in Phoenix after HUD terminated that          settlement.
office’s origination approval under the Credit Watch
                                                               This civil settlement also enjoins the defendants
Program. We attribute this to Keystone’s intentional
                                                          from future law violations and imposes new restric-
disregard for the requirements of HUD’s termination.
                                                          tions on their business practices. The settlement will
As a result, FHA was exposed to unnecessary risk on
                                                          require the defendants to accept partial payments
loans originated by a terminated mortgagee office.
                                                          from most consumers and to apply most consumers’
    The audit recommended that HUD take appropri-         mortgage payments first to interest and principal;
ate action against Keystone for not adhering to HUD’s     prohibit the defendants from force placing insurance
program requirements, and require Keystone to             when they know the consumer has insurance or fail to
indemnify HUD/FHA for $4.3 million against past and       take reasonable actions to determine whether the
future losses on the 48 loans containing false docu-      consumer has insurance; enjoin the defendants from
ments. (Report No. 2004-LA-1001)                          charging unauthorized fees, and place limits on
                                                          specific fees; require the defendants to acknowledge,
                                                          investigate, and resolve consumer disputes in a timely
Investigations                                            manner; require the defendants to provide timely
                                                          billing information, including an itemization of fees
    During this reporting period, the OIG opened 335      charged; prohibit the defendants from taking any
investigation cases and closed 159 cases in the Single    action toward foreclosure unless they have reviewed
Family Housing Program area. Judicial action taken        consumer’s loan records to verify that the consumers
on these cases during the period included                 failed to make three full monthly payments, con-
$256,422,064 in investigative recoveries,                 firmed that the consumers have not been the subject
$133,023,451 in funds put to better use, 244 indict-      of any illegal practices, and investigated and resolved
ments/informations, 106 convictions/pleas/pre-trial       any consumer disputes; prohibit the defendants from
diversions, 154 administrative actions, 16 civil          piling on late fees in certain situations; prohibit the
actions, and 228 arrests.                                 defendants from enforcing certain waiver provisions
                                                          in forbearance agreements that consumers had to sign
    Some of the investigations discussed in this Report   to prevent foreclosure; and prohibit the defendants
were conducted by the OIG, while others were              from violating the Fair Debt Collection Practices
conducted jointly with federal, state, and local law      Act, the Fair Credit Reporting Act, and the Real
enforcement agencies. The results of our more             Estate Settlement Procedures Act. To provide further
significant investigations are described below.           remedial relief to consumers harmed by its practices,
                                                          Fairbanks will correct certain open accounts that may
Unfair Mortgage Servicing Practices                       have been classified wrongly as delinquent, reclassify
                                                          these accounts as current, and report to any con-
    The Federal Trade Commission and HUD an-              sumer reporting agency previously provided with
nounced a joint civil settlement with Fairbanks           information about the consumer’s account that the
Capital and Thomas D. Basmajian, the former               account is current and that the prior record of delin-
founder and CEO. The settlement was based on

Chapter 2 - HUD’s Single Family Housing Programs                                                               11
quency should be removed from the consumer’s               the three largest law firms in the Chicago metropoli-
report.                                                    tan area handling HUD and DVA foreclosures.

Mortgagee Review Board Settlement                          Property Flipping/Loan Origination
     HUD’s Mortgagee Review Board reached a                     In Los Angeles, CA, in Federal Court for the
settlement with Alliance Mortgage Banking Associa-         Central District of California, defendants Shirley
tion (AMBA), Rochester, NY, whereby AMBA agreed to         DeSilva, an associate of Allstate Mortgage Company,
an administrative payment in the amount of $500,000.       and Alberto Jose Rivas and Louis Alberto Vallardes,
The investigation disclosed that AMBA did not prudently    loan officers at Allstate, were sentenced on mail
underwrite loans and failed to sufficiently document       fraud charges. DeSilva was sentenced to 24 months
the source of down payment funds and the adequacy of       incarceration and was ordered to pay $3,658,866 in
funds, accepted overestimated appraisals on proper-        restitution. Rivas was sentenced to 18 months incar-
ties, and did not properly check or verify the rehabili-   ceration and was ordered to pay $37,742,023 in
tation work done on the properties. AMBA underwrote        restitution. Vallardes was sentenced to 37 months
approximately 80 FHA insured mortgages for defen-          incarceration and was ordered to pay $37,742,023 in
dant Helen Zapesochny. Zapesochny obtained Section         restitution. Defendant Douglas Alfonso Estrada,
203(k) rehabilitation loans from AMBA to purchase and      owner of Allstate Mortgage Company, was also
finance the rehabilitation of the properties.              sentenced to 51 months incarceration and was or-
Zapesochny and others conspired to steal the rehabili-     dered to pay $37,742,023 in restitution. Estrada
tation funds by either not completing the specified        previously pled guilty to five counts of mail fraud, ten
work on the houses or doing the work with inexpen-         counts of money laundering, and one count of tax
sive materials in an unacceptable and unprofessional       evasion.
manner. Zapesochny was previously convicted and
                                                                The defendants engaged in a single family loan
sentenced to six months home confinement and five
                                                           origination fraud scheme by recruiting buyers to
years probation, and was ordered to pay $871,000 in
                                                           purchase over-valued properties. The sales were
restitution.
                                                           inflated by approximately $150,000 per property.
                                                           DeSilva, Estrada, Noval, and others then prepared
Qui Tam Lawsuit                                            fraudulent loan applications in the names of fictitious
    In Chicago, IL, in Federal Court for the North-        purchasers and submitted the documents to HUD. The
ern District of Illinois, the law firm of Fisher &         mortgage insurance applications in the names of the
Fisher and the U.S. Attorney’s Office, Civil Division,     fictitious purchasers contained false employment
reached a settlement regarding a qui tam lawsuit that      documents, verifications that the down payments were
was filed in 2000. As part of the settlement, Fisher &     made from either the buyers’ personal funds or were
Fisher has paid $676,852, to be divided among the          gifts when in fact Noval and associates made the
original relator, the Department of Veteran Affairs        down payments, and inflated real estate appraisals.
(DVA), and HUD. The lion’s share of this amount will       Their actions caused approximately $100,000,000 in
go to HUD based on the volume of FHA insured loans         fraudulent loans to be funded. Of this amount,
involved. Specifically, the lawsuit alleged that Fisher    approximately $35,000,000 were funded with FHA
& Fisher submitted fraudulent bills to various mort-       insured mortgages.
gage companies for publication of service on behalf of
FHA insured and DVA guaranteed properties during
                                                               In Baltimore, MD, in Federal Court for the
the foreclosure process. In fact, no publications were     District of Maryland, defendant Pamela Cummings, a
completed. However, these costs were passed on to          former employee at Schmidbauer Realty, was sen-
HUD and DVA by the lenders as normal costs in the
                                                           tenced to six months incarceration and ordered to pay
completion of the foreclosure process. HUD and DVA         $2.4 million in restitution to HUD for her role in a
regularly pay these costs upon payment of claim and        property flipping scam. From 1994 through 2003,
conveyance of the property. Fisher & Fisher is one of      Cummings was employed as a secretary and assistant
                                                           to William Otto Schmidbauer. At Schmidbauer’s

Chapter 2 - HUD’s Single Family Housing Programs                                                                 12
request, she prepared and submitted false and fraudu-     Schmidbauer property flips. To date, 18 defendants
lent documents to various lenders in connection with      have pled guilty and been sentenced in this case.
applications for FHA insured loans. Among these
documents were verifications of employment and                 In East St. Louis, IL, in U.S. District Court for
rent, drivers’ licenses, Social Security cards, pay       the Southern District of Illinois, Marvis “Swamp
stubs, W-2 forms, and letters evidencing credit           Dog” Bownes was ordered to pay $2.4 million in
accounts of the purchasers with various companies.        restitution to victims of his property flipping scheme.
Based on these fraudulent documents, numerous loans       Bownes previously pled guilty to one count of mail
were insured by FHA that subsequently went into           fraud and one count of money laundering and was
default and foreclosure. FHA suffered a loss of           sentenced to 17-1/2 years in prison and five years
approximately $3.9 million.                               supervised release, and was fined $200,000. Bownes
                                                          was sentenced to the higher end of the sentencing
     In the same case, defendants Edward and Andrea
                                                          guidelines in part due to his predatory real estate
Rybczynski, owners of Liberty Title Company who
                                                          practices on poor and vulnerable individuals in an
pled guilty to defrauding HUD out of nearly $600,000
                                                          economically depressed area of East St. Louis.
in a property flipping scheme, were sentenced in
Baltimore, MD, in U.S. District Court for the                  Between 1997 and 2002, Bownes, owner of The
District of Maryland. Edward Rybczynski was               Property Management Company, Inc., purchased
sentenced to ten months incarceration and three years     dilapidated homes and sold them to unqualified buyers
probation, and was ordered to pay $594,433 in             after obtaining falsely inflated appraisals. Bownes
restitution to HUD. Andrea Rybczynski was sentenced       admitted to defrauding numerous mortgage compa-
to six months incarceration and three years probation,    nies by providing false gift letters, appraisals, W-2s,
and was ordered to help pay the restitution. The          verifications of employment and rent, and backdated
Rybczynskis were among 18 defendants charged with         bonds for deeds. The government was able to show
fraudulent property transactions linked to William        relevant fraudulent conduct in 85 properties sold by
Otto Schmidbauer, who pled guilty earlier this year       Bownes, which generated approximately $4.2 million
and is currently incarcerated.                            in revenue for him and caused approximately $2.3
                                                          million in losses. Bownes has been ordered to forfeit
     Defendant Dale Schulz, a real estate appraiser,      to the government $939,000 in cashiers’ checks
was sentenced in Baltimore, MD, in U.S. District          previously seized, 21 investment properties, and his
Court for the District of Maryland, to three years        property management office building. During the
probation, which includes eight months of home            restitution hearing, the judge ordered restitution to the
detention with an electronic monitor, for his role in a   victims/homebuyers as well as the mortgage compa-
property flipping scheme involving FHA insured            nies. Bownes was a former East St. Louis precinct
mortgages. Schulz was also ordered to pay $500,000        committeeman and a former East St. Louis police
in restitution to HUD, which represents the losses to     and fire commissioner.
the FHA fund from mortgages involving false apprais-
als. Beginning in early 1996, real estate speculator          In Los Angeles, CA, in Federal Court for the
William Otto Schmidbauer, who was previously              Central District of California, defendant Alejandro
convicted and sentenced, engaged the services of          Morales was sentenced to 21 months in prison and
Schulz, a certified appraiser, to prepare and file        two years supervised release, and was ordered to pay
appraisals for properties that Schmidbauer purchased      $436,802 in restitution for his participation in an FHA
at very low cost and intended to resell at inflated       loan fraud scheme. As part of the scheme, Morales
prices. Schulz falsely represented that he personally     and others located residential properties and pur-
conducted the inspections and the appraisals when in      chased them with FHA insured mortgages for the
fact, on many occasions, the appraisals were pre-         purpose of reselling them. Potential buyers were
pared by another person and only signed by Schulz. In     recruited who often failed to qualify for FHA insured
addition, numerous appraisals were false and greatly      loans due to inadequate income or insufficient assets
inflated the value of the properties. The appraisals      for a down payment. Recruiters received a commis-
were then used to obtain inflated mortgages on            sion for every purchaser they located. The buyers
Chapter 2 - HUD’s Single Family Housing Programs                                                                13
were then assisted in finding co-signers for the loans.    qualifying buyers to purchase residential properties
As a result, fraudulent mortgage applications were         using FHA insured mortgages. In furtherance of the
completed and submitted in the names of the buyers         scheme, they purchased cashiers’ checks used for the
and co-signers. These applications contained false         buyers’ down payments and obtained fraudulent
employment documents, down payment verifications,          documents, including W-2 forms, pay stubs, and credit
explanation letters, and notarizations of the signatures   letters, that were submitted as part of the loan appli-
of the buyers and co-signers. Morales assisted the         cations. In total, the loan origination scheme caused
buyers in completing fraudulent loan applications.         $7,666,405 in fraudulent loans to be funded and
                                                           caused a loss of $3,352,400 to HUD.
     Also in this case, defendant David Garcia Ramos
was sentenced to five months in prison and five                 In the same case, defendant Art Tapia, a loan
months home detention, was ordered to pay $686,975         officer, was sentenced to 33 months incarceration and
in restitution, and was fined $200. Ramos was in-          36 months supervised release for false statements,
dicted in March 2002 on charges of conspiracy, mail        wire fraud, and aiding and abetting. Tapia was
fraud, and aiding and abetting.                            ordered to pay $725,526 in restitution. Tapia recruited
                                                           non-qualified buyers to purchase FHA insured proper-
     Defendant Marilyn Trujillo, a real estate inves-      ties. To facilitate the scheme, he purchased, or
tor, was sentenced in Los Angeles, CA, in Federal          caused to be purchased, cashiers’ checks that were
Court for the Central District of California, to 36        used to provide the funds for the buyers’ down pay-
months probation and ordered to pay $10,000 in fines       ments. Tapia also caused mortgage loan applications
and assessments for conspiracy, false statements, and      containing false documents to be submitted to HUD for
aiding and abetting. Trujillo purchased foreclosed         insurance. These false submissions resulted in an
homes from HUD and later sold them to unqualified          approximate loss of $1,700,000 to HUD.
individuals whom she and her co-conspirators,
defendants Morteza Eghbal, Arturo Aranda and                   Defendant William Dunn was sentenced in
Carla Piza, owner of Quality Home Investments,             Baltimore, MD, in U.S. District Court for the
recruited. Eghbal was sentenced to five months             District of Maryland, to four months incarceration
incarceration, five months home detention, and 36          and three years probation, and was ordered to pay
months supervised release, and was ordered to pay          $211,899 in restitution to HUD for his role in a prop-
special fines and assessments totaling $7,600 and          erty flipping scam. Dunn previously pled guilty to
restitution of $1,346,220, which he paid at sentencing.    conspiracy to make false statements, admitting that he
Aranda was also sentenced in State Court to 27             used fraudulent documents to obtain government
months incarceration and 36 months supervised              backed mortgages for buyers of houses sold by his
release, and was ordered to pay $419,946 in restitu-       company. On at least seven occasions, Dunn and co-
tion. Piza pled guilty to three counts of wire fraud and   defendant Michael Dronet bought houses, refurbished
one count of false statements.                             them, and sold them at inflated prices to individuals
                                                           who were not qualified for FHA mortgages. Dunn also
    The defendants purchased several cashiers’
                                                           assisted in the creation of fraudulent gift letters, tax
checks that were used to provide funds for the indi-
                                                           returns, and W-2’s to qualify individuals to purchase
viduals’ down payments and falsely certified that they
                                                           his properties.
did not pay or reimburse any part of the down pay-
ments. In total, the defendants paid, or caused to be
                                                                In Chicago, IL, in Federal Court for the North-
paid, the down payments for approximately 62 loans,
                                                           ern District of Illinois, defendants Victor Agama and
causing $5,542,000 of FHA insured loans to be funded
                                                           Andy Quiroz, real estate agents, Rachel Ladesma, a
and an approximate loss of $2,056,482 to HUD.
                                                           loan officer, and Alex Carrera, an insurance broker,
    Also in this case, defendants Joe Zamorano, a          were sentenced following their December 2003 guilty
real estate agent, and his son Mario, a real estate        pleas. Agama was sentenced to five months prison,
investor, pled guilty to one count of wire fraud and       five months home confinement, and three years
conspiracy. The Zamoranos were part of a scheme in         probation. Quiroz and Ladesma were each sentenced
which they used strawbuyers and recruited non-             to six months home confinement and three years

Chapter 2 - HUD’s Single Family Housing Programs                                                                14
probation. The defendants were also ordered to pay        Judge levied a default judgment against defendant
$118,275 in restitution, joint but severally, to HUD.     Matthew Davis, a real estate developer, in the amount
Carrera was sentenced to two years probation and 100      of $82,500. This action was the result of a Program
hours of community service, and was fined $2,000.         Fraud Civil Remedies Act referral made to HUD’s
The four defendants were charged in October 2003          Office of General Counsel. In September 2001, Davis
with participating in a conspiracy to falsify FHA         pled guilty to loan origination fraud involving the sale
insured loan applications for mortgagors who would        of 15 FHA insured properties. Davis purchased
otherwise not have qualified. In particular, they         numerous HUD owned properties, made minor
falsified W-2’s, tax documents, verifications of          repairs, and then resold them at inflated prices. He
employment, pay stubs, verifications of landlord, and     admitted providing prospective buyers, who otherwise
credit letters from an insurance company which            would not have qualified for the mortgages, with funds
indicated that the mortgagors had been paying on          for the down payments. Davis also paid off prospec-
policies which in reality did not exist. The total        tive buyers’ personal debts, which he secured with
amount of the loans was over $800,000.                    second mortgages that were never disclosed. One
                                                          property had gone into foreclosure at the time of
     Defendant Tanya Stephenson-First was sentenced       sentencing, for which Davis paid $61,033 in restitu-
in St. Louis, MO, in Federal Court for the Eastern        tion to HUD. As a condition of his probation, Davis
District of Missouri, to three years probation and was    was ordered to indemnify the government for any
ordered to pay $53,517 in restitution for conspiracy to   future losses that may incur relative to the 14 other
commit bank fraud. Stephenson-First, a former             FHA insured properties. Davis was debarred by HUD’s
mortgage broker for Prism Mortgage, Paradigm              Enforcement Center in March 2002.
Mortgage, and Accent Mortgage, admitted to engaging
in an illegal property flipping scheme between                Defendants Beth Lanza, Gary Stephens, Michael
October 1999 and January 2002. She used false             Cartron, and Zina Sagona, all loan officers, pled
documentation and Social Security numbers to qualify      guilty in Las Vegas, NV, in Federal Court for the
herself and other individuals for conventional and FHA    District of Nevada. Lanza and Cartron pled guilty to a
insured loans. She also filed bankruptcy under her        second superseding indictment charging them with
real Social Security number and three days later,         wire fraud in furtherance of loan fraud. Stephens pled
purchased real estate under a different Social Secu-      guilty to making false statements to HUD. Sagona pled
rity number. Stephenson-First was involved in over        guilty to conspiracy to commit loan fraud and making
$415,000 in fraudulent loans, causing over $53,000 in     false statements to HUD. The three defendants
losses.                                                   originated fraudulent FHA insured loans while em-
                                                          ployed at Mortgage Capital Resources (MCR) and
    In Baltimore, MD, in Federal Court for the            originated fraudulent conventional loans at National
District of Maryland, defendant Waldo Andia, a            City Mortgage (NCM) after leaving MCR. They falsified
property speculator, was sentenced to 18 months           income and employment information for borrowers,
incarceration and five years probation, and was           including tax returns, pay stubs, W-2’s, gift letters,
ordered to pay $77,489 in restitution to HUD for his      and credit documents. Thirty-two fraudulent FHA
role in submitting false statements on loan applica-      insured loans originated by the defendants were
tions in a property flipping scheme. Andia flipped        identified. Eighteen of those loans, valued at $1.9
approximately 40 single family homes. He typically        million, have defaulted with a loss to HUD of
sold the homes to first time homebuyers, who pur-         $533,294. While employed at NCM, the defendants
chased the properties with both FHA insured and           originated another 18 fraudulent conventional loans
conventional mortgage loans. Andia created false          using strawbuyers. These loans were valued at $3.1
employment documents for the homebuyers, including        million with a loss to NCM of $185,126.
W-2’s, pay stubs, and verifications of employment, to
                                                              In the same case, defendant Horace Smith, a
help them qualify for the mortgage loans.
                                                          former MCR loan officer, was sentenced in Federal
                                                          Court for the District of Nevada to 37 months incar-
   In Norfolk, VA, in U.S. District Court for the
                                                          ceration and three years supervised release, and was
Eastern District of Virginia, an Administrative Law
Chapter 2 - HUD’s Single Family Housing Programs                                                                15
ordered to pay $349,103 in restitution. Smith was            indictment charging him with conspiracy to defraud
sentenced on counts one and six of an indictment that        HUD for his participation in an illegal property
charged him with conspiracy to commit mortgage               flipping scheme with co-defendant Modou Camara.
fraud, making false statements to HUD, and aiding            Camara recruited Lowe, his cousin, to purchase an
and abetting in the fraud. Smith helped provide false        FHA insured property and instructed Lowe how to
income and employment information to borrowers to            complete a false gift letter. He also provided Lowe
obtain FHA insured loans to purchase single family           with the cash down payment. Camara also informed
properties.                                                  Lowe that his credit was poor and needed to be
                                                             repaired, and offered to “clean up” Lowe’s credit
     In Washington, DC, in U.S. District Court for           report by paying his debts. He provided Lowe with
the District of Columbia, defendants Vernando and            several thousand dollars in order to pay these debts.
Shauna Everett were sentenced to 72 months proba-            HUD sustained $90,224 in losses in this case.
tion and two months home detention and ordered to
pay $392,781 in restitution. The Everetts previously              Defendants Nicholas Pistolas, a settlement
pled guilty to a two-count criminal information              attorney, and Norman “Reggie” Anderson, Jr., a
charging them with conspiracy to defraud HUD and             property speculator, pled guilty in Baltimore, MD, in
equity skimming for their participation in an illegal        U.S. District Court for the District of Maryland, to
property flipping scheme with co-defendant Modou             mail fraud for their role in a scheme to defraud the
Camara. Camara, owner of SAFF Unlimited Services,            FHA and conventional lenders. An investigation
was previously found guilty of nine felony counts,           disclosed that, from January 1997 through December
including conspiracy (one count), interstate transpor-       2000, Pistolas, along with co-defendants Anderson
tation of money and securities obtained by fraud (one        and Steven Jernigan, purchased and then flipped
count), wire fraud (five counts), and money launder-         numerous homes at inflated prices to individuals
ing (two counts). Acting as a real estate speculator,        whom they qualified by using false verifications of
Camara recruited the Everetts to purchase FHA                income and assets and in some cases false Social
insured properties and arranged for them to submit           Security numbers. In many cases, defendant Jernigan
fraudulent loan applications to lenders. To ensure that      purchased and then resold properties on the same day,
they qualified for the loans, Camara instructed the          using mortgage proceeds from the second transaction
Everetts how to complete false gift letters, secretly        to fund the first transaction, aided and abetted by
provided them with cash down payments, and created           Pistolas and his company, All City Title. In at least
false separation agreements to mislead the lending           one instance, Pistolas used loan funds from a finan-
institutions. He also provided Vernando Everett with         cial institution to conduct illegal and fraudulent real
false W-2’s and pay stubs, and instructed the Everetts       estate settlements.
to falsify their intent to live declarations on their loan
                                                                 Anderson admitted that, from 1999 through early
applications. In an effort to keep the mortgages from
                                                             2001, he purchased 13 homes from defendant Steven
going into default, Camara made initial mortgage
                                                             Jernigan with the intention that they would become
payments for the Everetts and encouraged them to
                                                             income producing by being rented out. Anderson
rent their properties as part of the District of Colum-
                                                             received approximately $5,000 to $7,000 per transac-
bia Housing Authority’s Section 8 Program. The
                                                             tion from the seller as an inducement to buy the
Everetts rented all of their properties to Section 8
                                                             homes.
tenants, collected the rental assistance payments, and
failed to make the mortgage payments. In total, the               In the same case, defendant Barbara Ann
Everetts contracted to purchase six properties from          Prichard, a settlement agent, pled guilty to mail fraud
Camara, five of which eventually went into foreclo-          for her role in the scheme. Prichard assisted Pistolas
sure. HUD sustained $329,781 in losses.                      in the fraudulent preparation of title insurance com-
                                                             mitments and HUD settlement statements. She also
     In a related case, defendant Baboucarr Lowe was
                                                             conducted fraudulent real estate settlements for
sentenced to 36 months probation and one month of
                                                             numerous flipped properties. Anticipated losses to the
home detention and was ordered to pay $90,224 in
                                                             lending institutions and FHA may exceed $1 million.
restitution. Lowe previously pled guilty to a one-count

Chapter 2 - HUD’s Single Family Housing Programs                                                                     16
     Defendant Jocelyne Martinez, a former investi-         In Baltimore, MD, in Federal Court for the
gator for the State Attorney General’s Office, pled     District of Maryland, defendant Deborah Kolodner, a
guilty in Central Islip, NY, in Federal Court for the   property speculator, pled guilty to three counts of
Eastern District of New York, to loan origination       mail fraud in connection to her role in a fraudulent
fraud and obstruction of justice. Martinez defrauded    loan origination scheme. Kolodner was indicted in
the HUD Single Family Insurance Program by ille-        April 2003 in a nine-count superseding indictment for
gally obtaining $1.7 million in federally insured       mail fraud, money laundering, aiding and abetting,
mortgages in 2002 to purchase four multifamily          and obstruction of justice in connection with her
buildings in the Bronx, and then coached a witness to   involvement in a loan origination fraud scheme. The
lie to investigators about the transactions.            superseding indictment charged Kolodner with using
                                                        straw purchasers in an effort to conceal the real
     In Spokane, WA, in U.S. District Court for the     estate transactions, using an investment scheme to
Eastern District of Washington, defendant Ronald        obtain monies from unsuspecting parties, laundering
Burger pled guilty to conspiracy to commit wire         money from real estate and investment transactions to
fraud. Burger was charged in August 2003, along with    purchase personal items, and attempting to threaten a
fellow mortgage broker and speculator Sage Gibbons,     federal grand jury witness.
doing business as Century Mortgage; real estate
appraiser John Hansen, doing business as J. Hansen          Defendant Angel L. Serrano, Jr., a former self-
Appraisals, Inc.; real estate agent Sally Gibson; and   employed real estate broker, was found guilty in
escrow officer Cathy Patrick, for their roles in a      Springfield, MA, in Federal Court for the District of
scheme to defraud lenders and flip numerous homes,      Massachusetts, of one count of conspiracy to commit
including HUD real estate owned homes, at inflated      wire fraud, one count of wire fraud, and one count of
prices. Hansen, who has already pled guilty in this     false statements. As part of his fraudulent scheme,
case, provided inflated and fraudulent appraisals on    Serrano obtained contracts to purchase properties and
numerous homes. The homes were subsequently sold        then persuaded unsophisticated first-time homebuyers
at inflated prices to individuals whom other defen-     to pay inflated prices for the properties. Many of the
dants in the scheme made appear qualified by using a    homeowners paid double the original price. In order
variety of falsified documents. The fraudulent loans    to get the homebuyers qualified, Serrano falsified the
were then sold on the secondary market. Buyers of       mortgage applications. All of the charges related to
the loans included Ginnie Mae and Freddie Mac.          Serrano’s property flipping scheme in Westfield,
Since the homes were sold at inflated prices, and the   MA. As a result of Serrano’s scheme, FHA suffered
loans were at high interest rates, many buyers were     losses in excess of $200,000.
forced into foreclosure because they were unable to
make the payments, refinance the loans, or sell the          In Chicago, IL, in Federal Court for the North-
properties.                                             ern District of Illinois, eight individuals were charged
                                                        in a 30-property loan fraud/property flipping scheme.
    Defendant Allen J. Meyer pled guilty in Seagirt,    Defendants James Rucker, an FHA mortgagor/loan
NJ, in Federal Court for the District of New Jersey,    officer, Virgil Griffin, Gregory Jacobs, Stephen
to one count of conspiracy to commit offense or to      Lawhorn, Patricia Mays, and Carmen Perry, all loan
defraud the United States. Meyer participated in a      officers, Tina Hoard, a mortgagor/seller, and Will-
scheme to falsify mortgage loan applications and        iam Scott, an investor/seller, were charged in an 11-
related documents in order to obtain FHA insured        count indictment with mail and wire fraud. The
loans for unqualified borrowers. The false documents    defendants allegedly participated in a scheme to buy
included uniform settlement statements, which falsely   and sell real estate using false documents, including
represented required down payments from the             Social Security numbers, employment, credit, and
borrowers. The fraud was committed by Meyer as a        banking history, and land contracts. In some cases,
closing attorney for Mortgage Acceptance Corpora-       the loan officers originated loans for their own
tion. Losses to HUD total $1.1 million.                 mortgages by using aliases, which disguised the fact
                                                        that they were interested parties in the transactions.

Chapter 2 - HUD’s Single Family Housing Programs                                                              17
In other cases, after the original purchases, the          in claims), and arranging the escrows by which the
properties were resold at higher than normal values        properties were bought and sold on the same day.
to unwitting buyers, whose loan packages the defen-
dants falsified. This investigation was originated by           In Chicago, IL, in Federal Court for the North-
the U.S. Trustee’s Office for the Northern District of     ern District of Illinois, defendants Gordon Nelson,
Illinois as a referral on FHA insured mortgages with       owner of a construction company, Jae Rank and Lynn
serial bankruptcy filings. Although the total amount of    Martz, employees of Nelson’s, and Alfredo Busano, a
losses is undetermined, the estimated value of the         loan officer, were charged in a 14-count indictment
loans in question is $4.7 million.                         for their role in an FHA single family loan fraud
                                                           scheme. The charges included making false state-
     In Salt Lake City, UT, in the 3rd District Court,     ments to HUD and mail fraud. In total, 28 FHA
defendants Jose Alejandro Pedraza Martinez,                insured loans totaling $3.2 million were involved in
Claudia Cardenas Cruz, Claudia Abud, Joel Resendiz         the case. While HUD’s losses exceeded $650,000,
Ruiz, and Gabino Resendiz Ruiz were indicted for           Nelson’s profits were $680,000.
recording false or forged instruments, forgery, and/or
                                                                According to the indictment, Nelson and his
identity fraud. The defendants allegedly used the
                                                           employees allegedly found unqualified buyers with
Social Security number of another individual to obtain
                                                           poor credit, low income, and little or no savings and
a single family home with an FHA insured mortgage.
                                                           directed them to properties in the Candlewick Lakes
The property was part of a flipping scheme involving
                                                           subdivision, Poplar Grove, IL, by pretending that
a limited liability company (LLC) that enticed undocu-
                                                           Nelson or one of his companies owned the properties.
mented/unqualified buyers into purchasing homes at
                                                           In reality, the houses were either owned by HUD or a
inflated values. The owners of the LLC often con-
                                                           private investor. Unknown to the buyers, Nelson
ducted simultaneous closings on the same day, netting
                                                           planned to purchase the properties either shortly
large profits. In many cases, the buyers stopped
                                                           before or on the same day as his sale to the unquali-
making mortgage payments and subsequently de-
                                                           fied buyers with an increase in price of $15,000 to
faulted on the loans. The defaults were reflected on
                                                           $40,000. Nelson and his employees then referred the
the credit reports of the actual owners of the Social
                                                           buyers to Busano at Anchor Mortgage in order to
Security numbers, which made future financial
                                                           receive financing. At this point, Nelson, his employ-
transactions very difficult. The total loss to the FHA
                                                           ees, and Busano purportedly conspired to create
insurance fund is expected to exceed $1.7 million for
                                                           fictitious gift donors and gift letters by making it
all investigations associated with the investigations of
                                                           appear that relatives provided funds, when in fact the
the LLC.
                                                           monies were provided by Nelson.
     In the same case, defendants Maria Rodriguez
                                                                In the same case, defendant Marco Reyes, a real
Herrera, Anasatcia Preciado Rolon, Gabino
                                                           estate agent, was charged with one count of making
Resendiz Ruiz, Jose Alejandro Pedraza Martinez,
                                                           false statements to HUD. Reyes allegedly used Anna
and Claudia Cardenas Cruz were arrested as a result
                                                           Corporation, his realty company, to mirror Nelson’s
of their indictment for allegedly recording false or
                                                           activities by supplying gift money to one buyer in
forged instruments and/or identity fraud.
                                                           Candlewick Lakes who could not otherwise qualify
                                                           for financing. This buyer had his mother pass the
     Defendant Nancy Jacobs was arrested based on a
                                                           money through her bank account and return the
post indictment warrant for submitting false state-
                                                           money to the buyer for closing to make it appear she
ments. Jacobs was indicted in San Bernardino, CA,
                                                           was providing him with a legitimate gift for the
in Federal Court for the Central District of Califor-
                                                           purchase of the property.
nia, in November 2003 following an investigation
which disclosed that between 1996 and 1998, she
                                                               Defendant Julie Kumarsingh, an outside contrac-
allegedly flipped $4.4 million in FHA insured proper-
                                                           tor working with American International Mortgage
ties. She carried out her scheme by using six fictitious
                                                           Bankers Corporation (AIMB) in Lake Success, NY,
identities, purchasing 46 properties (19 of which are
                                                           was sentenced to 12 months confinement and 36

Chapter 2 - HUD’s Single Family Housing Programs                                                                18
months probation, and was ordered to pay $995,153 in        falsify employment records and income in order for
restitution and $30,000 in fines. Kumarsingh has            Rivas to qualify for a mortgage through Springfield
already been imprisoned for over 12 months, which           Neighborhood Housing Services, a nonprofit organi-
will represent time served. She previously pled guilty      zation that assists first time low- to moderate-income
to conspiracy to commit offense against or defraud          homebuyers. Rivas then used the same false docu-
the United States and mail fraud for her role in a          mentation to obtain the down payment furnished by the
fraud scheme. As part of the scheme, co-conspirators        HOME Program through the City of Springfield ECD.
assisted in creating false documentation for FHA            Calcasola prepared false rental documents claiming
insured loans for questionable homebuyers located in        that Rivas was his renter at a property that was
the New York metropolitan area, including Nassau            determined to belong to Calcasola’s parents. Rivas
and Suffolk Counties. Over 90 percent of the loans          and Calcasola have resided together since 1996.
originated by AIMB contained one or more altered            Calcasola was previously convicted as part of the
documents, including false pay stubs, bank statements,      investigation involving illegal gambling activities and
W-2’s, rent verifications, verifications of employment      organized crime.
and deposit, credit worthiness letters, gift letters, and
credit reports. The Section 203(b) loans were subse-        Conspiracy/False Statements/Fraud
quently endorsed.
                                                                 In Detroit, MI, in Federal Court for the Eastern
    Also in this case, defendants Donna Martin, a           District of Michigan, defendant Patrick D. Quinlan
senior underwriter, and Emerick Martin and Valerie          entered guilty pleas to conspiracy and making false
Vineyard, loan processors, all formerly from AIMB,          and fraudulent statements in corporate financial
pled guilty to charges including false statements,          reports to the Securities and Exchange Commission
conspiracy to commit offense or defraud the United          (SEC). Quinlan had been the chairman and chief
States, and mail fraud. The defendants assisted in          executive officer of MCA Financial Corporation of
obtaining FHA insured loans for questionable                Southfield, MI. MCA had been Michigan’s largest
homebuyers.                                                 FHA approved direct endorsement lender. For a
     Defendant Arlene Lacey, a closing attorney             number of years, Quinlan and the financial manage-
working with AIMB, was charged with conspiracy and          ment committee of MCA created false financial
false statements. Lacey allegedly helped AIMB in            statements that did not reflect the financial condition
ensuring that questionable homebuyers would qualify         of the company. MCA did not list millions of dollars of
for FHA insured loans. Defendant Nicholas Graham,           debt within the company’s mortgage/land contract
another outside contractor working with AIMB, was           investment pools, or millions of dollars of inter-
arrested for the second time for continuing to perform      company receivable mortgages on the annual state-
the same fraudulent activities for which he was             ments. On the contrary, MCA altered its financial
initially indicted in November 2002. Graham alleg-          statements to give the appearance of a positive cash
edly assisted in obtaining FHA insured loans for            flow. These misrepresentations allowed the company
questionable homebuyers.                                    to gain access to a line of credit, sell its mortgage and
                                                            investment products, and operate as a direct endorse-
     Defendants Paul Calcasola and Elisabel Rivas           ment lender. The false financial statements were
were charged in Springfield, MA, in Federal Court           mailed to HUD and the SEC.
for the District of Massachusetts, with conspiracy,             MCA further defrauded investors in its land
bank fraud, false statements, and obstruction of            contract/mortgage investment pools by operating a
justice. The indictment also contained a forfeiture         scheme similar to a “ponzi.” MCA depleted the real
count for a property valued at $97,000. An investiga-       assets of the pool and substituted basically worthless
tion of the City of Springfield Economic and Commu-         inter-company mortgages or other non-performing
nity Development (ECD) Program examined HOME                paper. Investors were sent annual interest payments
funds in conjunction with the Business Improvement          by MCA based on fraudulent accounting statements,
Program. The indictment alleges that Calcasola,             which resulted in interest disbursements that were
Rivas, and an unnamed business owner conspired to           unrelated to the pools’ actual performance.

Chapter 2 - HUD’s Single Family Housing Programs                                                                     19
     Defendant Kevin Lasky previously pled guilty in     false statements about the equipment leasing transac-
this case and was sentenced to 24 months incarcera-      tions.
tion and 36 months supervised release. The restitution
                                                             In December 2003, Tommy Larsen, former
amount of $256 million was ordered previously in this
                                                         president of PinnLease, Inc., a PinnFund subsidiary,
case and is to be paid jointly with the other members
                                                         pled guilty to his involvement in a scheme to obtain
involved in the scheme.
                                                         funds for PinnFund through fraudulent equipment
                                                         leases and laundering kickbacks of those funds to
    Defendant Brian Eden, former president of
                                                         PinnFund and himself through sham transactions and
United Pathway Foundation, Inc., pled guilty and was
                                                         false invoices. In April 2002, Michael Fanghella pled
sentenced in Miami, FL, in Federal Court for the
                                                         guilty to conspiracy to commit wire fraud, conspiracy
Southern District of Florida, to 37 months incarcera-
                                                         to commit money laundering, tax evasion, and filing a
tion and three years probation, and was ordered to
                                                         false entry with HUD. Fanghella has already been
pay $7,835,002 in restitution, $1,279,653 of which
                                                         sentenced to 10 years in prison and ordered to pay
was payable to HUD/FHA. Eden was previously
                                                         $234,251,066 restitution.
charged with conspiracy related to over 100 Section
203(k) loans. Eden submitted false documents to HUD
                                                             Defendant Sharon Surles Johnson, a loan officer
representing that required property improvements
                                                         for Creative Mortgage Lending, pled guilty in Dallas,
were completed as specified on numerous Section
                                                         TX, in U.S. District Court for the Northern District
203(k) work orders. The monies not utilized for the
                                                         of Texas, to one count of misuse of a Social Security
required improvements were diverted to Eden and his
                                                         number (SSN). Johnson, who was previously indicted
co-conspirators. United Pathway eventually defaulted
                                                         on one count of wire fraud and two counts of misuse
on over 100 loans. After resale, these failed loans
                                                         of an SSN, used an SSN that did not belong to her in
caused losses to HUD of more than $1.2 million.
                                                         order to obtain an FHA insured loan and a conven-
                                                         tional loan. These loans were used to purchase two
     In San Diego, CA, in Federal Court for the
                                                         separate properties. Johnson’s loan files contained
Southern District of California, defendant Kim A.
                                                         fraudulent W-2’s, pay stubs, and other documentation
Larsen, an officer of Copyfax, Inc., pled guilty to
                                                         containing the false SSN. In addition to the two resi-
making false statements to a federal agent. Larsen
                                                         dential properties, Johnson used the same SSN to
participated in a conspiracy to provide funds to
                                                         purchase a vehicle. Finally, as a loan officer, Johnson
PinnFund, a HUD approved direct endorsement
                                                         was involved in additional loans that contained false
lender, through fraudulent equipment leases. He
                                                         information. The loss to the government is approxi-
obtained information about a potential equipment
                                                         mately $281,000.
leasing transaction involving PinnFund from his
father, Tommy Larsen. Kim Larsen used this infor-
                                                              In Phoenix, AZ, in Federal Court for the District
mation to generate a Copyfax invoice showing a
                                                         of Arizona, defendant Eva Martinez pled guilty to one
purported sale of the equipment to PinnFund. The
                                                         count of submitting false statements to HUD.
Copyfax invoice fraudulently inflated the value of
                                                         Martinez, a former loan officer at American Finan-
equipment and failed to reveal that the proposed
                                                         cial Resources, Inc. (AFR), was previously indicted on
transaction was not an arms-length sale of equipment
                                                         charges of conspiracy to defraud HUD and submitting
from Copyfax to PinnFund. On the basis of the
                                                         of false statements. An investigation disclosed that
Copyfax invoice and other information, a creditor
                                                         Martinez prepared three FHA insured home loan
financed the equipment lease by paying Copyfax its
                                                         packages that contained falsified wage documents for
invoice amount. Larsen forwarded a portion of this
                                                         the borrowers. She either prepared these falsified
money to Michael Fanghella, the chief executive
                                                         wage documents or obtained the documents from
officer of PinnFund. Creditors who performed checks
                                                         other individuals. The total insured mortgage amount
of the equipment purportedly serving as collateral for
                                                         of the three loans is $252,564.
a lease were given false representations and shown
other equipment. Kim Larsen was interviewed by
                                                             In Anchorage, AK, in U.S. District Court for the
federal agents regarding these matters and made
                                                         District of Alaska, defendant Samuel H. Schurig, a

Chapter 2 - HUD’s Single Family Housing Programs                                                              20
doctor in Eagle River Alaska, pled guilty to one count    notes, which bound families to economically burden-
of HUD fraud. Schurig was convicted for his part in       some debts that were never disclosed on HUD loan
originating a fraudulent $119,000 FHA insured mort-       origination documents. According to the indictment,
gage. He convinced a patient to participate in the        the defendants targeted unsophisticated customers,
fraudulent sale of her home to him and to provide him     particularly first time homebuyers with low incomes
with a portion of the net proceeds from the sale,         and poor credit histories. One hundred transactions
approximately $52,000. He then provided HUD with          were identified in which undisclosed advances were
falsified paperwork for the sale, informing HUD that      made to appear to be from family members, friends,
he was going to use the Eagle River home as his           and employers. To date, this widespread and complex
primary residence. He never did reside in the house;      FHA single family fraud scheme has resulted in HUD’s
the patient continued to reside there. The loan subse-    paying up to $10 million in FHA claims and the fore-
quently went into default.                                closure of approximately 50 homes.

    In St. Louis, MO, in U.S. District Court for the          Defendant Harold V. Fields, a real estate agent at
Eastern District of Missouri, defendants Judy Hallock     Valley Home Experts, Glendale, AZ, was indicted in
and Todd Coffman pled guilty to false use of a Social     Phoenix, AZ, in Arizona State Court, for a second
Security number. Hallock was previously charged           time on separate charges. This indictment included
with making false statements to HUD on a loan             one count of fraudulent schemes, one count of unli-
application for an FHA insured loan. In addition to       censed real estate activity, and five counts of theft.
using a false Social Security number, Hallock over-       Fields was arrested following the indictment. Fields’
stated her income and failed to report her liabilities    real estate license was previously suspended by the
on the loan application. The mortgage went into           Arizona Department of Real Estate and in November
foreclosure, resulting in a $40,000 loss to FHA. In       2003, he was indicted on two counts of fraudulent
Coffman’s case, which is independent of Hallock’s, he     schemes and 22 counts of theft.
used a false Social Security number and false employ-
                                                               Valley Home Experts had been the number one
ment and rental verification information on his loan
                                                          seller of HUD real estate owned (REO) properties in
application for an FHA insured mortgage. The prop-
                                                          Arizona for several years. An investigation disclosed
erty, which was one of the properties flipped by New
                                                          that Fields allegedly recruited investors through
Alliance Enterprises and purchased through fraudu-
                                                          advertisements in the newspaper and requested that
lent means, went into default and subsequent foreclo-
                                                          each investor give him $25,000 to $100,000 to buy
sure, resulting in a $40,000 loss to the FHA insurance
                                                          HUD REO properties. Fields told the investors that the
fund.
                                                          funds would be held in an escrow account to be used
                                                          for down payments and closing costs for up to 12
    In Lancaster, PA, in U.S. District Court for the
                                                          investment properties. Often, because of financing
Eastern District of Pennsylvania, defendants Philip
                                                          issues, many of the loans did not close and the proper-
Garland, a prominent land developer and builder in
                                                          ties were recycled back into the HUD inventory. Many
the Lancaster and York areas, Rich Myford, Judy
                                                          of the investors began to demand that Fields return
Gemmill, and James Ballantyne, loan officers, and
                                                          their money after he failed to provide closing costs for
David Gregory Herb, a real estate agent, were
                                                          several homes. The first indictment included inter-
indicted on 34 counts of conspiracy and false state-
                                                          views with 22 investors who lost $1,436,416. This
ments. Allegedly, the defendants sold newly built
                                                          second indictment includes four new victims with a
Garland Construction Company (GCC) homes from
                                                          loss of $65,750. These funds were taken by Fields
1996 to 2001 and made it appear by their false certifi-
                                                          after his license had been suspended and after the
cations of HUD documents that prospective GCC
                                                          first indictment.
buyers qualified for FHA insured mortgage loans. This
fraud scheme caused about 100 GCC homebuyers to
                                                              In Atlanta, GA, in Federal Court for the North-
lose their homes and/or default on their mortgages.
                                                          ern District of Georgia, defendant Omar Turral was
Garland and his co-defendants also had many unwit-
                                                          charged with conspiracy, identity theft, wire fraud,
ting GCC homebuyers execute illegal promissory
                                                          and bank fraud. While he was a pharmacy student at
Chapter 2 - HUD’s Single Family Housing Programs                                                                21
Florida A&M University, Turral allegedly obtained        origination fee, Cameron and Williams also obtained
other students’ names and Social Security numbers        large yield spread premiums when the loans closed.
and sold that information to co-conspirators Renee
                                                             Defendant Roderick Wesson was charged with
Meeks and Lupita McCarty, both previously con-
                                                         one count of conspiracy, 23 counts of false statements,
victed. The false identities were used to obtain 16
                                                         and 20 counts of misuse of an SSN. Cameron was
mortgage loans from eight different lenders totaling
                                                         charged with one count of conspiracy, 16 counts of
$4 million. A majority of the mortgages have gone
                                                         false statements, and 14 counts of misuse of an SSN.
into default and foreclosure with an expected loss of
                                                         Edwards was charged with one count of conspiracy,
$2 million.
                                                         eight counts of false statements, and seven counts of
                                                         misuse of an SSN. Myles was charged with one count
    In Denver, CO, in Federal Court for the District
                                                         of conspiracy, six counts of making false statements,
of Colorado, a 48-count indictment was returned
                                                         and five counts of misuse of an SSN. Thomas was
against 28 defendants. This matter was brought to the
                                                         charged with one count of conspiracy, one count of
OIG’s attention by HUD program staff, who were
                                                         false statements, and one count of misuse of an SSN.
conducting routine reviews of mortgage companies
                                                         Williams was charged with one count of conspiracy,
when they discovered a number of borrowers who
                                                         two counts of false statements, and two counts of
appeared to be using false Social Security numbers
                                                         misuse of an SSN. These defendants were suspended
(SSN) and false income information. Three employers,
                                                         from participation in procurement and non-procure-
Neighborstat, W & W Enterprise, and Comp System,
                                                         ment transactions as participants or principals with
appeared in all of the loan packages. Verifications of
                                                         HUD and throughout the Executive Branch of the
employment were sent to all three of the companies at
                                                         Federal Government.
two different addresses. An investigation disclosed
that the addresses were actually post office boxes           As a result of the indictment, the following
rented by defendant Roderick Wesson. Telephone           defendants were arrested. Nina Cameron was
numbers listed on the loan applications and verifica-    arrested on one count of conspiracy, 16 counts of false
tions of employment for the three companies were         statements, and 14 counts of misuse of an SSN and
also listed in Wesson’s name.                            aiding and abetting. Linda Carnagie, Keith Griffin,
                                                         Janice Fisher, Janice Marshall, Lasonji Linnear,
    Wesson claimed to be the owner of a credit repair
                                                         Lorene Livingston, Suzanne Nangah, Sallena
company and guaranteed that he could obtain an FHA
                                                         Nichols, Deneen Stone, Paulmiko Parker, Tracey
insured mortgage for anyone. He worked closely with
                                                         Joyner, Ekan Udom, and Lynn Jones were arrested on
loan officers Nina Cameron and Warren Williams, as
                                                         one count of false statements and one count of misuse
well as real estate agents Linda Edwards, Lewey
                                                         of an SSN and aiding and abetting. Floyd Benjamin and
Thomas, and Toni Myles, also known as Toni
                                                         Toni Fisher were arrested on one count of false
Hendricks, who was also a loan processor working
                                                         statements and aiding and abetting. Other defendants
for Nina Cameron. Each of these individuals alleg-
                                                         included Curtis Lee, Marshon Williams, Michelle
edly assisted homebuyers in obtaining mortgages for
                                                         Palmer, Mariea Powell, Anthony Rice, and Vaughn
which they would otherwise have been unqualified.
                                                         Thomas.
All of the homebuyers obtained false SSNs, W-2’s, and
pay stubs from Wesson for a fee ranging between
                                                             Following a 36-count indictment handed down by
$400 and $1,000. The documents they received falsely
                                                         the Grand Jury for the City and County of Denver,
indicated that they were working for companies and
                                                         CO, 11 individuals were arrested. The arrestees are
earning substantially more money than they actually
                                                         Golda Harvey, Natalie Soria, Frank Elliott, Albert
did. Cameron, Williams, Edwards, Thomas, and
                                                         Lujan, Bridget Kelly, Mary Torres, Reyna Gutierrez,
Myles were all aware that false information was
                                                         Donnie Pierce, Melanie Seely, Robert Sanchez, and
being used in order to qualify the homebuyers for FHA
                                                         Sylvia Meraz. The indictment included the following
insured loans. After the loans closed, Edwards and
                                                         charges: violation of the Colorado Organized Crime
Thomas kicked back approximately 20 percent of
                                                         Control Act; conspiracy; securities fraud; theft;
their commissions to Wesson, who split the fees with
                                                         forgery; criminal impersonation; theft from an at-risk
Cameron and Williams. On top of receiving a loan

Chapter 2 - HUD’s Single Family Housing Programs                                                              22
adult; criminal attempt theft; and first degree aggra-     payments and provided false gift letters to HUD. The
vated motor vehicle theft. The arrestees were part of      defendants also provided false credit reference letters
a criminal enterprise that defrauded individuals out of    to HUD. False documents were submitted to HUD on
the equity in their homes. They also coaxed individu-      more than 55 loans totaling $3 million. HUD suffered
als into becoming “investors,” when in fact the            a loss of approximately $1.5 million due to the
individuals acted as strawbuyers, allowing the enter-      scheme.
prise to obtain title to several high-end properties and
several FHA insured properties. Also, as a continua-            Four defendants who worked at Saxon Mortgage
tion of the criminal enterprise, the defendants fraudu-    Bank were indicted in Central Islip, NY, in Federal
lently acquired vehicles with false documentation that     Court for the Eastern District of New York. Frances
they used as props to portray to potential investors the   Purcell, a real estate agent and accountant, allegedly
successes of the real estate investment.                   facilitated the production of, and prepared, fake W-
                                                           2’s, tax returns, verifications of employment, and pay
    As a result of this indictment, defendants Natalie
                                                           statements for mortgage applicants. Eli Louis-Pierre,
Soria, Albert Lujan, Bridget Kelly, and Reyna
                                                           a former loan officer at Saxon, was also charged with
Gutierrez were subsequently suspended by HUD from
                                                           arranging for fake documents and false employment
participation in procurement and non-procurement
                                                           information for applicants. Carol Horton-Branch, a
transactions, as a participant or principal, with HUD
                                                           real estate agent, was charged with facilitating false
and throughout the Executive Branch of the Federal
                                                           documents, including the arrangement of fraudulent
Government. Defendant Golda Harvey and three
                                                           gift and down payment information. These three
entities affiliated with her, ASAP Financing, LLC,
                                                           defendants were each indicted on eight counts of
Colorado Real Estate Funding, LLC, and Harvey and
                                                           making false statements and one count of theft.
Associates, LP, as well as Donnie Pierce and Melanie
                                                           Defendant Stephen Cox, a business owner, was
Seeley, two individuals associated with Harvey, and
                                                           charged with conspiracy for allowing his hair salon to
Infinity Real Estate Investments, Inc., were also
                                                           be used as a fraudulent place of employment for
suspended.
                                                           mortgage applicants. He was indicted on one count of
                                                           theft.
     Following the filing of a criminal complaint in
Detroit, MI, in Federal Court for the Eastern
                                                                Defendant Lilia Ramirez Pereyra was arrested at
District of Michigan, defendant Voneesa Crystal
                                                           her place of employment, Express Home Loans,
Thomas was arrested. The complaint alleges that
                                                           pursuant to a federal arrest warrant. The previous
Thomas, along with at least nine accomplices,
                                                           day, Pereyra was indicted in Phoenix, AZ, in Federal
assisted in devising and executing a scheme to defraud
                                                           Court for the District of Arizona, on one count of
homeowners whose mortgages were in foreclosure.
                                                           conspiracy, four counts of submitting false statements
For the purpose of executing the scheme, Thomas
                                                           to HUD, and two counts of misusing a Social Security
allegedly filed or caused to have filed numerous
                                                           number (SSN). An investigation disclosed that, while
fraudulent bankruptcy petitions in the U.S. Bank-
                                                           she was employed as a loan officer at American
ruptcy Court for the Eastern District of Michigan. As
                                                           Financial Resources, Inc. (AFR), Pereyra allegedly
of January 2004, HUD had paid over $1.8 million in
                                                           used falsified wage documents to qualify four of her
FHA insurance claims. HUD has resold many of the
                                                           clients for FHA insured home loans; the mortgages
foreclosed properties and has an actual loss of
                                                           totaled $373,178. In addition, the SSN which Pereyra
$717,000.
                                                           reported on her employment applications at AFR and
                                                           at another employer, First National Mortgage Bank,
    In Birmingham, AL, in Federal Court for the
                                                           was not her SSN. In addition, Pereyra was using a
Northern District of Alabama, defendants Jason
                                                           falsified resident alien card and had no legal status in
LeSeur, Darren Leonard, Robert McIssac, and
                                                           the United States. Based on this information, the
Kenneth Taylor were charged with three counts of
                                                           Bureau of Immigration and Customs Enforcement
fraud against HUD and one count of conspiracy. The
                                                           issued a detention order for Pereyra.
defendants allegedly sold homes on behalf of Southern
Construction, which paid the purchasers’ down
Chapter 2 - HUD’s Single Family Housing Programs                                                                 23
     In State Court in Salt Lake City, UT, defendant     matched the seized documents to employment docu-
Ricky Lee Hale was served with an arrest warrant         ments in FHA case binders for 450 loans on which
for committing single family loan fraud while in         claims had been filed, with losses to HUD exceeding
custody for a recent arrest related to charges of rape   $20 million. Cuevas was on federal probation at the
of a child. Specifically, he was charged with theft by   time this investigation began after pleading guilty in
deception, forgery, and tampering with records. Hale     1999 to mail fraud involving FHA loan originations.
allegedly used a fictitious Social Security number to
                                                             Defendant Dora Medrano also pled guilty in this
obtain an FHA insured mortgage that later went into
                                                         case to conspiracy and wire fraud. Medrano pur-
foreclosure, resulting in a $40,202 loss to HUD. He
                                                         chased false documents, including pay stubs and W-2
also used the fictitious Social Security number to
                                                         forms, from Cuevas. The documents later appeared in
obtain employment, conceal income, avoid paying
                                                         FHA loan applications, resulting in a loss to the
child support, and open a business.
                                                         government of $1,032,886.
    Defendant Joseph Nardone, Sr., was indicted in
                                                              In Chicago, IL, in Federal Court for the North-
Jersey City, NJ, in Federal Court for the District of
                                                         ern District of Illinois, defendant Anthony Culpepper,
New Jersey, on charges of conspiracy to embezzle
                                                         a loan officer, was sentenced to 12 months incarcera-
from a welfare benefit fund. Nardone was the former
                                                         tion, three years probation, and 100 hours of commu-
president of the Novelty Production Workers Union.
                                                         nity service, and was ordered to pay $1,105,636 in
He and his son, Joseph Nardone, Jr., along with
                                                         restitution. Culpepper previously pled guilty to one
defendants Stanley Rothman and Pete Hasho, were
                                                         count of mail fraud for his participation in multiple
part of a six-count indictment handed down in May
                                                         schemes to defraud HUD and conventional lenders.
2003. Rothman allegedly used strawbuyers to pur-
                                                         Specifically, Culpepper originated more than 30 loans
chase HUD properties in Florida, which he later
                                                         through the use of strawbuyers, false down payments,
resold for a profit. Some of the strawbuyers were
                                                         fabricated employment information, fraudulent Social
members of Rothman’s family and others worked for
                                                         Security numbers, fictitious landlords and rental
or were associated with the Novelty Production
                                                         payments, and bogus tax documents in order to
Workers Union 148 Welfare Fund.
                                                         qualify otherwise unqualified mortgagors. HUD
                                                         suffered losses of approximately $460,000, while
Mail, Wire & Bank Fraud                                  conventional banks and lenders lost approximately
     In Los Angeles, CA, in Federal Court for the        $640,000. Defendants Dawn McCain and Richard
Central District of California, defendant Maggie         Thomas, co-conspirators in this investigation, have
Cuevas was sentenced for mail and bank fraud and         already been sentenced. This case was originally
aiding and abetting to 51 months incarceration and       referred to OIG from the Atlanta Homeownership
five years probation, and was ordered to pay $10.2       Center and the Chicago Quality Assurance Division.
million in restitution. Cuevas owned a business that
created false documents for more than 200 individuals         In Chicago, IL, in Federal Court for the North-
in the real estate industry. Customers contacted         ern District of Illinois, defendant Mark Schmitt, an
Cuevas and her staff for fictitious employment           appraiser at First Tennessee National Bank, was
documents and W-2 forms needed to qualify buyers         sentenced to 22 months incarceration and 60 months
for FHA insured mortgages. False credit letters,         probation. Schmitt pled guilty in August 2003 to both
rental documents, and references were also provided.     mail fraud and income tax fraud for his role in a real
Cuevas’ operation was organized to the degree that       estate scheme involving HUD’s Section 203(k) Reha-
she maintained a bank of telephones and operators        bilitation Home Mortgage Insurance Program. As
corresponding to fictitious businesses established to    part of the scheme, Schmitt falsified 72 HUD insured
verify borrowers’ employment. A forensic auditor         203(k) mortgage inspections by indicating that work
team analyzed seized documents and identified            had been completed by contractors, thus authorizing
borrowers in approximately 3,500 FHA insured loan        escrow draws, when in fact either no work was done,
transactions totaling over $450 million, and then        the work was done improperly, or in some cases, the
                                                         homes had been demolished. Other co-defendants in

Chapter 2 - HUD’s Single Family Housing Programs                                                                  24
this case include David Guel and John Wojcik, who           employee of North East Austin, a HUD approved
have already been convicted and sentenced. Restitu-         nonprofit, who started her own business known as
tion totaling $4,218,496 was previously ordered in this     Share Development Corporation. Share Development
investigation, and is to be paid jointly and severally by   acquired numerous properties, some of which were
all of the defendants in the case. This case was            obtained through HUD’s Direct Sales Program and
originally referred to OIG by the HUD Quality Assur-        North East Austin, and resold them. Many of the
ance Division in Chicago.                                   applications for the mortgage loans contained inflated
                                                            employment information, including information that
     Defendant Angela Daidone, president and owner          some buyers worked for Share Development and
of Morningstar Bank, was sentenced in New York,             Northeast Austin. In addition, buyers, as well as loan
NY, in Federal Court for the Eastern District of New        officers, were paid $3,000 to $4,000 outside of closing
York, to 13 months in prison and 36 months super-           for purchasing the properties.
vised release, and was ordered to pay $1,757,714 in
                                                                 In a related case, defendant Ellen Berry, a
restitution to warehouse banks. Daidone pled guilty to
                                                            mortgagor and former employee of North East Austin,
one count of wire fraud following an investigation into
                                                            was sentenced to five years probation and ordered to
double dipping on Morningstar’s warehouse lines of
                                                            pay $246,009 in restitution, while defendant Thomas
credit and the use of FHA mortgage insurance premi-
                                                            Hozier, a mortgagor, was sentenced to five years
ums to pay business expenses of the bank.
                                                            probation, four months home detention, and 150 hours
    The investigation of Morningstar and Diadone            of community service, and was ordered to pay
began in February 2000. At that time, Morningstar           $359,974 in restitution. Defendant Jacqueline Watson,
occupied the business premises previously occupied          a borrower, was sentenced to five years probation,
by Executive Mortgage Company. In December 1999,            four months home confinement, and 150 hours of
a search warrant executed on the business premises          community service, and was ordered to pay $402,750
of Executive Mortgage netted evidence that Executive        in restitution. All three defendants previously pled
was, among other things, committing wire fraud by           guilty to their participation in a fraud scheme with
double dipping on its warehouse lines of credit.            defendant Theresa Holt.
Executive ceased business operations in January 2000
and sold its pipeline inventory, business equipment,            Defendant Hector Rosales Contreras was sen-
and other assets to Morningstar. Morningstar also           tenced in Los Angeles, CA, in Federal Court for the
hired some former Executive employees and assumed           Central District of California, for wire fraud. He was
Executive’s lease. After the FBI raided the same            sentenced to 15 months in jail and three years proba-
business location, the U.S. Attorney’s Office, Eastern      tion, and was ordered to pay $790,905 in restitution
District of New York, requested the assistance of the       and a $200 fine. Contreras worked as a property
HUD OIG. The investigation disclosed that defendant         investor and caused false documentation to be submit-
Daidone was committing wire fraud by double dipping         ted to HUD concerning FHA insured loans. He caused
on the bank’s warehouse line of credit, and was             not less than $2,763,294 in fraudulent FHA insured
delaying payments of FHA mortgage insurance                 loans to be submitted to HUD, resulting in a loss of
premiums in order to use the float of the premium           $1,360,676.
money.
                                                                In the same case, defendant Hector Piza was
                                                            indicted on one count of conspiracy, four counts of
    In Chicago, IL, in Federal Court for the North-
                                                            false statements, and one count of causing an act to be
ern District of Illinois, defendant Brian Wilkozek, a
                                                            done. Piza allegedly caused false documentation to be
loan officer, was sentenced to one year and one day in
                                                            submitted to HUD concerning FHA insured loans. The
prison and two years supervised release, and was
                                                            loans, valued at $829,824, were based on this false
ordered to pay $713,400 in restitution for mail fraud.
                                                            documentation.
Wilkozek participated in a fraud scheme involving 100
properties with $5.7 million in loans. The scheme               This sentencing and indictment were part of a
involved Theresa Holt, a current fugitive and former        larger investigation which revealed that the owners of


Chapter 2 - HUD’s Single Family Housing Programs                                                                 25
April 8 Realty in La Puente, CA, fabricated and sold       including Social Security numbers and dates of birth,
thousands of false loan support documents to numer-        to fraudulently obtain conventional mortgage loans
ous real estate agents. To date, the investigation has     and FHA insured Title I loans. They recruited
resulted in guilty pleas by 24 individuals and             strawbuyers or directed other co-conspirators to do
sentencings totaling 100 months incarceration, 39          so, created or obtained false W-2 forms and pay stubs
years probation, $1,683,742 in restitution, and            in the names of the strawbuyers, and then notarized
$22,800 in fines.                                          documents certifying that the strawbuyers signed
                                                           deeds and other necessary documentation. The loan
     In Cleveland, OH, in Federal Court for the            applications and false documents were submitted to
Northern District of Ohio, defendant Albert Thrower        lending institutions to support inflated income levels
was sentenced to 90 months incarceration and three         necessary for the loans to fund, and the lending
years supervised release, and was ordered to pay           institutions in turn relied on the false information to
$188,328 in restitution. The sentence was based on a       extend loans to the strawbuyers. The defendants
32-count federal indictment and conviction, including      caused at least $1.5 million in loans to go into default.
charges of concealment of assets, bankruptcy fraud,
conspiracy, fraud in connection with identification             Defendant Martha Amaya, an associate of a real
documents, mail fraud, and destruction, falsification,     estate investor, pled guilty in Los Angeles, CA, in
or alteration of records in a federal investigation.       Federal Court for the Central District of California,
Thrower, who had been in custody since his initial         to two counts of wire fraud. Amaya recruited unquali-
arrest and indictment, was found guilty of targeting       fied buyers to act as purchasers of residential proper-
distressed homebuyers, some of whom had FHA                ties from her employer. She then purchased fraudu-
insured loans through his company, American Ser-           lent documents and caused the buyers to obtain FHA
vices. Specifically, he started a bankruptcy petition      insured mortgages to purchase the properties. As a
and statement of financial affairs, but had no intention   result of the fraud, Amaya caused $4,879,563 in
of following through with the plan or the schedules of     fraudulent FHA insured loans to be submitted to
assets and debts. In addition, American Services           various lending institutions and HUD.
failed to report on the petition or the statement of
financial affairs that they prepared the documents or          In Seattle, WA, in U.S. District Court for the
received payment for their services, in violation of       Western District of Washington, defendants Scott
bankruptcy law. As a result, HUD, banks, and private       Anderson and Stephanie Anderson were indicted on
lenders were precluded from foreclosing and mini-          five additional counts of mail fraud by way of a
mizing their losses through reacquisition of the           superseding indictment. The defendants were origi-
properties. One of the counts charged, known as            nally indicted on eight counts of conspiracy, wire
Sarbanes-Oxley, was the first bankruptcy case to be        fraud, money laundering, interstate transmission of
charged under Section 1519 of the recently passed          stolen funds, and possession of cocaine. The defen-
U.S. Patriot Act.                                          dants were the owners and operators of an escrow
                                                           company named Washington One Stop. During their
    In Los Angeles, CA, in Federal Court for the           operation of the company, they allegedly embezzled
Central District of California, defendant Benjamin         funds from the escrow trust account. These funds
Harrison Tyler was sentenced to five years probation       were due the various parties in real estate financial
and eight months home detention, was ordered to pay        transactions, such as borrowers, title companies, and
$43,516 in restitution to Equicredit, and was fined        mortgage brokers. These embezzlements created a
$10,000. Tyler pled guilty to mail fraud in July 2002.     surplus of funds in the escrow account. During a
Tyler, along with co-defendants Tony Hicks and Greg        three-month period, the defendants withdrew
Philips, used their companies, Malitop, Inc., Malitop      $134,863 from the escrow trust account through five
Realty, Inc., Western Security Group, and Nesbitt’s        withdrawals and then abandoned the company. After
Distributing, Ltd., in a fraud directed at commercial      withdrawing the funds, they made $60,000 in subse-
lending institutions and HUD’s Title I Program. The        quent wire transfers to a casino in Las Vegas.
defendants used the personal information of others,

Chapter 2 - HUD’s Single Family Housing Programs                                                                  26
     The additional five counts of mail fraud stem          home/office in November 2001, and computer files
from the defendants’ submission of false employment         containing the false income documents were seized.
and wage earnings to the Washington State Employ-
                                                                 Also in this case, defendant Tandy Hairston,
ment Security Department in order to obtain pay-
                                                            former president of The Loan Store, Inc., pled guilty
ments to which they were not entitled. Employment
                                                            to five counts of wire fraud and one count of con-
Security transmits unemployment insurance checks
                                                            spiracy. Hairston, who operated as a mortgage
via the United States mail.
                                                            broker and banker, admitted to committing mail fraud
                                                            and wire fraud by submitting false documents to
     In Cleveland, OH, in Federal Court for the
                                                            obtain funding from warehouse lines of credit and
Northern District of Ohio, defendant Otis Bevel, an
                                                            then using false documents to sell the loans to mort-
investor/mortgage broker, was charged in a 12-count
                                                            gage investors. Hairston also operated as Midtown
indictment with mail fraud, bank fraud, money
                                                            Mortgage and Nations Investments, and admitted to
laundering, and Social Security number fraud related
                                                            using his businesses to flip properties to unqualified
to his involvement in a mortgage loan fraud scheme.
                                                            buyers and strawbuyers. Hairston and associated real
The indictment alleged that in March and April 2003,
                                                            estate investors purchased dilapidated properties
Bevel executed a scheme to defraud Second National
                                                            under the name Nations Investments in and around St.
Bank and other mortgage lenders through his two
                                                            Louis, and obtained false income documents from
residential real estate companies, Capital Realty
                                                            Sean Holland to qualify purchasers for loans through
Group and Midwest Venture Realty, Inc. Bevel alleg-
                                                            The Loan Store/Midtown Mortgage, an FHA approved
edly provided various false and fraudulent financial
                                                            lender. In a signed plea agreement, Hairston admit-
documents to lenders in support of loan applications
                                                            ted to $5 million in intended losses, and $2.5 million
for both conventional and FHA insured loans. Several
                                                            of actual losses.
of the loan applications contained fictitious names and
Social Security numbers. Bevel also used nominee or             In the same case, defendant Kelan Pyant pled
nonexistent employers to falsely verify employment          guilty to one count of conspiracy to commit wire
and income for the loan applicants, as well as ficti-       fraud. Pyant, who worked for Nations Investments,
tious pay stubs and tax forms.                              admitted using a strawbuyer to purchase a property
                                                            from HUD, transferring the property to his own name,
     Bevel allegedly caused one loan to close in which
                                                            and then obtaining an inflated appraisal and flipping
the mortgagor used the alias of a minor child, con-
                                                            the property at a substantial profit to an unqualified
cealing from the lender the true identity of the
                                                            purchaser. Pyant also admitted conspiring with
borrower. HUD insured this particular loan in the
                                                            Hairston to obtain financing with false documents.
amount of $111,599. To date, Bevel has enriched
                                                            Pyant’s fraudulent activities caused a loss of approxi-
himself by more than $500,000 in proceeds from his
                                                            mately $50,000.
illegal activities. He is currently serving a prison
sentence for a previous mortgage fraud activity after           Defendant Billy Miller, a real estate investor,
pleading guilty in March 2003. The earliest offense in      pled guilty in this case to one count of wire fraud.
this current indictment allegedly began on the same         Miller admitted being paid for locating a strawbuyer
day of his original guilty plea. Bevel continued his        to purchase property and obtain over $350,000 in
illegal activities right up until the time he reported to   mortgage loans, and for assisting investors in avoiding
prison in August 2003.                                      the loss of their properties to the foreclosure process.
                                                            Miller caused $345,000 to be wired under false
    In St. Louis, MO, in Federal Court for the              pretenses.
Eastern District of Missouri, defendant Sean Holland
pled guilty to a one-count information charging him             Finally in this case, defendants Iris Whitener,
with conspiracy to commit wire fraud. Holland was           DeMona Payne, Anthony Orr, Kelan Pyant, Arnold
an accountant for The Loan Store, Inc. He admitted          Mitchell, and Mark Williams, six of Hairston’s
creating false tax returns and other income docu-           employees and associates, were indicted for con-
ments for the owner and officers of The Loan Store. A       spiracy to commit wire fraud, mail fraud, and money
federal search warrant was executed at Holland’s            laundering.

Chapter 2 - HUD’s Single Family Housing Programs                                                                  27
     Defendant Leslie Bhagwandin, a real estate and         she had not. In one instance, the interview was not
mortgage broker, was arrested and charged in                conducted because the borrower did not exist. In
Central Islip, NY, in Federal Court for the Eastern         furtherance of the scheme, Serrano and others caused
District of New York, with conspiracy to commit mail        wire transfers to be sent from commercial lenders in
fraud in connection with FHA loan files that were           California to HUD’s account at Mellon Bank in
eventually endorsed by HUD. Bhagwandin, who is the          Pennsylvania. This investigation was initiated follow-
president and chief executive officer of Nardin Realty      ing a referral from the HUD Quality Assurance
and Nardin Group of Companies, planned, coordi-             Division at the Santa Ana Homeownership Center.
nated, and caused to be submitted numerous fraudu-
lent loans that have either gone into default or foreclo-        Defendants Pete Karsos and Kimberly Kovacs,
sure. Bhagwandin allegedly solicited business from          brokers at Nation Mortgage Company, and Anthony
first time homebuyers with promises of low or no            Dichiara, an appraiser at LTD Appraisals, were
down payments or closing costs. In order to further         indicted in Baltimore, MD, in U.S. District Court for
the scheme, bogus gift affidavits, tenant letters, W-2      the District of Maryland, on mail fraud charges. An
forms, pay stubs, and verifications of employment           investigation disclosed that, from at least April 1998
were created. Bhagwandin orchestrated the fraud by          through December 1999, Karsos and Kovacs alleg-
handling all HUD required documents and steering            edly were involved in buying and selling homes to
potential homeowners to a lending institution that was      investors. Each brokered the mortgage loans and
involved in the fraud and to attorneys who claimed to       knowingly provided false information to mortgage
have received escrow monies on behalf of the                lenders by using fictitious Social Security numbers,
homebuyers. The amount of the fraudulent loans totals       inflating borrowers’ income, and fraudulently stating
more than $2.4 million.                                     that the borrowers intended to occupy the homes as
                                                            their primary residence. Dichiara provided false
     In the same case, defendant David Becker, a            appraisals to support the inflated property values. In
licensed attorney in the state of New York, was             some instances, Karsos or Kovacs provided money to
arrested and charged in Central Islip, NY, in Fed-          potential homebuyers to handle closing costs and
eral Court for the Eastern District of New York, with       ensure a steady stream of business. In furtherance of
conspiracy to commit mail fraud. Becker allegedly           the scheme, defendants Nicholas Pistolas and Bar-
submitted numerous fraudulent loan documents in             bara Prichard, settlement agents who have already
support of FHA insured loans that have gone into either     been charged in this case, prepared fraudulent
default or foreclosure. On at least two separate            settlement sheets and were involved in property
occasions, Becker acted as the homebuyers’ attorney,        flipping transactions.
claiming to hold down payments and closing fees in
his attorney escrow account. The scheme was carried
out by means of bogus gift donors who used checks           Equity Skimming
that were either never endorsed or were re-deposited            In Los Angeles, CA, in Federal Court for the
in their accounts.                                          Central District of California, defendant Ray
                                                            Tomlinson was sentenced to 30 months imprisonment
     In Los Angeles, CA, in Federal Court for the           and three years probation, was ordered to pay
Central District of California, defendants Jade             $932,626 in restitution to HUD and $433,654 in
Serrano, Enrique Martinez, and Douglas Segura               restitution to the Department of Veterans Affairs
were charged with wire fraud. Serrano, a loan               (DVA), and was fined $50,000. Defendant Penny
officer for North American Mortgage Company, and            Lubanko was sentenced to 21 months imprisonment
Martinez and Segura, real estate agents with Califor-       and three years probation and was fined $40,000.
nia Brokers, allegedly caused mortgage applications         Lubanko is jointly libel for the same restitution as
that contained false employment, income, and credit         Tomlinson. This investigation began after OIG re-
related documents to be submitted to HUD. As part of        ceived allegations that the defendants were associated
the scheme, Serrano claimed that she had conducted          with a bankruptcy fraud and equity skimming scheme
face-to-face interviews with borrowers when in fact         that involved 150 properties with HUD insured and

Chapter 2 - HUD’s Single Family Housing Programs                                                                28
DVA guaranteed mortgages. Federal informations            their role in an elaborate single family fraud scheme
were filed against Tomlinson and Lubanko, alleging        wherein HUD Direct Sales properties and privately
that they had purchased properties with HUD insured       owned homes were sold with mortgages which were
and DVA guaranteed loans that were in default, and        obtained with fraudulent appraisals, false employment
failed to make the mortgage payments while they           information, fictitious down payment information, and
continued collecting rent. The defendants pled guilty     bogus identities. Johnson was not a licensed ap-
to bankruptcy fraud, equity skimming, conspiracy,         praiser. Instead, he stole the name and appraisal
false representation of Social Security numbers, and      identification number of his deceased brother in order
submitting false statements in bankruptcy proceed-        to inflate property values and verify rehabilitation
ings.                                                     work on properties. Overall, Johnson accepted
                                                          responsibility for fraudulent loans valued at $300,000.
     Defendant Renee Wilmot was sentenced in              Pollards, a licensed appraiser, accepted responsibility
Newark, NJ, in Federal Court for the District of New      for fraudulent appraisals and for his role in diverting
Jersey, to three years and five months home detention     mortgage proceeds through fraudulent pay-off letters.
for her part in an equity skimming and mail fraud         Pollards would file fraudulent documentation with the
scheme. Wilmot previously pled guilty to failure to       recorder’s office and assist in the laundering of
file income tax returns. Wilmot and her two co-           diverted closing funds. The monies should have
defendants, Timothy Burke and Paul Ligas, operated a      ultimately gone to a legitimate lender holding the first
real estate company called Lincoln Management.            lien on the properties. Pollards accepted responsibil-
Lincoln Management fraudulently claimed to be able        ity for over $1 million in fraudulent loans.
to help homeowners who were in default on their
mortgages, and then converted homeowner payments          Forgery/Theft/Embezzlement
to their own use, forcing many to lose their homes.
                                                              Defendant Dina M. Leone was charged in
     Defendant Edwin “Andy” Kane was indicted in          Westminster, MD, in District Court of Maryland for
Rochester, NY, in Federal Court for the Western           Carroll County, with nine counts of theft over $500, 12
District of New York, on one count of single family       counts of theft under $500, and one count of carrying
equity skimming and four counts of mail fraud. Kane       out a theft scheme over $500 in connection with her
allegedly devised a scheme in which he purchased,         role in defrauding local homeowners into making
through simple assumption, numerous FHA insured           their monthly mortgage payments to Leone in order to
properties throughout the City of Rochester. At the       avoid foreclosure. In May 2001, the victims in this
time of purchase, all of the properties were rented to    case were in financial danger of losing their FHA
tenants. Kane continued to collect rents on the proper-   insured properties. In an effort to avoid foreclosure,
ties but failed to make any mortgage payments,            the homeowners hired an attorney at the local law
causing the properties to go into foreclosure. In         office of Bauhof & Dorsey. The attorney worked on
addition, shortly after assuming the properties, Kane     the case for approximately one month but was unable
sold them, again through simple assumption, to a          to develop a plan to prevent the foreclosures. At the
fictitious third party. He then mailed the fraudulent     time, Leone was employed at Bauhof & Dorsey as a
assumption paperwork to the financial institution         paralegal.
servicing the FHA insured mortgage.
                                                               In June 2001, Leone contacted the homeowners
Money Laundering                                          and told them that she was leaving Bauhof & Dorsey
                                                          to start her own practice, giving the homeowners the
     In Cook County Court, Chicago, IL, defendant         impression that she was an attorney. To help the
David Johnson pled guilty to theft of over $100,000 and   homeowners avoid foreclosure, Leone proposed that
received 30 months probation. The next day, defen-        payments be made to her in cash and that she would
dant Eric Pollards, an appraiser, pled guilty to money    in turn pay the bank until their financial obligations
laundering and theft of over $100,000 and received 36     were current. In September 2001, desperate to keep
months probation. Johnson and Pollards were indicted
in June 2003 along with 15 other co-defendants for

Chapter 2 - HUD’s Single Family Housing Programs                                                                29
their homes, the homeowners agreed to Leone’s offer        Hansen was responsible for selling property acquired
and began making monthly mortgage payments                 through FHA foreclosures. He was required to sell the
directly to Leone. Leone usually requested amounts         properties for their maximum value, in compliance
that were higher than the monthly mortgage pay-            with outstanding regulations and guidelines, in order
ments, explaining that extra money was needed to           to replenish the mortgage insurance fund. As part of
bring the mortgage payments current. The                   his plea, Hansen accepted responsibility for selling
homeowners struggled to make the monthly mortgage          HUD foreclosed properties to his wife, Judy Hansen.
payments to Leone through January 2003, in one             In an attempt to confuse or misrepresent the details of
instance withdrawing money from an Individual              the sales to his family members, Hansen created
Retirement Account with the understanding the money        false entries in the Single Family Asset Management
would be applied to the mortgage. In February 2003,        System (SAMS). He was also responsible for creating
the lender from this particular property foreclosed on     a bogus vendor number in SAMS for his stepdaughter,
the loan, resulting in a loss of over $15,000 to the       and directed HUD funds to be paid to his stepdaughter
Department after the subsequent resale. Subpoenaed         via SAMS. Finally, Hansen created a bogus deed of
financial records from the lender revealed that no         sale reflecting a false sales price for the home
payments were made on the mortgage during the              purchased by his stepson. Using the false deed, the
period in which the homeowner was giving money to          stepson immediately obtained an equity loan from
Leone.                                                     Bank One to “cash out” for the true value of the
                                                           home.
Conversion of Government Property                               In the second indictment to which Hansen has
     In Grand Rapids, MI, in Federal Court for the         pled, he pled guilty to 10 counts of wire fraud and 10
Western District of Michigan, defendants Chad and          counts of conversion. Hansen admitted selling HUD
Dawn Elve, children of Terrance Hansen, the former         property disposition properties to Emalee and Jack
chief of property disposition, and Judy Hansen,            Birne at prices well below their appraised values. At
former HUD multifamily specialist, were sentenced          the time of the fraudulent sales, Emalee Birne was
for their earlier guilty pleas to conversion of govern-    acting as the HUD closing agent and was responsible
ment property. Chad Elve was sentenced to 18 months        for repossessed property closings on behalf of HUD.
incarceration, 300 hours of community service, and         Prior to this contract, Emalee Birne also served as
three years probation, and was ordered to pay $91,968      the real estate asset manager for the HUD Grand
in restitution. Dawn Elve was sentenced to six months      Rapids Office.
home confinement and three years probation, and was
ordered to pay $66,328 in restitution. Through their       Officer Next Door (OND) Program
stepfather, Terry Hansen, Chad and Dawn Elve
                                                                In Chicago, IL, the U.S. District Court for the
obtained HUD properties for $600 each when in fact
                                                           Northern District of Illinois entered a default judg-
they were valued at $96,000 and $80,000, respec-
                                                           ment in favor of the Federal Government in the
tively. In addition to their $600 purchases, they both
                                                           amount of $184,500 against defendant Robert
obtained equity out of the properties totaling $70,000
                                                           Mohedano, a participant in HUD’s OND Program.
and $40,000, respectively.
                                                           This amount was three times the discount price of
    Their mother, Judy Hansen, was previously              $61,500 for Mohedano’s initial purchase of the OND
sentenced to four months home confinement, three           property. Specifically, Mohedano allegedly rented out
years supervised release, and 300 hours of commu-          his OND property to a market rate tenant while he
nity service, was fined $2,000, and ordered to pay         lived elsewhere. Two months after the purchase of the
$53,400 in restitution to HUD. Terry Hansen has            property, Mohedano refinanced the house using a
already pled guilty to two of four different indictments   fictitious lease agreement between him and his
with which he was charged. Specifically, Hansen pled       girlfriend and received cash proceeds of approxi-
guilty to three counts of wire fraud and one count of      mately $75,000. While still bound by the OND three-
false statements for lying to federal agents during an     year commitment to live in the property, Mohedano
interview. In his capacity as chief property officer,      refinanced his other two properties and purchased an

Chapter 2 - HUD’s Single Family Housing Programs                                                                30
additional two residences, one of which was an FHA        July 2003 on charges of making false statements to
insured property in Puerto Rico. On all of these          HUD and to federal law enforcement officers. Cooper
subsequent purchases, Mohedano indicated that he          and Okotogbo, along with defendant Charles D.
would occupy the properties as his primary residence.     Brunson, a police officer for the City of Opa Locka
                                                          Police Department, were charged with falsely
    In Chicago, IL, in Federal Court for the North-       claiming that they used/intended to use their OND
ern District of Illinois, defendant Dionisio Flores, a    homes as their sole residences during the three-year
police officer with the Chicago Police Department,        occupancy requirement. Brunson was also sentenced
agreed to pay $138,000 through a civil settlement with    to one year probation.
the U.S. Attorney’s Office, Civil Division. This
amount is double damages for the $69,000 discount he           Defendant Stacey Orr, a former Kenosha, WI
received on his original purchase of an OND property.     police officer, pled guilty in Milwaukee, WI, in U.S.
Flores rented out the property to family members          District Court for the Eastern District of Wisconsin,
while he lived at his girlfriend’s house instead of       to one count of false statements in connection with
occupying the property as required by HUD regula-         two Uniform Residential Loan Applications used to
tions.                                                    obtain guarantees on two mortgages on two separate
                                                          properties. The original indictment charged Orr with
     In Milwaukee, WI, in Federal Court for the           failing to disclose the existence of loans on which he
Eastern District of Wisconsin, the U.S. Attorney’s        was making payments to the Kenosha Police and Fire
Office entered into a settlement agreement with           Credit Union. On the dates of the false statements,
defendant Jeffrey S. Stevens, a Milwaukee County          the unpaid balances were identified as $35,688 and
Sheriff’s Office deputy, on behalf of HUD with respect    $29,183, respectively. The second count of the
to Stevens’ failure to complete his required three        indictment charged Orr with submitting a false
years of residency at the property he purchased           statement related to the refinancing of a property
through HUD’s OND Program. Pursuant to the agree-         obtained through HUD’s OND Program. The indict-
ment, Stevens paid $12,500 to the United States. In       ment further stated that both mortgages subsequently
August 1998, Stevens purchased the OND property,          went into foreclosure. As a result of these foreclo-
which had been appraised at $38,000, for the dis-         sures, Orr failed to complete his three-year occu-
counted price of $19,000. He initially resided at the     pancy requirement under the OND Program, and the
property, but in December 2000, moved to live with        Department of Veterans Affairs (DVA) paid out
his fiance in a house that was purchased in her name      $27,181 for the guaranty. Orr had purchased the OND
in November 2000. Stevens then rented out his OND         property, then appraised at $71,100, for the discounted
property for $500 per month and subsequently sold the     price of $35,550, obtaining a 50 percent discount
property in August 2002 for $78,000.                      from HUD based on his agreement to reside in the
                                                          property for at least three years.
    Defendants Torris Cooper, a police officer for the
South Miami Police Department, and Gwendolyn                  In Chicago, IL, in Federal Court for the North-
Okotogbo, a corrections officer for the Metro-Dade        ern District of Illinois, a civil complaint was filed by
Department of Corrections, were sentenced in              the U.S. Attorney’s Office, Civil Division, against
Miami, FL, in Federal Court for the Southern              defendant Ronald Johnson, a police officer, who
District of Florida. Cooper was sentenced to 15           allegedly rented out his OND Program property
months incarceration, 24 months probation, and 200        instead of occupying it as his residence. Johnson
hours of community service. The judge delayed her         purportedly resided with his girlfriend in lieu of
finding on restitution until a later date. Okotogbo was   occupying the property. The U.S. Attorney’s Office is
sentenced to four months home confinement and 12          seeking $98,000, which is half of the $196,000 FHA
months probation, and was ordered to pay $43,200 in       insured Section 203(k) loan.
restitution to HUD. The defendants were two of three
law enforcement officers who purchased homes                  In Chicago, IL, in Federal Court for the North-
through HUD’s OND Program and were indicted in            ern District of Illinois, a civil complaint was filed by

Chapter 2 - HUD’s Single Family Housing Programs                                                                 31
the U.S. Attorney’s Office, Civil Division, against      certified in a gift letter that he was giving $12,000 to
John Luckett, a corrections officer, who allegedly       Juan Carlos Ayala toward the purchase of an FHA
rented out his OND Program property instead of           insured property. Ayala was previously sentenced to
occupying it as his residence. In addition, Luckett      six months incarceration and one year supervised
allegedly obtained a loan for another single family      release for making false certifications on his loan
property during the required three-year occupancy        application. Gomez-Mercado also pled guilty to mail
timeframe, claiming he would be the owner/occu-          fraud in connection with his underreporting of income
pant. The U.S. Attorney’s Office is seeking $57,000,     from a business that he owns and his subsequent
which is half of Luckett’s $114,000 conventional loan.   failure to pay related sales taxes.
                                                             Gomez-Mercado was charged as a result of a
Grand Larceny                                            Joint Terrorist Task Force looking into the transporta-
    Defendant Jean Guilbaud, a real estate broker        tion of illegal aliens and the creation of counterfeit
who is presently a fugitive, was indicted in State       identification documents in the Tidewater area. HUD
                                                         OIG was tasked with investigating FHA insurance
Court, Nassau County, NY, on four counts of grand
larceny, one count of scheme to defraud, and one         fraud and the manufacture of fraudulent identification
count of bail jumping in connection with a $40,000       documents.
HUD real estate owned fraud scheme. Guilbaud was
authorized to submit bids on HUD owned properties on
behalf of the general public. She was charged with
receiving bid deposits from complainants, ranging
from $1,000 to $13,000, and failing to return the
deposits when the bids were not awarded. Guilbaud
also failed to pass bid deposits on to HUD that were
due from winning bidders who failed to close on the
properties. HUD has since terminated Guilbaud’s
approval to bid on HUD owned properties.

Harboring Unauthorized Aliens
    In Norfolk, VA, in U.S. District Court for the
Eastern District of Virginia, defendant Ubaldo
Gomez-Mercado was sentenced to 33 months incar-
ceration for harboring unauthorized aliens, 33 months
incarceration for mail fraud, and 33 months incar-
ceration for making false statements on a loan
application, all to be served concurrently. Gomez-
Mercado was also sentenced to three years super-
vised release and was ordered to pay $23,185 in
restitution. Upon his release from prison, Gomez-
Mercado is required to surrender himself to the
Bureau of Immigration and Customs Enforcement to
undergo a deportation hearing.
    Gomez-Mercado used strawbuyers to purchase
FHA insured properties in a scheme to hide his own
assets and to establish secure locations to house
illegal immigrants. Both the strawbuyers and a large
number of illegal immigrants worked for businesses
owned by Gomez-Mercado. The defendant falsely

Chapter 2 - HUD’s Single Family Housing Programs                                                               32
     Chapter 3 — HUD’s Public and Indian Housing Programs

    HUD provides grants and subsidies to approxi-                                             PIH Dollars
                                                                  $60,000,000
mately 4,200 public housing agencies (PHAs) nation-
wide. About 3,200 PHAs manage public housing units                $50,000,000

and another 1,000 PHAs, with no public housing,
manage units under Section 8 Programs. Many PHAs                  $40,000,000


administer both Public Housing and Section 8 Pro-                 $30,000,000
grams. HUD also provides assistance directly to
PHAs’ resident organizations to encourage increased               $20,000,000

resident management of public housing developments
and to promote the formation and development of                   $10,000,000


resident management entities and resident skills.                         $0
Programs administered by PHAs are designed to                                   Internal Audits    External Audits      External
                                                                                                                       Memoranda
enable low-income families, the elderly, and persons                            Questioned Costs            Funds Put to Better Use
with disabilities to obtain and reside in housing that is
safe, decent, sanitary, and in good repair.

Audits                                                      HUD Management of PHA
                                                            Development Activities
    During this reporting period, the OIG issued 23
reports: three internal audits, 13 external audits, and          We conducted an audit to determine whether HUD
seven external memoranda in the Public and Indian           had adequate management controls to assess PHA
Housing Program area. These reports disclosed               development activities. We found that HUD often was
about $43.5 million in questioned costs, and over           unaware of the extent to which activities with related
$54.5 million in recommendations that funds be put to       nonprofit organizations impacted PHA operations and
better use. During this reporting period, we reviewed       of the numerous Annual Contributions Contract (ACC)
HUD management of PHA development activities, the           violations associated with them. HUD had neither the
portability features of the Section 8 Housing Choice        mechanisms to readily identify or monitor such
Voucher Program, the Moving to Work Program, and            activities, nor staff adequately trained to detect
activities at various PHAs. In addition, we are report-     improper transactions. Further, even when field
ing on our audit work that related to a qui tam lawsuit     offices did become aware of improper activities, they
involving overbilling by a security company.                did not aggressively pursue corrective actions to stop
                                                            the activities or recover funds.
                                                                 PHAs did not fully disclose activities with related
                       PIH Reports Issued
                                                            nonprofit organizations in their financial statements
                                                            and Independent Public Accountants did not include
                  13                                        findings when those activities violated ACCs or other
                                                            requirements. PHAs also claimed to misunderstand
                                               7
                                                            HUD’s rules. The impact of known and potential
                                                            violations is high. Our analysis of key account bal-
                                                            ances from PHAs’ audited financial statements
                                           3                identified 777 PHAs with indicators of possible
                        Internal Audits
                                                            unauthorized development activities. Eleven PHAs
                        External Reports
                        External Memoranda
                                                            recently audited by OIG and four PHAs reviewed for
                                                            this audit, all of which had unauthorized development


Chapter 3 - HUD’s Public and Indian Housing Programs                                                                                  33
activities, were included in the 777 PHAs. The OIG          tained fatal errors that circumvented system edit
audits questioned over $16 million. For the 777 PHAs,       checks. HUD’s risk of program fraud increases and
the potential risk to the Low-Income Public Housing         the reliability of PIC information decreases because of
Program alone could be $600 million or more. The            these deficiencies.
potential negative impact of the inequitable agree-
                                                                We recommended that HUD require PHAs to
ments is unknown, but also could be substantial.
                                                            communicate sufficiently with each other and to
     We recommended that HUD take immediate steps           refund any outstanding overpayments to initial PHAs;
to identify PHAs involved in nonprofit development          provide guidance to PHAs on how refunded amounts
activities, halt deals that violate the ACCs, and begin     should be recorded on the financial statements; and
training its own staff and the public housing commu-        impose administrative sanctions against PHAs that do
nity on the legal avenues for developing low-income         not comply with HUD regulations related to the
housing through nonprofit affiliates. (Report No.           portability features of the HCVP. (Report No. 2004-
2004-AT-0001)                                               BO-0006)
    To further assess the impact of the inadequate
controls over these activities, we are auditing develop-    Moving to Work Program
ment activities at PHAs selected from the list of 777           Our audit of HUD’s oversight of the Philadelphia,
referred to above. This effort is ongoing. During this      PA Housing Authority’s (PHA) Moving to Work
semiannual reporting period, we completed audits at         Program, a new flexible housing demonstration
four PHAs where findings included improper develop-         program, found that HUD accepted the PHA into the
ment activities. Presented below under “Public              program without restriction before carefully evaluat-
Housing Agency Activities” are the results of our           ing the reasons for the PHA’s past poor performance
audits of the Corpus Christi, TX, Petersburg, VA,           in utilizing its Section 8 funding and the merits of its
Cuthbert, GA, and Ft. Lauderdale, FL PHAs.                  Moving to Work application. Although HUD was
                                                            within its authority to accept the PHA into the demon-
Portability Features of the Section 8                       stration program, by doing so it incurred a high risk.
                                                            HUD should have established more stringent controls
Housing Choice Voucher Program                              under its agreement with the PHA to ensure its
                                                            interests were adequately protected and HUD funds
     Our audit of the portability features of the Section
                                                            were used in the most effective manner to serve the
8 Housing Choice Voucher Program (HCVP) deter-
                                                            residents of the community.
mined that the PHAs’ administration of the portability
features was not always effective when the receiving            After it accepted the PHA into the Moving to
PHA terminated program participants. In 33 percent          Work Program, HUD did not provide adequate over-
of the 335 terminations reviewed, the payments from         sight of the development and implementation of the
the initial PHA to the receiving PHA continued after        PHA’s Moving to Work plans. Specifically, HUD did
the program participant terminated. Overpayment             not adequately evaluate the appropriateness of the
periods ranged from one month to 22 months and              PHA’s proposed alternative uses of Section 8 funds to
totaled over $158,000; we attributed the overpayments       determine if they would better serve the residents of
to poor communication between PHAs. In addition,            Philadelphia, nor did HUD develop an effective
initial PHAs have limited access to data for program        monitoring plan to track the PHA’s progress and
participants terminated by the receiving PHA. Conse-        performance in implementing its new program.
quently, Housing Choice Vouchers were not available
to serve other needy clients.                                   HUD personnel stated that the Department was
                                                            reluctant to interfere with the PHA’s Moving to Work
    We analyzed the current databases for the six           plans because it viewed this action as contrary to the
New England States from the Multifamily Tenant              philosophy of the demonstration program. They also
Characteristics System module of the Public and             said a lack of resources hindered HUD’s ability to
Indian Housing Information Center (PIC) and found           adequately monitor the PHA’s performance under the
that seven percent of the data fields reviewed con-         program. As a result, HUD has no assurance that the

Chapter 3 - HUD’s Public and Indian Housing Programs                                                              34
PHA’s plans to spend as much as $134 million of            Broken window with jagged edged glass at Section 8 unit
Section 8 funds in alternative ways, over the seven-       administered by the Springfield Housing Authority.
year term of its Moving to Work Agreement, will
provide more efficient and effective housing assis-
tance to needy families in the City.
     In a September 2003 audit, the OIG determined
that the PHA was not able to fully utilize its Section 8
Program due to limitations in the way it administered
the program. HUD’s local field office had similar
concerns; the PHA’s Section 8 Management Assess-
ment Program scores reflected its performance
problems. In effect, HUD rewarded the PHA for its
past poor performance by allowing it to participate in
the new program in which it has the flexibility to use
substantial Section 8 funds in non-traditional ways.
Accordingly, we believe the PHA could put to better
use an estimated $50.2 million of the Section 8            Hole in bathroom floor at Section 8 unit administered by the
                                                           Springfield Housing Authority.
funding it will receive over the remaining four years
of its Agreement by leasing-up the remaining rental
housing vouchers in its inventory. (Report No. 2004-
PH-0003)

Public Housing Agency Activities
     Our audit of the Springfield, MA Housing
Authority found that the Authority: (1) failed to ensure
that its Section 8 housing met housing quality stan-
dards; (2) violated federal conflict of interest provi-
sions; (3) inappropriately charged over $550,000 to
the Capital Fund Program (CFP), and if it does not
change its practices, stands to charge an additional
$411,000; (4) lacked adequate management controls to
protect the integrity of its federal programs; (5)             In addition, the Authority may have inappropri-
ignored implementing an equitable method of allocat-       ately received $1.6 million in Section 8 administrative
ing costs between its federal and state housing            fees in FY 2003. Also, although the Authority ex-
programs; (6) inadequately determined the rent             pended $19 million in federal awards in FY 2002, the
reasonableness for units entering the Section 8            Authority did not follow its own policies or federal
Program and subsequent rent increases; (7) submit-         regulations when procuring goods and services.
ted inaccurate performance and financial data to           Furthermore, the Authority cannot assure HUD that it
HUD; and (8) improperly procured goods and services        properly monitors its modernization grants by main-
and lacked adequate documentation to ensure its grant      taining sufficient records to ensure that its $10 million
program complied with federal regulations.                 modernization program complies with federal
                                                           regulations and that related performance goals are
    Eighty-six percent of the Authority’s $11 million in   being realized.
housing assistance payments for FY 2002 were
questionable because HUD cannot be assured that the            We recommended, among other things, that: (1)
payments were for decent, safe, and sanitary housing.      the Authority provide assurances that $9.8 million in
Examples of cases in which the Authority failed to         housing assistance payments for FY 2002 were used
ensure that its Section 8 housing met housing quality      for decent, safe, and sanitary housing; (2) HUD
standards are shown as follows:                            determine if the Authority has any funds available
Chapter 3 - HUD’s Public and Indian Housing Programs                                                                 35
from its low-income operating budgets for FYs 1998          achieving potential annual cost savings of over
through 2001 and whether it may reassign over               $390,000; (6) recover all ineligible and unsupported
$550,000 in ineligible and $411,000 in questioned CFP       costs; and (7) implement adequate procedures over
costs; (3) the Authority submit corrected operating         the procurement process. We also recommended that
budgets and audited financial statements for the last       HUD sanction the former ED, as appropriate. (Report
four fiscal years in support of $21.6 million in salaries   No. 2004-BO-1004)
charged to federal programs; and (4) the Authority
repay unearned administrative fees of over $1.6                  At the request of the Director of Public Housing,
million for FY 2003. In addition, HUD should take           we audited the Housing Authority of Corpus Christi,
appropriate administrative sanctions, where war-            TX, to determine whether the Authority used funds in
ranted. (Report No. 2004-BO-1005)                           accordance with HUD requirements under the Low-
                                                            Rent, Section 8, Drug Elimination, and Resident
    Our audit of the Danbury, CT Housing                    Opportunity and Self-Sufficiency Programs. We found
Authority’s Capital Fund Program (CFP) disclosed            that the Authority violated HUD program require-
that the Authority’s: (1) $11 million variable rate         ments by spending over $4 million in HUD funds for
general obligation bonds were declared to be in             ineligible and questionable purposes. The Authority
default by the bank, making them immediately due            management used over $1 million in HUD program
and payable; (2) financial viability is threatened and it   funds for unauthorized purposes and cannot support
lacks the ability to pay debt and fees associated with      over $3 million in arbitrary payroll allocations and
the bonds; and (3) operations are not being managed         other program costs. The unauthorized and unsup-
effectively and efficiently. The Authority lacked           ported costs charged to HUD programs included costs
adequate policies, procedures, and internal controls        to develop a housing project of an affiliated nonprofit
governing the use of vehicles, cellular phones, and         entity and arbitrary allocations of administrative
maintenance costs. We identified potential annual cost      costs.
savings (funds put to better use) of over $390,000.
                                                                Examples of the Authority’s misuse of program
    The audit also found that the Authority incurred        funds include the following. The Authority: (1) used
nearly $93,000 of ineligible and unsupported costs.         over $2.9 million in Low-Rent funds to pay develop-
We identified $73,000 of ineligible salary bonus            ment and salary costs of an affiliated nonprofit’s
payments made to the executive director (ED) and his        housing project, Section 8 Program salary and benefit
staff, $9,800 of personal expenses (ceramic tiles and       costs, and administrative costs; (2) used nearly
a cellular phone) that the ED charged to the Authority,     $534,000 in Section 8 Voucher Program funds to pay
and $10,000 in unsupported costs paid to the ED. In         the development and salary costs of an affiliated
addition, the Authority’s procurement practices did         nonprofit’s housing project and arbitrary salary and
not comply with HUD regulations and its own procure-        benefit cost allocations; (3) used over $228,000 in
ment policy.                                                Drug Elimination Grant funds to pay the development
                                                            and salary costs of an affiliated nonprofit’s housing
      We recommended that the Authority: (1) take
                                                            project and questionable program costs; and (4) used
steps to recover approximately $1.9 million of the
                                                            over $194,000 in Capital Funds to pay arbitrary salary
$2.3 million in improper bond related transactions
                                                            and benefit cost allocations.
related to an improper contractor advance, ineligible
loans, and unsupported costs; (2) work with the bank            Authority managers told the OIG they were not
and the contractor’s surety company to negotiate a          familiar with the provisions of Low-Rent and Section
restructuring agreement for the bonds; (3) develop a        8 contracts, federal cost principles, and other HUD
long-term cash flow analysis and a plan to show how         program requirements for cost eligibility. They also
its financial obligations and public housing modern-        told us they thought that all HUD program funds could
ization needs will be addressed; (4) establish ad-          be used for the purpose of providing any affordable
equate policies, procedures, and internal controls          housing for people throughout Corpus Christi. During
governing the use of vehicles, cellular phones, and         the audit, Authority officials indicated they took action
maintenance costs; (5) implement OIG suggestions for        to address our concerns by implementing cost alloca-

Chapter 3 - HUD’s Public and Indian Housing Programs                                                               36
tion plans and timekeeping procedures to properly              As part of an ongoing comprehensive audit of the
allocate salaries and benefits. In addition, the Author-   Kankakee, IL County Housing Authority, the OIG
ity paid back to HUD programs or recorded inter-fund       audited the Authority’s Section 8 Housing Program.
payables for nearly $489,000 of the unallowable costs      A citizen’s complaint to the OIG alleged that the
we identified for nonprofit activities and common cost     Authority’s former executive director, who left the
allocations.                                               Authority in 2001, was not qualified for his position.
    We recommended that the Authority implement                We found that the Authority’s management
effective procedures to ensure costs are eligible and      controls over its Section 8 Housing Program were
adequately documented. The Authority also needs to         very weak. The Authority lacked adequate procedures
repay all ineligible costs incurred during and subse-      and controls over housing quality standards (HQS) and
quent to the audit period. In addition, HUD should         administrative processes, resulting in Section 8 units
obtain sufficient support for the arbitrary salary and     that contained health and safety violations. A total of
benefit allocations, common cost allocations, and          873 HQS violations were found in 47 of the 50 units
other questionable costs, and recover any remaining        inspected.
unsupported costs. (Report No. 2004-FW-1004)
                                                           Electrical wall outlet cover plate missing at Kankakee
                                                           Housing Authority unit.
     In response to an anonymous complaint, the OIG
reviewed the Public Housing Drug Elimination
Program grant funds awarded to the Allegheny
County Housing Authority, Pittsburgh, PA, for FYs
1996 through 2000. The complainant alleged that the
Authority was misspending grant funds on various
ineligible expenditures, such as payments to consult-
ants, a $20,000 wood chipper, and entertainment. We
found that the Authority did not administer its Drug
Elimination Program according to its grant agree-
ments with HUD and applicable HUD rules and
regulations. Specifically, the Authority did not always
ensure program expenditures were eligible and
properly supported, and did not properly follow
federal procurement requirements when it awarded a         Doorframe heavily damaged, loose hinges, at Kankakee
number of service contracts. Therefore, the                Housing Authority unit.
complainant’s allegations that the Authority misspent
grant funds had merit. The deficiencies can be
attributed to the Authority’s lack of proper controls.
As a result of these deficiencies, the Authority spent
over $615,000 on ineligible expenditures and drew
down over $761,000 of grant funds for expenditures
that were not properly supported.
     In addition to making recommendations to
improve the Authority’s management of its grant
funds, we requested that HUD ensure that the Author-
ity reimburses HUD for the ineligible and questioned
costs it cannot properly support, and develop and
implement appropriate management controls to               .
correct the weaknesses cited in this report. (Report
No. 2004-PH-1002)


Chapter 3 - HUD’s Public and Indian Housing Programs                                                                37
     In addition, the Authority failed to properly           ensure that the Authority’s $2.2 million in Section 8
enforce the City of Kankakee’s ordinance governing           Program funds are used appropriately. (Report No.
the licensing of housing units occupied by persons           2004-CH-1001)
other than the owners. The Authority: (1) made over
$36,000 in housing assistance payments (HAPs) for 11              Our audit found that the Petersburg, VA Redevel-
units without executing HAP contracts with the land-         opment and Housing Authority improperly used
lords; (2) lacked HAP contracts, lease agreements,           federal funds on a regular basis to support its non-
and/or tenancy addendums to show that over $324,000          federal entities and placed its Annual Contributions
in HAPs for 40 units were appropriate; (3) incorrectly       Contract assets at risk by improperly guaranteeing
calculated HAPs for 19 units; (4) failed to conduct five     the debt of two of its three affiliated non-federal
reexaminations for four tenants; (5) did not complete        entities. This occurred because the Authority did not
seven reexaminations prior to the anniversary date for       properly account for the work its employees per-
nine tenants; (6) lacked other required supporting           formed, and failed to establish appropriate manage-
documentation for 56 reexaminations for 29 units; (7)        ment controls to prevent it from encumbering or
failed to review and/or did not have documentation to        pledging its federal assets without HUD approval. The
support its utility allowances and Section 8 Housing         Authority’s high management turnover, inadequate
Choice Program payment standards; (8) did not                financial system, and practice of allowing key Author-
properly establish or manage its Family Self-Suffi-          ity personnel to serve in similar roles for its non-
ciency Program according to the minimum required             federal entities contributed to these problems.
program size; (9) failed to open a federally insured
                                                                  As a result, the Authority improperly pledged
interest bearing investment account and deposit
                                                             assets to guarantee debt incurred by its non-federal
escrow balances totaling over $37,000 into the ac-
                                                             entities estimated at over $950,000. Additionally, the
count; and (10) did not properly complete rent reason-
                                                             Authority paid salaries estimated at more than
ableness certifications for Section 8 housing units
                                                             $620,000 from federal funds for work its employees
placed under contract.
                                                             performed in support of its affiliated non-federal
    The Authority’s board of commissioners did not           entities on a part-time basis from January 2001 until
adequately exercise its responsibility to effectively        December 2003. Further, we estimated the Authority
manage the Authority, and the Authority’s former             could more effectively use another $370,000 annually
executive directors did not implement adequate               by ensuring it properly accounts for and receives
controls to ensure that Section 8 units were free of         reimbursement for work its employees perform for its
health and safety violations. Further, the Authority’s       affiliated non-federal housing projects, and by pre-
board and former executive directors did not follow          venting apparent conflict of interest situations in the
federal requirements, the City of Kankakee’s ordi-           future. Under the Consolidated Annual Contributions
nance, or the Authority’s own policies.                      Contract, these activities may be considered events of
                                                             substantial default.
     We recommended that HUD assure that the
Authority implements procedures and controls to                   We recommended that HUD require the Authority
correct the weaknesses cited in this report. In addi-        to recover or repay from non-federal funds over
tion, HUD should: (1) take administrative action             $620,000 in salaries, implement controls to prevent it
against the Authority’s former executive directors and       from pledging future HUD assets, and withdraw its
board of commissioners for failing to administer the         pledge of Consolidated Annual Contributions Contract
Authority according to federal, City of Kankakee, and        assets. In addition, HUD should take appropriate
its own requirements; (2) provide training and techni-       administrative action against the chairmen of the
cal assistance to the Authority’s staff and its board of     Authority’s board of commissioners responsible for
commissioners regarding their duties and responsi-           pledging HUD assets. Lastly, the Authority should
bilities; and (3) issue a notice of default to the Author-   develop a reasonable method for allocating and
ity as permitted by the Consolidated Annual Contribu-        collecting future costs from its affiliated non-federal
tions Contract. HUD’s default notice should help             entities. (Report No. 2004-PH-1005)


Chapter 3 - HUD’s Public and Indian Housing Programs                                                                 38
     The Housing Authority of the City of Cuthbert,        and nearly $24,000 to support the activities of an
GA, violated its Annual Contributions Contract (ACC)       affiliated nonprofit. On December 5, 2003, the
with HUD by inappropriately advancing funds and            Authority reimbursed all but $82,000.
pledging assets for non-federal development activities.
                                                               The Authority did not have a proper cost alloca-
As of April 2002, management had advanced nearly
                                                           tion plan to support the allocation of over $11,000 to
$800,000 of low-income housing (LIH) funds to the
                                                           the Section 8 Program and more than $86,000 of
Southwest Georgia Housing Development Corporation
                                                           indirect costs to LIH and Section 8 funds. We believe
(SGHDC) to pay its development expenses. As of June
                                                           these deficiencies occurred because the Authority has
2003, SGHDC had reimbursed the Authority all but
                                                           not established adequate controls to monitor and
about $300,000. The advances reduced LIH funds
                                                           ensure that its transactions adhere to HUD require-
available for Authority operating expenses. Manage-
                                                           ments.
ment also inappropriately pledged assets when it
guaranteed repayment of two SGHDC loans totaling               We recommended that HUD require the Authority
nearly $700,000. Further, the Authority’s executive        to establish procedures to ensure that its assets are
director, who was also the secretary/treasurer of          not encumbered or pledged without HUD approval;
SGHDC, violated conflict of interest restrictions. We      establish adequate controls to monitor and ensure that
attributed these deficiencies to the fact that the board   transactions comply with the ACC and other HUD
of commissioners did not establish sufficient controls     requirements; reallocate costs of $11,000 from the
to monitor the nonprofit and ensure transactions           Section 8 Program to the Affordable Housing Pro-
adhered to federal regulations. In addition, the           gram; develop a reasonable method of allocating
executive director did not have a full understanding of    shared and indirect costs in accordance with appro-
the provisions of the Quality Housing and Work             priate regulations; and reallocate costs of $86,000 to
Responsibility Act of 1998.                                other programs using a reasonable method. (Report
                                                           No. 2004-AT-1003)
    We recommended that the Authority be required
to collect the approximately $300,000 due from
                                                                Our audit of the City of Little Rock, AR Housing
SGHDC and discontinue advancing funds, and ensure
                                                           Authority disclosed that the Authority lacked suffi-
that its assets are not encumbered or pledged without
                                                           cient controls and management over its procurement
HUD approval. In addition, HUD should ensure that the
                                                           process and assets. The Authority sole-sourced two
board of commissioners takes appropriate measures
                                                           contracts that were not approved by HUD, resulting in
to prevent conflict of interest situations, and require
                                                           over $228,000 in unsupported payments. The Author-
the Authority to develop a reasonable method for
                                                           ity also needs to improve maintenance and security at
allocating costs. (Report No. 2004-AT-1001)
                                                           some sites. Needed maintenance included demolition
                                                           of units not viable to rehabilitate; securing of vacant
     As part of an audit of HUD’s oversight of public
                                                           buildings; routine repairs to and repainting of units
housing agency activities with related nonprofit
                                                           per tenant requests; treatment for insects; replace-
entities, the OIG reviewed the administration of
                                                           ment of smoke detector batteries and air conditioning
development activities by the Housing Authority of the
                                                           filters; cleaning of common areas; and improvements
City of Fort Lauderdale, FL. The audit disclosed that
                                                           to security.
the Authority violated its Annual Contributions
Contract (ACC) with HUD by inappropriately pledging            The audit also found that the Authority did not
assets and advancing funds for some of its activities.     develop and implement written policies and proce-
The Authority’s management inappropriately pledged         dures for disbursements to ensure its funds were
assets of $452,000 in low-income housing (LIH) funds       properly expended or assets were properly utilized.
to assure the rehabilitation and purchase of two non-      Further, the Authority’s independent audits were not
federal development activities. Management also            completed timely for FYs 2000 and 2001 and they did
inappropriately advanced over $151,000 in LIH funds        not disclose identity-of-interest issues with related
to support various programs. Specifically, the Author-     nonprofit development entities. These entities paid
ity used nearly $128,000 to purchase inventory             $20,000 to the Authority’s executive director and
materials or insurance for seven programs/activities,      deputy director during the audit period.
Chapter 3 - HUD’s Public and Indian Housing Programs                                                            39
     We recommended that the Authority adhere to its      HACLA’s management of its legal affairs, including
procurement policy; support or repay any amounts          failure to advise HUD of significant legal matters.
that it paid in excess of reasonable costs; and re-       Specifically, HACLA incurred outside legal service
procure the contracted services. Further, the Author-     fees and entered into a $1.8 million litigation settle-
ity should promptly identify and correct maintenance      ment agreement to resolve an employee lawsuit
and security deficiencies and implement the neces-        without required prior HUD notification and approval.
sary policies to prevent the deficiencies from recur-     HACLA also incurred unnecessary and ineligible
ring. Finally, HUD should review the relationship         attorney fees of over $119,000 on behalf of a consult-
between the Authority and the nonprofit entities and      ant and over $47,000 in unnecessary attorney fees to
take necessary action regarding the money given to        monitor information requests and activities of the OIG
the two directors. (Report No. 2004-FW-1001)              during our review.
                                                              We recommended that HUD ensure HACLA uses
     In response to a complaint regarding the Seattle,
                                                          non-federal funds to reimburse its Low-Rent Housing
WA Housing Authority’s procurement and award of
                                                          Program for the ineligible legal fees and require
Section 8 project-based vouchers, and personnel
                                                          HACLA to establish appropriate policies and proce-
conduct issues regarding conflict of interest and
                                                          dures to ensure that in the future, legal activities are
lobbying, we audited the Authority. The audit results
                                                          carried out in accordance with HUD requirements.
indicated that the complaint was not valid. However,
                                                          (Report No. 2004-LA-1002)
during the review we found that the Authority improp-
erly waived part of its published contracting require-
ments when it awarded Section 8 project-based             Qui Tam Civil Lawsuit
vouchers to the YWCA. Because the Authority did not            For over three years, OIG has provided extensive
provide other potential applicants with the opportunity   audit assistance to an Assistant U.S. Attorney (AUSA)
to submit proposals based on the waived require-          on a qui tam civil lawsuit against Patrol Services, Inc.
ments, the procurement process was neither open nor       Patrol Services routinely overbilled for its services as
fair to all possible proposers. This occurred because     if every guard shift were fully staffed, and submitted
the Authority did not have clear and specific controls    false time records listing nonexistent persons and
to ensure that the requirements of the Request for        persons who did not work the hours claimed. OIG
Proposals were followed when determining eligibility      estimated that Patrol Services over-claimed $536,000
of proposals.                                             from February 1997 through September 1998. The
    We recommended that HUD determine if the              AUSA settled the case out of court. Under the settle-
Authority has implemented policies and procedures to      ment, the government will receive $100,000 from the
ensure that procurements are performed fairly and         Atlanta, GA Housing Authority and $300,000 from
openly. The Authority should also be required to          Dominium Management Georgia Company, a manage-
implement necessary controls. (Report No. 2004-SE-        ment contractor for the Authority, and its parent,
1001)                                                     Dominium Management Services, Inc. Dominium
                                                          hired Patrol Services to provide security guard
    We previously completed a review of the procure-      services at three Housing Authority properties and
ment activities of the Housing Authority of the City of   was responsible for overseeing its performance and
Los Angeles, CA (HACLA), including ongoing moni-          billings. The husband and wife owners of the now
toring and management of resultant contracts as they      bankrupt Patrol Services, Andrew and Michelle
relate to HACLA’s Resident Management Corpora-            Bryan, separately consented to judgments in favor of
tions/Resident Advisory Councils (RMCs). The review       the U.S. totaling $380,000. The qui tam relator will
was initiated in response to several citizen complaints   receive 25 to 30 percent of settlement amounts
alleging irregularities with HACLA’s RMCs and related     collected by the U.S.
contracting activities. Legal complications have
precluded the issuance of a final audit report describ-
ing the results of this review. However, as part of the
review, we also identified problems related to
Chapter 3 - HUD’s Public and Indian Housing Programs                                                            40
Investigations                                             the items to be forfeited and the Racketeering Influ-
                                                           enced Corrupt Organizations (RICO) enterprise, as
     During this reporting period, the OIG opened 519      required for forfeiture under the RICO statute. The
investigation cases and closed 335 cases in the Public     jury returned a verdict for the forfeiture of $1,253,338
and Indian Housing Program area. Judicial action           from defendants Bode, Adefehinti, Akinkuowo, and
taken on these cases during the period included            Akinleye. Of this amount, $98,588 involved Section 8
$4,438,487 in investigative recoveries, $12,659,934 in     benefits which were fraudulently obtained. The
funds put to better use, 341 indictments/informations,     remainder was the amount of loan proceeds obtained
212 convictions/pleas/pre-trial diversions, 230 admin-     from commercial lending institutions.
istrative actions, eight civil actions, and 691 arrests.
The results of our more significant investigations are
described below.                                           PHA Management and Program
                                                           Officials/Employees
Racketeering
                                                                In Marquette, MI, in Federal Court for the
     In Federal Court for the District of Columbia,        Western District of Michigan, defendant Brenda Lou
the following verdicts were handed down against            Welsh, the former executive director of the Keweenaw
defendants Tayo John Bode, Sunday Yemi Adefehinti,         Bay Ojibwa Housing Authority (KBOHA), was sen-
Stephen Benson Akinkuowo, Olushola Akinleye, and           tenced for embezzling funds from the Authority. She
Protech Builders, Inc. Bode was found guilty of one        was sentenced to 36 months incarceration and 36
count of racketeering, six counts of bank fraud, two       months supervised release, and was ordered to pay
counts of money laundering, and four counts of             $420,780 in restitution to HUD. Welsh was the execu-
interstate transportation of stolen property. Adefehinti   tive director of the KBOHA from March 1972 until
was found guilty of one count of racketeering, five        June 2001 and used her position to embezzle funds.
counts of bank fraud, one count of money laundering,       She used a variety of payees, including cash to her-
and one count of interstate transportation of stolen       self, credit cards, and car payments. The stolen funds
property. Akinkuowo was found guilty of one count of       consisted primarily of funds appropriated to the
racketeering, two counts of bank fraud, three counts       Authority by HUD.
of money laundering, 14 counts of mail fraud, and
three counts of interstate transportation of stolen             In Tampa, FL, in Federal Court for the Middle
property. Akinleye was found guilty of one count of        District of Florida, defendant Audley Evans, the
racketeering and three counts of bank fraud. Protech       former executive director of the Tampa Housing
Builders, Inc., was found guilty of one count of           Authority, was sentenced to 33 months in prison and
racketeering and three counts of bank fraud.               24 months probation, and was ordered to pay $20,000
                                                           in restitution and $400 in court fees. Evans was
     The defendants were involved in a scheme in
                                                           convicted on three counts of making false statements
which they flipped properties, transferred ownership
                                                           to HUD, two counts of bribery, and one count of
into the names of strawbuyers, fraudulently obtained
                                                           conspiracy.
conventional mortgages, and then entered the proper-
ties into the Section 8 Program. The defendants
                                                               Defendant Debra Smith, the former Section 8
allowed the properties to go into default and subse-
                                                           housing assistance manager for the Housing Authority
quent foreclosure while continuing to receive Section
                                                           of Bogalusa, was sentenced in New Orleans, LA, in
8 rental subsidies. A Section 8 subsidized apartment
                                                           Federal Court for the Eastern District of Louisiana, to
was used by the defendants to make the false identi-
                                                           five years probation and was ordered to pay $6,990 in
ties of the strawbuyers appear to be legitimate.
                                                           restitution for her role in defrauding the Section 8
Annual certifications made to HUD regarding this
                                                           Housing Assistance Payment (HAP) Program. Smith
Section 8 apartment were false.
                                                           previously pled guilty to making false statements to
    In October 2003, a hearing was held before the         HUD. From January 1997 to March 1999, Smith used
jury to determine whether there was a nexus between        her position to create and approve fraudulent Section

Chapter 3 - HUD’s Public and Indian Housing Programs                                                            41
8 HAP contracts in the names of family and friends.      Tyler, former administrative assistant at the CHA,
As a result of the scheme, about $25,000 in Section 8    each pled guilty to issuing a false instrument. The
payments were made to landlords who are Smith’s          defendants altered criminal background checks in
relatives.                                               order to allow prospective tenants into HUD subsi-
                                                         dized housing. Both Houk and Tyler received a
    Defendant Derrick Moreau, former executive           suspended imposition of sentence and two years
director of the Simmesport Housing Authority, pled       probation, and were ordered to perform 60 hours of
guilty in Simmesport, LA, in Avoyelles Parish State      community service.
Court, to seven counts of felony theft, one count of
malfeasance in office, and one count of misdemeanor          Defendant Susan Adams, former executive
theft. Moreau was sentenced to eight years on each of    director of the Auburn Housing Authority, was
the felony theft counts, five years on the malfeasance   sentenced in Omaha, NE, in U.S. District Court for
in office charge, and six months on the misdemeanor      the District of Nebraska, for embezzling $15,881
theft charge, all to run concurrently. While working     from the Housing Authority. She was sentenced to
as executive director, Moreau was reimbursed for         three years probation and 120 hours of community
items that had previously been purchased by the          service, and was ordered to pay $15,881 in restitution
Housing Authority, paid for personal expenses, such      and a $100 assessment fee.
as child support payments, and purchased a new air
conditioner for his home using Authority funds.               The Departmental Enforcement Center sus-
                                                         pended and proposed debarment against former
     Defendant Eddy Lee Summers, former deputy           Lycoming County Housing Authority employee
executive director of the Wheeling, WV Housing           Theresa Coughlin. Coughlin was convicted and
Authority (WHA), was debarred by the HUD Enforce-        sentenced in Williamsport, PA, in U.S. District
ment Center from future participation in HUD funded      Court, Middle District of Pennsylvania, to five years
programs. Summers was also ordered to pay $12,240        supervised probation and 100 hours of community
in restitution. Summers, who pled guilty in June 2003    service, and was ordered to pay $28,000 in restitution
to embezzling $3,496 from the WHA petty cash             to the Housing Authority. Coughlin was charged with
account by submitting falsified invoices for equipment   208 counts of theft for failure to make required
and services, will also be prohibited from obtaining     disposition of funds, tampering with public records,
employment with organizations receiving funding          and receiving stolen property. She was employed as
from HUD. Summers created a scheme to defraud            the housing coordinator at the Pennvale public housing
WHA by identifying these expenditures as emergencies     development when the thefts occurred. Coughlin stole
and bypassing the financial control system at WHA.       the cash rent payments that she received from
This investigation was initiated after finance repre-    tenants, and lowered the rents for other tenants
sentatives from WHA began to notice inconsistencies      without justification or authorization.
as well as an inordinate amount of “emergency”
expenditures by Summers.                                      Defendant Joyce Gates, former executive director
                                                         of the Logansport Housing Authority (LHA), pled
    In Kansas City, MO, in Platte County District        guilty in Logansport, LA, in Federal Court for the
Court, defendant Paul Howard pled guilty to stealing     Western District of Louisiana, to one count of theft of
and was sentenced to four years supervised release       government funds. Gates admitted stealing over
and ordered to pay $12,179 in restitution. From July     $117,000 from the LHA by skimming rent, giving
through October 2003, Howard charged $12,179 on a        herself raises that were not authorized by the board,
gas credit card that he stole from the Housing Au-       purchasing a personal vehicle, paying for car insur-
thority of Kansas City while he was an employee.         ance for her personal vehicle, having furniture
                                                         delivered to her home, and installing a fence at her
    In Clinton, MO, in Henry County District Court,      residence. Gates also wrote numerous checks to
defendants Bonnie Houk, former executive director of     fictitious companies for work that was never com-
the Clinton Housing Authority (CHA), and Donna

Chapter 3 - HUD’s Public and Indian Housing Programs                                                           42
pleted and subsequently deposited the money in her             Defendant Sonja Hamilton, former executive
personal account.                                          director of the Homer Housing Authority (HHA), pled
                                                           guilty in Homer, LA, in Federal Court for the
     In Albuquerque, NM, in U.S. District Court for        Western District of Louisiana, to one count of theft of
the District of New Mexico, defendant Joe R.               government funds. Between 2002 and March 2003,
Calabaza pled guilty to one count of theft of federal      Hamilton telephonically transferred over $12,000
program funds. Defendant Lorenzo Coriz pled guilty         from the HHA’s account to her personal account. She
to embezzlement and theft from an Indian Tribal            also paid personal credit card bills on line with
Organization. As part of the plea, both defendants         Housing Authority funds. Hamilton concealed these
have agreed to make restitution to the Santo Domingo       transactions from the HHA’s fee accountant by
Tribal Housing Authority (SDTHA) of the funds they         altering the Authority’s bank statements each month.
embezzled. The exact amount of restitution will not        In addition, Hamilton lived in the Housing Authority
be determined until the pre-sentence report is com-        rent-free and gave herself raises that were not
pleted, but it is anticipated to be approximately          approved by the board. This scheme resulted in a
$157,000 for Calabaza and $37,700 for Coriz.               $30,178 loss to the HHA. Hamilton has also been
Calabaza, who is the former SDTHA executive direc-         suspended from participation in procurement and
tor, and Coriz, a former SDTHA board member, were          non-procurement transactions with the Executive
charged in September 2003, along with former SDTHA         Branch of the Federal Government.
board members Jerry Nieto and Howard Tenorio,
with embezzling over $200,000 from SDTHA. Nieto                Defendant Terry Latimore, a former employee of
and Tenorio have already pled guilty in this case.         the Dallas Housing Authority (DHA), pled guilty in
                                                           Dallas, TX, in Dallas County State Court, to one
     Defendant Jimmie L. Woodard, a former accoun-         count of theft by a public servant and was sentenced to
tant at the Diboll Housing Authority, pled guilty in       five years probation, fined $750, and ordered to pay
Diboll, TX, in Federal Court for the Eastern District      $2,910 in restitution to the DHA and $360 to the Dallas
of Texas, to theft from a government program. An           District Attorney’s Office. While working for the DHA
investigation revealed that over a period of five years,   as a public housing manager, Latimore embezzled
Woodard embezzled over $78,000 by failing to deduct        rent payments from tenants. He stole blank money
monies from her payroll checks to cover federal            orders from elderly and disabled tenants and wrote
withholding taxes and personal loan payments to a          his name in the payee line. In addition, Latimore took
credit union.                                              cash for rent from tenants and never applied it to their
                                                           accounts. Latimore gave each tenant a receipt for
    In Oklahoma City, OK, in Federal Court for the         these transactions.
Western District of Oklahoma, defendant Gwendolyn
Terrapin pled guilty to one count of a three-count              Defendant Charles T. Bell, former executive
indictment. This investigation was initiated after OIG     director of the Ferriday Housing Authority, was
received allegations that the defendant was embez-         debarred from participating in any HUD programs for
zling HUD funds from the Otoe-Missouria Indian             a five-year period. Bell previously pled guilty in
Housing Authority while she was executive director.        Ferriday, LA, in Federal Court for the Western
Terrapin admitted in a change of plea hearing that she     District of Louisiana, to one count of theft of govern-
used the Authority’s credit card to make personal          ment funds. He created and used a nonprofit organi-
purchases and pay personal bills. She later authorized     zation, Community Housing Development Organiza-
the Authority to pay the credit card bill. HUD’s loss      tion of Concordia, to divert Housing Authority funds
amounted to $23,683. Terrapin resigned after being         into the nonprofit’s account and subsequently pay for
investigated by the Tribe and moved from the area,         his personal expenses.
leaving an outstanding rent and utility balance for a
20-month time period. The Authority paid this bal-             Defendant Tonya House, a former payroll accoun-
ance.                                                      tant at the Memphis Housing Authority, was indicted
                                                           in Memphis, TN, in Federal Court for the Western

Chapter 3 - HUD’s Public and Indian Housing Programs                                                            43
District of Tennessee, for embezzling Authority funds.    February 2003, at which time subsequent payments
Between December 2002 and January 2003, House             were suspended pending the outcome of the investiga-
allegedly stole 26 payroll checks totaling over $42,000   tion. This indictment stems from an investigation into
from the Authority. She was subsequently terminated       employee theft and misconduct at the HABC, which to
from the Authority.                                       date has resulted in the indictment and conviction of
                                                          defendant Cardoza Jacks, another Section 8 landlord,
    Defendant Charles Brown was indicted in New           as well as an administrative action against defendant
York, NY, in Federal Court for the Southern District      Mark Kendel, an HABC employee. Jacks was sen-
of New York, on one count of conspiracy to commit         tenced to three years probation and ordered to pay
theft concerning programs receiving federal funds         $44,706 in restitution to HUD for his role in the
and one count of theft concerning programs receiving      fraudulent receipt of housing assistance payments
federal funds. Brown, a former New York City              from the HABC.
Housing Authority (NYCHA) property manager, is
charged with using his position with NYCHA in order            Defendants Valarie Campbell, Debbie Nelson,
to rent or offer to rent NYCHA managed commercial         Frances Robinson, and Genevie Smith, former
space without NYCHA’s authorization. He allegedly         Pompano Beach Housing Authority (PBHA) employ-
caused commercial space to be rented by way of            ees, Arjunen Apana, a current PBHA employee, and
bogus leases, and collected commissions and down          Denise Laxey, Erius Thomas, and Leroyd Cleofoster
payments in addition to rent for this space. Brown        Joyce were indicted in Pompano Beach, FL, in
used the monies collected from the scheme for his         Federal Court for the Southern District of Florida, on
personal benefit.                                         22 counts of conspiracy, theft concerning programs
                                                          receiving federal funds, and theft of public funds. The
    Raymond Williams, a real estate agent, was also
                                                          indictment also alleged that the PBHA constituted a
charged in this case for allegedly acting as the
                                                          criminal enterprise involved in racketeering, as
middleman in the scheme to solicit prospective
                                                          defined under the Racketeering Influenced and
storeowners who then signed fictitious leases obtained
                                                          Corrupt Organizations statute. Those charged under
from Brown via his position with NYCHA. Brown and
                                                          this indictment allegedly solicited bribes to award
Williams collected application and commission fees
                                                          Section 8 rental subsidies to ineligible individuals.
in addition to approximately $65,000 in rental pay-
ments from the shopkeepers.                                   Campbell allegedly misused her position with the
                                                          PBHA to fraudulently issue Section 8 landlord pay-
     Defendant Augustus R. Bond, Sr., was indicted in     ments to Joyce and Thomas. Nelson allegedly mis-
Baltimore, MD, in Federal Court for the District of       used her position with the PBHA to fraudulently issue
Maryland, on 15 counts of theft of government             payments to Laxey. These defendants were among 14
property and aiding and abetting for his part in a        individuals charged with conspiring to defraud HUD’s
scheme to defraud the Housing Authority of Balti-         Section 8 Program. From June 1997 through March
more City (HABC). Bond allegedly received and             2002, the co-conspirators profited from the illegal
negotiated 77 HABC checks representing payment of         award of over 300 Section 8 vouchers to individuals
Section 8 rent subsidies for two tenants who were no      who neither qualified for rental subsidies nor ap-
longer residing at his rental property, resulting in      peared on the PBHA’s waiting list. This waiting list
$65,664 in losses to the HABC and HUD. The scheme         was closed in June 1997 due to an overwhelming
involved the submission and falsification of annual       number of qualified applicants. The co-conspirators
tenant recertifications and new tenant documentation      also issued or received fraudulent Section 8 landlord
for former Section 8 tenants. The first tenant vacated    payments.
Bond’s rental unit in April 1993 but was reinitiated as
                                                              Also in this case, defendants Chiquita Blue,
a new tenant on Bond’s landlord account in May 1995.
                                                          Deborah Youn Brown, Nirmala Chandradat, Connie
Another tenant sublet her Section 8 unit, with Bond’s
                                                          Devoe, Denise Haygood, and Belinda Moore were
knowledge, to a friend in January 1999 for $200 per
                                                          charged as co-conspirators with defrauding HUD’s
month. Bond continued to receive the Section 8
                                                          Section 8 Rental Subsidy Program.
subsidy payments for both of these units through
Chapter 3 - HUD’s Public and Indian Housing Programs                                                           44
    Defendant Michael Lyons, an employee of the           government property. He had been living rent-free in
Buffalo, NY Municipal Housing Authority (BMHA),           a public housing unit with his wife, whom he had
was suspended without pay for 30 days and placed on       reportedly divorced. A search warrant executed at the
probation for one year. As a result of Lyons’ suspen-     residence yielded evidence that Zamot had been
sion, the BMHA will not pay him $4,529 of his yearly      living with his wife in the unit for the past three years.
salary. Lyons was involved in a bid rigging scheme in     The Housing Authority suffered a loss of $17,000.
which defendant Dominic DiSalvo, a contractor,
submitted fraudulent bids to the BMHA in order win a           Defendant Millie Holliday was arrested pursuant
contract award. DiSalvo has already pled guilty to        to a state warrant issued by the Spaulding County
making a false statement and was sentenced to one         Superior Court. Holliday, the former executive
year probation and ordered to pay $1,000 in restitu-      director of the Griffin, GA Housing Authority, who
tion.                                                     was terminated from her position, was charged with
                                                          misusing the Housing Authority’s credit card and
    Defendant Denise Guite was arrested pursuant to       illegally eavesdropping on employees. Holliday
a Connecticut State arrest warrant on one count of        allegedly charged $4,177 in personal items on the
larceny in the first degree by defrauding a public        credit card. She also had surveillance equipment
community. Guite is the former executive director of      installed on the computer of the Authority’s accoun-
the Berlin, CT Housing Authority. While employed in       tant, and when the accountant cooperated with the
that capacity between November 2000 and November          OIG, Holliday fired the employee.
2002, Guite allegedly embezzled approximately
$17,205 from the Authority. This dollar amount            Investigations Involving Public
includes funds to pay health insurance and dental
insurance benefits to which she was not entitled.
                                                          Officials
                                                               In Little Rock, AR, in Federal Court for the
     Defendants Vernell King and her sister Elise         Eastern District of Arkansas, defendant Jack E.
Johnson, both employees of the City of New York,          Foster, a member of the Pine Bluff City Council, and
were arrested on complaints issued by the U.S.            a tenant of the Pine Bluff Housing Authority, was
Attorney’s Office, Eastern District of New York, for      indicted for allegedly extorting $32,500 in community
defrauding the HUD Section 236 Program. King, a           development funds from a contactor in return for his
secretary for the Law Department of the New York          vote in favor of a motion before the City Council. The
City Housing Authority, the same agency that admin-       investigation also disclosed that Foster failed to report
istered the program she allegedly defrauded, was          his income from his City Council position while he
charged with theft of government funds and false          was receiving housing assistance.
statements. Johnson, a community service aide with
the New York City Health and Hospital Corporation,             In Hammond, IN, in Federal Court for the
was arrested on the same charges. Allegedly, King         Northern District of Indiana, defendants Geraldine
fraudulently obtained two separate subsidized apart-      Tousant, deputy mayor of the City of Gary, IN,
ments, one for herself and one for her sister. Both       Vanessa Dabney, executive director of the City of
would have been ineligible for subsidies had they         Gary Department of Redevelopment and Demolition,
reported their true income.                               and Kimberly E. Lyles, superintendent of parks for
                                                          the City of Gary Parks Department, were each
    Defendant Nestor Zamot, Sr., a former York            indicted for making false statements to investigators
Housing Authority employee who was fired after his        of a federal task force investigating public corruption
fraud scheme was uncovered, was convicted in              in the City of Gary. Tousant, Dabney, and Lyles were
Harrisburg, PA, in Federal Court for the Middle           each indicted for lying to federal agents during their
District of Pennsylvania, for living rent-free in a       interviews regarding their dealings with a specific
public housing unit. Zamot, who was employed as a         Gary, IN businessperson.
groundskeeper, pled guilty to the illegal conversion of


Chapter 3 - HUD’s Public and Indian Housing Programs                                                             45
     In the same case, defendant Otho Lyles, commis-      on her application for housing assistance and fraudu-
sioner of the Gary sanitary district and contractor       lently obtained housing for illegal aliens.
with the City of Gary, was indicted in Federal Court
for the Northern District of Indiana for making a false        In Syracuse, NY, in Federal Court for the
statement to federal task force agents investigating      Northern District of New York, defendant Griffin
public corruption. Lyles was indicted for lying about     International, Inc., of Plattsburgh, NY, pled guilty to
his knowledge of the involvement of a city official in    conspiracy to violate the Clean Air Act and mail
the awarding of contracts by the City of Gary. Lyles is   fraud. Griffin International provides project design,
also the owner of Northlake Excavating and Demoli-        project monitoring, and air monitoring to firms
tion (NED). Lyles and NED allegedly received pay-         performing asbestos abatement. The charges arose
ments from the Gary Housing Authority.                    from an illegal agreement between Griffin Interna-
                                                          tional and Parker Environmental Management Group.
Conspiracy                                                Griffin International took fraudulent air monitoring
                                                          samples and permitted Parker Environmental to
    In Los Angeles, CA, in Federal Court for the          perform illegal asbestos work practices during an
Central District of California, defendant Michael         abatement project at the Plattsburgh Housing Author-
Clarence Jones was sentenced for conspiracy and           ity. Parker Environmental and its owner, Andre
mail fraud to one year plus one day incarceration.        Parker, were previously found guilty of illegal re-
Jones was paid a salary by American Development           moval and disposal of asbestos containing materials
Company (ADC), a company that managed Section 8           from several buildings at the Plattsburgh Housing
properties, when in reality he was a ghost employee       Authority.
who rarely did any work for ADC. Jones also used ADC
salaried employees to perform construction work at a      Grand Larceny/Theft
private residence for a construction company he
controlled. Jones’ fraud resulted in $206,000 in losses        Defendant Shau Ling Yam, a Section 236 Pro-
to HUD.                                                   gram participant, pled guilty in State of New York
                                                          Supreme Court, New York, NY, to grand larceny in
    Defendants Ernest Stevenson, a Section 8 land-        the third degree and scheming to defraud in the first
lord, and Paula Petruk, a Section 8 tenant, were          degree. Yam, a resident of Two Bridges Houses,
indicted in Duluth, MN, in Federal Court for the          posed as a HUD managing agent in her housing
District of Minnesota, on one count of conspiracy and     community. She approached unwitting immigrants in
three counts of false statements. The defendants          Chinatown and made false promises to assist them in
allegedly conspired to fraudulently obtain $45,000 in     obtaining public housing units. She charged individuals
Section 8 rental assistance during a scheme in which      between $1,000 and $17,500 as initial fees to obtain
Stevenson resided in the Section 8 unit with Petruk       these units. In order to make her scheme appear
from 1987 through 2001.                                   legitimate, Yam used altered HUD recertification
                                                          forms from her own request for recertification. When
    Defendant Juan Carlos Don Juan-Gayton, also           the victims finally realized what had happened and
known as Juan Carlos Don Juan and Juan Cisneros,          requested their money back, Yam threatened them
pled guilty in Houston, TX, in Federal Court for the      with gang violence. There were over 33 victims who
Southern District of Texas. Juan-Gayton was previ-        came forward in this case claiming to have been
ously indicted, along with 13 other individuals,          defrauded by Yam. In total, Yam stole over $171,000
including Claudia Carrizales de Villa, as part of a 58-   from her victims.
count indictment that outlined his involvement in a
conspiracy to harbor/conceal illegal aliens in Section       Defendants Micah Brown, Leonard Walters,
8 apartment units. The actions of Juan-Gayton and his     Berquilia Paulino, also known as Belkis Paulino,
co-conspirators resulted in the death and injury of a     Theresa Ahmed, Joy Felder, and Tracey Hannon
number of illegal aliens. The investigation also          were arrested and charged in State Court in New
revealed that Carrizales de Villa falsified information   York, NY, with grand larceny, false filings, offering a

Chapter 3 - HUD’s Public and Indian Housing Programs                                                           46
false instrument, and criminal possession of a forged      Soto ineligible to receive Section 8 subsidies. The
instrument. Defendants Brown and Walters allegedly         estimated overpayment is $49,787.
underreported their income and received more than
$3,000 each in Section 8 subsidies to which they were          Defendants Rosario and Victor Mendoza, hus-
not entitled. Defendants Paulino and Ahmed allegedly       band and wife, were sentenced in Los Angeles, CA,
submitted false documents in which they misrepre-          in State Court, to four years in state prison for grand
sented their total household income over a period of       theft and welfare fraud. They were also ordered to
several years. During that time, they received $22,171     pay $55,003 each in restitution to the City of Norwalk
and $21,518, respectively, in Section 8 assistance to      Housing Authority. In April 2003, a felony complaint
which they were not entitled. Defendants Felder and        was filed by the County of Los Angeles District
Hannon allegedly underreported their income and            Attorney’s Office against the defendants alleging that
received more than $3,000 each in excess Section 8         they made false statements to unlawfully obtain
subsidies.                                                 Section 8 benefits. The Section 8 loss amount was
                                                           calculated at $55,003.
     Numerous investigations have disclosed various
theft schemes by individuals attempting to defraud the         In Eden, NC, in Federal Court for the Middle
Yonkers Municipal Housing Authority (YMHA). In             District of North Carolina, defendant April Deese, a
White Plains, NY, in U.S. District Court for the           former Section 8 manager, was sentenced for theft of
Southern District of New York, defendant Celeste           government funds. Deese received six months home
Peixoto was sentenced to 13 months in prison and was       detention and five years probation, and was ordered to
ordered to pay $85,449 in restitution and a $5,000         pay $53,350 in restitution. Deese was the on-site
fine. Peixoto was previously charged with theft            manager for five housing developments, two of which
concerning programs receiving federal funds, false         were Section 8 complexes. From 1999 to 2001, Deese
statements, and conspiracy to defraud HUD. By              deposited tenant rents in her personal bank account
creating and using false documents such as sham            and then used the funds for her own benefit.
leases and fake real estate deeds, Peixoto fraudulently
obtained monies from the Section 8 Program admin-              Defendant Grace M. DeLarge, who fraudulently
istered by the YMHA.                                       cashed $23,414 worth of Section 8 housing assistance
                                                           payments checks intended for her deceased mother,
    Defendant Janette Torres was sentenced to six
                                                           Hazel Thompson, was sentenced in Los Angeles,
months home confinement and was ordered to pay
                                                           CA, in Federal Court for the Central District of
$45,472 in restitution. Torres previously pled guilty to
                                                           California, to five years probation and was ordered to
theft of government funds. She defrauded the Section
                                                           pay $78,726 in restitution.
8 Program by concealing her employment and income
from the YMHA.
                                                                In Seattle, WA, in U.S. District Court for the
     Defendant Shelli Phoenix was sentenced to three       Western District of Washington, defendant Vernice
years probation and was ordered to pay $53,322 in          Allen, a Section 8 housing voucher recipient, was
restitution. Defendant Shirley Jones was sentenced to      sentenced to five years probation and ordered to pay
three years probation and was ordered to pay $23,700       $25,632 in restitution. Allen pled guilty in October
in restitution. Phoenix held two HUD subsidized            2003 to one count of theft of a thing of value from a
apartments and failed to disclose her true income to       government department. During three annual recerti-
the YMHA. Jones, who lived in one of the apartments,       fications, Allen underreported her income and
benefited from the fraud.                                  received $25,632 in assistance to which she was not
                                                           entitled.
    Defendants Amanda Soto and Bilal Mehdawi pled
guilty to theft of government money. Soto failed to
                                                               Defendant Nhat Huynh, a former Section 8
inform the YMHA that her husband, Bilal Mehdawi,
                                                           tenant, pled guilty in the State of California Superior
had been living with her since 1998. Mehdawi
                                                           Court, San Jose, CA, to five counts of grand theft,
allegedly owns a business, which would have made
                                                           welfare fraud, submitting a false application for

Chapter 3 - HUD’s Public and Indian Housing Programs                                                             47
housing, and perjury in connection with her failure to        Defendants Jonetta Reeves, a former Section 8
provide complete and accurate information about her      tenant, and Preston Handcox, a former Section 8
household composition, income, and employment to         landlord, were indicted in the Circuit Court of Cook
various Santa Clara County social services agencies,     County, Chicago, IL, on four felony counts of theft.
including the Santa Clara County Housing Authority.      According to the indictment, Reeves was responsible
From 1996 to 1999, Huynh told local authorities that     for planning a scheme wherein she and her husband,
she was a single mother and that she did not know the    Graylin Waters, would occupy their newly purchased
father of her three children, when in fact the father    home as co-occupants, while at the same time
was living with her in her Section 8 unit. Huynh also    instructing her father-in-law, Handcox, to act as the
withheld information about her spouse’s ownership of     owner and landlord for Section 8 purposes on behalf
a tailoring business and two rental properties. As a     of that same property. Handcox is alleged to have
result of this false information, Huynh received more    collected the monthly housing assistance payment
than $117,000 in housing, medical, and welfare           checks from the Cook County Housing Authority and,
benefits to which she was not entitled.                  after cashing them, kicking back the money to
                                                         Reeves, the Section 8 tenant. The total loss to the
     Defendant Denise Gardner pled guilty in Phila-      Housing Authority was $17,000.
delphia, PA, in the Commonwealth of Pennsylvania
                                                             In a separate indictment, defendant Allison
Court of Common Pleas, to felony theft by deception,
                                                         Waters, the brother of Graylin Waters, and Patricia
unsworn falsifications, and false swearing. An
                                                         Flowers, Waters’ wife and a former Section 8 tenant,
investigation uncovered Gardner’s scheme to submit
                                                         were charged with three felony counts of theft.
false information to the Philadelphia Housing Author-
                                                         Waters and Flowers allegedly planned a similar
ity (PHA). Gardner, a Pennsylvania State employee,
                                                         scheme by occupying a newly purchased home as co-
allegedly misrepresented her yearly income to the
                                                         occupants. In this case, Waters was the Section 8
PHA in order to qualify for over $34,000 in Section 8
                                                         landlord for the property he occupied with his wife,
assistance. Her fraud scheme began in 1995 and
                                                         Flowers. The role of Handcox in this case was the use
ended approximately one year ago. The investigation
                                                         of his address as a Section 8 drop box. Handcox would
further determined that Gardner conspired to submit
                                                         accept checks from the Housing Authority made out
false unemployment information to the PHA on behalf
                                                         to Waters, and would in turn provide them directly to
of her sister, Patricia Wright, who was also a Section
                                                         Waters. The total loss to the Housing Authority was
8 tenant.
                                                         $48,000.
    In Harrisburg, PA, in Federal Court for the
                                                              The Alameda County District Attorney’s Office
Middle District of Pennsylvania, defendant Heather
                                                         issued a complaint and arrest warrant for defendant
Roberts pled guilty to conversion of government
                                                         Caprell Moss, a public housing tenant at the Oak-
property for her own personal use in connection with
                                                         land, CA Housing Authority, charging Moss with
her participation in HUD’s Housing Choice Voucher
                                                         multiple counts of grand theft and perjury relating to
Program (HCVP). Roberts participated in the HCVP
                                                         welfare and housing fraud. From July 1997 through
from March 1997 through September 2003, during
                                                         August 2002, Moss repeatedly told the Alameda
which time she lived at the Waterford at Summit
                                                         County Department of Social Services and the
View development in Hummelstown, PA. An investi-
                                                         Oakland Housing Authority that she did not know the
gation disclosed that Roberts failed to report her
                                                         whereabouts of her children’s father. However, an
marriage to the Dauphin County Housing Authority
                                                         investigation disclosed that the children’s father was
and the fact that her husband was living with her.
                                                         gainfully employed and was living with Moss and
Roberts’ husband had several felony drug convictions
                                                         their children at her public housing unit. As the result
that would have made her ineligible to continue
                                                         of the fraud, Moss received $40,812 in housing
participating in the HCVP. The Housing Authority paid
                                                         assistance to which she was not entitled.
$24,000 in housing assistance payments on Roberts’
behalf.


Chapter 3 - HUD’s Public and Indian Housing Programs                                                           48
     In Norristown, PA, in the Commonwealth of              through the Charleston Housing Authority. Taylor-
Pennsylvania District Court for Montgomery County,          Williams had two known associates apply and qualify
a criminal complaint was filed charging defendants          for housing at the Charleston Housing Authority and
Anndria Smith Watkins and Christopher Watkins with          used the housing for employees of REDEEM. She
one count each of conspiracy, eight counts each of          purposely recruited highly talented and educated
theft by unlawful taking or disposition, and eight          employees to work for REDEEM with the incentive of
counts each of theft by deception for receiving more        free housing benefits. The Section 8 voucher holders
than $39,000 in public housing assistance to which          who actually qualified for the housing never lived in
they were not entitled. Anndria Smith Watkins               the units.
allegedly failed to report to Montgomery County
Housing Authority (MCHA) officials that her husband,             Defendant Judith Keally, also known as Judy
Christopher Watkins, was residing with her at her           Deese, a former public housing tenant, was arrested
subsidized unit. Christopher Watkins was employed           and charged in Pittsburgh, PA, in State District
during this time. In addition, Anndria Smith Watkins        Court, Pennsylvania Court of Common Pleas, with
underreported her own income to the MCHA. While             one count of theft by deception, two counts of unsworn
they were receiving rental assistance, the defendants       falsification to authorities, and one count of forgery
purchased a home in Norristown and sublet the               for participating in a scheme to defraud HUD and the
subsidized unit to a relative; they also failed to report   Allegheny County Housing Authority (ACHA) between
this information to the MCHA.                               1990 and 2001. Keally resided in the Groveton Village
                                                            housing development in Coraopolis, PA, from 1974 to
     The Watkinses were also charged with an addi-
                                                            2001. She was terminated from the Public Housing
tional nine counts each of theft by unlawful taking or
                                                            Program when ACHA officials found that her husband,
disposition and nine counts each of theft by deception
                                                            Frank Keally, was residing in her unit while he was
for the unlawful taking of school services valued at
                                                            gainfully employed at a local metal plant. Frank
more than $102,000. After the family relocated to the
                                                            Keally’s income was never reported to ACHA. During
home they purchased, which was in another school
                                                            the time period in question, Judith Keally’s daughter,
district, their children continued to attend school in
                                                            Traci, also resided in the unit while working full-
the district in which the subsidized unit was located.
                                                            time. Her income information was also withheld from
The theft of services related to the defendants’
                                                            ACHA. Keally is being charged with defrauding the
falsifying documents and maintaining the false
                                                            government out of $32,000 in subsidies and other
information for their personal gain.
                                                            housing related services.
    In Charleston, WV, in U.S. District Court for
                                                                 Defendant Patrick E. McHugh, Jr., pled guilty in
the Southern District of West Virginia, defendant
                                                            Boston, MA, in U.S. District Court for the District
Ramona Taylor-Williams, a local housing activist and
                                                            of Massachusetts, to two counts of theft of government
chief executive officer (CEO) of a nonprofit organiza-
                                                            funds. McHugh received housing assistance by failing
tion, was indicted on 40 counts of theft/embezzlement
                                                            to claim all of his income. The investigation disclosed
and mail fraud. Taylor-Williams, the CEO of Realizing
                                                            a loss to HUD of $33,341 and an estimated loss to the
Economic Development Through Education, Enter-
                                                            Social Security Administration of $65,575.
prise and Morals, Inc. (REDEEM), an organization
established to promote community enrichment,
received grants through the West Virginia Department        False Statements
of Health and Human Services to promote AIDS                    In Baltimore, MD, in Federal Court for the
education and awareness, and West Virginia State            District of Maryland, a civil judgment was entered
College’s Office of Land Grant Programs. Taylor-            against defendant Harvey Lee Adler, former presi-
Williams also served as a principal for the Risen           dent and owner of Adler Services Group, Inc., order-
Corporation, a construction/maintenance firm in             ing civil damages totaling $705,000. The civil dam-
Charleston. As a principal for Risen, she served as         ages ordered were three times the criminal restitu-
the management agent of a duplex apartment building         tion ordered when Adler was sentenced. Adler was
used for housing Section 8 housing voucher holders          previously convicted on nine counts of a ten-count
Chapter 3 - HUD’s Public and Indian Housing Programs                                                             49
indictment for making false statements and submitting          In Lakewood, CO, defendant Jennifer Verzuh, a
false and/or inflated repair and maintenance invoices      former Section 8 tenant, agreed to repay the
to the Housing Authority of Baltimore City (HABC).         Jefferson County Housing Authority $40,950 for
Adler defrauded HABC by grossly overbilling HABC           ineligible rental assistance paid on her behalf. Verzuh
for technician labor hours, as well as for parts which     received Section 8 assistance for a unit in which she
were never replaced under a purchase order for             had an ownership interest. In addition, she is the
maintenance and repair services for gas and oil fired      primary mortgagor on an FHA insured mortgage.
furnaces in rental units owned by HABC. In addition,       Verzuh’s ownership interest was never disclosed to
defendant Scott Dower, former vice president of            the Housing Authority during the certification pro-
operations, pled guilty to one count of submitting false   cess. This case was identified as the result of the data
statements for his role in the scheme. Adler and           match of assisted housing benefits and FHA insured
Dower instructed technicians to bill HABC for non-         mortgages.
billable time, such as travel time, to increase the
technician hours charged, in addition to altering              Defendant Robert Freschi pled guilty in St.
invoices submitted by technicians to reflect additional    Louis, MO, in Federal Court for the Eastern District
billable hours and parts installed to reach a pre-set      of Missouri, to false statements. Freschi received
minimum billing amount. In one case, the additions         HUD Section 8 assistance from June 1993 to Novem-
made by Adler and Dower caused one technician to           ber 2002. From February 1997 to January 2003, he
charge 26 hours of labor for one calendar day. Adler       maintained a bank account at the Cumberland County
continues to serve his 41-month sentence in connec-        Bank in Crossville, TN. This bank account was used
tion with this case.                                       to provide hidden assets and income to Freschi while
                                                           he continued to claim on his Section 8 annual recerti-
    Defendant Sheryl Cannamore was sentenced in            fication forms that he had no income or assets other
St. Louis, MO, in Federal Court for the Eastern            than $6,500 per year in Social Security disability
District of Missouri, to six months home confinement       payments.
and five years probation, and was ordered to pay
                                                               In fact, Freschi’s bank account had been supplied
$81,322 in restitution. Cannamore previously pled
                                                           with a monthly deposit of $1,666 and an annual
guilty to making false statements on her housing
                                                           deposit of $8,000. The bank statements reflected a
certifications to the St. Louis Housing Authority.
                                                           steady flow of ATM withdrawals at bank locations in
Cannamore reported no earned income when in fact
                                                           downtown St. Louis. Freschi had lived in St. Louis at
she was a full time employee at the Federal Reserve
                                                           the Centenary Towers Apartments since June 1993.
in St. Louis.
                                                           During the time Freschi was receiving Section 8
                                                           assistance, HUD’s loss amounted to approximately
     Defendants Dazerine Winter, a Section 8 land-
                                                           $50,000.
lord, and Amos Winter, a management agent, agreed
to repay $15,000 in HUD subsidies they received
                                                               In Richmond, CA, in Federal Court for the
illegally. Dazerine Winter, while also receiving rental
                                                           Northern District of California, defendant Candy
assistance through the Rural Rental Assistance
                                                           Renee Anderson, a former Section 8 tenant who
Program (RRAP), purchased a house and rented it to a
                                                           previously pled guilty to theft of government funds,
Section 8 tenant, and created an illegal second
                                                           was sentenced to five years probation and 142 hours
apartment. She financed the purchase with a
                                                           of community service, and was ordered to pay
$221,000 mortgage, while reporting $18,000 in annual
                                                           $27,912 in restitution to HUD. Anderson admitted that
earnings to RRAP. The East Hampton, NY Housing
                                                           she knowingly withheld information from HUD and the
Authority terminated the HUD contract with Dazerine
                                                           Richmond Housing Authority about her part-time
Winter upon discovering the illegal apartment and
                                                           employment.
learning that she was receiving rental assistance.
Winter had failed to report the property ownership
                                                               In Alexandria, VA, defendant Mary Salihi, a
and rental income to RRAP.
                                                           Section 8 recipient, executed a repayment agreement


Chapter 3 - HUD’s Public and Indian Housing Programs                                                             50
with the Fairfax County Department of Housing and         close her true income, causing an overpayment of
Community Development (DHCD) to repay $23,209 in          Section 8 subsidies of more than $40,000.
excess rental assistance received on her behalf. She
paid $10,000 upon signing the agreement, with the              Defendant Donna Robertson pled guilty in Cleve-
remainder to be paid at $500 per month. Salihi was        land, OH, in Cuyahoga County Common Pleas
also required to put up her interest in a home that she   Court, to one felony count of obstructing justice.
owns as collateral. An investigation found that Salihi    Robertson admitted that she falsified her identity
and her family falsely claimed a landlord/tenant          while responding to a grand jury subpoena for hand-
relationship that did not exist, and claimed that she     writing, photographs, and fingerprints. In exchange
and her “landlord,” who was a family member, were         for her plea, a second and more serious charge of
co-owners of the property for which rental assistance     tampering with records was dismissed. The subject
was being paid on her behalf.                             subpoena was issued in relation to an identity used by
                                                          another defendant, Charlotte Peters, in a separate
    Defendant Valerie Curry was convicted in              case. Peters is presently awaiting trial concerning
Philadelphia, PA, in Federal Court for the Middle         payments in excess of $90,000 she fraudulently
District of Pennsylvania, in connection with her          received from HUD via the Section 8 Program and the
participation in HUD’s Public Housing Program.            Social Security Administration (SSA) via Social
Curry pled guilty after being charged with falsifica-     Security disability payments. This second defendant,
tion of documents used to determine her eligibility to    Peters, posed as her own landlord, using the false
reside in public housing. Curry, who claimed zero         Peters identity, while receiving monthly rental
income, owned and operated the Faze One Realty            assistance as a tenant in her own house. Again, using
Corporation from her assisted unit. She bought,           the false identity, Peters received additional rental
resold, and rented out homes. She concealed her           assistance payments as a landlord for her daughter,
business and real estate assets from the Housing          Falesia Wiley. The daughter, Wiley, is a co-defendant
Authority. In reality, Curry owned six homes and two      in this matter. The SSA charges stem from Wiley’s
vacant lots valued at $175,000. Disclosure of her         failing to report her true assets in real property and
assets would have made her ineligible to participate in   income from HUD as well as from a business in
the Public Housing Program. The local housing             which she is co-owner.
authority suffered a $12,000 loss as a result of her
false statements.                                              In Topeka, KS, in Federal Court for the District
                                                          of Kansas, defendant Melva Fulton, a Section 8 tenant
     In Jefferson City, MO, in U.S. District Court for    at the Topeka Housing Authority, pled guilty to one
the Western District of Missouri, defendant Donna         count of submitting false statements. Fulton was
Marie Sly, a Section 8 tenant at the Columbia Hous-       previously indicted after failing to provide the Housing
ing Authority, pled guilty to submitting false state-     Authority with true and accurate information pertain-
ments on her annual Section 8 certifications. Sly         ing to household income and family composition. She
failed to report her actual household income by           received $31,550 in housing assistance to which she
omitting the fact that her husband, an employee of the    was not entitled.
Columbia public schools, was residing with her in the
Section 8 unit. HUD overpaid $22,761 in subsidies on          A two-count felony complaint was filed by the
Sly’s behalf.                                             County of San Diego, CA District Attorney’s Office
                                                          against defendant Dolores Smith alleging that she
    Defendant Latonya Decker, a resident of the New       made false statements and unlawfully obtained
York City Housing Authority (NYCHA), pled guilty in       Section 8 subsidies. The amount of the loss was
Brooklyn, NY, in Federal Court for the Southern           calculated at $22,135. The complaint stemmed from
District of New York, to submitting false statements.     an investigation which disclosed that Smith received
Decker allegedly provided false statements to NYCHA       Section 8 subsidies from the Department of Housing
during the recertification process by failing to dis-     and Community Development for the County of San


Chapter 3 - HUD’s Public and Indian Housing Programs                                                           51
Diego by making false statements on her Section 8             Defendant Linda Marie Corum was charged in
application.                                              Upper Marlboro, MD, in the District Court of
                                                          Maryland for Prince George’s County, with five
    In a related case, a one-count felony complaint
                                                          counts of theft and false statements for her role in
was filed by the County of San Diego District
                                                          receiving Section 8 housing assistance to which she
Attorney’s Office against defendant Mitchel Snowden
                                                          was not entitled. Corum was charged with failing to
alleging that he made false statements to obtain
                                                          report employment income earned since October
$43,700 in Section 8 subsidies. Snowden allegedly
                                                          2000 to the Prince George’s County Department of
made false statements on his application in order to
                                                          Housing and Community Development. Based on her
receive Section 8 subsidies from the Department of
                                                          false statements, Corum received $21,668 in rental
Housing and Community Development for the County
                                                          assistance to which she was not entitled.
of San Diego.
                                                               Four former tenants of the Paris Housing Author-
     In Omaha, NE, in U.S. District Court for the
                                                          ity were indicted in Paris, TX, in the District Court
District of Nebraska, defendant David Williams, a
                                                          of Lamar County. Defendants Crystle Mooneyham,
former public housing tenant at the Omaha Housing
                                                          Hobbie Davis, Ethel Davis, and Teresa Tarkington
Authority, was indicted on three counts for defrauding
                                                          were each charged with one count of securing execu-
HUD out of $37,149. Williams allegedly failed to
                                                          tion of a document by deception. This investigation
report his true household income by omitting his
                                                          revealed that all four defendants allegedly failed to
employment during the annual certification for tenant
                                                          report their true income to the Paris Housing Author-
eligibility.
                                                          ity. As a result, they received a total of $36,663 in
                                                          rent subsidies to which they were not entitled.
    In Concord, NH, in Federal Court for the
District of New Hampshire, defendant Trudy
                                                              In Leonardtown, MD, in the Circuit Court for
Goodwin was charged by information with two counts
                                                          St. Mary’s County, separate, two-count indictments
of making false statements. Goodwin allegedly failed
                                                          were returned against defendants Jo Ann
to disclose to the Nashua, NH Housing Authority her
                                                          Sommerfeld, a tenant, and Richard Quade, a land-
accurate income from about January 1999 through
                                                          lord, for making false statements and engaging in a
June 2003, resulting in an overpayment of Section 8
                                                          continuing theft scheme involving the Section 8
benefits totaling $24,556. In addition, Goodwin
                                                          Housing Choice Voucher Program. This investigation
collected Social Security disability insurance benefits
                                                          began following a referral from the St. Mary’s
to which she was not entitled by failing to notify the
                                                          County Housing Authority. Allegedly, Sommerfeld
Social Security Administration (SSA) of her employ-
                                                          and Quade had been in the program since 1992 and
ment. SSA sustained a loss of approximately $40,000.
                                                          were cohabitating the entire time. Additionally,
                                                          Sommerfeld concealed from the Housing Authority
     Defendant Laura Freytes, a former Section 8
                                                          considerable income and assets, including employ-
tenant, was indicted in Boston, MA, in Federal Court
                                                          ment in a department store and co-ownership of a
for the District of Massachusetts, on one count each
                                                          home in Oklahoma. The estimated fraud against the
of false statements, wire fraud, and theft of govern-
                                                          Section 8 Program was $77,000. Both Sommerfeld
ment funds. A federal arrest warrant was also issued
                                                          and Quade have been terminated from the program.
for Freytes. The indictment alleges that Freytes
                                                          Program Fraud Civil Remedies Act remedies are
caused false statements to be submitted to HUD
                                                          being considered.
relating to her Section 8 housing assistance payments.
Freytes failed to report her income to both HUD and
the Social Security Administration while she was          Mail/Bank Fraud
receiving benefits from both departments. Freytes             In Chicago, IL, in Federal Court for the North-
caused a loss to HUD of more than $9,000 and a loss       ern District of Illinois, defendants Alicia Riley, a
to the Social Security Administration of more than        Section 8 tenant, and Ellis Franklin, a Section 8
$30,000.                                                  landlord and Riley’s brother-in-law, were sentenced

Chapter 3 - HUD’s Public and Indian Housing Programs                                                             52
after their earlier guilty pleas to mail fraud. Riley     incurred by financial institutions, the St. Louis County
and Franklin both falsely certified on Cook County        Housing Authority lost over $32,000 from its Section
Housing Authority annual applications that Franklin       8 account.
was the true owner of a home in order for Riley to
receive Section 8 subsidy as a tenant. Mortgage           Embezzlement through Counterfeiting
documents, U.S. Bankruptcy Court records, an
inspection of the property, and a report from the local   Schemes
fire department revealed that Riley had in fact been          In Cleveland, OH, in Federal Court for the
the legitimate owner of the building since 1994, which    Northern District of Ohio, defendant Sharon Smith
was the same year she began receiving Section 8           was sentenced to six months confinement and 36
benefits. Franklin only acted in the capacity of owner,   months supervised release, and was ordered to pay
but in turn kicked back housing payments to Riley         $6,103 in restitution. Defendants Gregory Carr and
each month. Riley and Franklin received over $25,000      Tina Cannon pled guilty to their participation in a
in Section 8 subsidies to which they were not entitled.   scheme to cash counterfeit checks from the Cuyahoga
Franklin was sentenced to eight months in prison and      Metropolitan Housing Authority (CMHA). All three
two years supervised release, while Riley was             defendants were previously charged in a 14-person
sentenced to three years probation. Both were or-         indictment for their roles in a conspiracy to defraud
dered to pay $26,281 in restitution, joint but several,   local banks, merchants, and businesses, including the
to HUD.                                                   CMHA, as part of a loosely connected ring formed to
                                                          counterfeit payroll and business checks. This investi-
     In St. Louis, MO, in U.S. District Court for the     gation has shown that defendant Vaden Anderson,
Eastern District of Missouri, defendant Michele           who had recently been released from state prison for
Meekie was sentenced to two months imprisonment,          attempting to cash a counterfeit check using a false
five years supervised release, and 30 days in a drug      identity, sought others, including Smith, Carr, and
treatment facility, and was ordered to pay $15,546 in     Cannon, whom he used as “recruiters” who, in turn,
restitution to the St. Louis County Housing Authority.    would seek out individuals who were willing to
Meekie previously pled guilty to one count of a four-     provide their identification and in some cases their
count indictment charging her with bank fraud.            own bank accounts to deposit counterfeit checks
Meekie admitted that she engaged in a scheme to           which Anderson made on a home computer. Ander-
defraud and obtain monies from Union Planters Bank        son, the recruiters, and the check “passers” would
by transacting counterfeit checks drawn on the St.        then split the proceeds; Anderson received the lion’s
Louis County Housing Authority’s Section 8 account.       share of the proceeds. Counterfeit check amounts
She deposited approximately $19,000 in counterfeit        ranged from as little as $300 to in excess of $16,000.
Housing Authority checks in her personal bank             Loss estimates exceed $49,500.
account and contributed to approximately $32,000 in
losses to the Authority.                                      In Canton, OH, in Stark County State Court,
     Also in this case, defendant Dennie Washington       defendant David Barbour pled guilty to one count of
was sentenced to six months incarceration and five        engaging in a pattern of corrupt activity and two
years probation, and was ordered to pay $20,433 in        counts of passing bad checks and was sentenced to 24
restitution. Washington manufactured counterfeit          months incarceration. Barbour was charged in a
checks drawn on the St. Louis City and St. Louis          January 2004 indictment with counterfeiting checks
County Housing Authorities. He previously pled guilty     for cash and merchandise by using the Stark Metro-
to two counts of bank fraud. Washington admitted          politan Housing Authority’s account number through
engaging in a scheme beginning in October 2002 and        the use of several aliases and false businesses.
continuing until April 2003 to obtain moneys by means     Barbour was arrested in November 2003, and at that
of material false and fraudulent pretenses. During        time, consented to a search. The search yielded
that time period, over $80,000 in fraudulent Housing      evidence relating to his use of the Internet to place
Authority checks were created and transacted in the       orders for products ranging from clothing to house-
St. Louis metropolitan area. Along with losses            hold goods.

Chapter 3 - HUD’s Public and Indian Housing Programs                                                            53
     In Indianapolis, IN, in Marion County State            writings by deception, falsification, an uttering.
Court, 20 individuals, who comprised a counterfeit          Among the other State of Ohio counts charged in this
check cashing ring that cashed or attempted to cash at      case were engaging in a pattern of corrupt activity,
least $75,000 in counterfeit checks, were charged           conspiracy, taking the identification of another,
with theft and forgery related charges. Approximately       identity theft, and money laundering. As part of this
$10,000 of this amount represents counterfeit checks        investigation, two computers, over $5,000 in cash, one
issued on a bank account of the Indianapolis Housing        vehicle, about $25,000 in jewelry, and approximately
Agency. The counterfeit checks were made by                 $200,000 in real estate and business assets were
scanning legitimate checks into a computer and using        seized.
commercially available software to produce the
fraudulent checks. The check software, check paper               In Albany, GA, 53 defendants were arrested, 18
stock, computer, scanner, printer, and some pre-            of whom were Section 8 recipients, and 27 more
printed counterfeit checks were previously seized           arrests are anticipated for multiple counts of identity
during execution of a search warrant at the residence       theft. The subjects are charged with forgery in the
of the counterfeit check ringleader, Adrian Cole. The       first degree in violation of Georgia State Code.
fraudulent checks were cashed predominately at              Defendant Kwezeta Butler, who has been a partici-
grocery and liquor stores in the Indianapolis area.         pant in the Section 8 Program since October 2001,
The 20 individuals charged are as follows: Adrian           was the mastermind behind the scheme. Butler
Cole, Kristina Elliott, Adriene McCurtis, Adrina            scanned the newspapers for obituaries and then paid
Cole, Ariga Grimes, Brandie Walton, Carrie Colquit,         an Internet search company to check the backgrounds
Charles Johnson, Corey Wadlington, Cynthia Scriv-           of the deceased. She obtained Social Security num-
ener, Erma Johnson, James Dorsey, Jr., James                bers and credit information on 80 individuals from
Johnson, Kenneth Canady, Latoria Bowie, Monica              five states. Butler then sold the information for $500
Garrison, Montez Craig, Quiana White, Rebbi                 to $600 to people with bad credit. Many of the sub-
Smith, and Vanessa Hankins.                                 jects used the stolen identities to purchase vehicles
                                                            from a major car dealership in the South Metro
                                                            Atlanta area. The dealership has since closed as a
Identity Theft                                              result of the fraud. As part of this investigation, an
     In State Court in Cleveland, OH, defendant             effort is being made to have all Section 8 participants
Gregario Pimental was sentenced to three years              involved in the fraud terminated from the Section 8
incarceration for tampering with records and 11 years       Program.
for drug trafficking, to be served concurrently.
Pimental was previously convicted for his role in a
conspiracy with defendant James Smith, a Section 8          Fugitive Felon Initiative
landlord, who obtained properties and collected
housing assistance payments under false names and                Section 903 of the Personal Responsibility and
Social Security numbers. Smith has already pled             Work Opportunity Reconciliation Act of 1996
guilty to engaging in a pattern of corrupt activity, drug   (PRWORA), Pub. Law No. 104-193 (Aug. 22, 1996),
trafficking, and tampering with records. Like Smith,        amended 42 U.S.C. §§ 1437d(1)(9) and
Pimental used different names to obtain properties          1437f(d)(1)(B)(v), makes being a fugitive felon a
and vehicles. At the same time, he assisted Smith in        ground for the termination of participation in federally
laundering drug proceeds in order to purchase               funded assisted housing programs. A fugitive felon,
additional Section 8 residences.                            for the purpose of this law, is any federally funded
                                                            assisted housing participant (tenant) who is fleeing to
    Other individuals convicted in this case include
                                                            avoid prosecution for a felony, fleeing to avoid con-
Linda Bivens, a loan officer, Earl Howard, Lisa
                                                            finement for conviction of a felony, or is violating a
Jones, Dennis McKenzie, Damon Berry, and Richelle
                                                            condition of probation or parole imposed for the
Spears. Bivens has already been sentenced to one
                                                            commission of a felony.
year probation for tampering with records, securing


Chapter 3 - HUD’s Public and Indian Housing Programs                                                             54
     On September 25, 2002, the General Accounting
Office (GAO) issued GAO Report No. 02-716, Welfare
Reform: Implementation of Fugitive Felon Provisions
Should Be Strengthened. The GAO Report evaluated
several agencies’ efforts to implement various
PRWORA provisions that related to fugitives receiving
benefits from federal assistance programs, and
critically noted that HUD had not conducted a data
match to identify fugitives receiving rental assistance.
GAO further determined that HUD had effectively
delegated its responsibilities to public housing agen-
cies (PHAs), and that HUD had not monitored or
evaluated the efforts of PHAs in this regard.
     To assist HUD in its response to the GAO Report,
the OIG began a Fugitive Felon Initiative. The Fugitive
Felon Initiative was designed to identify fugitive felons
residing in federally funded assisted housing. The OIG
recognized that, unlike some other federal agencies,
neither HUD nor the OIG is the body that terminates
the tenancy of a violator of the PRWORA statute.
Rather, a third party, generally a PHA, manages the
PRWORA violator’s tenancy. In addition, the OIG
recognized that once the arrest of the fugitive felon
has occurred, the PRWORA fugitive provision making
it a ground for tenancy termination has been removed,
as the subject is no longer a fugitive.
     The OIG Fugitive Felon Initiative began in FY
2003. Initially, the Fugitive Felon Initiative used only
U.S. Marshals Service wanted person data in an
effort to identify fugitives. The initiative has expanded
to include the use of state and local wanted person
data in select locations and will soon include the use
of National Crime Information Center wanted person
data to identify wanted fugitives. To date, 445 fugitives
have been arrested as a result of this initiative.




Chapter 3 - HUD’s Public and Indian Housing Programs        55
                                                 This page intentionally left blank.




Chapter 3 - HUD’s Public and Indian Housing Programs                                   56
           Chapter 4 — HUD’s Multifamily Housing Programs

     In addition to multifamily housing developments
                                                                                        Multifamily Housing Dollars
with HUD held or HUD insured mortgages, the De-            $6,000,000

partment owns multifamily projects acquired through
defaulted mortgages, subsidizes rents for low-income       $5,000,000

households, finances the construction or rehabilitation
of rental housing, and provides support services for       $4,000,000
the elderly and handicapped.

Audits
                                                           $3,000,000




    During this reporting period, the OIG issued 12        $2,000,000


reports in the Multifamily Housing Program area:
one internal audit, three internal memoranda, seven        $1,000,000

external audits, and one external memoranda. These
reports disclosed over $5.5 million in questioned costs           $0
                                                                        Internal Memoranda      External Audits     External Memorandum
and over $5 million in recommendations that funds be                         Questioned Costs             Funds Put to Better Use
put to better use.


                                                              Over the past six months, we audited owner and
           Multifamily Housing Reports Issued             management agent operations at multifamily projects.
                                                          The results of our more significant audits are de-
                                                          scribed below.
                              7

                                                          Owner and Management Agent
                                                          Operations
                                                              Our audit of the Family Living Adult Care
                                         1
             3                       1                    Center, Biddeford and Saco, ME, disclosed that the
                                                          Family Living project has suffered serious financial
                   Internal Audits
                                                          problems, including a default on the HUD insured
                   Internal Memoranda
                                                          mortgage, and has ceased being a profitable entity.
                   External Audits
                                                          These problems were caused by questionable cash
                   External Memoranda
                                                          distributions from the project bank accounts by the
                                                          owner. We consider these distributions, totaling over
                                                          $455,000, to be equity skimming. By means of these
                                                          distributions, the owner diverted project funds from
                                                          June 2000 to February 2002 to other businesses he
                                                          owned and for personal expenses.
                                                              We recommended that HUD pursue administrative
                                                          sanctions and recovery from the owner of the differ-
                                                          ence between the amount owed to HUD on the mort-
                                                          gage and the proceeds from the foreclosure sale of
                                                          the project (nearly $2.7 million). We also recom-
                                                          mended that HUD pursue recovery from the owner of
Chapter 4 - HUD’s Multifamily Housing Programs                                                                                            57
double the amount of the questionable cash distribu-       for replacement (RFR) requirements, leaving the RFR
tions totaling over $390,000, and obtain from the          underfunded by nearly $111,000. A breakdown of cost
owner justification for cash distributions to unidenti-    transfers by the management agent is shown below.
fied recipients totaling over $62,000. If the justifica-
tion is not provided, we recommended recovery from
the owner of double the amount of unsupported costs.
(Report No. 2004-BO-1002)

    In response to a request from the Philadelphia
Multifamily Hub Office, we audited the Carbondale
Nursing Home, Carbondale, PA, a Section 232
multifamily insured project owned by CNH, Inc. The
audit found that the owner did not comply with the
Regulatory Agreement and other HUD requirements
in operating the project. In total, the owner made over
$1.2 million of ineligible and unsupported payments
from project funds. Specifically, the owner received
ineligible salary payments of nearly $375,000;
collected over $170,000 in ineligible distributions/
repayment of advances; paid $486,000 in ineligible             The management agent also failed to manage the
expenses for another company; disbursed ineligible         project in compliance with HUD regulations. Specifi-
extension fees totaling nearly $133,000; and paid          cally, the agent did not keep accounting records
unsupported loan payments of more than $97,000.            current or submit timely annual financial reports;
Several staff persons at the project, including the        consistently maintain bank statements, invoices,
controller and administrator, stated that the owner        contracts, and supporting documentation for pur-
was not aware of the HUD requirements prohibiting          chases/costs and make them readily available for
these expenditures. If the owner had complied with         review; pay utility and other bills timely; put adequate
HUD requirements and used project funds only for           computer controls into practice; carry the required
necessary operating expenses of the project, the           fidelity bond coverage; or implement a capital
owner could have used these funds to pay the mort-         improvement plan or an effective maintenance
gage costs (principal and interest) for over two years     program. As a result, the project had a serious cash
and possibly avoided bankruptcy and default on the         flow problem, incurred penalty costs, and had liens
HUD insured loan.                                          placed against the property.

    The audit recommended that HUD require the                  The audit recommended that HUD require the
owner to repay over $1.1 million in ineligible expendi-    management agent to repay the unauthorized trans-
tures and either support or repay the $97,000 of           fers of funds to affiliates and any other ineligible costs
unsupported expenditures. HUD should also take             from non-project funds, and reimburse the RFR. The
appropriate administrative action against the owner.       agent should also bring current all bills exceeding 30
(Report No. 2004-PH-1004)                                  days old and ensure that all liens on the property are
                                                           satisfied using non-project funds. In addition, HUD
    At the request of HUD’s Multifamily Program            should require the project owner to terminate the
Center, Hartford Field Office, we audited Nuestra          management agreement because of the agent’s failure
Casa, also known as La Casa Elderly Housing, in            to comply with the provisions of the Regulatory
Hartford, CT. We found that the management agent           Agreement and Management Agent Certification.
improperly managed project funds totaling over             Finally, the audit recommended that HUD program
$371,000 by improperly transferring over $244,000 in       officials and the Departmental Enforcement Center
project funds to affiliates, spending over $16,000 in      initiate administrative sanctions against the manage-
project funds on other ineligible, unsupported and         ment agent. (Report No. 2004-BO-1006)
unnecessary costs, and circumventing HUD’s reserve
Chapter 4 - HUD’s Multifamily Housing Programs                                                                    58
    Based on a request from HUD’s Cleveland Office         the lender has indicated it wishes to prepay the
of Multifamily Housing Program Center, we com-             mortgage to avoid a claim.
pleted a review of the books and records of Carter
                                                                The audit recommended that HUD allow the
Manor Apartments in Cleveland, OH. We found that
                                                           lender to prepay the mortgage, thus freeing the $2.13
J.B. Tipton, Inc., and Carter Manor Apartments
                                                           million loan balance for better use. Further, HUD
Limited Partnership violated the Regulatory Agree-
                                                           should require the owner to reimburse the project for
ment by improperly disbursing project funds for
                                                           the ineligible use of project funds totaling over
ineligible and unsupported costs. The inappropriate
                                                           $140,000. HUD should also obtain documentation for
disbursements occurred when the project was in a
                                                           all unsupported expenses and recover from the owner
non-surplus cash position and/or after the project
                                                           any project costs determined to be unallowable. If the
defaulted on its HUD insured mortgage. As a result,
                                                           owner does not repay the project for improper
fewer funds were available for the project’s normal
                                                           diversions of funds, HUD should take civil action and
operations and debt service, resulting in a claim
                                                           other prescribed remedies. In addition, HUD should
made to the FHA insurance fund.
                                                           take administrative action against the owner and its
     We referred our draft audit findings to the U.S.      members to prevent them from managing this or
Attorney’s Office for the Northern District of Ohio.       another HUD property. (Report No. 2004-FW-1002)
HUD and the U.S. Attorney’s Office executed a
settlement agreement with the general partner for               We audited Last Star Homes, a 50-unit multifam-
Carter Manor Apartments Limited Partnership and the        ily housing development in Browning, MT, to deter-
president of J.B. Tipton effective November 24, 2003.      mine if current conditions involving maintenance,
Under the terms of the settlement, the general             occupancy functions, and project management differ
partner and J.B. Tipton, without any admission of          from the conditions identified in HUD’s August 2001
wrongdoing, paid HUD $275,000 and agreed not to            Management and Occupancy Review Report. Our
participate in project activities for a period of five     review concluded that the significant problems and
years beginning on July 1, 2004. The settlement            weaknesses identified in the Review Report still exist,
agreement permitted the general partner to retain a        even though the Blackfeet Tribe, owner of the project,
limited partnership share of no more than one percent      promised corrective action in January 2003. The
in the project. (Report No. 2004-CH-1801)                  current management and owner were not aware of or
                                                           familiar with the project’s use agreement, Section 8
    An OIG audit of Jester Trails Apartments, a            housing assistance payments contract, and other
Section 221(d)(4) owner managed multifamily project        program requirements, and were therefore not
in Houston, TX, disclosed that although the owner          ensuring that these requirements were being met. In
maintained the property in satisfactory condition, it      addition, they have not requested a housing assistance
did not comply with several provisions of the Regula-      payment since June 2001. Consequently, adequate
tory Agreement and other HUD regulations. Specifi-         funding was not available to fully maintain the prop-
cally, the owner failed to maintain the books and          erty, and the remaining Section 8 housing assistance
records of the project, and could not show that it         payments reserve of $2.8 million was not being used
deposited rental receipts intact. In addition, the owner   as intended.
paid over $55,000 for ineligible and unsupported
                                                               We recommended that the Denver Multifamily
personal expenses with project operating funds. The
                                                           Hub refer the question of whether the use agreement
owner also improperly obtained and used project
                                                           can be rescinded to HUD’s Office of General Counsel
funds to pay over $42,000 for a personal promissory
                                                           and cancel the Section 8 housing assistance payments
note. Further, the owner received more than $32,000
                                                           contract if the use agreement is rescinded. If the use
in excess of the allowed management fee, and mis-
                                                           agreement cannot be rescinded, we recommended
used $24,000 in tenant security deposit funds.
                                                           that HUD provide technical assistance to the project
    The owner’s payments of ineligible and unsup-          management to bring the project into compliance;
ported expenses depleted the project’s operating           require the Blackfeet Tribe to repay ineligible costs of
funds. Currently, the project is in default. However,      over $8,000; and determine the appropriateness of
                                                           questioned costs. (Report No. 2004-DE-1001)
Chapter 4 - HUD’s Multifamily Housing Programs                                                                   59
     In response to a Congressional complaint of             Moisture damaged drywall at window frame at Saraland
declining and substandard living conditions at               Manor Apartments.The age and condition of window units
Saraland Manor Apartments in Gulfport, MS, the               makes them too difficult to operate and subject to moisture
                                                             intrusion.
OIG conducted an inspection of the complex. Saraland
Manor is a multifamily apartment project that serves
elderly and handicapped residents, 100 percent of
whom are subsidized through the Section 8 Program.
The inspection identified numerous deficiencies in
building exteriors, common areas, and in the interiors
of 32 apartments. Deficiencies in the exteriors and
common areas included exposed and loose electrical
wires on rooftop air conditioner units, burned out light
bulbs in emergency exit signs and stairwells, and
pooling water on the roofs due to non-functioning air
conditioner condensation lines. In the apartment units,
we found severely deteriorated kitchen sink cabinets
and countertops, rotting shelves, rusting stove vent
hoods with exposed wiring and exposed light bulbs
over the cooktops, windows that were too difficult to
open and close, windows with missing or damaged
seals and broken thermoseals, and water damaged
ceilings and walls.                                              Most of the deficiencies were the result of the
                                                             project’s age and inadequate maintenance and re-
                                                             pairs. Numerous health (sanitation) and safety
Sink cabinet sides and bottom shelf rotted out at Saraland   deficiencies found in the apartment units were not
Manor Apartments.                                            cited in the last inspection by HUD’s Real Estate
                                                             Assessment Center (REAC). We concluded that the
                                                             REAC inspection did not identify all significant health
                                                             and safety deficiencies and that the owner/manage-
                                                             ment agent did not operate an adequate maintenance
                                                             program.
                                                                 The audit recommended that HUD’s Jackson, MS
                                                             Multifamily Program Center conduct a management
                                                             review of Saraland and assess why management has
                                                             not performed routine maintenance and repairs, and
                                                             whether management scheduled repairs of deficien-
                                                             cies identified by REAC inspections. The Program
                                                             Center should also require the owner/management
                                                             agent to implement adequate management controls to
                                                             ensure that health and safety hazards and other
                                                             routine maintenance needs are timely identified and
                                                             promptly corrected. The audit also recommended
                                                             that REAC reinspect Saraland Manor to determine
                                                             whether a revised physical condition score and
                                                             correlating revisions of the repairs required by REAC
                                                             are needed, and whether corrective actions to ad-
                                                             dress the contract inspector’s performance are
                                                             warranted. (Report No. 2004-AT-1802)


Chapter 4 - HUD’s Multifamily Housing Programs                                                                         60
     In response to a request from HUD’s Office of       Housing that indicated there were unallowable
Multifamily Housing, Kansas City Hub, and their          disbursements from project funds. Our review
concern about unallowable disbursements from             identified an internal deficiency regarding HUD’s
project funds, the OIG audited Timberlake Care           approval of the project owner’s salary. We found that
Center, a nursing home in Kansas City, MO. We            the owner was receiving a substantial salary from the
found that Timberlake made payments for other than       property. We did not take exception to this in our audit
reasonable operating expenses and necessary repairs      report since HUD had previously approved the salary.
of the project. Timberlake paid over $76,000 in          However, the salary may not be reasonable and
unsupported and/or unallowable disbursements from        necessary because the project’s administrator per-
the operating account during fiscal years 2002 and       forms many of the normal management functions. We
2003. The project’s owner did not alter property         found no indication that the owner was performing any
operations to ensure that HUD rules and regulations      significant management functions that were reason-
were followed after Timberlake obtained HUD insured      able and necessary to the operations of the project.
financing in August 2001. As a result, funds that        Although HUD approved the salary during the loan
should have been used to pay the operating expenses of   origination process, paying the salary out of operating
the property were used for unsupported and/or            funds has further contributed to the project’s negative
unallowable purposes, contributing to Timberlake’s       surplus cash position.
negative surplus cash position.
                                                              The audit recommended that HUD identify the
     Timberlake Care Center failed to reconcile its      management duties performed by the project owner
operating account bank statements to the general         and determine the appropriate amount of salary the
ledger each month to ensure the amounts balanced.        owner should receive from operating funds for
Over the two-year audit period, the operating account    performing those duties, and restrict the amount paid
general ledger balance was understated by over           for the salary to the determined amount. (Report No.
$17,000. Timberlake staff were aware that the            2004-KC-0803)
operating account bank statements did not reconcile
to the general ledger balance, but did not know how to       At the request of the Seattle HUD Multifamily
correct the problems, and therefore took no action.      Hub Office, we audited Uptown Towers Apartments
                                                         in Portland, OR, to determine if the project owner
     The audit recommended that HUD ensure
                                                         received repayment of ineligible construction loans
Timberlake Care Center owners develop and imple-
                                                         and capital contributions from project funds; com-
ment policies and procedures to control funds in
                                                         mercial space income has been treated as project
accordance with HUD requirements, and require that
                                                         income or the owner’s contribution; commercial
Timberlake’s operating account be reimbursed
                                                         income has been paid out to the project owner; the
$76,000 for the unsupported and/or unallowable
                                                         management agent has been receiving excessive
disbursements. We also recommended that HUD
                                                         management fees; and certain project expenses were
ensure Timberlake owners provide adequate support
                                                         eligible and benefited the project.
for the adjusting entry to cash made at the end of
fiscal year 2002, and properly correct the fiscal year        Our audit found no repayments of construction
2003 general ledger, or repay Timberlake’s general       loans. We determined that repayments of capital
operating account the amount that cannot be sup-         contributions from project surplus cash to the owners
ported. Finally, we recommended that HUD verify          were eligible. We also found that the project’s com-
that Timberlake owners are correctly reconciling the     mercial income was properly treated as owner
bank statements to the general ledger each month.        contributions or income, and payments to the owner
(Report No. 2004-KC-1002)                                from the commercial income are allowable. How-
                                                         ever, the management agent received nearly $15,000
    In a related audit, the OIG reviewed the owner’s     in excessive management fees paid from residential
salary at Timberlake Care Center in Kansas City,         income for the management of the project’s commer-
MO. This review was conducted based on a request         cial income. Further, more than $43,000 in ineligible
from HUD’s Kansas City Office of Multifamily             and unsupported partnership expenses were paid from
                                                         project funds.
Chapter 4 - HUD’s Multifamily Housing Programs                                                                 61
    We recommended that the project owners take
measures to ensure that only proper management
fees and allowable expenses are paid, and repay the        Investigations
project for ineligible costs. (Report No. 2004-SE-
1003)                                                           During this reporting period, the OIG opened 158
                                                           investigation cases and closed 80 cases in the Multi-
     During our September 2003 limited review of           family Housing Program area. Judicial action taken
Shawnee Hills, Inc., a not-for-profit company in           on these cases during the period included $5,235,373
Charleston, WV, that managed several HUD assisted          in investigative recoveries, $3,875,633 in funds put to
Section 202/811 properties, we found that HUD did not      better use, 71 indictments/informations, 24 convic-
file Continuation Statements as required under the         tions, pleas, and pre-trial diversions, 49 administra-
Uniform Commercial Code to protect all of HUD’s            tive actions, five civil actions, and 182 arrests. The
financial interests. Under the Uniform Commercial          results of our more significant investigations are
Code, HUD must file a report periodically (every five      described below.
years or as state law requires) to assure that a lien on
chattels remains in effect until the mortgaged prop-       Equity Skimming
erty is paid in full or foreclosed. A chattel is any
                                                                Unidos Management, the former managing agent
article of tangible property other than land, and
                                                           of the Jose DeDiego Beekman housing development in
buildings such as office furnishings, furniture, or
                                                           the Bronx, NY, agreed to pay over $690,000 in civil
capital equipment.
                                                           damages to settle multifamily equity skimming
     Our current review found that HUD’s West              violations involving the misuse of project funds. An
Virginia Field Office was not aware of the process for     audit found that the management agent of this 1,200-
filing Continuation Statements for Section 202/811         unit development violated the Regulatory Agreement
capital advances and direct loans. In part, we at-         and HUD rules and regulations by making improper
tribute this to the fact that the applicable HUD hand-     payments of salaries to several on-site supervisory
books and related directives are outdated and need to      employees. The salaries were paid from Beekman
be revised to provide proper guidance to program           project funds when they should have been paid from
staff. More specifically, under an internal HUD            the management fees received by the agent to manage
reorganization in 1998, HUD’s Regional Accounting          the property. The audit also found that Unidos repaid
Divisions were eliminated, and the function of             loans from Beekman operating accounts while some
maintaining a system to advise the Loan Management         of the projects had a negative surplus cash balance,
Branch of the date when Continuation Statements            and used project income to pay an affiliated entity a
need to be filed was not assumed by or transferred to      fee for investment services. Based on these findings,
another HUD division. As a result, HUD’s financial         civil claims were filed against Unidos.
interests in chattels are not fully protected; this
problem is not limited to the West Virginia Field              In Chicago, IL, in Federal Court for the North-
Office.                                                    ern District of Illinois, the U.S. Attorney’s Office,
                                                           Civil Division, entered into a settlement agreement
    We recommended that HUD’s Assistant Secretary
                                                           with the owners and management of Aurora Wood-
for Housing and HUD’s Deputy Chief Financial
                                                           lands Apartments, a HUD insured multifamily project
Officer coordinate efforts and take appropriate action
                                                           located in Aurora, IL. An investigation disclosed that
to ensure existing policies and procedures for prepar-
                                                           the project owners misused property assets by making
ing and filing Uniform Commercial Code Continua-
                                                           an unlawful disbursement to themselves, and pre-
tion Statements are updated and/or consolidated, and
                                                           sented several false claims to HUD for monthly
ensure that updated procedures are appropriately
                                                           subsidy payments in violation of the False Claims Act.
distributed to responsible field office staff for imme-
                                                           A complaint was not filed because the owners agreed
diate implementation. (Report No. 2004-PH-0001)
                                                           to settle the case. The terms of the settlement include
                                                           the owners making a lump sum payment of $301,720,
                                                           and accepting a three-year voluntary exclusion from
Chapter 4 - HUD’s Multifamily Housing Programs                                                                   62
Executive Branch Programs. The monetary payment          Branch of the Federal Government pending debar-
consists of $263,220, which is double damages for a      ment actions. In April 2003, Sheppard pled guilty to
March 2000 unlawful distribution to themselves, and      theft in State Court in Big Spring, TX. She admitted
$38,500, which is a $5,500 False Claims Act fine for     embezzling more than $57,000 in rents from two
each false monthly housing assistance payment            Saint Mary’s projects that were insured by HUD.
certification submitted between February and August      Sheppard was on probation for a prior embezzlement
2000.                                                    charge when she committed this crime. She was
                                                         sentenced to seven years imprisonment and ordered to
     Defendant Rodney Myers was indicted in Fort         pay $50,000 in restitution. She was also fined $233 in
Smith, AR, in Federal Court for the Western District     court costs.
of Arkansas, on 22 counts of equity skimming,
bankruptcy fraud, money laundering, making false             Defendant James Caccamo, a former resident
statements to HUD, perjury, and subornation of           property manager at the Butler Family Housing
perjury. Myers is the former owner of Burchwood          Apartments (BFHA), was sentenced in Pittsburgh,
Harbour Apartments (BHA), a HUD insured multifam-        PA, in U.S. District Court for the Western District of
ily project in Hot Springs, AR. From December 1998       Pennsylvania, to six months in prison and 36 months
to April 2000, while the project’s mortgage was in       supervised release, and was ordered to pay $7,569 in
default and during the period of BHA’s Chapter 11        restitution. Caccamo pled guilty in September 2003 to
bankruptcy proceeding, Myers allegedly devised a         embezzling funds from the BFHA, an FHA insured,
scheme to divert over $110,000 in project rents and      project-based Section 8 property. Caccamo and his
other funds, in violation of the Regulatory Agreement    wife, Linda Caccamo, also a resident property
and the bankruptcy court’s cash collateral order.        manager at BFHA, were indicted in June 2003 on
After the bankruptcy was dismissed in April 2000 and     charges of theft from a program receiving federal
while the mortgage was in default, Myers diverted        funds. The defendants were terminated from their
over $40,000 in project rents and other funds. His       employment after admitting that they stole nearly
scheme involved diverting rent checks to his personal    $10,000 in rent proceeds they had collected from
bank accounts and writing BHA checks to several          Section 8 tenants residing at the BFHA. Linda
contractors, and either receiving cash kickbacks from    Caccamo has also pled guilty and been admitted to a
contractors or forging contractor endorsements,          court supervised pre-trial diversion program wherein
purchasing cashiers’ checks, and depositing the          she will also be required to make restitution for her
cashiers’ checks in his personal bank accounts.          role in this crime.
Myers used inflated and phony invoices and bids for
work not performed to conceal his diversions. He             Defendant Roger Younts was sentenced in State
committed perjury in a Bankruptcy Rule 2004 Exami-       Court in Lexington, NC, to 60-81 months incarcera-
nation relating to the diversions, and he and an         tion and was ordered to pay $453,293 in restitution.
attorney, defendant Mike King, also suborned the         Younts was previously charged with and convicted on
perjury of two contractors by convincing them to state   11 counts of embezzlement. He was the accountant
they received the diverted BHA funds for work per-       for a property management company that managed
formed at BHA, when in fact they did not. Myers also     HUD insured multifamily complexes. Younts em-
signed and submitted false accounting reports to the     bezzled money from various accounts, including
bankruptcy trustee and HUD by stating on the reports     operating accounts.
that the diversions were for legitimate work at BHA.
                                                             Defendant Rita Sharn Hye signed a pretrial
Theft/Embezzlement                                       diversion agreement in Little Rock, AR, in U.S.
                                                         District Court for the Eastern District of Arkansas,
    Defendant Teresa Sheppard, a former employee         admitting to theft of program funds. Hye agreed to
at St. Mary’s Episcopal Retirement Homes, Inc., was      perform 180 hours of community service and pay
suspended from further participation in procurement      $7,716 in restitution in return for 18 months of de-
and non-procurement transactions as a participant or     ferred adjudication. From March 2001 to March
principal with HUD and throughout the Executive
Chapter 4 - HUD’s Multifamily Housing Programs                                                                  63
2002, Hye failed to report to Asbury Park Apartments      theft from a program receiving federal funds. Will-
the income she earned working as the manager of a         iams and other employees of the Esplanade Gardens,
check cashing business. As a result of failing to         a multifamily development that receives HUD funds,
disclose her income, Hye received $7,716 in multi-        were allegedly involved in an elaborate scheme to
family project-based Section 8 benefits to which she      steal funds from Esplanade Gardens. Defendant
was not entitled.                                         Mark Bynoe, owner of Mark Bynoe, PC, and a sales
                                                          person for several different companies, has also been
    In Charlottesville, VA, in U.S. District Court for    arrested in this case.
the Western District of Virginia, defendant Nancy
Besemer pled guilty to one count of federal program            Defendant Janine Coleman, a multifamily spe-
fraud in connection with her embezzlement of funds        cialist at the Overmont Houses development, was
from Blue Ridge Commons Apartments (BRC).                 charged in State Court in Philadelphia, PA, with
Besemer, the former property manager of BRC, and          felony counts of fraud and theft by deception. The
Rodney Crump, the former assistant property man-          charges stemmed from the investigation of a $40,000
ager, embezzled $23,219 in cash payments and blank        embezzlement scheme carried out at Overmont
money orders from BRC residents. Instead of deposit-      Houses, a HUD insured multifamily development. The
ing these funds in a bank account belonging to BRC,       investigation disclosed that Sandra Pullett, along with
Besemer and Crump kept the money for their own            Coleman, embezzled rent payments from Section 8
benefit. Besemer was previously convicted of embez-       tenants at Overmont Houses for about a year and a
zling from a separate HUD property and was on             half. After receiving the payments, the defendants
probation for that crime at the same time she was         split the money between themselves for personal use.
embezzling from BRC. She fled Virginia prior to being     Pullett was previously sentenced in this case.
indicted in June 2002 and after a lengthy search, was
apprehended in Savannah, GA, in December 2003.            Conspiracy/Kickbacks/Mail Fraud
Crump has already been sentenced to 15 months
incarceration and 36 months supervised release, and            Defendants Marvin and Jeffrey Gold were
was ordered to pay $23,219 in restitution.                sentenced in Central Islip, NY, in Federal Court for
                                                          the Eastern District of New York. Marvin Gold was
    Defendants Wendy and Brian Schweitzer, who            sentenced to 15 months in prison and 36 months
were previously indicted for theft of over $10,000,       supervised release, and was ordered to pay $965,000
pled guilty in State Court in Franklin, TN, to theft      in restitution to the New York City District Attorney’s
greater than $10,000. Wendy Schweitzer, former            Office, while Jeffrey Gold was sentenced to 12
property manager at Harpeth Hills Apartments and          months and one day in prison and 36 months super-
Liberty Oaks Apartments, instructed multifamily           vised release, and was ordered to pay $100,000 in
residents to leave the “pay to” line on their money       restitution. The Golds pled guilty in April 2003 to one
orders blank when paying their rent. She deposited        count each of conspiracy to defraud HUD and the IRS.
the funds in her personal account and concealed the       Marvin Gold was the owner of Marvin Gold Manage-
theft by lapping the accounts receivable. It total, she   ment, a real estate management company in Brook-
embezzled $15,012. Brian Schweitzer, a Nashville          lyn, NY, which managed numerous properties that
police officer and Wendy Schweitzer’s former              received HUD subsidies and loan guarantees. Jeffrey
husband, endorsed some of the money orders that           Gold was vice president of the company. From
were deposited in a joint bank account.                   January 1992 through April 1999, Marvin Gold
                                                          received at least $80,000 in kickbacks from vendors
    Defendant Patrick Williams, the controller of         for work performed at the buildings managed by his
Esplanade Gardens, was arrested on an outstanding         company. He also approved payments of an additional
arrest warrant while returning to the United States       $210,000 in kickbacks to other individuals. Jeffrey
from the Dominican Republic. He was charged in            Gold received at least $17,000 in kickbacks from
New York, NY, in Federal Court for the Southern           vendors during the same time period. The kickbacks
District of New York, with aiding and abetting and        were included in vendor contracts as a cost of ser-
                                                          vices provided.
Chapter 4 - HUD’s Multifamily Housing Programs                                                                 64
    Defendant Angelo Scudiero, a building manager             In all four of these cases, the buildings managed
for Taino Towers in Manhattan and Dayton Towers in        by the defendants and/or their companies received
Far Rockaway, NY, was sentenced in Central Islip,         HUD subsidies and loan guarantees. The kickbacks
NY, in Federal Court for the Eastern District of New      were disguised in the invoices from vendors as costs
York, to 12 months in prison, three years probation,      of services provided.
and restitution of $330,000 for his involvement in a
conspiracy to defraud HUD and the IRS. Scudiero               Defendant Murray E. Howell, an employee of
received over $330,000 in kickbacks from vendors for      Ham Contracting Inc., was debarred from future
work performed at the two buildings that he managed.      participation in procurement and non-procurement
                                                          transactions with Executive Branch of the Federal
    In a similar case, defendant Michael Cantor was       Government for a three-year period. In December
sentenced in Central Islip, NY, in Federal Court for      2002, a bill of information was filed against Howell in
the Eastern District of New York, to 12 months in         Shreveport, LA, in Federal Court for the Western
prison and three years supervised release on the          District of Louisiana, charging him with one count of
same charges. Cantor was the owner and president of       conspiracy to commit mail and wire fraud. Howell
Cantor Real Estate, a management company in               was subsequently sentenced to five months confine-
Brooklyn, NY, that managed numerous properties in         ment, 36 months supervised release, and $60,000 in
New York. Between January 1992 and April 1999,            fines.
Cantor received over $13,000 in kickbacks from
vendors for approving work to be done at the numer-           Defendants Janet Gaibl and Joseph Cassidy were
ous buildings that he managed.                            indicted in Boston, MA, in Federal Court for the
                                                          District of Massachusetts, on one count each of
     In another similar case, defendant Arnold            conspiracy. Gaibl was also charged with two counts of
Zabinsky was sentenced in Central Islip, NY, in           making false statements. The indictment alleges that
Federal Court for the Eastern District of New York,       between 1988 and continuing until mid-2000, the
to six months home detention and 36 months super-         defendants, both former employees of First Realty
vised release, and was ordered to pay $53,000 in          Management (FRM), caused false statements to be
restitution to the State of New York. Zabinsky was the    submitted to HUD relating to a rent subsidy program
president of Elm Management Company located in            at Cummins Towers, a HUD insured multifamily
Elmhurst, NY. Elm provided building managers for          complex managed by FRM. Gaibl and Cassidy alleg-
residential buildings throughout the New York area.       edly identified certain federally subsidized units at the
From January 1992 through April 1999, Zabinsky            development for their own use, or the use of friends,
received over $11,000 in kickbacks from vendors for       and then caused false statements to be made on
work performed at the buildings his company man-          related HUD forms and supporting documents to be
aged.                                                     fabricated, all for the purpose of obtaining subsidized
                                                          units for individuals who would not otherwise qualify.
    Defendant Eric Dubbs was sentenced in Central         Gaibl and Cassidy caused a loss to HUD in excess of
Islip, NY, in Federal Court for the Eastern District of   $140,000, and deprived qualified families of use of the
New York, to two months in prison and three years         units.
supervised release, and was ordered to pay $20,700 in
back taxes to the IRS for his involvement in a con-       Drug and Weapons Violations/Fraud
spiracy to defraud both HUD and the IRS. Dubbs was
the building manager for the Amsterdam Building               OIG Agents conducted a sweep of the Englewood
which receives HUD loan guarantees. From January          Apartments, a Section 8 project-based development in
1992 through April 1999, Dubbs received over $4,700       Kansas City, MO. Englewood Apartments is a known
in kickbacks from vendors for work performed at the       high-crime area in the Kansas City metropolitan
buildings his company managed. The kickbacks were         region. It is known as a haven for fraud, drugs, and
disguised in the invoices from the vendors as costs of    violence. The apartments are located within one mile
services provided.                                        of an elementary and an intermediate school. Follow-

Chapter 4 - HUD’s Multifamily Housing Programs                                                                  65
ing this successful sweep, defendants Dolores Mora,        multifamily project manager, was sentenced to three
Anita Reece, and Valerie Vallier turned themselves         months electronic home confinement and six months
over to Platte County authorities for pending State        probation after she pled guilty to a one-count informa-
felony charges while defendants Monica Wesley,             tion charging her with making false statements
Tiffany Gee, and Kim Falley turned themselves over         concerning the eligibility of recipients of HUD rental
to the Kansas City Police Department for outstanding       assistance. These false statements included certifica-
City violations. Defendant Reece was subsequently          tions that the recipients were eligible for benefits
sentenced in Platte County District Court for felony       when they were not. Timberlee owners reimbursed
stealing by deceit for obtaining food stamp benefits for   HUD $90,918 for the losses that transpired from the
children who were not living in her residence. She         scheme. Through an agreement with HUD, Timberlee
was ordered to pay $9,068 in restitution and placed on     ownership also transferred the management of
probation for five years. HUD records regarding            Timberlee Apartments to a management company to
Reece’s Section 8 unit provided information proving        administer its HUD programs.
that her children were not living with her during the
time she received benefits for them. This is the first          Defendant Geraldine Thomas, president of the
conviction and sentencing stemming from operations         Regional Alliance of HUD Tenants (PRAHT), was
at Englewood Apartments.                                   sentenced in Philadelphia, PA, in Federal Court for
                                                           the Eastern District of Pennsylvania, to 60 months
    As a result of the investigation, to date 34 indi-
                                                           supervised release and was ordered to pay $24,910 in
viduals have been criminally charged and one has
                                                           restitution to HUD. Thomas pled guilty in November
been sentenced for theft by deceit for failure to
                                                           2003 to one count of making false statements to HUD.
accurately report household income and composition
                                                           An investigation uncovered misappropriation of HUD
to Englewood’s management. In addition to the
                                                           funds following a review of PRAHT’s accounting
individuals charged with fraud, the investigation has
                                                           practices and management of two HUD multifamily
identified 30 persons with outstanding felony war-
                                                           Intermediate Technical Assistance Grants (ITAGs)
rants. During the sweep, three weapons and mari-
                                                           totaling approximately $500,000. The investigation
juana were seized.
                                                           also disclosed that Thomas submitted false informa-
                                                           tion concerning PRAHT salary expenses to HUD in
    In Omaha, NE, in Federal Court for the District
                                                           order to receive ITAG grant disbursements. In addi-
of Nebraska, defendant Ricky Davis, a convicted
                                                           tion, she fraudulently used PRAHT issued ATM cards
felon and an illegal tenant at Wintergreen Apart-
                                                           and withdrew up to $10,000 from ATM machines
ments, a Section 8 project-based development, was
                                                           located in Atlantic City, NJ casinos. In attempt to
indicted on one count of felon in possession of a
                                                           cover up phony PRAHT salary expenses and fraudulent
firearm. Allegedly, Davis was regularly firing a
                                                           use of the ATM cards, Thomas created and submitted
weapon at the apartment complex.
                                                           $35,000 in fraudulent invoices to OIG Audit officials
                                                           during a routine audit of PRAHT. Thomas was subse-
    A warrant sweep was conducted at Brighton
                                                           quently suspended by HUD’s Enforcement Center.
Place Apartments, a Section 8 project-based complex
in Kansas City, MO. Twelve individuals were ar-
                                                                Defendant Nasser Ahmed Ameri, a citizen of
rested on outstanding warrants. Of these 12, defen-
                                                           Yemen, was convicted in Little Rock, AR, in U.S.
dants Gloria Logan, Carla Hubbard, Vanessa
                                                           District Court for the Eastern District of Arkansas,
McCullough, and Carmeia Rivers were charged in
                                                           on 18 counts of unlawful alien in possession of ammu-
Jackson County District Court, Kansas City, MO,
                                                           nition, production of fraudulent documents, possession
with theft by deceit for failure to report their income
                                                           of fraudulent documents, possession of document
to Brighton Place management.
                                                           making implements, computer fraud, theft of trade
                                                           secrets, identity theft, fraudulent use of a Social
False Statements                                           Security number, and making false statements to the
                                                           FBI and HUD. Ameri possessed and produced fraudu-
    In Topeka, KS, in Federal Court for the District
                                                           lent Arkansas drivers’ licenses and identification
of Kansas, defendant Cynthia Edwards, a former

Chapter 4 - HUD’s Multifamily Housing Programs                                                                  66
cards and falsely told Agents he was part of a terror-       Northern District of California, charging defendant
ist plot, thus wasting investigative manpower and            Albert Boddie, a former Section 8 tenant, with one
expenses. Ameri also received Section 8 rental               count of making false statements to HUD. From 1997
assistance from May 1997 to March 2002. At the               to 2001, Boddie allegedly provided false employment
time of his initial application for Section 8 benefits, he   verifications and income statements to HUD claiming
was a non-citizen student and ineligible for Section 8       that he earned between $7,000 and $9,000 per year.
assistance. In May 1997, Ameri falsely stated on his         In fact, Boddie earned $46,316 in 1997, $59,154 in
declaration of citizenship form that he was a citizen        1998, $55,591 in 1999, $68,952 in 2000, and $67,094
or national of the United States. As a result of his         in 2001. In 2001, Boddie purchased a home for
fraud and false statements, Ameri received $13,694           $229,000. When he was interviewed, Boddie provided
in multifamily project-based Section 8 benefits to           a sworn statement admitting that he failed to report
which he was not entitled.                                   his correct income to HUD in order to continue
                                                             receiving Section 8 housing benefits. HUD paid
     In Allen County, OH State Court, defendant              $36,096 in ineligible Section 8 assistance on Boddie’s
Penny Williams, also known as Penny Schneider, pled          behalf.
guilty to misdemeanor petty theft and was sentenced
for her role in occupying two HUD subsidized units,               The U.S. Attorney’s Office filed an information
one a public housing unit and the other a privately          in San Francisco, CA, in Federal Court for the
owned Section 8 unit. Williams used two different last       Northern District of California, charging defendant
names at each of the properties in order to disguise         Natasha Adams, a former Section 8 tenant, with one
her residency. She was sentenced to two years                count of making false statements to HUD. From 1998
probation and was ordered to pay $1,320 in restitution       to 2001, Adams allegedly provided false verifications
to the Allen Metropolitan Housing Authority.                 of employment and income to HUD that showed she
                                                             had little or no income. In fact, Adams was employed
     In Detroit, MI, in Federal Court for the Eastern        by the State of California Department of Motor
District of Michigan, defendant Ama Zitaanoff, also          Vehicles during this period. When she was inter-
known as Jessie Zitaanoff, a Section 8 tenant, was           viewed, Adams admitted to preparing the false
sentenced to 10 months in jail and two years super-          statements that she made to HUD. As a result of her
vised release, and was ordered to pay $78,168 in             failure to properly report her income, HUD paid
restitution. Zitaanoff pled guilty in October 2003 to        $19,152 in overpaid Section 8 housing assistance on
collecting Social Security supplemental income (SSI)         her behalf.
under two different names. She also admitted receiv-
ing HUD subsidized housing at two different apart-                In Bayamon, PR, in State Court for the District
ments. The fraud amount for the SSI benefits is              of Bayamon, defendant Maria D. Sanchez-Ortiz, a
$23,723, while the money paid out for housing assis-         former Section 202/Section 8 tenant, was charged
tance to which she was not entitled totals $54,445.          with 11 counts of illegal appropriation. Sanchez
                                                             allegedly withheld income information from Egida del
    In Little Rock, AR, in Federal Court for the             Medico management in order to qualify for rental
Eastern District of Arkansas, defendant Reuben               assistance in the elderly housing project. As a result
Bledsoe pled guilty to one count of making false             of her false statements, she received $6,204 in
statements to HUD on a tenant certification form.            Section 8 housing assistance to which she was not
Bledsoe filed a false certification form stating that he     entitled.
was unemployed and had zero income when in fact he
was employed as a full time police officer with the              Defendant Mia Shivers, a multifamily Section 8
Pine Bluff Police Department. The total loss to HUD          recipient in the Jersey Park Apartments, was arrested
was $16,500.                                                 based on an indictment handed down in State Circuit
                                                             Court, Isle of Wight County, VA. The indictment
    The U.S. Attorney’s Office filed an information          charged Shivers with 33 fraud related counts, includ-
in San Francisco, CA, in Federal Court for the               ing two counts of making false statements to obtain

Chapter 4 - HUD’s Multifamily Housing Programs                                                                   67
housing assistance and 19 counts of grand larceny          drawals at bank locations in St. Louis, MO, where
from HUD. For over a year and a half, Shivers              Freschi has lived at the Centenary Towers Apart-
allegedly failed to report over $20,000 in income from     ments since June 1993. HUD’s loss for the time
her live-in boyfriend, Charles Faltz. Faltz’s unre-        period Freschi has been in the Section 8 Program is
ported income resulted in Shivers receiving $9,400 in      approximately $47,097.
Section 8 benefits to which she was not entitled. This
complaint was referred to the OIG by the Virginia          Davis-Bacon Violations
Department of Social Services (DSS) in Isle of Wight
County. DSS was investigating Shivers for social                In Cleveland, OH, in Federal Court for the
services benefit fraud. As a result of local media         Northern District of Ohio, Gatehouse Building
coverage of the social services benefit fraud investi-     Company, a general contractor for the construction of
gations, many subsidy recipients are voluntarily           FHA insured multifamily developments, reached a
reporting previously undisclosed employment income.        settlement to pay $756,829 to be made available to the
                                                           Department of Labor, Wage and Hour Division. The
     In Harrisburg, PA, in Federal Court for the           money will pay wage restitution to numerous laborers
Middle District of Pennsylvania, defendant Clarissa        who were paid less than the prevailing wage while
Taylor was charged with being the principal in the         working on developments that were insured by FHA
commission of an offense against the United States         for over $30 million. This investigation has already
and making false statements in connection with her         resulted in the conviction defendants Robert Atkins,
participation in HUD’s Multifamily Project-Based           Edward Gorges, Robert Gregoric, Avner Leibovitch,
Section 8 Program. Taylor has resided at the Edison        and Andrew Sando. Another four defendants, Dennis
Village development since 1998. Edison Village is          Breiding, Douglas Lund, Joginder Singh, and
owned and operated by the Wingate Management               Rajinder Singh, are pending trial. The investigation
Company. Taylor allegedly falsified her annual             disclosed that multiple subcontractors were paying
recertifications to remain eligible for and continue       less than what was required by the Department of
living in subsidized housing. She also failed to declare   Labor and HUD.
over $46,000 in Social Security payments she re-
ceived on behalf of her daughter between 2000 and          Insurance Fraud
2003. During the same period, HUD made $33,000 in
housing assistance payments to the landlord on behalf           In Chicago, IL, in Federal Court for the North-
of Taylor.                                                 ern District of Illinois, defendant Ralph Aulenta,
                                                           former president of American Business Insurance of
    Defendant Robert Freschi was taken into custody        Illinois, pled guilty to his participation in multiple
in Knoxville, TN. This investigation was predicated        schemes to inflate insurance proceeds. Aulenta
on an allegation that Freschi received HUD Section 8       accepted responsibility for inflating insurance pro-
assistance from June 1993 to November 2002. From           ceeds totaling $288,000 on behalf of the City of
February 1997 to January 2003, Freschi maintained a        Rosemont between 1991 and 1996. In addition, over a
bank account at the Cumberland County Bank in              nine-year period, Aulenta admitted inflating insurance
Crossville, TN. This bank account was used to              premiums totaling $1.7 million for Boulevard Man-
provide hidden assets and income to Freschi while he       agement, a corporation which both owned and man-
claimed on his annual Section 8 recertification forms      aged several FHA insured multifamily developments.
that he had no income or assets other than monthly         In the case of Boulevard Management, Aulenta
Social Security disability payments. Freschi has been      inflated insurance premiums on the HUD insured
receiving $6,500 per year in Social Security disability    projects and disguised kickback payments made back
payments, which he has verified on his recertification     to Boulevard as rebated premiums.
forms as his only source of income. However,
monthly deposits of $1,666 and annual deposits of          Warrant Initiative
$8,000 have been made to his bank account. The bank
statements also reflect a steady flow of ATM with-             An arrest/interview operation was conducted at
                                                           the Windridge Apartments, an insured multifamily
Chapter 4 - HUD’s Multifamily Housing Programs                                                                   68
complex in Wichita, KS. The Wichita West Police            deposited the money orders/checks in her personal
Department previously identified residents with            bank account in Aston, PA. The stolen money orders,
outstanding warrants, while OIG identified tenants         totaling $8,349, represent the tenants’ portion of their
working or receiving unemployment benefits in 2003         Section 8 rent payments. The remaining $794 repre-
but who were reporting zero income to management.          sents two checks sent to Bentley Woods to assist
Seven defendants, representing six households, were        tenants in temporarily paying their portion of the rent
arrested. The defendants were Aisha Jones, Anthony         and two checks from vendors paying reimbursements
Henderson, Christina Clinton, George Davis, III,           to Bentley Woods.
Brenda Pool, Lakisha M. Ellis, and Jason A. Mims.
During interviews of the arrestees, two households
admitted that their reported income and composition
were not accurate, one admitted that reported house-
hold composition was not accurate, and one admitted
that reported income was not accurate. An eviction
notice was also served to Natalie Willis, a tenant and
former Windridge/Insignia manager, for alleged
embezzlement of funds. Seven other tenants were also
interviewed but did not furnish any additional informa-
tion not previously provided to management. These
arrests are part of the Kansas City Region’s Section 8
Warrant Initiative.

Regulatory Agreement Violations
    As a result of an ongoing series of civil litigation
efforts, defendant Morton Sarubin, a multifamily
development owner, agreed to a settlement in Balti-
more, MD, in U.S. District Court for the District of
Maryland, by which he will pay $538,768 to the
accounts of two FHA insured Section 8 multifamily
projects to provide for their immediate and long-term
physical repairs. HUD had declared both develop-
ments, Old Towne Manor in Cumberland, MD, and
Lansdowne Apartments in Baltimore, in technical
default of their Regulatory Agreements in June 1999
due to long-term uncorrected physical deficiencies.

Interstate Transportation of Stolen
Property
    Defendant Barbara Cooper, former Community
Realty Management property manger for the Bentley
Woods apartment complex located in Glassboro, NJ,
pled guilty in Philadelphia, PA, in U.S. District
Court for the Eastern District of Pennsylvania, to one
count of interstate transportation of stolen property.
Cooper’s plea stems from allegations that she stole
$9,143 worth of money orders and checks payable to
Bentley Woods. She then crossed state lines and

Chapter 4 - HUD’s Multifamily Housing Programs                                                                   69
                                                 This page intentionally left blank.




Chapter 4 - HUD’s Multifamily Housing Programs                                         70
                  Chapter 5 — HUD’s Community Planning and
                             Development Programs

     The Office of Community Planning and Develop-
ment (CPD) seeks to develop viable communities by                                Community Planning and Development Dollars
promoting integrated approaches that provide decent
housing, a suitable living environment, and expanded               $60,000,000

economic opportunities for low- and moderate-
                                                                   $50,000,000
income persons. The primary means toward this end
is the development of partnerships among all levels of             $40,000,000
government and the private sector.
                                                                   $30,000,000
Audits                                                             $20,000,000

     During this reporting period, the OIG issued six
                                                                   $10,000,000
external audit reports in the Community Planning and
Development Program area. These reports disclosed                          $0
over $10 million in questioned costs and about $52.5                                                External Audits
million in recommendations that funds be put to better                           Questioned Costs             Funds Put to Better Use
use.

                                                                    We audited Community Development Block Grant
                                                                (CDBG) Disaster Assistance Funds in the State of
                                                                New York, the Section 108 Loan, CDBG, HOME,
            Community Planning and Development                  Neighborhood Initiative Grant, and HOME Investment
                     Reports Issued                             Partnership Programs.

                                                                Disaster Assistance Funds – State of
              6
                                                                New York
                                                                     We are performing ongoing audits of the adminis-
                                                                tration of the CDBG Disaster Assistance Funds
                                                                provided to the State of New York as a result of the
                                                                terrorist attacks on the World Trade Center in New
                                                                York City. These funds are being administered by two
                                                                entities, the Empire State Development Corporation
                                                                (ESDC) and the Lower Manhattan Development
                      External Reports                          Corporation (LMDC). We plan to issue an audit report
                                                                on each entity every six months and include the
                                                                results in the Inspector General’s Semiannual Report
                                                                to Congress in order to comply with Congress’
                                                                request that the OIG periodically audit and semiannu-
                                                                ally report on the expenditure of these CDBG Disaster
                                                                Assistance Funds. This is the third and final report
                                                                that we will issue on the CDBG Disaster Assistance
                                                                Funds directly appropriated to ESDC. The prior audit
                                                                reports on ESDC were issued on March 25, 2003, and
                                                                September 30, 2003. This is the second in a series of

Chapter 5 - HUD’s Community Planning and Development Programs                                                                           71
reviews that we plan to conduct of LMDC’s administra-           HUD can readily make compliance determinations
tion of CDBG Disaster Assistance Funds. We reported             regarding ESDC’s programs.
on the operations of LMDC on September 30, 2003.
                                                                     ESDC has continued to make substantial progress
    The objectives of both the ESDC and LMDC reviews            in developing and implementing programs that
were to determine whether the entities: (1) disbursed           address the immediate economic needs of numerous
CDBG funds to eligible applicants in accordance with            businesses that suffered economic losses and prop-
the HUD Approved Action Plans; (2) developed and                erty damages during the September 11, 2001 terrorist
implemented adequate procedures for monitoring the              attacks. At September 30, 2003, ESDC had disbursed
programs funded with CDBG Disaster Assistance                   over $796 million of the $1.124 billion in CDBG
Funds; and (3) had financial management systems that            Disaster Assistance Funds it is administering. ESDC
adequately safeguarded the funds. Both reviews                  had disbursed $36 million in Small Firm Attraction
covered the period April 1, 2003, to September 30,              and Retention Grants (SFARGs) to 1,095 businesses
2003.                                                           representing over 19,000 employees, $173 million in
                                                                Large Firm Job Creation and Retention Grant
    Our audit found that ESDC generally disbursed
                                                                Program (JCRP) grants to 44 large businesses, and
CDBG Disaster Assistance Funds to eligible applicants
                                                                $543 million in Business Recovery Grants (BRGs) to
in accordance with HUD Approved Action Plans, and
                                                                over 14,000 applicants. In addition, ESDC has imple-
has a financial management system that is capable of
                                                                mented several other programs to address the
adequately safeguarding the funds. However, we noted
                                                                economic needs of the Lower Manhattan area
processing deficiencies in its grant programs that
                                                                resulting from the terrorist attacks. ESDC’s grant and
need to be resolved to enhance the efficiency of
                                                                loan programs have contributed significantly to the
ESDC’s administration of the funds. Also, we noted
                                                                revitalization of Lower Manhattan. ESDC budget and
monitoring controls that need to be strengthened so
                                                                disbursement amounts on September 30, 2003, were
                                                                as follows:


                     Program                               Budget as of         Disbursements        Balance as
                                                              9/30/03            as of 9/30/03       of 9/30/03
 Bridge Loan Program                                        $6,760,000                 $0            $6,760,000
 Business Recovery Loan Fund                               $41,140,000           $16,285,298        $24,854,702
 Business Recovery Grant Program                           $564,360,000         $543,993,383        $20,366,617
 Small Firm Attraction & Retention                         $155,000,000          $36,798,430        $118,201,570
 Grants
 Grants to Technical Assistance Providers                   $5,000,000           $2,636,584          $2,363,416
 Large Firm Job Creation & Retention                       $320,000,000         $173,693,270        $146,306,730
 Compensation for Economic Losses to
 Other Businesses                                         $13,240,000           $13,240,000              $0
 Business Information                                      $5,000,000            $3,647,153          $1,352,847
 Administration                                           $14,000,000            $6,215,775          $7,784,225
                TOTALS                                   $1,124,500,000         $796,509,893        $327,990,107
                                   ESDC ’s Action Plans as Approved by    HUD




Chapter 5 - HUD’s Community Planning and Development Programs                                                       72
    ESDC has also made significant progress in improving its management controls and internal audit procedures
over the disbursement of Disaster Assistance Funds. As a result of actions taken by ESDC, including actions to
resolve recommendations in prior OIG audit reports, ESDC identified and recovered $1.48 million of improper BRG
and SFARG grant disbursements.
    ESDC does need to improve procedures for documenting its monitoring reviews of the Business Recovery Loan
Fund (BRLF) Program and the JCRP. Specifically, we found that ESDC is neither adequately documenting its on-site
monitoring of BRLF lenders, nor maintaining written or computerized documentation detailing their monitoring of
JCRP. Without adequate documentation of ESDC’s monitoring of these programs, HUD’s ability to make compliance
determinations regarding these programs as required by the alternative procedures published in the Federal
Register will be limited. We believe these deficiencies occurred because ESDC did not follow procedures that
required formal written documentation of on-site monitoring visits of BRLF lenders, and because its written
monitoring procedures for JCRP do not require that monitoring reviews be fully documented.
    Our review of statistically selected samples of SFARG applications disclosed that ESDC disbursed two grants
totaling $49,000 to applicants who were mistakenly determined to be eligible. This occurred because ESDC did not
properly apply certain program guidelines during the processing of the applications. Specifically, we found that
one applicant was ineligible because the program’s lease requirement was not met while the other applicant did
not meet the program’s full time permanent employee requirement.
    We recommended that HUD require ESDC to maintain written or computerized documentation detailing on-site
monitoring reviews of BRLF Program lenders to facilitate reviews and audits by HUD, ensure that ESDC reimburses
the SFARG Program $49,000 from non-federal funds to correct improper payments made to ineligible applicants,
and instruct ESDC to improve procedures for verifying the eligibility of SFARG applicants. (Report No. 2004-NY-
1001)

    This second OIG review of LMDC’s operations disclosed that LMDC had drawn down over $377 million of the
$1.6 billion approved by HUD, as shown below:

  L M DC ’s A ction Plans as approved                                   D raw D ow ns            B alance
                 by HUD                                B udgeted       A s of 09/30/03        A t 09/30/03
            LM D C Program s
  R esidential G rant                              $280,500,000        $143,857,980          $136,642,020
  E m ploym ent Training                             $500,000            $129,017              $370,983
  Interim M em orial                                 $350,000                                  $350,000
  C olum bus Park R enovation                        $428,571                                  $428,571
  D ow ntow n M arketing                            $4,664,000                                $4,664,000
  Short-term C apital Projects                     $69,405,000                               $69,405,000
  L ong-T erm Planning                             $13,894,848                               $13,894,848
  B usiness R ecovery D ispro-
  portionate L oss of W orkforce                   $33,000,000                               $33,000,000
  U tility Infrastructure R ebuilding              $735,000,000                              $735,000,000
  Program s Initiated by E SD C                    $424,500,000        $216,995,384          $207,504,616
  Planning & A dm inistration                      $56,802,232         $16,044,976           $40,757,256
                                              Funds D rawn D ow n by   LM DC




Chapter 5 - HUD’s Community Planning and Development Programs                                                      73
    LMDC generally disbursed the CDBG Disaster                  controls designed to prevent an individual and/or a
Assistance Funds to eligible applicants in accordance           housing unit from being entered into the program’s
with the HUD Approved Action Plans, implemented                 computerized grant processing system twice were
adequate monitoring efforts over the Residential                flawed. However, LMDC and its program administra-
Grant Program (RGP), has a financial management                 tor have instituted procedures to prevent the monthly
system that is capable of adequately safeguarding               processing of payment checks, under its two-year
funds, and complied with its established recertifica-           grant program, once a duplicate is identified.
tion polices and procedures while recertifying RGP
                                                                    Our audit also disclosed weaknesses in LMDC’s
participants. However, we noted processing deficien-
                                                                accounting of funds to be recovered from RGP grant
cies in its RGP that still need to be resolved to further
                                                                recipients. Specifically, we noted that LMDC has not
enhance the efficiency of LMDC’s administration of
                                                                established a receivable account in its general ledger
funds, and to prevent duplicate payments and other
                                                                to record the funds it expects to recover from grant
related administrative deficiencies from occurring.
                                                                recipients who failed to comply with RGP require-
     Our audit disclosed that despite correcting                ments, and/or received grant payments to which they
processing deficiencies in its RGP through its recerti-         were not entitled. We believe that collectible amounts
fication process and its alternative supporting docu-           should be periodically recorded in LMDC formal
mentation requirements, LMDC still has some pro-                accounting records, and that the absence of such
cessing deficiencies that need to be resolved. Specifi-         records is a weakness in LMDC’s accounting controls
cally, during our testing of a statistically selected           that could result in a misuse of RGP recoveries. In
sample of payments to new RGP recipients, we found              addition, we believe that the establishment of a
that LMDC was unable to provide adequate documen-               receivable account for recoveries will strengthen
tation to fully support the eligibility of some grant           LMDC’s accounting procedures and enhance LMDC’s
recipients. Furthermore, either the documentation               accountability over CDBG Disaster Assistance Funds.
supporting the applicants’ eligibility was not obtained,        At January 23, 2004, the master repayment list
or was obtained but not scanned into the Optical                reflected over $690,000 of RGP funds to be recovered.
Image Technology System. As a result, we concluded
                                                                     Finally, our audit disclosed two practices that
that grant payments totaling $86,000 are questionable
                                                                warrant further examination by HUD management.
since they relate to recipients with questionable
                                                                These issues involve the use of CDBG Disaster Assis-
eligibility. These deficiencies are attributed to pos-
                                                                tance Funds to pay for: (1) annual leave accrued and
sible omissions by the grant processors in obtaining
                                                                transferred from various New York State depart-
all required documentation from applicants, and/or
                                                                ments and institutions; and (2) the salary and fringe
possible failures to scan all pertinent documents into
                                                                benefits of a part-time employee who does not report
the program administrator’s computerized processing
                                                                to a department head or supervisor employed within
system.
                                                                LMDC’s organizational structure.
    In addition, our audit disclosed that LMDC contin-
                                                                     We recommended that HUD instruct LMDC and/or
ued to issue monthly duplicate grant payment checks
                                                                its program administrator to obtain and maintain all
either to the same individual or to two individuals
                                                                missing documentation that supports the eligibility of
residing in the same housing unit. Specifically,
                                                                all grant recipients, and continue efforts to pursue
duplicate grant payment checks, totaling nearly
                                                                reimbursement from recipients who received over-
$6,000, were issued to eight individuals because each
                                                                payments and/or duplicate payments. In addition,
individual was approved to receive a grant check
                                                                recoveries received should be refunded to the CDBG
under two different identification numbers. Further-
                                                                Disaster Assistance Fund. Lastly, we recommended
more, grant payments in the amount of $11,000 were
                                                                that HUD direct LMDC to establish a receivable
issued to an individual who resides in a housing unit
                                                                account for all amounts it expects to recover. (Report
with another individual who received payments for the
                                                                No. 2004-NY-1002)
same type of grants. Thus, nearly $17,000 of CDBG
Disaster Assistance Funds were improperly used.
The duplication occurred because the processing

Chapter 5 - HUD’s Community Planning and Development Programs                                                       74
Section 108 Loan Program                                        grants, and miscellaneous income generated by
                                                                Urban Development Action Grants during the period
     An OIG review of the City of New Orleans, LA’s             January 1, 1996 through March 31, 2001. The 33
$25.3 million Section 108 loan to assist in the con-            loans totaled nearly $692,000. The audit disclosed
struction of Jazzland Theme Park found that the City            problems with the City’s management of community
did not comply with Section 108 requirements regard-            planning and development funds. The City did not
ing applicant eligibility, loan requirements, grant             always comply with its own policies and procedures,
administration, and performance reviews. We con-                follow HUD program requirements, or maintain
cluded that the City paid over $7.6 million in ineligible       essential documentation. In addition, the City lacked
and unsupported expenditures. Nearly $1.3 million in            effective internal controls in some areas. Of the
funds distributed by the City were ineligible because           approximately $692,000 reviewed, we questioned over
the funds did not have an underlying loan or grant              $674,000.
agreement. Of the $6.3 million in unsupported costs,
$2.4 million related to a drawdown for which the City               The City mismanaged its Business Improvement
had no documentation to support the release of the              Program (BIP). We reviewed 28 BIP projects involving
funds. The remaining $3.9 million related to miscal-            over $205,000 and found nearly $160,000 expended for
culations of fees, payments to vendors, and possible            ineligible projects and nearly $28,000 expended
duplication of invoices. Further, the City had inad-            without sufficient documentation. Additionally, the
equate controls and management over Jazzland, and               City had inconsistencies in the processing of loan
did not manage the development of Jazzland. Because             applications and requests for payments that had the
Jazzland defaulted on the City’s loan, the City will be         appearance of favoritism.
required to repay HUD from rents it receives from the                A review of three community development loans
new owners of the amusement park and from its                   totaling $360,000 disclosed that the City’s files lacked
general fund.                                                   documentation to determine that all the loans met
     To correct these deficiencies, we recommended              program requirements and national objectives. The
that HUD require the City to repay the $1.3 million in          loan files did not contain basic documentation such as
ineligible expenditures and either support or repay the         applications, award determinations, commitment
$6.3 million in unsupported expenditures. The City              letters, and demonstration of the achievement of
should also seek recovery from vendors who inappro-             national objectives. Because of the nature and extent
priately gained from the disbursements. The City                of the deficiencies, the $360,000 is ineligible.
needs to implement policies and procedures to ensure                Finally, a review of two HOME funded projects
compliance with program requirements. In this                   totaling nearly $127,000 disclosed that affordability
regard, HUD should assist the City in the development           requirements were not met, the assistance may have
and implementation of the policies and procedures               unduly enriched the project owner, disbursements
prior to approving any additional Section 108 loans. By         were made for ineligible costs and contrary to federal
doing this, the City could potentially use $52 million in       program policy, and there were several unexplained
available Section 108 funds more effectively. Addition-         deviations from City policies governing disburse-
ally, HUD should evaluate if actions by officials,              ments. Neither of these projects was completed in
contractors, and others warrant administrative                  accordance with the original scope of rehabilitation
sanctions. (Report No. 2004-FW-1003)                            work. As a result, we consider the costs ineligible.
                                                                     We recommended that HUD review the questioned
CDBG, HOME, Neighborhood                                        costs and determine whether the costs are ineligible;
Initiative Grant, and HOME                                      require the City to reimburse HUD from non-federal
Investment Partnership Programs                                 sources for any costs deemed ineligible; and require
                                                                City officials to implement adequate internal controls
    We reviewed 33 loans awarded by the City of                 to ensure that City policies and procedures are
Springfield, MA, that were funded through Commu-                followed and that HUD requirements are met. (Report
nity Development Block Grants (CDBG) and HOME                   No. 2004-BO-1003)

Chapter 5 - HUD’s Community Planning and Development Programs                                                         75
     At the request of the HUD Kansas City Office of            Example of how East Meyer maintained its records.
Community Planning and Development, we audited
the East Meyer Community Association, a Commu-
nity Development Corporation in Kansas City, MO.
We found that East Meyer mismanaged Neighborhood
Initiative and Community Development Block Grant
funds by improperly using the funds for purposes
other than those specified in the contract and/or grant
agreement. In regard to its $1 million Neighborhood
Initiative Grant, East Meyer improperly spent nearly
$727,000 and incurred over $57,000 of unsupported
expenses. For example, instead of using grant money
for its intended purpose – beautification and repair,
clean-up of dead-end streets, and attraction of new
businesses – East Meyer used over $331,000 of the
Neighborhood Initiative Grant funds to purchase and
rehabilitate an office building for itself. East Meyer
also charged over $65,000 of unsupported expenses to                 We recommended that the Director, Economic
its Community Development Block Grant.                          Development Initiative, take administrative action
                                                                against East Meyer management and the board of
Building East Meyer purchased for itself with Neighborhood      directors that will prevent them from participating in
Initiative Grant funds.                                         future HUD funded activities. Additionally, we recom-
                                                                mended that the Director take action to recoup the
                                                                nearly $727,000 that was inappropriately spent, and
                                                                require East Meyer to provide documentation for
                                                                unsupported costs charged to the Neighborhood
                                                                Initiative Grant. In addition, the Director, Office of
                                                                Community Planning and Development, should
                                                                require East Meyer to provide documentation for
                                                                unsupported costs charged to the Community Devel-
                                                                opment Block Grant or repay the amounts that cannot
                                                                be supported. (Report No. 2004-KC-1001)

                                                                    Based on a citizen complaint, we audited
                                                                Waukesha County, WI’s Community Development
                                                                Block Grant and HOME Investment Partnership
                                                                Programs. The complainant’s specific allegations
                                                                were: (1) abuse of HUD’s HOME Investment Partner-
                                                                ship Program in the State of Wisconsin; (2) poorly
                                                                kept records with the intent of covering up discrepan-
                                                                cies in funds given to individuals; and (3) HUD funds
    East Meyer did not maintain adequate documenta-             distributed to prominent elected officials or their
tion to support the expenditure of another $123,000 in          spouses to acquire properties.
grant funds. East Meyer’s records did not adequately
identify the source and application of funds, contain                Although we were not able to substantiate any of
financial records, or contain supporting documents.             the complainant’s allegations, we found that Waukesha
We believe poor record keeping led to East Meyer’s              County did not follow federal requirements regarding
lack of support for their use of grant funds.                   its Block Grant and HOME Programs. Specifically,
                                                                the County did not ensure that: (1) federal require-
                                                                ments and its agreements with the Waukesha County

Chapter 5 - HUD’s Community Planning and Development Programs                                                       76
Economic Development Corporation, the County’s                  Disaster Assistance Funds – State of
loan administrator, were followed regarding docu-
mentation maintenance for 16 economic development               New York
loans; (2) federal requirements and its agreements                  In our last two Semiannual Reports to Congress,
with the Corporation were followed for two economic             we reported on both our audit and investigative work
development loan agreements, since the agreements               into the misuse of HUD funds provided in the after-
either failed to meet HUD’s national objective of               math of the September 11, 2001 terrorist attacks in
creating job opportunities for low- and moderate-               New York City. During this reporting period, we
income persons or permitted Block Grant funds to                continued to find instances of fraud and abuse involv-
pay for pre-award costs; and (3) federal requirements           ing these funds. Our results are as follows:
were followed to ensure that assisted houses met local
building codes and/or HUD’s housing quality stan-                    In New York, NY, in Federal Court for the
dards.                                                          Southern District of New York, defendant Allan Klein
                                                                was sentenced to six months in prison and three years
     The County: (1) lacked adequate documentation              probation, and was fined $1,000. In September 2003,
to support that nearly $464,000 in Block Grant loans            Klein pled guilty to one count of theft of federal
were used for eligible expenses; (2) allowed two loan           government money and one count of mail fraud. Klein
agreements totaling $306,000 to be executed with                was involved in a scheme to defraud HUD and the
provisions that violated federal requirements and its           Lower Manhattan Development Corporation (LMDC)
agreements with the Corporation; (3) did not include            of federal grant money made available after the
$650 of housing rehabilitation work in specifications           September 11, 2001 terrorist attacks. LMDC was
for four houses to ensure they met local codes and/or           created by the State and City of New York to coordi-
HUD’s standards; and (4) failed to assure that local            nate the rebuilding and revitalization of Lower Man-
building permits were issued and assisted houses                hattan. HUD provided LMDC $2.7 billion in funding for
passed local inspections.                                       the grant program.
    We recommended that HUD’s Director of Com-
munity Planning and Development, Milwaukee Field                     In New York, NY, in Federal Court for the
Office, assure that the County reimburses its appro-            Southern District of New York, defendant Azmay
priate program for the inappropriate use of HUD funds           Shahzada was sentenced to two years probation, to be
and implements controls to correct the weaknesses               served in Pakistan, fined $500, and ordered to pay
cited in the audit. These improvements should help              $250 in restitution. Shahzada is responsible for paying
ensure that the County’s annual average of nearly               all fines and restitution prior to her departure to
$473,000 in economic development loans meets                    Pakistan and must not make application to re-enter
federal requirements. (Report No. 2004-CH-1002)                 the United States during the probation period.
                                                                Shahzada was previously found guilty of mail fraud.
                                                                She devised a scheme to fraudulently obtain money
                                                                from the LMDC.
Investigations
    During this reporting period, the OIG opened 52                 Defendants Alexander D. Koltovskoy, also known
investigation cases and closed 30 cases in the Com-             as Alexander Kolt, and Vincent M. Pizzi, III, were
munity Planning and Development Program area.                   convicted in New York, NY, in Federal Court for the
Judicial action taken on these cases during the period          Southern District of New York, for defrauding various
included $1,409,681 in investigative recoveries,                private and government agencies of World Trade
$11,446,559 in funds put to better use, 30 indictments/         Center disaster benefits, including grants and loans.
informations, nine convictions, pleas, and pre-trial            The following agencies were defrauded out of
diversions, 30 administrative actions, and 32 arrests.          $349,723: the Small Business Administration, the
The results of our more significant investigations are          Empire State Development Corporation, which
described below.                                                administers grants received from HUD, the Federal
                                                                Emergency Management Agency, the American Red

Chapter 5 - HUD’s Community Planning and Development Programs                                                        77
Cross, the New York City Economic Development                   daughters participated in a scheme to deliberately
Corporation, Safe Horizon, Inc., and Civic Capital              conceal the fact that Cameron’s family members
Corporation.                                                    were receiving compensation from WHCBCA as
                                                                salaried employees. Federal regulations prohibited
    Defendant Denise O’Connor pled guilty in New                Rosa Cameron from directing federal grant money to
York, NY, in Federal Court for the Southern District            WHCBCA once she was elected alderwoman. In
of New York, to one count of theft of government                Cameron’s case, she was on the City of Milwaukee
funds and one count of mail fraud. O’Connor devised             subcommittee which authorized federal distributions
a scheme to fraudulently obtain money from the                  to WHCBCA in both 2000 and 2001. In both of these
LMDC. Defendant Ivy Horn, who claimed to be a                   years, Moore and Allen received compensation from
resident of Lower Manhattan, was arrested and                   WHCBCA as employees.
ultimately indicted for theft of government funds and
mail fraud. Horn also fraudulently obtain money from                 In Tampa, FL, in Federal Court for the Middle
the LMDC.                                                       District of Florida, a 60-count indictment was handed
                                                                down charging defendants Steven Allen Labrake,
    In August 2003, LMDC announced an Amnesty                   Paulette Lynne McCarter-LaBrake, Dean Ryan,
Program that will enable individuals who have                   Chester Maurice Luney, Dean R. Ryan, and Lori A.
improperly received Residential Grant Program                   Roberts with bribery of public officials, conspiracy to
funds to return them and avoid prosecution. Individu-           defraud the United States, wire fraud, scheming to
als were required to call the fraud hotline by Septem-          defraud, theft of federal funds, and embezzlement of
ber 30, 2003, and request amnesty, cooperate fully,             public money. The indictment alleges that City
and make full and complete restitution of all funds             officials, employees, and others used Community
improperly received. As of February 2004, LMDC had              Development Block Grant, HOME, HOPE 3, and
received $58,311 in restitution.                                Housing Opportunities for Persons with AIDS funds
                                                                for their personal gain.
Investigations Involving Public
Officials                                                       Theft/Embezzlement/Forgery
    In Milwaukee, WI, in Federal Court for the                      In Ramsey County State Court, St. Paul, MN,
Eastern District of Wisconsin, defendant LaRosa                 defendant Mary Christine Nelson was ordered to pay
Roberta Cameron, also known as Roberta Allen,                   $70,163 in restitution. This was the final phase of her
former executive director of the Williamsburg Heights           sentencing, and a follow-up to the initial sentencing
Community Block Club Association (WHCBCA) and                   which took place in July 2003. At that time, she was
the daughter of former City of Milwaukee alderman               sentenced to community service, probation, and
Rosa Cameron, was sentenced to five years proba-                confinement. Nelson, the community organizer for
tion, including 60 days home confinement. Allen                 the Capital River Council, pled guilty to one count of
previously pled guilty to participating in a scheme to          theft by swindle. She wrote over 100 checks to herself
conceal a material fact in relation to the award of             from an account that contained HUD block grant
HUD Community Development Block Grant funds by
                                                                funds, and deposited them in her personal bank
the City of Milwaukee to WHCBCA. Allen’s mother,                account.
Rosa Cameron, previously pled guilty and was
sentenced in connection with this investigation. The                 In Salt Lake City, UT, in Federal Court for the
third defendant in this case, LaZanda Moore, another            District of Utah, defendant Christy Marie Martinez
daughter of the former alderman, was found guilty of            was sentenced to five years probation, including six
making false statements.                                        months in a community treatment center, and was
                                                                ordered to pay $50,185 in restitution for theft of
    The original charges in this case related to the            government funds. Martinez, a former caseworker
operation of the WHCBCA, a nonprofit organization               for the Salt Lake Community Action Program’s
that received HUD funding. Rosa Cameron and her                 Housing Opportunities for Persons with HIV/AIDS

Chapter 5 - HUD’s Community Planning and Development Programs                                                          78
(HOPWA) Program, embezzled program funds by                          APA owned and operated three homeless shelters
creating false supporting documentation to justify              in Los Angeles. Rhodes and Chisum were responsible
HOPWA payments to “vendors” on behalf of HOPWA                  for submitting homeless shelter attendance logs that
clients. Martinez also diverted payments prepared for           included fraudulent and fictitious names in order to
HOPWA “clients” for her personal benefit, including             receive federal funds from the Los Angeles Home-
money for a vacation condominium rental, a car loan,            less Services Authority’s Winter Shelter Program.
and payments to herself. She was ultimately sus-                The City and County of Los Angeles funded the
pended by HUD from participation in procurement and             Winter Shelter Program using Emergency Shelter
non-procurement transactions as a participant or                Program grant funds provided by HUD. APA received
principal with HUD and throughout the Executive                 more than $500,000 under the Winter Shelter Pro-
Branch of the Federal Government.                               gram between 1994 and 1998.

    Defendant Sylvester Holmes, former president of                 Defendants Alexander Zakharov, also known as
the Black Economic Union, a Community Develop-                  “Sasha,” and Syoma Kaplun surrendered and pled
ment Corporation, was sentenced in Kansas City,                 guilty in New York, NY, in Federal Court for the
MO, in U.S. District Court for the Western District             Southern District of New York, to one count of
of Missouri, to five months incarceration and two               conspiracy to commit bribery. Zakharov and Kaplun
years supervised release. He was also ordered to pay            made arrangements to pay Rabbi Milton Balkany
$33,045 in restitution and a $3,200 fine. Holmes                monies to have a Bureau of Prisons inmate relocated
previously pled guilty to two counts of theft concern-          to another facility.
ing programs receiving federal funds.
                                                                    Balkany was previously charged with misappro-
                                                                priating $700,000 in federal grant money. Balkany,
     Defendant Mary Long, former managing director
                                                                president and director of Bais Yaakov, a Jewish day
of Pahrump Family Resource Center (PHRC), a
                                                                school in Brooklyn, applied for and later received a
nonprofit organization that received Housing Opportu-
                                                                $700,000 Economic Development Initiative grant from
nities for Persons with AIDS funds from HUD, was
                                                                HUD. He represented to HUD that the entire grant
sentenced in Pahrump, NV, in Nevada State District
                                                                amount would be used to pay off a mortgage on a
Court, to 48 months incarceration and was ordered to
                                                                building located on the Bais Yaakov property for an
pay $102,836 in restitution to PHRC. Long previously
                                                                entity called the “Children’s Center of Brooklyn” to
pled guilty to two counts of forgery and embezzle-
                                                                house educational and therapeutic programs for
ment. Between October 2000 and August 2002, Long
                                                                disabled preschool children. An investigation dis-
stole a total of $175,000 in cash and checks from
                                                                closed that Balkany used some of the grant funds for
PHRC, which she deposited in her personal account.
                                                                himself and diverted other grant funds to individuals
                                                                and entities who were not entitled to receive them.
    In Los Angeles, CA, in Federal Court for the
Central District of California, defendant Tony                       Subsequently, the U.S. Attorneys’ Office issued a
Chisum, Jr., president of American Philanthropy                 deferred prosecution to Balkany, who agreed to pay
Association (APA), was sentenced to 33 months                   $700,000 in restitution, report to pre-trial services for
incarceration and three years supervised probation,             six months, and no longer lobby or apply, on his behalf
and was ordered to pay a total of $103,569 in restitu-          or on behalf of any others, for government grants
tion ($43,777 to HUD and $59,792 to the Federal                 from any agency. Balkany was also in line to receive
Emergency Management Agency). He was also                       Congressionally earmarked funds amounting to $1.5
ordered to pay a $1,200 assessment fee. Chisum was              million. Based on the investigation, however, Balkany
found guilty of one count of conspiracy, five counts of         will not be eligible nor will he meet the requirements
making false claims to HUD, five counts of theft of             for the grant. If Balkany should fail to pay restitution,
federal government funds, and one count of making               a lien will be placed on his property in Brooklyn,
false statements to HUD. In the same case, defendant            most recently appraised at $8 million.
Terry Lee Rhodes, an APA employee, pled guilty to one
count of theft of government property.

Chapter 5 - HUD’s Community Planning and Development Programs                                                         79
    In State Court in Callahan, FL, defendant                   Bribery, Conspiracy, and Mail/Wire
Barbara F. Boone was indicted on 48 counts including
grand theft and theft from the HUD Community                    Fraud
Development Block Grant (CDBG) Program. Boone                        Defendants James Asselin and James Krzytofik,
obtained and administered the HUD grants for the                the former director and deputy director, respectively,
Town of Callahan, which received the federal grants             of the Hampden County Employment and Training
through the Department of Community Affairs, State              Consortium (HCETC) and the Greater Springfield
of Florida. Boone’s indictment includes additional              Entrepreneurial Fund (GSEF), pled guilty in Spring-
counts of grand theft from the Florida Department of            field, MA, in Federal Court for the District of
Environmental Protection, theft against the Town of             Massachusetts, to conspiracy to defraud, money
Callahan, official misconduct, and petit theft. The             laundering, and program fraud. HCETC and GSEF
Town of Callahan entered into an agreement with the             were established and funded with $700,000 in HUD
State of Florida, Department of Community Affairs               funds obtained from the City of Springfield Economic
(DCA), for the repayment of $206,086 relating to                and Community Development Office. Between 1997
disbursements on one CDBG grant and $65,000                     and August 2000, Asselin and Krzytofik embezzled
relating to disbursements on another. The DCA has               $432,000 in funds provided by the Small Business
responsibility for oversight and accountability for HUD         Administration (SBA) and the Department of Com-
grant money awarded to the Town of Callahan.                    merce through various consulting schemes. The HUD
                                                                funds allowed Asselin and Krzytofik to maintain a
    In East Cleveland, OH, in Federal Court for the             float for repayment of loans to SBA and Commerce. In
Northern District of Ohio, defendants Cecelia                   addition, Asselin and Kristofik made small business
George, the former director of the Department of                loans to various associates that were never repaid.
Community Development (DCD), her father, Charles                Asselin and Krzytofik are scheduled for sentencing on
Reed, Sr., her brother, Charles Reed, Jr., and her              June 14 and July 6, respectively.
son, Willie George, were charged in a ten-count
indictment. Included in the indictment were one count                In the same case, defendants Gerald A. Phillips,
of conspiracy, three counts of embezzlement, and six            executive director of the Massachusetts Career
counts of wire fraud. Allegedly, Cecelia George, as             Development Institute (MCDI), Giuseppe Polimeni,
director for the DCD, orchestrated a scheme to funnel           former director of MCDI, Jamie Dwyer, former MCDI
HUD Community Planning and Development funds to                 employee, and Luisa Cardaropoli, alleged MCDI “no-
her family. The fraud was accomplished by rigging               show” employee, were indicted on 19 counts of
bids, illegally awarding contracts to family members            defrauding HUD. MCDI, which received funds from a
through “sham” or “front” companies, which dis-                 number of sources, including HUD and the Depart-
guised the family’s interest and/or ownership as the            ment of Education, provided educational and job
contractor, providing false information to HUD                  training programs for income eligible individuals in
regarding the expenditure of funds, forging signatures          the Springfield area. The indictment charged the
on checks in order to profit directly from DCD funds,           defendants with conspiracy to commit program fraud,
and using DCD funds for office entertainment. The               aiding and abetting, wire fraud, federal program
purported fraudulent contracts included the emer-               fraud, obstruction of justice, making false statements
gency door and lock contract, emergency furnace                 to a federal agent, and threatening a witness.
contract, emergency roof contract, emergency HVAC                   Phillips was the commissioner of the Springfield
contract, and HOME fund contracts. In total, approxi-           Police Department until his arrest in March 2003.
mately $69,000 in DCD funds were allegedly misap-               Allegedly, Phillips, Polimeni, and Dwyer conspired to
propriated through one or more of these schemes.                disburse unauthorized MCDI funds to Cardaropoli and
                                                                other “no-show” employees of MCDI, including
                                                                Polimeni’s son-in-law. In addition, two females were
                                                                paid with MCDI funds and received gifts and trips paid
                                                                for with MCDI funds for work not performed at MCDI
                                                                in exchange for sexual favors to Phillips. One of the

Chapter 5 - HUD’s Community Planning and Development Programs                                                       80
females was 16 years old at the time of the sexual                  In Milwaukee, WI, in Federal Court for the
assault. Phillips arranged for the second female to             Eastern District of Wisconsin, a six-count supersed-
receive a Section 8 voucher in return for the sexual            ing indictment charged defendants Muhammad Abu-
favors provided. The indictment also alleges that there         Shawish, Bassam Abdel Aziz Abu Shawish, and
were numerous fraudulent wire transactions involving            Wafieh Mohammad Abu Jubran with various charges,
health insurance and employment benefits illegally              including one count of conspiracy to commit visa
awarded to the alleged “no-show” employees. During              fraud, three counts of visa fraud, and two counts of
the course of the investigation, Phillips threatened,           federal program fraud.
intimidated, and persuaded a witness in order to
                                                                     Muhammad Abu-Shawish, who was the executive
prevent the witness from providing testimony in a
                                                                director of Arabian Fest Arab American Festival,
Federal Grand Jury proceeding.
                                                                Inc. (Arabian Fest), a nonprofit organization receiv-
                                                                ing Community Development Block Grant (CDBG)
     Defendant Pedro Octavio Estevez, also known as
                                                                funds through both the City and the County of Milwau-
Peter Estevez, pled guilty in San Antonio, TX, in
                                                                kee, was charged with using official Arabian Fest
Federal Court for the Western District of Texas, to
                                                                stationery to falsely support the issuance of American
two counts of mail fraud. Estevez obtained a Rental
                                                                visas to foreign nationals by the U.S. Embassy in
Rehabilitation Program loan from the City of San
                                                                Amman, Jordan, and elsewhere in order to circum-
Antonio, which received the money from HUD in the
                                                                vent U.S. immigration law, including issuing over 40
form of Community Development Block Grant
                                                                false formal letters of invitation. The indictment
(CDBG) Program funds. The defendant used the U.S.
                                                                charges that the fraudulent documentation used to
Postal Service to provide false statements to the City
                                                                obtain these visas included formal letters of invitation
of San Antonio by stating that he had the collateral
                                                                to foreign nationals stating that Arabian Fest would be
and remaining proceeds to pay for the CDBG loan to
                                                                paying the costs of the travel, as required by the types
rehabilitate Elmhurst Apartments when in fact he did
                                                                of visas obtained; false statements that Bassam Abdel
not. He also used the Postal Service in providing false
                                                                Aziz Abu Shawish had never applied for, or had been
loan origination documents to fraudulently secure
                                                                refused, an American visa in the past; and formal
FHA insured loans for the purchase of residential
                                                                letters of invitation which contained other false
property that was in poor condition and was fraudu-
                                                                information, including fabricated job descriptions,
lently overvalued.
                                                                expertise, and experience. The indictment also alleges
                                                                that Muhammad Abu-Shawish and others required
     Defendant Anthony Auyer was indicted in Chatta-
                                                                payment for the false letters of invitation and that
nooga, TN, in Federal Court for the Eastern District
                                                                threats were made in connection with the foreign
of Tennessee, on one count of wire fraud. Auyer was
                                                                nationals.
president of Anthony’s Construction Company, Inc.,
which in November 1999, purchased a sawmill in                      The indictment also charges Muhammad Abu-
Warren County, TN. Auyer applied for and received a             Shawish with program fraud in connection with both
$500,000 loan for the purchase of sawmill equipment             City and County block grant programs. The City
through the Tennessee Department of Economic and                awarded Arabian Fest $75,000 in CDBG funds to
Community Development. The loan was made                        develop a business plan to recruit new businesses
through HUD’s Community Development Block Grant                 along Muskego Avenue. The indictment charges that
Program. When Auyer failed to make the first few                he submitted a study stating that it was prepared by
payments on the loan, the State of Tennessee, Office            Arabian Fest and funded by the City’s Community
of the Comptroller, conducted an inventory of the               Block Grant Administrator when in fact the plan was
equipment alleged to have been purchased with the               not formulated by Arabian Fest, but was an identical
loan proceeds and noted that some of the equipment              copy of another plan, with minor cosmetic changes,
could not be found on the premises. Further review              which had been completed by an individual unrelated
showed that five equipment purchase invoices in the             to Arabian Fest and funded by another unrelated
amount of $408,000 were fraudulent.                             organization at a cost of $25,000. Allegedly, he
                                                                fraudulently submitted documentation to the City to

Chapter 5 - HUD’s Community Planning and Development Programs                                                        81
support $30,000 in expenses associated with the study.          three years ago to a couple in another state and to be
The County awarded Arabian Fest $15,000 in CDBG                 unaware of the child’s whereabouts, the couple denied
funds to pay a portion of salary and fringe benefits of         ever receiving the child. The child, who would
an executive director to operate a business develop-            currently be 10 years old, is the subject of a nation-
ment program to provide technical assistance to a               wide search. Although the fraud in this case was
minimum of three small business owners, “micro-                 estimated at only about $17,000, the Court granted
enterprise owners,” in a specific low- and moderate-            the government’s request for several enhancements to
income service area. In support of the costs claimed,           the sentencing guidelines because of Parker’s position
Abu-Shawish submitted a document identifying three              as the guardian of a vulnerable victim and her ob-
storeowners to whom he claimed to have provided                 struction of the investigation into the child’s where-
assistance and two with whom he claimed to have                 abouts. The Court also granted the government’s
scheduled follow-up meetings. The indictment charges            request for an upward departure from the guidelines
that he submitted multiple fraudulent claims for                due to the atypical nature of the case. Parker previ-
reimbursement to the County until January 2003                  ously received HUD funding for an organization that
although his contact with all three businesses ended in         she operated called Rainbow Kids, which reportedly
the summer of 2002 and consisted of less than 50                provided counseling and assistance to families of
minutes. The County ultimately spent $15,000 of                 children with AIDS. However, HUD withdrew funding
CDBG funds for less than 50 minutes of work.                    from Rainbow Kids in the late 1990’s when Parker
                                                                was unable to document how she was spending the
    Defendants Joseph Barry and Paul Byrne were                 funds.
indicted in Newark, NJ, in Federal Court for the
District of New Jersey, on 16 counts of bribery,                Tax Fraud
conspiracy, and mail and wire fraud. An investigation
found that Barry, a real estate developer, allegedly                 Defendant Johnny Walker, a contractor, was
bribed a former Hudson County executive to help                 sentenced in Kansas City, MO, in Federal Court for
secure federal and state grants and loans for some of           the Western District of Missouri, after pleading guilty
Barry’s development projects. Barry managed to                  to two counts of tax fraud. Walker is a contractor for
secure HUD grants and loan guarantees under the                 the Housing and Economic Development Financial
Community Development Block Grant Program as                    Corporation (HEDFC), which is commonly referred to
well as Section 108 loan guarantee(s). Byrne allegedly          as the lending arm for the City of Kansas City. HEDFC
received checks from Barry and converted some of                has been lending millions of dollars in HUD funds for
the checks to cash in order to make payments to                 20 or more years to individuals, community develop-
further the scheme. The indictment detailed $8.8                ment corporations, and other entities. Allegedly,
million in federal and state loan grants that Barry and         HEDFC’s vice president has taken kickbacks from
his enterprise, the Applies Companies, secured                  local businessmen associated with organized crime.
through bribery.                                                These monies are payments for information allowing
                                                                the businessmen to ensure that their bids for contracts
Misuse of Funds                                                 are the lowest. Walker acted as a conduit in the
                                                                bribery transactions. He was sentenced to one year
    Defendant Kim Parker was sentenced in Rich-                 and one day incarceration and 36 months supervised
mond, VA, in U.S. District Court for the Eastern                release. Civil actions are also being pursued against
District of Virginia, to 96 months in prison and three          him.
years supervised release, and was ordered to pay
restitution to agencies and individuals from whom she
obtained funds for an AIDS infected child. Parker
previously pled guilty to misusing HUD and Social
Security Administration (SSA) funds intended for the
child of whom Parker was the legal guardian. Al-
though Parker claimed to have given the child away

Chapter 5 - HUD’s Community Planning and Development Programs                                                       82
        Chapter 6 — Other Significant Audits and Investigations/
                             OIG Hotline
Audits                                                                      We audited the HUD and FHA Financial State-
                                                                       ments, Office of Healthy Homes and Lead Hazard
    During this reporting period, the OIG issued seven
                                                                       Control, HUD’s Information Systems Security, and
reports: six internal audits and one external audit
                                                                       Historically Black Colleges and Universities Grants
involving areas of HUD operations that do not fall
                                                                       at Jackson, MS State University.
under major HUD programs reported in previous
Chapters. These reports disclosed about $1.3 million
in questioned costs and about $1.5 billion in recom-                   Financial Statement Audits
mendations that funds be put to better use.                                 We issued our audit of HUD’s financial statements
                                                                       for the FYs ended September 30, 2003 and 2002. In
                                                                       OIG’s opinion, based on our audit and the reports of
                         Other Reports Issued                          other auditors, the financial statements present fairly,
                                                                       in all material respects, the financial position of HUD
                                                                       as of September 30, 2003 and 2002 and its net costs,
                                                                       changes in net position, budgetary resources, and
                6
                                                                       reconciliation of net costs to budgetary obligations for
                                                                       the fiscal years then ended, in conformity with
                                                                       accounting principles generally accepted in the
                                                          1            United States.
                                                                            The report identifies two material weaknesses
                            Internal Audits                            and seven reportable conditions on internal controls.
                            External Audits
                                                                       The material weaknesses in internal controls in FY
                                                                       2003 related to the need to: (1) comply with federal
                                                                       financial management system requirements, including
                                                                       the need to enhance FHA information technology
                            Other Dollars                              systems to more effectively support FHA’s business
     $1,600,000,000                                                    and budget processes; and (2) improve oversight and
     $1,400,000,000                                                    monitoring of subsidy calculations and intermediar-
                                                                       ies’ program performance. Reportable conditions in
     $1,200,000,000                                                    internal controls in FY 2003 related to the need to: (1)
     $1,000,000,000                                                    improve quality control over performance measures
                                                                       data; (2) improve controls over project-based subsidy
       $800,000,000                                                    payments; (3) strengthen controls over HUD’s comput-
       $600,000,000                                                    ing environment; (4) improve personnel security
                                                                       practices for access to the Department’s critical
       $400,000,000
                                                                       financial systems; (5) improve processes for review-
       $200,000,000                                                    ing obligation balances; (6) more effectively manage
                                                                       controls over the FHA systems’ portfolio; and (7) place
                $0
                          Internal Audits          External Audits     more emphasis on monitoring lender underwriting
                                                                       and improving early warning and loss prevention for
                    QuestionedCosts           Funds Put to BetterUse
                                                                       FHA single family insured mortgages. In addition, our
                                                                       reportable condition on improving the processes for
                                                                       reviewing obligation balances identified $1.430 billion
                                                                       in monetary benefits which we reported as “funds put
                                                                       to better use.”
Chapter 6 - Other Significant Audits and Investigations/OIG Hotline                                                          83
    Most of these control weaknesses were reported                        Office of Healthy Homes and Lead
in prior efforts to audit HUD’s financial statements
and represent long-standing problems. Our findings                        Hazard Control
also include the following instance of noncompliance                           In response to a Hotline complaint, we audited
with applicable laws and regulations: HUD did not                         the grant award and administration process of the
substantially comply with the Federal Financial                           Office of Healthy Homes and Lead Hazard Control
Management Improvement Act. In this regard, HUD’s                         (OHHLHC). We found that OHHLHC awarded grants
financial management systems did not substantially                        without meeting HUD requirements for evaluating
comply with federal financial management systems                          unsolicited proposals and without maintaining a
requirements and applicable accounting standards.                         complete log of unsolicited proposals submitted for
    The audit discusses each of these conditions in                       consideration. We attributed these deficiencies to the
detail, provides an assessment of actions taken by                        fact that OHHLHC did not have adequate management
HUD to mitigate them, and makes recommendations                           controls for evaluating proposals and the Director of
for corrective actions. During the course of the audit,                   OHHLHC had sole responsibility and control over
OIG also identified several matters that were not                         selecting and awarding grants for unsolicited propos-
material to the financial statements and were sepa-                       als. As a result, OHHLHC awarded five grants, totaling
rately communicated to HUD management. (Report                            nearly $3.8 million, for services based on unsolicited
No. 2004-FO-0003)                                                         proposals that were not evaluated.

                                                                                                                     Original
    We engaged the independent certified public
                                                                           Grantee                     Effective      Grant
accounting firm of KPMG LLP to audit the FY 2003 and
2002 financial statements of the Federal Housing                                                         Date        Amount
Administration. In KPMG’s opinion, the financial                        The Tides Center                9/1/97       $334,950
statements present fairly, in all material respects,                    University of Cincinnati
                                                                                                          7/95        300,000
FHA’s financial position as of September 30, 2003 and                   Medical Center
2002, and its net costs, changes in net position,                       United Parents Against
                                                                                                         4/1/97       99,650
budgetary resources, and reconciliation of net costs to                 Lead of Michigan (UPAL)
budgetary obligations, for the years then ended in                      UPAL                             9/1/02       747,963
conformity with accounting principles generally                         Alliance to End Childhood
accepted in the United States.                                                                           1/1/02     2,300,000
                                                                        Lead Poisoning
    The report identifies one material weakness and                              TOTAL                              $3,782,563
two reportable conditions: (1) HUD/FHA’s automated                    Grants Awarded for Unsolicited Proposals Without Evaluations
data processing (ADP) system environment must be
enhanced to more effectively support FHA’s business                           OHHLHC approved requests for grant amend-
and budget processes; (2) HUD/FHA can more effec-                         ments for award increases and extensions without
tively manage controls over the FHA ADP systems                           adequately evaluating the grantees’ requests and
portfolio; and (3) FHA must place more emphasis on                        documenting the evaluation. Specifically, four grants
monitoring lender underwriting and continue to                            were increased to more than three times their
improve early warning and loss prevention for single                      original grant amounts, and their performance
family insured mortgages. The first of these three                        periods were extended significantly. These excessive
items is considered to be a material weakness. KPMG                       award increases and extensions occurred because
made a series of recommendations for corrective                           OHHLHC did not have adequate controls for modifying
actions. During the course of the audit, KPMG also                        and amending grants. Consequently, OHHLHC had no
noted other matters that were not material to the                         assurance that the additional $11.1 million awarded to
financial statements and were separately communi-                         these grantees was an efficient use of funds.
cated to FHA management. (Report No. 2004-FO-
0001)


Chapter 6 - Other Significant Audits and Investigations/OIG Hotline                                                            84
                                                                                 Original
Grantee                  Original               Grant                  Rate of    Grant       Time       Rate of
                          Grant                Increase                Grant      Period    Extension     Time
                         Award                                        Increase   (months)   (months)    Extension
The Tides
Center                   $334,945            $1,658,971                495%        36          40         111%
University of
Cincinnati               $300,000            $1,429,651                476%        42          36          85%
Medical Ctr.
UPAL (1997)
                  $99,650        $495,767       498%         18            47          261%
National
Center for      $1,750,000      $7,549,818      431%         48            78          163%
Healthy
Housing
  TOTAL         $2,484,600     $11,134,207
Extensive Award Increases and Time Extensions Awarded Based on Inadequate Documentation

    In addition, because of inadequate oversight, OHHLHC did not ensure that grantees expended funds timely. As a
result, grantees had approximately $27 million in unexpended grant funds that OHHLHC could have put to better use.
    The audit recommended, among other things, that the Director of OHHLHC ensure: (1) the implementation of
the unsolicited proposal procedures outlined in the Grant Management Desk Guide; (2) that a review panel per-
forms preliminary and comprehensive evaluations of all unsolicited proposals and documents the evaluations in
writing; and (3) that all grantees maintain appropriate financial documentation to support costs charged to grants. In
addition, the director should require Government Technical Representatives (GTRs) to adhere to the Grants Manage-
ment Desk Guide on grant monitoring, modifications, and amendments, and ensure that grant officers properly
execute the amendments to existing awards. Finally, the Director should ensure that the spend-out schedule used to
evaluate the grantees’ progress mirrors the time frames outlined in the grant agreement, that unexpended balances
that are five years or older be recaptured, and that GTRs and division directors monitor grantees’ performance to
allow for timely expenditure of funds. (Report No. 2004-AO-0001)

Information Systems Security
     We completed an audit of the management, operational, and technical controls over the security of the Tenant
Rental Assistance Certification System (TRACS). TRACS is a HUD mission critical financial and program information
system that interfaces with other HUD systems. It receives HUD’s highest ratings for sensitivity and criticality. Its
goal is to collect tenant data for all housing programs and to automatically provide payment for subsidy programs,
where HUD is the contract administrator, based on the contract and tenant data resident in the system. We found the
following deficiencies and weaknesses over TRACS security: (1) access controls over the TRACS data and resources
are inadequate; (2) software configuration management controls are inadequate; (3) adequate security training has
not been provided; (4) audit logs are not being utilized to detect security violations or performance problems, or to
monitor and log user activities; (5) personnel security practices pose a risk of unauthorized access to TRACS; and
(6) segregation of duties performed by key personnel is lacking. The effect of the deficiencies and weaknesses in
controls is exposure of TRACS data to unnecessary risk of loss of confidentiality, integrity, and availability.
    The Office of Multifamily Housing has taken action to correct some of the weaknesses identified during our
review. However, additional corrective action is needed. Our report contains recommendations for the Assistant
Secretary for Housing and the Assistant Secretary for Administration/Chief Information Officer to improve controls
over the security of TRACS. (Report No. 2004-DP-0002)

Chapter 6 - Other Significant Audits and Investigations/OIG Hotline                                                 85
     The OIG completed a review of selected informa-                  Historically Black Colleges and
tion systems’ general and application controls in
support of the Fiscal Year (FY) 2003 financial state-                 Universities Grants
ments audit. Our review was based on the General                           An OIG audit disclosed that Jackson, MS State
Accounting Office “Federal Information Systems                        University’s Historically Black Colleges and Univer-
Controls Audit Manual,” and information technology                    sities grants did not achieve the goal of the
guidelines established by the Office of Management                    Homeownership Program to increase homeownership
and Budget (OMB) and the National Institute of                        opportunities for low- and moderate-income individu-
Standards and Technology (NIST). Our review found                     als in the area surrounding the University. The
information systems controls weaknesses that could                    University spent over $1.36 million, or 60 percent of
negatively affect the integrity, confidentiality, and                 its $2.26 million in grants. Only four of the 30 houses
availability of computerized data. We attributed this to              proposed were completely rehabilitated. The Univer-
HUD’s noncompliance with OMB Circular A-130, NIST
                                                                      sity did not perform adequate analytical reviews to
requirements and standards, and HUD’s own internal                    determine the feasibility of acquiring and rehabilitat-
policies and procedures. These weaknesses are as                      ing the properties or the financial viability of pro-
follows:                                                              posed projects. Because the University was not timely
¾HUD’s entity-wide information security planning                      rehabilitating and selling the houses it was acquiring,
 and management program does not meet the                             the University was maintaining an inventory of vacant
 minimum set of controls for automated information                    and boarded up houses that may have contributed to,
 resources established by OMB Circular A-130.                         instead of eliminating, crime and vagrancy in the
                                                                      area.
¾Controls on the IBM compatible Hitachi main-
 frames and network do not adequately protect data                    Two boarded up houses in Jackson State University’s
 and application programs from potential unautho-                     inventory.
 rized modification, loss, and disclosure.
¾Software change management procedures are not
 being followed, making HUD vulnerable to the
 introduction of unauthorized programs or changes
 to application and system software.
¾Inadequate segregation of duties exists in system
 security administration, exposing HUD to increased
 risk of improper activities.
¾HUD has not followed NIST guidelines for the
 development and testing of contingency related
 plans, resulting in inadequate assurance that HUD
 can recover computer processing operations in the
 event of a disaster or other unexpected interrup-                        The University also failed to consider cost
 tions.                                                               estimates or select the most cost effective projects
   We recommended that the Assistant Secretary for                    for acquisition and rehabilitation. As a result, grant
Administration/Chief Information Officer ensure that                  funds totaling $10,300 were ineligible and $129,683
OMB requirements and NIST guidelines, as well as                      were unsupported. Further, the University’s procure-
HUD’s own internal polices and procedures, are                        ment practices did not comply with federal or state
implemented. (Report No. 2004-DP-0001)                                procurement and contracting requirements. The
                                                                      University improperly procured over $765,000 of
                                                                      goods and services without adequately documenting
                                                                      the procurements, or having a contract administration
                                                                      system.

Chapter 6 - Other Significant Audits and Investigations/OIG Hotline                                                         86
    The audit recommended that HUD suspend                                 In Greensboro, NC, in Federal Court for the
disbursements and disallow the use of grant funds                     Western District of North Carolina, defendant
until the University can demonstrate accountability                   Theodore Peterson, a former certified public accoun-
and compliance with the grant agreements. In addi-                    tant (CPA), was convicted for submitting false, fraudu-
tion, HUD should require the University to reimburse                  lent and material annual financial statements to HUD
ineligible costs, determine the eligibility of unsup-                 and Ginnie Mae for FY 1999. Peterson, who was
ported costs, and recapture the remaining grant                       indicted in August 2003, must publicly apologize for
balance of $898,000. (Report No. 2004-AT-1002)                        his actions in a letter to the local newspaper. Accord-
                                                                      ing to the plea agreement, Peterson made false
                                                                      statements to HUD in a 1999 audit letter and reports in
Investigations                                                        which he claimed that he was a CPA and had per-
                                                                      formed certain audits of First Beneficial Mortgage
    During this reporting period, the OIG opened eight                Corporation’s (FBMC) financial statements in compli-
investigation cases and closed 10 cases involving                     ance with HUD program requirements. Contrary to
areas of HUD operations that do not fall under specific               Peterson’s audit letter and reports, however, Peterson
program categories. Judicial action taken on these                    was not a CPA as his staff certification had been
cases during the period included $23,563,650 in                       suspended. He also failed to perform the tests and
investigative recoveries, $105,000,000 in funds put to                verifications as he represented. HUD/Ginnie Mae
better use, four indictments/informations, two convic-                relied on Peterson’s audit letter and reports in extend-
tions/pleas/pre-trial diversions, four administrative                 ing FBMC’s authority to issue up to $50 million in
actions, and four arrests. The results of some of these               government guaranteed, mortgage backed securities.
investigations are described below.                                   Had Peterson conducted the necessary tests and
                                                                      verifications, he would have discovered that FBMC was
Ginnie Mae Fraud                                                      engaged in a massive fraud by creating fictitious
                                                                      mortgages that it sold on the secondary mortgage
    In Charlotte, NC, in Federal Court for the                        market. During the time that HUD/Ginnie Mae relied
Western District of North Carolina, defendants Macy                   on Peterson’s audit letter and reports, FBMC issued
McLean, former vice president of First Beneficial                     approximately $10 million in government guaranteed
Mortgage Company (FBMC), James McLean, Jr.,                           securities backed by fictitious and fraudulent mort-
former president, FBMC, and Paul and Debbie                           gages.
Zimmerman, FBMC officials, were sentenced based
on previous convictions for participating in a scheme                     In Tampa, FL, in Federal Court for the Middle
between 1998 and 2000 to defraud the Government                       District of Florida, defendant William Jones was
National Mortgage Association (Ginnie Mae). As                        charged with conspiracy to defraud HUD. Forfeitures
part of the scheme, the defendants created fraudulent,                were also filed against Jones in the amount of $68.5
nonexistent FHA insured mortgage notes totaling $28                   million and $9.5 million. As the general manager of
million which were passed through to Ginnie Mae                       GreatStone Mortgage Company, Jones allegedly
investors and on which Ginnie Mae was required to                     conspired with several other defendants in defrauding
make good when the fraud was discovered. Macy                         FHA, Ginnie Mae, and warehouse lenders, resulting
McLean was sentenced to 10-1/2 years incarceration                    in one of the largest schemes and financial losses
and five years supervised release. James McLean                       involving the Streamline Refinance Program in HUD’s
was sentenced to 48 years incarceration and 177                       history. The scheme included predatory lending and
years supervised release. Paul and Debbie                             the use of FHA insured loans that had been packaged
Zimmerman were each sentenced to 11 years incar-                      and pooled into Ginnie Mae pools. The defendants
ceration and six years supervised release. In addition,               allegedly altered and changed borrowers’ names, FHA
cumulative restitution of $23.5 million was ordered                   loan numbers, and dates, forged signatures on the
against all four defendants.                                          altered/counterfeit loan documents, and used the
                                                                      fraudulent documents to deceive warehouse lenders
                                                                      by drawing down on their lines of credit. The pro-

Chapter 6 - Other Significant Audits and Investigations/OIG Hotline                                                        87
ceeds were then wired to accounts controlled by the                   Obstruction of a Federal Audit
defendants and ultimately laundered in the Cayman
Islands. The defendants also created fictitious title                     Defendant Jeffrey Barrett and Independent Realty
companies, Ginnie Mae document custodians, and                        Capital Corporation (IRCC) were indicted in Los
Ginnie Mae security trade tickets. FHA was seriously                  Angeles, CA, in Federal Court for the Central
victimized by this loan origination fraud scheme; FHA                 District of California, on one count of obstruction of a
endorsed over 10,000 loans, including thousands of                    federal audit. Barrett is the owner of IRCC, a mort-
loans that did not conform to FHA underwriting                        gage brokering company that handles FHA insured
guidelines.                                                           home loans. IRCC was audited by HUD’s Quality
                                                                      Assurance Division in June 2001. Allegedly, Barrett
     GreatStone Mortgage provided fraudulent audited                  unnecessarily delayed the provision of information and
annual financial statements to Ginnie Mae that failed                 documentation requested by the auditor, including
to include accurate financial information about the                   employee lists and verifications of employment. He
liabilities of GreatStone. In total, GreatStone pack-                 also provided less information and documentation than
aged and pooled over $40 million worth of loans that                  what was requested. In addition, Barrett prevented
they certified to Ginnie Mae met FHA criteria. These                  HUD from having access to IRCC employees who were
loans were in fact never insured by FHA, and Ginnie                   knowledgeable about IRCC’S violations of HUD’s
Mae was forced to repurchase the loans, suffering a                   requirements.
$40 million loss.

Burglary                                                              OIG Hotline
    Defendant Frank DeMarc pled guilty in East
Brunswick, NJ, in Middlesex County Court, to third                        The HUD Office of Inspector General (OIG)
degree burglary and fraudulent use of a credit card.                  Hotline is operational five days a week. The Hotline is
He was sentenced to five years in jail and one year                   staffed by six full-time OIG employees, who receive
probation, and was fined $15,000. In April 2003,                      allegations of waste, fraud, abuse, or mismanagement
DeMarc was arrested for breaking into an OIG                          in HUD or HUD funded programs. These allegations
vehicle and stealing an OIG credit card. He then made                 are received from HUD employees, contractors, and
several unauthorized purchases with the credit card.                  the public.
One of the merchants had a videotape of DeMarc                            Since October 1, 2003, the Hotline has received
using the OIG credit card; this videotape was used to                 9,120 complaints; 73 percent were received by
identify DeMarc and his accomplice, Christopher                       telephone, 20 percent by mail, and six percent by e-
Jones. DeMarc and Jones were indicted in May 2003.                    mail. The Hotline also interviewed four individuals
Jones is currently awaiting trial.                                    who visited HUD Headquarters to register complaints
                                                                      about program operations. Every allegation received
Misuse of Official Time                                               by the Hotline is logged in to a database and tracked.

    In New Orleans, LA, defendant Cherlyn                                 Of the complaints received, 1,019 were related to
Wheeler, a HUD supervisory multifamily project                        the mission of the OIG and were addressed as Hotline
manager, entered into an abeyance agreement with                      cases. Hotline cases are referred to OIG’s Offices of
HUD. Wheeler agreed to be suspended without pay for                   Audit and Investigation or to HUD program offices for
seven calendar days for misuse of official time. An                   action and response. The following shows the distribu-
investigation found that Wheeler visited a casino to                  tion of Hotline case referrals by percentage.
gamble during working hours from May to September
2002. She gambled while on duty and on another
occasion while on sick leave.




Chapter 6 - Other Significant Audits and Investigations/OIG Hotline                                                        88
                       Com m unity                        Other HUD
                       Planning &                          Offices
                      Developm ent                           7%
                           5%                                                          OIG Audit &
                                                                                      Investigation
             Single Fam ily                                                               14%
               Housing
                 11%



                                                                               Public and Indian
                           Multifam ily                                            Housing
                            Housing                                                   48%
                              15%




     The Hotline has closed 591 cases since October 1, 2003. These closed cases had 135 substantiated allegations,
which resulted in 14 administrative sanctions against HUD employees for personnel related violations or investors
for improprieties involved in the purchase of a home. The Department also took 121 corrective actions that resulted
in cost recoveries and HUD funding that could be put to better use. The following illustrates the impact of the correc-
tive actions that the Department took in response to Hotline case referrals.



                      H otline D ollar Impact From H U D Program Offices
                         Recoveries $146,232                   Funds P ut to Better Use $1,667,382

                                                                                 840,384
                      1,000,000
                                               768,030
                         800,000
                         600,000
                         400,000
                                                                      58,968 94,521           30,000
                         200,000                          21,711
                                               0                                                       0
                                   0
                                           Single          Multifam ily        Public           CPD
                                           Fam ily                            Housing




Chapter 6 - Other Significant Audits and Investigations/OIG Hotline                                                  89
                                                   This page intentionally left blank.




Chapter 6 - Other Significant Audits and Investigations/OIG Hotline                      90
                               Chapter 7 — Outreach Efforts

    In order to foster cooperative, informative, and       ¾On the 25th anniversary of the Inspector General
mutually beneficial relationships with agencies and         Act, Headquarters OIG invited clients and col-
organizations whose intent is to assist in the accom-       leagues to an Open House. Each functional OIG
plishment of HUD’s mission, the OIG participates in a       area set up displays that illustrated the function and
number of special outreach efforts. These efforts, as       purpose of the OIG Offices of Audit, Investigation,
described below, are in addition to our regular             Management and Policy, and Counsel. HUD Assis-
coordination with federal, state, and local law en-         tant Secretaries, HUD program staff, criminal
forcement agencies, other OIGs, and various Congres-        justice counterparts, Congressional staff, and staff
sional Committees and Subcommittees. During these           from other Offices of Inspector General joined in
outreach efforts, we not only present the results of our    celebrating the anniversary of this important
audit and investigative work and discuss our goals and      legislation.
objectives, but we also provide information about the
OIG’s role and function.                                   ¾IG Donohue hosted a management retreat in
                                                            Annapolis, MD, for the 57 Inspectors General who
¾Inspector General Donohue spoke at the Mortgage            make up the President’s Council on Integrity and
 Bankers Association’s (MBA) National Servicing             Efficiency and the Executive Council on Integrity
 Conference in San Diego, CA. The IG spoke on two           and Efficiency. The theme of the retreat was
 occasions regarding our joint efforts with the             “Returning America’s Investment in the IGs.” The
 Federal Trade Commission on the recent Fairbanks           Inspectors General discussed what they consider to
 Capital case. The MBA asked to hear from IG                be their measures of success and heard from
 Donohue on our unusual involvement in the                  external stakeholders including the Office of
 Fairbanks case, since they are the largest third           Management and Budget (OMB), the General
 party servicer in the industry. Executive Assistant        Accounting Office, the Department of Justice, and
 John Dupuy, who accompanied IG Donohue, partici-           Congressional staff. Among the speakers were
 pated on two different panels — one regarding the          Clay Johnson, Deputy Director, OMB; James
 impact of bankruptcy fraud on single family mort-          Comey, Deputy Attorney General; and David
 gage servicing and the other on the impact of loan         Walker, Comptroller General. During times of
 origination fraud and equity skimming. This event          relaxation at the retreat, the U.S. Naval Academy
 was a continuation of our outreach efforts with the        provided tours and held a reception at which
 mortgage community and the MBA.                            Gordon England, the Secretary of the Navy, spoke
                                                            to the group.
¾In what was a first contact for the OIG, IG Donohue
                                                                   IG Donohue greets Comptroller General David
 attended a board meeting of the National American                 Walker, who addressed the PCIE/ECIE Retreat.
 Indian Housing Council (NAIHC) at their annual
 conference in Washington, DC. This organization
 represents Tribal housing authorities in their efforts
 to provide decent, safe, and sanitary housing for the
 Native American community. The OIG’s role in
 combatting fraud and abuse were discussed. As a
 result of the meeting, the NAIHC invited the OIG to
 speak at their upcoming National Conference in
 June 2004, as well as at their regional meetings on
 fraud awareness.



Chapter 7 - Outreach Efforts                                                                                      91
¾At the invitation of John Weicher, Assistant Secre-       used to take actions against program abusers; and
 tary for Housing-FHA Commissioner, John Dupuy,            (4) communicate our successes to the public and
 Executive Assistant (EA) to the Inspector General,        HUD stakeholders.
 spoke at a single family housing lender training
 program in Washington, DC. This marks the first         ¾Assistant Inspector General for Audit (AIGA) Jim
 time FHA has conducted a comprehensive single            Heist represented OIG Headquarters at the field
 family training program for the mortgage industry.       management meeting in Columbus, OH. He made
 Although HUD Homeownership Centers periodi-              a presentation on the OIG’s mission and described
 cally conduct regional training, this program was        the different roles and responsibilities of the
 the first national level training event. EA Dupuy        Offices of Audit and Investigation. AIGA Heist also
 discussed the role of the OIG in conducting audits       provided an overview of current audit work affect-
 and investigations of Single Family Housing Pro-         ing the Columbus Field Office and described
 grams. Assistant Secretary Weicher’s invitation          ongoing efforts to work more collaboratively with
 reflects an increased and welcome level of coopera-      the Department and align the OIG’s strategic plan
 tion between the two offices.                            with the Department’s strategic plan.

¾At the Department-wide training on “Managing            ¾In Milwaukee, WI, Regional Inspector General for
 Compliance and Monitoring” held in Boston, MA,           Audit (RIGA) Heath Wolfe and Assistant Special
 and Seattle, WA, numerous OIG managers sent a            Agent in Charge (ASAC) Brad Geary made a joint
 powerful message that communication and coordi-          presentation to an audience of approximately 50
 nation between OIG and the Department are valu-          individuals representing Community Planning and
 able tools for both HUD program managers and the         Development entitlement grants throughout the
 OIG in its efforts to identify fraud and abuse. This     State of Wisconsin. The presentation focused on OIG
 conference is the only Department-wide training          operations and addressed the need for program
 program that focuses on the specific responsibilities    oversight; ensuring that housing rehabilitation work
 of managers in establishing and ensuring compli-         is done properly and that the work is inspected; and
 ance and monitoring programs to ensure they are          the need to take a proactive approach by contacting
 effective as well as consistent with HUD policies.       the OIG when problems arise that warrant OIG
                                                          attention.
¾The HUD Committee on Program Integrity was
 recently established to coordinate the Department’s     ¾By the close of October 2003, audit resolution
 efforts to minimize the opportunities for the occur-     training had been provided to HUD Offices in the
 rence of fraud, waste, and mismanagement in HUD          Chicago Region. RIGA Heath Wolfe and Adminis-
 programs and to advise the Secretary on policy           trative Officer Jennifer Houghton completed
 matters relating to improving the quality and            training for the remaining offices by wrapping up
 effectiveness of all HUD programs and activities.        their presentations in Chicago, IL, Columbus,
 Inspector General Donohue addressed the                  OH, and Cleveland, OH. The presentations’ focus
 Secretary’s senior staff and said, “We want to           was the section of the Audits Management System
 encourage communication and team spirit on               Handbook which provides information on imple-
 problem-solving between OIG and program offices          menting audit recommendations. The audiences,
 through this committee. It’s important that we have      made up of HUD program staff, were able to learn
 a way to focus managers’ attention on fraud and          the requirements of the handbook while having an
 abuse in their programs.” Committee objectives           open forum to address questions relating to the audit
 are to: (1) find common issues and objectives and        process. Response was positive and HUD staff were
 combine forces to get resolution; (2) raise HUD          appreciative of the efforts expended in bringing this
 staff and program administrator knowledge about          training to them.
 fraud, and provide practical advice to them about
 how they can stop or reduce fraud and abuse in HUD      ¾Mid-Atlantic Region Special Agent in Charge (SAC)
 programs; (3) strengthen and streamline processes        Robert Brickley spoke at the Annual Conference of

Chapter 7 - Outreach Efforts                                                                                   92
  the Pennsylvania Association of Housing and             ¾SAC Peter Emerzian and ASAC Maureen Nelting
  Redevelopment Agencies in Uniontown, PA. The             gave a presentation to members of the Section 8
  conference was attended by approximately 40 public       Administrators Association in Boston, MA. They
  housing agency executive directors, commissioners,       discussed the role of the OIG, OIG’s authority and
  and other officials. The presentation focused on the     mission, how subsidized tenants, landlords, and
  role of the OIG Office of Investigation, the types of    public housing agency employees can perpetrate
  cases that we investigate, the investigative process,    fraud, and ways to detect the fraud. Over 100
  and suggestions for preventing and detecting fraud       representatives from various public housing agen-
  in HUD funded programs.                                  cies throughout New England attended the meeting.

¾In Concord, NH, New England SAC Peter                    ¾Southwest Region SAC Lester Davis and Southwest
 Emerzian and Special Agent Edward Redmond                 Region HUD General Counsel Bill Daley made HUD
 attended a Federal Law Enforcement Team meeting           Standards of Conduct and Ethics presentations in
 sponsored by Thomas Colantuono, U.S. Attorney,            New Orleans, LA, Albuquerque, NM, and Fort
 District of New Hampshire. SACs and Agents who            Worth, TX. Annual attendance at the Standards of
 conduct investigations were present to share ideas,       Conduct presentation is mandatory for all HUD
 programs, and initiatives related to the missions of      employees. SAC Davis and Counsel Daley are
 their respective agencies. U.S. Attorney Colantuono       scheduled to make this presentation to the 1,000
 updated the Attorney General’s goals for the year         HUD employees in the 11 Southwest Region field
 and thanked agencies for their support.                   offices. SAC Davis took this opportunity to discuss
                                                           the close relationship OIG has and wants to continue
¾In Waterville, ME, SAC Peter Emerzian, ASAC               to develop with HUD program staff. The IG mission
 Maureen Nelting, Special Agent Brian Gosselin,            and how it ties into HUD’s mission were also
 and Assistant Regional Inspector General for Audit        discussed.
 (ARIGA) Cristine O’Rourke made a presentation to
 executive directors and employees of public housing      ¾SAC Peter Emerzian and ASAC Diane DeChellis
 authorities in the State of Maine. The presentation       from OIG’s New England Region made a presenta-
 was sponsored by Residential Initiatives for Maine,       tion to the investigative arm of the Massachusetts
 a nonprofit group organized by Maine’s local              Inspector General’s Office in Boston, MA. The
 housing authorities. OIG staff discussed the role of      presentation provided an overview of OIG’s mission
 the OIG, OIG’s authority and mission, how subsi-          and investigative priorities, as well as a discussion
 dized tenants, landlords, and public housing author-      of HUD’s programs and HUD funding within the
 ity employees can perpetrate fraud, and ways to           State of Massachusetts.
 detect the fraud. Over 50 representatives from
 Maine’s public housing authorities attended.             ¾In Boston, MA, New England Region SAC Peter
                                                           Emerzian and ASAC Maureen Nelting were invited
¾Michael Beard and Lester Davis, RIGA and SAC,             to become members of the newly formed New
 respectively, made presentations at the Southwest         England Public Corruption Roundtable sponsored by
 Region HUD Program Directors Retreat. HUD                 the FBI. Federal, state and local agencies that
 program directors meet every two months to                investigate public corruption in New England
 discuss HUD program matters and management                attended the meeting, at which various targets and
 issues. RIGA Beard discussed issues relating to           investigative strategies were discussed.
 audit resolution, including management tips on how
 to respond to audits and how findings are con-           ¾Assistant U.S. Attorney Mary Jane Harmon (Chief
 structed. SAC Davis discussed how HUD program             of the Fraud Section of the U.S. Attorney’s Office),
 offices and OIG can work together as a team to            OIG SAC Lester Davis, and ASAC Michael Kepler
 make HUD a more efficient and productive agency.          made a presentation to the Houston, TX Area
                                                           Mortgage Bankers Association on single family
                                                           mortgage fraud. Approximately 65 individuals were

Chapter 7 - Outreach Efforts                                                                                   93
  in attendance. The presentation included ways to         dized tenants and landlords can perpetrate fraud,
  identify mortgage fraud and detailed a joint OIG/FBI     and ways to detect fraud.
  investigation of mortgage fraud in the Houston area.
                                                         ¾At the invitation of the Louisiana Legislative Audi-
¾In Dover, NH, SAC Peter Emerzian and Special             tor, RIGA Mike Beard made a presentation to the
 Agent Edward Redmond attended a meeting of all           Louisiana Council of Public Housing Authorities in
 employees of the Dover Housing Authority (DHA) as        Lafayette, LA. The audience consisted of 130
 well as two Dover Police Department officers             housing authority executive directors, assistant
 assigned to the DHA. The meeting was held to             executive directors, and authority board members.
 address the problems of unauthorized individuals         RIGA Beard discussed the Inspector General Act
 residing in DHA subsidized units.                        and recent Public and Indian Housing audit reports
                                                          and investigations, as reported in the September 30,
¾Barry McLaughlin, SAC, and Heath Wolfe, RIGA,            2003 Semiannual Report to Congress.
 Chicago Regional Office, made a presentation to all
 program directors in HUD’s Detroit, MI Field            ¾SAC Peter Emerzian and Special Agent Gene
 Office. The presentation covered the mission and         Westerlind met with the executive board of the
 functions of both the OIG and the Office of Investi-     Worcester, MA Housing Authority and public
 gation. RIGA Wolfe also discussed the chapter of the     safety officers to discuss the possibility of creating
 Audits Management System Handbook concerning             a tenant fraud initiative. During the meeting, SAC
 implementing recommendations. ARIGA Tom                  Emerzian and Agent Westerlind discussed the role
 Towers of the Detroit Field Office also gave a           and authority of the OIG and provided guidance in
 briefing on how to handle public inquiries for audits    establishing the Worcester Tenant Fraud Task
 and investigations.                                      Force.

¾Special Agents Jeffrey Pittano and Daniel Harding       ¾Director of State Operations Derek Gasiorowski
 attended a crime awareness and prevention meeting        hosted a HUD Home Sales Seminar for brokers and
 at Brooklyn Homes, a public housing community in         lenders in Detroit, MI. Field Office Director Toni
 the Brooklyn District of Baltimore, MD. In atten-        Schmiegelow made opening remarks and intro-
 dance were residents from the local community,           duced OIG ARIGA Tom Towers, who discussed the
 members of the Housing Authority of Baltimore            OIG’s mission and emphasized the current work
 City, project management, family support services,       being done in relation to Single Family Mortgage
 Baltimore City Police, the District Court for            Insurance Programs. Following his presentation,
 Baltimore City, and the Mayor’s Office. The              ARIGA Towers fielded questions from the 90 indi-
 various agencies met to discuss and make plans to        viduals in attendance.
 resolve rising drug trafficking problems and
 concerns over unauthorized persons occupying units      ¾ARIGA Ron Farrell addressed 65 attendees at the
 in the Brooklyn community. Agents Pittano and            fall quarterly meeting of the Ohio Conference of
 Harding made a presentation on the mission, goals,       Community Development in Columbus, OH. His
 and purposes of the OIG. The meeting and presenta-       presentation introduced the group to the OIG’s
 tion gave OIG staff the opportunity to establish a       mission and objectives as they relate to community
 bridge of communication and partnership between          planning and development. He discussed what to
 the OIG, project management, and the local govern-       expect during the audit process as well as audit
 ment.                                                    planning and selection and the audit resolution
                                                          process. The group was extremely interested in the
¾SAC Peter Emerzian and Special Agent Gene                findings developed during the three Community
 Westerlind made a presentation to the Shewsbury,         Housing Improvement Program audits that were
 MA Housing Authority. They discussed the role of         conducted by the Columbus Audit Office a few
 the OIG, OIG’s authority and mission, how subsi-         years ago, the resulting recommendations and how
                                                          they were implemented, and what has been done to
                                                          improve the program.
Chapter 7 - Outreach Efforts                                                                                   94
¾Mid-Atlantic Region Special Agents Daniel Ellis           ¾Midwest Region ARIGA Ron Farrell and Special
 and Frank Aeillo and ASAC Rene Febles spoke                Agent Gary Berry participated in the Ohio Housing
 before the Interstate Realty Management Corpora-           Authorities Conference in Newark, OH, which
 tion (IRMC) in Philadelphia, PA. IRMC employs              was attended by executive directors of Ohio housing
 hundreds of individuals who work for multifamily           authorities. ARIGA Farrell discussed the mission of
 developments that are insured by and receive               the OIG and current priority items being undertaken
 subsidies from HUD. Their presentation consisted of        by the Office of Audit. Special Agent Berry dis-
 techniques that can be used by IRMC employees to           cussed the role of the Office of Investigation and the
 detect fraudulent representations during the recerti-      networking OIG Agents do with local police depart-
 fication process of Section 8 tenants. IRMC employ-        ments.
 ees, site managers, district managers, and mainte-
 nance employees who work at various sites around          ¾ASAC Lori J. Chan and ARIGA Clyde Granderson
 the country attended the presentation.                     made a presentation to Old Republic Title Company,
                                                            Western Division, in San Jose, CA. Approximately
¾ASAC Herschell Harvell met with Long Beach, CA             30 individuals were present from their Nevada,
 police chief Anthony Batts and Long Beach Housing          California, and Arizona offices. The participants
 Authority executive director Lavern Duncan to              included the company’s operations officers, senior
 discuss the proposed Long Beach Section 8 Compli-          vice presidents, and the Office of General Counsel.
 ance/Enforcement Initiative. ASAC Harvell gave an          ASAC Chan and ARIGA Granderson gave an over-
 overview of OIG’s organizational structure and             view of HUD, FHA, the OIG, FHA fraud schemes,
 resources, the purpose/mission of the Section 8            and fraud prevention tools.
 Initiative, and the strong interest for a collaborative
 law enforcement effort in implementing and execut-        ¾In New Haven, CT, ARIGA Cris O’Rourke and
 ing this Initiative. Chief Batts applauded OIG’s           ASAC Diane DeChellis of the New England Region
 efforts and promised to utilize all resources avail-       attended the winter meeting of the Connecticut
 able to the Long Beach Police Department to                National Association of Housing and Redevelopment
 ensure its success. Chief Batts also committed to          Officials. The topic of their presentation was
 coordinating a subsequent meeting to include the           identifying and preventing fraud. They also dis-
 FBI, DEA, U.S. Marshals Service, Department of             cussed the OIG’s mission and audit/investigative
 Homeland Security, State Probation and Parole,             priorities.
 Long Beach Code Enforcement, and the Long
 Beach Housing Authority to discuss strategies for         ¾ASAC Anthony Meeks met with Commander Rod
 coordinating the various law enforcement efforts.          Uyeda, Pasadena, CA Police Department, and
                                                            discussed collaborative efforts on behalf of OIG, the
¾ASAC Rene Febles and Special Agent Frank Aeillo            Pasadena Police Department, and other state and
 of the Mid-Atlantic Region conducted a one-day             federal agencies to establish goals and parameters
 presentation to employees of the Chester, PA               for combating criminal violations being committed
 Housing Authority. Approximately 50 employees              in various subsidized housing developments in the
 were present to hear how the OIG is fulfilling its         Pasadena area. Commander Uyeda was very
 mission pertaining to Section 8 fraud. The presenta-       receptive to OIG’s methodology regarding efforts to
 tion demonstrated some of the common frauds as             maintain the integrity of HUD subsidized housing
 well as important documents on which OIG Agents            programs. Future meetings between OIG and the
 rely. The Chester Housing Authority is currently           Pasadena Police Department are planned to finalize
 under a court ordered receivership. The Authority’s        a multi-agency compliance enforcement initiative.
 operations are expected to revert back to the board
 of commissioners and a permanent executive                ¾ASAC Marc Montague was the guest speaker at the
 director by July 2004; this presentation was re-           quarterly meeting of the Eastern Washington
 quested in anticipation of the transfer of control.        Escrow Association (EWEA) in Spokane, WA.
                                                            Approximately 50 members of EWEA attended the

Chapter 7 - Outreach Efforts                                                                                    95
  meeting during which ASAC Montague gave a               Forensic Auditor Loretta Burns making presentation at Texas
  presentation on single family loan origination fraud,   Land Title Association.
  predatory lending, and the common schemes used
  in committing FHA and conventional loan fraud.

¾The Chicago Region’s ARIGA Ron Farrell and
 Special Agent Jennifer Howell from the Columbus
 Office participated in a HUD meeting with repre-
 sentatives from the Division of Real Estate and
 Professional Licensing for the State of Ohio
 Department of Commerce. The discussion empha-
 sized the shared concerns of federal and state
 officials regarding predatory lending and property
 flipping.

¾Kansas City Region ASAC Michael Powell and
 Special Agent Karen Gleich spoke at the Iowa
 National Association of Housing and Redevelopment        ¾Special Agent David Carter made a presentation to
 Officials in Des Moines, IA. Approximately 75             the Riverside Police Department’s Command staff
 people attended the presentation and were briefed         and 60 members of the Riverside Crime-Free
 on current OIG initiatives affecting public housing       Multi-Housing Program who collectively provide
 authorities. Topics included tenant fraud in public       housing to several thousand residents of Riverside,
 housing, Section 8 tenant fraud, and the Fugitive         CA. Agent Carter discussed the OIG’s authority and
 Felon Initiative.                                         mission, how subsidized tenants can perpetrate
                                                           fraud, and ways to detect fraud. He further dis-
¾ASAC Marc Montague was a guest speaker at the             cussed collaborative efforts to pursue and combat
 2004 conference of the Cascade Chapter of the             criminal activity and examples of violations taking
 National Association of Housing and Redevelopment         place within public housing and HUD subsidized
 Officials (NAHRO) in Clackamas, OR. Approxi-              facilities.
 mately 100 NAHRO members from Oregon and
 Washington State attended the conference. ASAC           ¾In Arlington, TX, OIG hosted the quarterly meet-
 Montague made a presentation about combating              ing of the Southwestern Region Inspectors General
 Section 8 tenant fraud and how public housing             Council. The guest speaker was Gaston L. Gianni,
 agencies can provide quality referrals to the OIG.        Jr., Federal Deposit Insurance Corporation Inspec-
                                                           tor General and Vice Chair of the President’s
¾Loretta Burns, a Forensic Auditor in the Fort Worth       Council on Integrity and Efficiency (PCIE). Among
 Region, spoke to the Texas Land Title Association at      the topics that IG Gianni discussed were perfor-
 its Regional Seminar in Austin, TX. Approxi-              mance measurements, return on investment,
 mately 75 title attorneys and escrow officers in the      working with other IG offices, peer reviews based
 title industry doing business in the Central Texas        on statutory law enforcement legislation, and future
 Region were in attendance. Burns’ presentation on         challenges facing the IG community. IG Gianni
 single family fraud schemes was part of a continu-        stressed the importance of performance measure-
 ing education track entitled “Legalities of Title:        ments and return on investment as they relate to the
 Risky Business,” designed primarily for attorneys in      IG community. The Office of Management and
 the industry.                                             Budget and the Bush Administration would like
                                                           government agencies to be more efficient and
                                                           productive, using private businesses as examples.
                                                           He mentioned that as a group, the PCIE has a lot of


Chapter 7 - Outreach Efforts                                                                                      96
  work to do to figure out how to properly measure        ¾OIG Special Agent Robert Torelli of the Jackson-
  the work of the various Offices of Investigation.        ville, FL Field Office addressed approximately 200
                                                           members of the Florida Association of Mortgage
 ¾In College Park, MD, Special Agents Daniel               Brokers and discussed mortgage fraud. The group
  Harding and Jeffrey Pittano attended a crime             was comprised primarily of mortgage company
  awareness and prevention meeting in the Lakeland         owners, loan originators, real estate agents, and
  District, a public housing and Section 8 community.      mortgage bankers. Specifically, Agent Torelli
  In attendance were the Mayor of College Park, the        discussed detailed loan fraud indicators, various
  city council, neighborhood watch participants,           fraud schemes, including straw purchases, and
  Prince George’s County Police Department, Prince         criminal penalties for engaging in loan fraud. He
  George’s County Park and Planning Police, resi-          also provided members with useful fraud related
  dents, University of Maryland students and staff,        web sites, and simple and logical ways to determine
  media, property managers, and owners. The                the veracity of information provided to obtain loans.
  various agencies met to discuss and make plans to
  resolve the increasing drug trafficking problems        ¾OIG Special Agent Angela Stewart from the Atlanta
  and concerns over unauthorized persons occupying         Office made a presentation to the Alabama Asso-
  units in the Lakeland community. Local authorities       ciation of Housing and Redevelopment Authorities
  believe two recent homicides were committed by           and HUD staff at their Fall Workshop. Agent
  subjects that are believed to be unauthorized tenants    Stewart gave an overview of tenant fraud and the
  within the community. Agents Harding and Pittano         documentation needed to prosecute false state-
  made a presentation on the mission, goals, and           ments, statutory requirements, and the timeframe
  purpose of the OIG. The meeting and presentation         and loss requirements for presentation to the U.S.
  gave OIG staff the opportunity to establish a bridge     Attorney’s Office. She also stressed the need for
  of communication and partnership between the OIG,        law enforcement to keep each other informed of
  project management, and the local government.            successful prosecutions, and how important it is to
                                                           disseminate this information to the public.
¾Special Agent Glen Wirtanen addressed a HUD
 sponsored “Home Mortgage Fraud and Foreclo-              ¾OIG made a presentation to the Financial Crimes
 sure Prevention Seminar” in Decatur, GA, that             Working Group in Buffalo, NY. This group is made
 was attended by approximately 250 local real estate       up of approximately 75 federal, state, local, private,
 agents, bankers, and mortgage professionals. The          and Canadian law enforcement agencies and
 seminar addressed the growing problem of loan             companies that investigate and prosecute individuals
 origination fraud in the FHA mortgage insurance           and criminal organizations that perpetrate financial
 program, and remedies available to reduce this type       crimes. The group was organized to exchange
 of fraud. Presentations by the local HUD                  information on these individuals and organizations
 Homeownership Center staff provided the audience          in an effort to eliminate duplication of investigative
 with numerous “red flags” that might be present if        efforts and to best utilize investigative resources.
 a loan is based on false or fraudulent information.       The presentation educated the group on the OIG
 In addition, an Assistant U.S. Attorney gave ex-          mission and our role in the investigative community.
 amples of cases that have been successfully pros-         Included in the presentation was a montage of the
 ecuted in the Northern District of Georgia.               HBO series “The Sopranos” in which the charac-
                                                           ters depicted a property flipping scheme that was
¾Senior Special Agent Mike Wilson, Criminal                based on an actual case from the New York/New
 Investigation Division, and Executive Assistant John      Jersey Region.
 Dupuy conducted a mortgage fraud course held by
 the MBA in New Orleans, LA. They made presen-            ¾Fort Worth Region Special Agent Amy Durso spoke
 tations on the role of the OIG in fighting mortgage       at the Missouri Association of Regional Public
 fraud and provided case examples. Supervisory             Housing Authorities at Bennett Springs, MO. She
 underwriting, quality assurance, and fraud control        discussed the variety of cases worked by OIG and
 staff from national lenders were in attendance.
Chapter 7 - Outreach Efforts                                                                                  97
  went into greater detail about Section 8 tenant
  fraud.

¾The OIG Office in Phoenix, AZ, hosted the Re-
 gional IG Counsel meeting. Topics included interac-
 tion with the Arizona U.S. Attorney’s Office and
 other possible prospective venues. IG Offices from
 HUD, the Postal Inspection Service, the Depart-
 ments of Education, Veterans Affairs, Defense,
 Health and Human Services, and Justice, the Social
 Security Administration, and the Treasury Inspec-
 tor General for Tax Administration were present
 and participated in the meeting.




Chapter 7 - Outreach Efforts                           98
                           Chapter 8 — Review of Policy Directives

    Reviewing and making recommendations on                  Housing Choice Voucher Family Self-
legislation, regulations, and policy issues is a critical
part of the OIG’s responsibilities under the Inspector       Sufficiency Program
General Act. During this six-month reporting period,
                                                                 The Housing Choice Voucher Family Self-
the OIG reviewed 124 policy Notices. This chapter
                                                             Sufficiency Program NOFA announced the availability
highlights some of the OIG recommendations on these
                                                             of $48 million to fund counselors to assist families to
Notices as well as other policy directives.
                                                             obtain housing.

Notices of Funding Availability                                   We did not concur with this NOFA because Public
                                                             Law 108-199 provided restrictions on funding with
(NOFAs)                                                      which the NOFA did not comply. The Public Law
                                                             requires that before any funds are disbursed, a risk
Fiscal Year 2004 SuperNOFA:                                  assessment must be conducted and appropriate
Community Development Technical                              controls implemented to mitigate any identified risks.
                                                             The Public Law also specifies that the funding
Assistance                                                   announcements must describe the maximum amount
     HUD issued a SuperNOFA to provide assistance to         of funding available. In addition, the Public Law
achieve the highest level of performance and results         mandates that the Secretary require housing agencies
for four separate community development programs:            to submit accounting data for funds disbursed by
(1) HOME (Home Investment Partnerships) Program;             source and purpose.
(2) Community and Housing Development Organiza-                  The Offices of Public and Indian Housing and the
tion (CHDO) HOME Program; (3) Homeless Program;              Inspector General mutually agreed to change the
and (4) Housing Opportunities for Persons with AIDS          NOFA. Public and Indian Housing revised the draft
(HOPWA). The Notice stated that applicants might             NOFA and mandated that grantees follow the controls
apply for one, two, three, or all four of the Commu-         needed to mitigate program risks, established ac-
nity Development Technical Assistance Programs.              counting controls over reporting, and specified the
Approximately $25.1 million was available. We                maximum amount of available funds.
commented on this NOFA because HUD needs assur-
ance that requirements stated under the administra-              Public and Indian Housing has improved the
tive provisions of the Act are included in the NOFA.         control structure to obtain a higher probability that
Section 209 of the Act states that none of the funds         housing agencies will use funds to assist the targeted
provided in this title for technical assistance, training,   population. The NOFA should be issued in April 2004.
or management improvements may be obligated or
expended unless HUD provides the Senate and House            Computer Match Agreement
Committees on Appropriations a description of
proposed activity and a detailed budget estimate of the      Computer Match Agreements Between
costs associated with each program, project, or              HUD/SSA and HUD/IRS
activity as part of the budget justifications.
                                                                 HUD issued two Computer Match Agreements to
     The Department was still reviewing the com-
                                                             increase the accuracy of tenant reported information.
ments and had not issued the SuperNOFA at the end of
                                                             One Agreement was between HUD and the Social
this semiannual reporting period.
                                                             Security Administration (SSA), and the other was
                                                             between HUD and the Internal Revenue Service (IRS).
                                                             The HUD/SSA Agreement proposed to increase the
                                                             accuracy of tenant reported income and the validity of


Chapter 8   — Review of Policy Directives                                                                         99
borrowers obtaining insurance for FHA mortgages.          Notices of Proposed Rulemaking in the Federal
The HUD/IRS Agreement provided HUD with the               Register and give interested persons an opportunity to
mailing addresses of taxpayers to assist HUD in its       participate in the rulemaking process. These pro-
effort to collect debts owed to the United States. The    posed rulemaking changes cannot be made in a
HUD/SSA Agreement would provide indicators of             change to an internal Notice, but must be made
potential under/overreported income that will require     through the Federal Register process described
additional verification to identify inappropriate         herein and in CFR 24 Part 10, Rulemaking Policy and
(excess or insufficient) rental assistance, and perhaps   Procedures (paragraphs 10.1 through 10.3).
administrative or legal actions. Both Agreements
                                                              HUD’s Offices of CPD and General Counsel
would assist HUD administrators who rely on the
                                                          agreed with our assessment and made the appropriate
accuracy of tenant reported data to determine appli-
                                                          changes to the Notice to comply with the CFR.
cants’ and participants’ eligibility for, and level of,
housing benefits.
    We noted a need for the Computer Match Agree-
                                                          Congressional Report
ments to include a statement that will allow the          Report to Congress Regarding
Office of Inspector General to have access to test
results. The Agreements present the legal authority       Revitalization Area Designations
that permits tax return information disclosed to HUD          HUD prepared a report to Congress regarding
for use by officers and employees of HUD. We re-          revitalization area designations. The purpose of these
quested the following statement to be added to the        area designations is to expand affordable
Computer Match Agreements: “The results of the            homeownership opportunities by offering HUD owned
match may be used by the Office of Inspector Gen-         single family properties for sale at a discount price.
eral for investigative/audit matters pursuant to the      These properties are located in neighborhoods that
Inspector General Act.”                                   either: (1) consist of families with very low incomes;
    HUD added our statement to the Agreements and         (2) have a disproportionately high concentration of
we therefore concurred in their issuance.                 foreclosed HUD held properties; or (3) have a low
                                                          homeownership rate.
Notices                                                        We nonconcurred with this Congressional report
                                                          because it did not adequately define the term “revital-
Revision to Notice on Guidance on the                     ization area” pursuant to 12 U.S.C. 1710. We found
Application of the Uniform Relocation                     the definition for “high concentration” area failed to
                                                          address what was considered a high rate of default.
Assistance and Real Property                              Therefore, it was not clear which areas could be
Acquisition Policies Act of 1970                          designated as revitalization areas.

    HUD prepared a Notice announcing changes in               To improve the process, we recommended that
the Department’s policy regarding the Uniform             the new definition for “revitalization area” include
Relocation Assistance and Real Property Acquisition       the statements: “…in comparison with the concentra-
Policies Act of 1970, as amended in HOPE VI projects.     tion of such assets in surrounding areas; or being
The Offices of Public and Indian Housing (PIH) and        detrimentally impacted by eligible assets in the
Community Planning and Development (CPD) deter-           vicinity of a revitalization area.” These statements
mined that changes were necessary to address issues       are key to a proper designation of “revitalization
that have arisen regarding implementation of the          area.”
HOPE VI Program.                                               HUD made changes with which we agreed, and
    We nonconcurred with the Department’s decision        the Congressional Report was finalized as of the close
to make rule changes without providing for public         of the semiannual reporting period.
participation. The Department is required to publish


Chapter 8   — Review of Policy Directives                                                                     100
                               Chapter 9 — Audit Resolution

    In the audit resolution process, the OIG and HUD       Audits of FHA’s FY 1991 through 2003
management come to an agreement as to the needed
actions and timeframes for resolving audit recom-          Financial Statements
mendations. Through this process, we hope to achieve           First issued March 27, 1992. FHA has been
measurable improvements in HUD programs and                preparing financial statements for 13 years under the
operations. The overall responsibility for assuring that   Chief Financial Officers Act, beginning with FY
the agreed upon changes are implemented rests with         1991. The audit of FHA’s FY 2003 financial statements
HUD managers. This Chapter describes some of the           discussed problems similar to those that have been
more significant pending issues where resolution           reported since the audit of FHA’s FY 1991 financial
action has been delayed and where management               statements. The audit continues to recognize that FHA
decisions were revised. It also contains a status          needs to: (1) improve its information technology
report on HUD’s implementation of the Federal              (primarily accounting and financial management
Financial Management Improvement Act of 1996. In           systems) to more effectively support FHA’s business
addition to this Chapter on audit resolution, see          processes; and (2) continue to improve early warning
Appendix 2, Table A, “Audit Reports Issued Prior to        and loss prevention for single family insured mort-
Start of Period With No Management Decision at 3/          gages. A weakness reported since the FY 1992
31/04,” and Table B, “Significant Audit Reports            financial statement audit relates to the need for FHA
Described in Previous Semiannual Reports Where             to enhance the design and operation of information
Final Action Had Not Been Completed as of 3/31/            systems’ general and application level security
04.”                                                       controls. FHA’s latest action plan continues to report
                                                           progress toward resolving these remaining long-
Delayed Actions                                            standing issues, with final actions targeted over the
                                                           next one to three years.
Audits of HUD’s FY 1991 through
2003 Financial Statements                                  Housing Authority of the City of
     First issued June 30, 1992. HUD has been prepar-
                                                           Miami Beach, Section 8 and Public
ing consolidated financial statements under the            Housing Programs
requirements of the Chief Financial Officers Act for
13 years beginning with Fiscal Year (FY) 1991.                  Issued October 20, 2000. The Authority misman-
Various internal control weaknesses have been              aged its Section 8 and Public Housing Programs and
reported in these audits. In our most recent audit         incurred over $1 million in questioned and ineligible
report for FY 2003, we were able to express an             costs. Specifically, the Authority spent over $795,000
unqualified opinion on HUD’s principal financial           of its Section 8 reserves for questionable public
statements. The results of our FY 2003 report on           service activities, including police protection, recre-
internal controls were consistent with results reported    ation, and code enforcement that the City should have
in Semiannual Reports from prior years. While there        provided from its local tax revenues. Also, the
has been progress, material weaknesses continue            Authority spent over $2 million in a failed effort to
with respect to the need to: (1) complete improve-         construct a women’s and children’s housing resource
ments to financial systems; and (2) improve oversight      center, including nearly $210,000 in excessive fees
and monitoring of subsidy calculations and intermedi-      and permits paid to the City. The delayed project put
aries’ program performance. Corrective action plans        the Authority at risk of losing most of the $5.8 million
to resolve these issues have continued to change over      in bond funds originally committed to the project, and
the last decade.                                           deprived the low-income community of needed
                                                           housing and social services. In addition, the Authority

Chapter 9 - Audit Resolution                                                                                    101
had not complied with HUD requirements concerning          Detroit Housing Commission HOPE
Section 8 rent reasonableness, lease execution, and
utility allowance payments, and had not implemented        VI Program
corrective actions to comply with procurement                  Issued May 16, 2001. The Detroit Housing
requirements. We recommended that HUD require the          Commission did not maintain an effective system of
Authority to: (1) obtain additional supporting docu-       controls over its contracting process for its HOPE VI
mentation or recover the $1 million paid to the City;      Program. The Commission improperly used or
(2) submit evidence that it has the financial capability   inappropriately approved payments of over $12 million
and commitment to complete construction of the             in HUD funds (HOPE VI, Development, and Compre-
center within a reasonable time; and (3) establish the     hensive Grant Program) for construction or profes-
necessary controls to improve its operations.              sional services. We recommended that the Commis-
    On February 13, 2001, the OIG agreed with              sion provide detailed work specifications supporting
management decisions proposed by the Florida State         the work included in 46 unsupported change orders
Office for the 14 report recommendations. HUD has          totaling over $12 million that were identified during
obtained final action on 10 recommendations. How-          the audit. We agreed with HUD’s initial management
ever, HUD did not meet the February 13, 2002 target        decision that involved reviewing all the change orders
completion dates for the remaining four recommen-          to determine the disallowed costs.
dations that are now over two years past due.                   Subsequently, HUD proposed that it would procure
     We referred the audit to the Acting Deputy            the services of an independent engineering firm to
Assistant Secretary for Administration and Budget/         review the contractors’ work, and submit all neces-
Chief Financial Officer because of the untimely final      sary documentation to support the eligibility of the
action. HUD, Authority, and City staff met to discuss      unsupported change orders. We concurred with HUD’s
the impasse. In March 2004, the City and the Author-       revised proposal; however, we requested a revised
ity reached tentative agreement to offset the ques-        management decision because this represented a
tioned and ineligible costs by waiving payments in lieu    change to the previously agreed upon management
of taxes, and by credits to future development fees.       decision to look at all change orders. Under the
The Authority still plans to construct the resource        revised proposal, the engineering firm will only look
center but on a different site, and will obtain an         at all change orders over $100,000 (18), and prorate
appraisal for sale of the original site. The Authority     the percent unsupported to the remaining change
has also contracted with a consultant to calculate and     orders under $100,000 (28). HUD’s Office of Public
make the final payments due the tenants. HUD and the       Housing Investments submitted a revised manage-
Authority have not finalized target completion dates.      ment decision on March 4, 2004, with which we
(Report No. 2001-AT-1001)                                  agreed. Based on the engineering firm’s results, we
                                                           agreed with HUD that the final disallowed costs would
                                                           be $4,986,619, a reduction of $7,073,837 from the
Significant Revised                                        original questioned amount. HUD will work out a
Management Decisions                                       repayment schedule with the Commission. The
                                                           revised date for completing this action is June 30,
    Section 5(a) (11) of the Inspector General Act, as     2011. (Report No. 2001-CH-1007)
amended, requires that the OIG report information
concerning the reasons for any significant revised         City of Lynwood, CA Community
management decision made during the reporting
period. During the current reporting period, there         Development Block Grant (CDBG)
were significant revised management decisions on           and HOME Investment Partnerships
two audits.
                                                           (HOME) Program
                                                               Issued August 19,1999. The City of Lynwood did
                                                           not fully comply with HUD rules and regulations

Chapter 9 - Audit Resolution                                                                                  102
regarding its Community Development Block Grants.          Los Angeles Community Development
Therefore, we recommended that the grantee: (1)
submit for approval all required documentation to          Bank Economic Development Initiative
support the eligibility of about $700,000 paid to the      Grant/Section 108 Loan Guarantee
Lynwood Entrepreneur Development Academy                   Program
(LEDA) for job creation and retention activities; (2)
submit for approval the required documentation                  Issued September 25, 2002. The Los Angeles
establishing the eligibility of over $73,000 paid for      Community Development Bank (LACDB) had not fully
trainees that were located outside the grantee’s city      complied with HUD regulations and Economic Devel-
limits; and (3) return to its letter of credit from non-   opment Initiative (EDI) Agreements. Accordingly, one
federal funds the amount that the grantee is unable to     of our recommendations was that HUD require the
support in the two previous recommendations.               City of Los Angeles to require LACDB to restrict any
                                                           future loans or investments involving the use of EDI
    On March 11, 2004, the OIG received a revised
                                                           grant funds only to businesses within or willing to
management decision from the Office of Community
                                                           relocate into the Empowerment Zone (EZ) target
Planning and Development (CPD) which states that
                                                           area. In January 2003, the Los Angeles Office of CPD
based on the HUD Office of General Counsel’s
                                                           agreed with our recommendations and provided
determination that there is some “evidence that LEDA
                                                           documentation showing that the City had instructed
and Lynwood Business Institute did engage in job
                                                           LACDB not to approve any loans or investments
creation/retention activities, in an area that was
                                                           involving EDI grant funds unless the businesses were
predominantly low- and moderate-income, and
                                                           within, or willing to relocate to, the EZ target area.
achieved some results, we do not believe there is a
                                                           Based on this action, the subject recommendation was
good likelihood that an enforcement action to reduce
                                                           closed. Subsequent to closing the recommendation,
the City’s CDBG funding would be sustained by a
                                                           several events, such as the closure of LACDB, tran-
court, based solely on a lack of adequate documenta-
                                                           spired. Therefore, in November 2003, OIG requested
tion. Accordingly, we do not believe a viable basis
                                                           that CPD reopen the subject recommendation and
exists to reduce the City’s CDBG funding. Instead, we
                                                           provide a revised management decision to reflect
recommend that, if CPD elects to treat the matter as
                                                           these events and to ensure the protection of HUD’s
actionable under 24 CFR §570.910(b), it utilize
                                                           interests and the integrity of the EZ Program. In
alternative remedies available under that section that
                                                           February 2004, CPD agreed to reopen the recommen-
would be designed to avoid a repetition of the viola-
                                                           dation and provided a revised management decision.
tion.” The revised management decision would be to
                                                           Pursuant to the revised management decision, CPD
require the City of Lynwood, in accordance with CFR
                                                           sent a letter to the City of Los Angeles requiring it to
24§570.910(b), to submit to CPD for its review and
                                                           submit a strategic plan detailing its intended use for
approval, an outline of the City’s recordkeeping
                                                           the remaining Section 108 loan guarantee funds for
procedures prior to undertaking any future economic
                                                           HUD’s review and approval. As a result, HUD will be
development activities. Such procedures would have to
                                                           assured that the $199 million in remaining Section 108
be in compliance with applicable regulations. This
                                                           loan guarantee funds will be put to better use, and that
submission by the City would have a due date of April
                                                           the integrity of the EZ Program will not be under-
30, 2004. Failure to provide this information in an
                                                           mined. We concurred with the revised management
approvable format, prior to use of funds for future
                                                           decision and closing action. (Report No. 2002-SF-
economic development activities, could result in a
                                                           1003)
condition on the use of funds provided. The final
action target date is May 31, 2004. The OIG agrees
with the revised management decision. (Report No.
1999-SF-1003)




Chapter 9 - Audit Resolution                                                                                    103
Federal Financial Management
Improvement Act of 1996
(FFMIA)
     FFMIA requires that HUD implement a
remediation plan that will bring financial systems into
compliance with federal financial system require-
ments within three years or obtain Office of Manage-
ment and Budget (OMB) concurrence if more time is
needed. FFMIA requires us to report, in our Semian-
nual Reports to the Congress, instances and reasons
when an agency has not met the intermediate target
dates established in their mediation plan required by
FFMIA. In April 1998, HUD determined that 38 of its
systems were not in substantial compliance with
FFMIA. At the end of FY 2003, the Department
continued to report that four of its 46 financial man-
agement systems were not in substantial compliance
with FFMIA. Our audit of HUD’s FY 2003 financial
statements cites additional financial management
system weaknesses, which address how HUD’s
financial management systems remain substantially
noncompliant with federal financial management
requirements. With the implementation of the FHA
Subsidiary System, the Department became substan-
tially compliant with the FFMIA Standard General
Ledger provision and is moving in the direction of
becoming FFMIA compliant with: (1) federal financial
management systems requirements; and (2) federal
accounting standards. The FHA Subsidiary General
Ledger Project is a multi-phase project to be com-
pleted by December 2006.




Chapter 9 - Audit Resolution                              104
Appendices
                           A PPENDIX 1 - AUDIT R EPORTS ISSUED
                                                                            Internal Reports
 Administration                                                                  Audit Reports

2004-DP-0001       Fiscal Year 2003 Review of Information Systems Controls in Support of the Financial Statements Audit, 12/01/2003.

 Chief Financial
    Officer

2004-FO-0003       Audit of the U.S. Department of HUD’s Financial Statements for Fiscal Years 2003 and 2002, 12/19/2003. Better Use: $1,430,000,000.

  Government
   National
   Mortgage
  Association

2004-FO-0002       Audit of the Government National Mortgage Association’s Financial Statements for Fiscal Years 2003 and 2002, 12/19/2003.

    Housing

2004-BO-0001       Review of the Home Equity Conversion Mortgage Program, New England Region, 02/10/2004. Better Use: $221,570.
2004-DE-0001       Nationwide Review of Indemnification for Claims on Single Family Insured Loans, 12/15/2003. Better Use: $60,200,000.
2004-DP-0002       Application Control Review of the Tenant Rental Assistance Certification System, 02/25/2004.
2004-FO-0001       Audit of the FHA’s Financial Statements for Fiscal Years 2003 and 2002, 11/25/2003.
2004-PH-0001       Procedures for Filing Uniform Commercial Code Continuation Statements, 11/26/2003.
2004-PH-0002       Philadelphia Homeownership Center, Quality Controls Over Single Family Loan Insurance Process, Philadelphia, PA, 02/20/2004. Questioned:
                   $401,959; Better Use: $144,944.

  Lead Hazard
    Control

2004-AO-0001       Award and Administration of Lead-Based Paint Hazard Reduction Grants, 02/06/2004. Questioned: $385,587; Unsupported: $385,587; Better Use:
                   $27,401,989.
   Public and
 Indian Housing

2004-AT-0001      Public Housing Agency Development Activities, 01/13/2004.
2004-BO-0006      Portability Features of the Section 8 Housing Choice Voucher Program, 01/15/2004. Questioned: $8,997.
2004-PH-0003      HUD’s Oversight of the Philadelphia, PA Housing Authority’s Moving to Work Program, 03/17/2004. Better Use: $50,160,000.

    Housing                                                                Audit Memoranda*

2004-AT-0801      Officer Next Door and Teacher Next Door Programs, 10/07/2003.
2004-KC-0801      Corrective Action Verification, Housing Subsidy Payments, Office of Housing, Audit Report No. 00-KC-103-0002, 12/22/2003.
2004-KC-0802      St. Louis Office of Multifamily Housing’s Monitoring of its Construction Analyst Contracts, 03/02/2004.
2004-KC-0803      Owner’s Salary, Timberlake Care Center, Section 232 Nursing Home Review, Kansas City, MO, 03/04/2004. Questioned: $150,000;
                  Unsupported: $150,000.


                                                                        External Reports
   Community                                                                  Audit Reports
  Planning and
  Development

2004-BO-1003      City of Springfield, MA, Selected Activities Funded through the CDBG, HOME and UDAG Programs, 11/07/2003. Questioned: $842,719;
                  Unsupported: $27,905.
2004-CH-1002      Waukesha County, CDBG and HOME Investment Partnership Programs, Waukesha, WI, 11/26/2003. Questioned: $573,160; Unsupported:
                  $463,734; Better Use: $472,800.
2004-FW-1003      City of New Orleans, LA, Section 108 Loan Program, Jazzland Theme Park, 03/15/2004. Questioned: $7,685,703; Unsupported: $6,386,760;
                  Better Use: $52,000,000.
2004-KC-1001      East Meyer Community Association, Use of HUD Grant Funds, Kansas City, MO, 11/24/2003. Questioned: $849,693, Unsupported: $122,843.
2004-NY-1001      Empire State Development Corporation, CDBG Disaster Assistance Funds, New York, NY, 03/25/2004. Questioned: $49,000.
2004-NY-1002      Lower Manhattan Development Corporation, CDBG Disaster Assistance Funds, New York, NY, 03/25/2004. Questioned: $102,900; Unsupported:
                  $86,050.
    Housing

2004-BO-1002      Family Living Adult Care Center, Biddeford and Saco, ME, 11/04/2003. Questioned: $3,143,261; Unsupported: $62,494.
2004-BO-1006      Nuestra Casa, Project Management Operations, Hartford, CT, 02/18/2004. Questioned: $371,430; Unsupported: $1,630.
2004-DE-1001      Last Star Homes, HUD Section 8 Project-Based Multifamily Housing, Browning, MT, 01/16/2004. Questioned: $9,582; Unsupported: $1,192;
                  Better Use: $2,874,826.
2004-DE-1002      Treehouse Mortgage, LLC, Non-Supervised Loan Correspondent, Denver, CO, 03/11/2004.
2004-FW-1002      Jester Trails Apartments, Multifamily Project, Houston, TX, 02/26/2004. Questioned: $154,287; Unsupported: $14,214; Better Use: $2,133,843.
2004-KC-1002      Timberlake Care Center, Use of Project Funds, Kansas City, MO, 03/10/2004. Questioned: $93,782; Unsupported: $23,113.
2004-LA-1001      Keystone Mortgage and Investment Company, Non-Supervised Loan Correspondent, Phoenix, AZ, 03/24/2004. Better Use: $4,307,344.
2004-PH-1003      The Congress of National Black Churches, Inc., Housing Counseling Program, Washington, DC, 02/19/2004. Questioned: $944,646;
                  Unsupported: $423,584.
2004-PH-1004      Carbondale Nursing Home, Section 232 Project Operations, Carbondale, PA, 03/25/2004. Questioned: $1,261,301; Unsupported: $97,631.
2004-SE-1002      Scheller-Hess Yoder and Associates, Non-Supervised Loan Correspondent, Portland, OR, 01/09/2004. Questioned: $266,619; Unsupported:
                  $184,232; Better Use: $6,989,423.
2004-SE-1003      Uptown Towers Apartments, Portland, OR, 03/26/2004. Questioned: $57,949; Unsupported: $2,042; Better Use: $2,880.

     Policy
  Development
  and Research

2004-AT-1002      Jackson State University, Historically Black Colleges and Universities Grant, Jackson, MS, 02/18/2004. Questioned: $905,067; Unsupported:
                  $894,767; Better Use: $898,235.

   Public and
 Indian Housing

2004-AT-1001      Housing Authority of the City of Cuthbert, GA, Administration of Housing Development Activities, 01/15/2004. Questioned: $327,326.
2004-AT-1003      Housing Authority of the City of Fort Lauderdale, FL, Administration of Housing Development Activities, 03/19/2004. Questioned: $249,025;
                  Unsupported: $86,324.
2004-BO-1001      Housing Authority of the City of Hartford, CT, Disposition of Vacant Land at Charter Oak Terrace, 10/30/2003.
2004-BO-1004      Danbury, CT Housing Authority, Capital Fund Program, 12/05/2003. Questioned: $1,964,509; Unsupported: $60,000; Better Use: $390,681.
2004-BO-1005      Springfield, MA Housing Authority, 12/10/2003. Questioned: $33,646,616; Unsupported: $31,479,834; Better Use: $411,362.
2004-CH-1001      Kankakee, IL County Housing Authority, Section 8 Housing Program, 11/26/2003. Questioned: $691,514; Unsupported: $437,117; Better Use:
                  $2,232,180.
2004-FW-1001      City of Little Rock, AR Housing Authority, Procurement and Asset Control, 01/26/2004. Questioned: $248,211; Unsupported: $248,211.
2004-FW-1004      Housing Authority of the City of Corpus Christi, TX, Financial Management of HUD Programs, 03/26/2004. Questioned: $4,052,302;
                  Unsupported: $3,020,430.
2004-LA-1002      Housing Authority of the City of Los Angeles CA, Management of Legal Matters, 03/30/2004. Questioned: $166,667; Unsupported: $47,227.
2004-PH-1001                  Bucks County Housing Authority, Utilization of Tenant-Based Section 8 Funds, Doylestown, PA, 11/13/2003.
2004-PH-1002                  Allegheny County Housing Authority, Public Housing Drug Elimination Grant Program, Pittsburgh, PA, 01/16/2004. Questioned: $1,377,586;
                              Unsupported: $761,950.
2004-PH-1005                  Petersburg, VA Redevelopment and Housing Authority, Non-federal Entities, 03/25/2004. Questioned: $620,236; Better Use: $1,320,733.
2004-SE-1001                  Complaint Regarding the Seattle, WA Housing Authority’s Procurement for Section 8 Project-Based Vouchers, and Conduct Issues Regarding
                              Conflict of Interest and Lobbying, 10/22/2003.

     Housing                                                                                Audit Memoranda*

2004-CH-1801                  Carter Manor Apartments, Multifamily Equity Skimming, Cleveland, OH, 12/05/2003. Questioned: $275,000.

   Public and
 Indian Housing

2004-AT-1801                  Hialeah, FL Housing Authority, Administration of Housing Development Activities, 02/18/2004.
2004-AT-1802                  Saraland Manor Apartments, Gulfport, MS, 03/05/2004.
2004-AT-1803                  Jacksonville, FL Housing Authority, Administration of Housing Development Activities, 03/09/2004.
2004-BO-1801                  Boston, MA Housing Authority, Capital Fund Program, 12/16/2003.
2004-FW-1801                  Logansport, LA Housing Authority, Louisiana Legislative Auditor’s Report, 01/30/2004. Questioned: $120,440; Unsupported: $120,440.
2004-NY-1801                  City of Oneida, NY Housing Authority, Citizen Complaints, 11/19/2003.
2004-PH-1801                  Philadelphia, PA Housing Authority, Executive Director’s Sick Leave and Annual Leave Conversion, 01/07/2004.

* The memoranda format is used to communicate the results of reviews not performed in accordance with generally accepted government auditing standards, to close out
  assignments with no findings and recommendations, to respond to requests for information, to report on the results of a survey, to report interim results, or to report the
  results of civil actions or settlements.
                                             TABLE A
                          AUDIT REPORTS I SSUED PRIOR TO START OF P ERIOD WITH
                                NO MANAGEMENT D ECISION AT 03/31/04
                                                                                           I SSUE D ATE /
                                                                                           T ARGET FOR
R EPORT N UMBER & TITLE                R EASON   FOR   L ACK   OF   MANAGEMENT D ECISION
                                                                                           M ANAGEMENT
                                                                                              D ECISION




                                             Nothing to report.
                                                                      TABLE B
                          S IGNIFICANT AUDIT REPORTS D ESCRIBED IN PREVIOUS S EMIANNUAL R EPORTS
                               WHERE FINAL A CTION HAD NOT B EEN COMPLETED AS OF 03/31/04

 R EPORT                                                                                                              I SSUE      D ECISION     F INAL
                                                          R EPORT T ITLE
 N UMBER                                                                                                              D ATE         D ATE      A CTION

               Major Mortgage Corporation, Section 203(k) Rehabilitation Home Mortgage Insurance Program, Livonia,
1997-CH-1010                                                                                                         09/17/1997   01/06/1998   06/01/2005
               MI

1999-FO-0003   U.S. Department of HUD Fiscal Year 1998 Financial Statements                                          03/29/1999   09/30/1999     Note 1

1999-SF-1003   City of Lynwood, CA, CDBG & HOME Programs                                                             08/19/1999   12/16/1999   05/31/2004

1999-DE-0001   Nationwide Review of HUD’s Loss Mitigation Program                                                    09/30/1999   03/31/2000     Note 2

2000-FO-0002   Federal Housing Administration, Audit of Fiscal Year 1999 Financial Statements                        02/29/2000   08/09/2000   12/31/2005

2000-FO-0003   Attempt to Audit the Fiscal Year 1999 Financial Statements, U.S. Department of HUD                    03/01/2000   09/29/2000     Note 2

2000-SF-0001   Single Family Production                                                                              03/30/2000   01/19/2001     Note 1

2000-KC-0002   Housing Subsidy Payments                                                                              09/29/2000   02/21/2001   09/30/2005

2000-SE-0003   Final Report of Nationwide Audit, Use and Disposition of Residual Receipts                            09/29/2000   08/15/2001     Note 1

2001-AT-1001   Housing Authority of the City of Miami Beach, FL                                                      10/20/2000   02/13/2001     Note 1

2001-SF-1802   Audit of HUD Earthquake Loan Program (HELP) Funds                                                     02/08/2001   06/14/2001     Note 1

2001-FO-0002   Federal Housing Administration, Audit of Fiscal Year 2000 Financial Statements                        03/01/2001   07/24/2001   12/21/2006

2001-FO-0003   Audit of HUD Fiscal Year 2000 Financial Statements                                                    03/01/2001   07/18/2001     Note 2

2001-SF-1803   Supportive Housing Program Grant, Los Angeles, CA                                                     03/23/2001   07/24/2001     Note 1

2001-FO-0004   Review of HUD’s Internal Controls Over Fiscal Year 1999 Annual Performance Data                       03/28/2001   07/24/2001     Note 2

2001-NY-1002   Belmax Management Corporation, Management Agent, Brooklyn, NY                                         04/17/2001   07/13/2001     Note 1
2001-SF-1804   Supportive Housing Program Grant, County of Orange, Santa Ana, CA                                     05/09/2001   09/26/2001     Note 1

2001-CH-1007   Detroit, MI Housing Commission, HOPE VI Program                                                       05/16/2001   09/13/2001   06/30/2011

2001-PH-0803   Philadelphia, PA Homeownership Center, Single Family Disposition Activities                           06/14/2001   06/14/2001   10/11/2004

2001-AT-0001   Nationwide Audit, Results on the Officer/Teacher Next Door Programs                                   06/29/2001   01/29/2002   07/30/2004

2001-FW-1005   Harmony House, Inc., Harrison, AR, Supportive Housing Program                                         08/27/2001   12/21/2001     Note 1

2001-AO-0003   Drug Elimination Funds Used For Creative Wellness Program                                             08/29/2001   01/22/2002     Note 2

2002-SF-0001   Nonprofit Participation, HUD Single Family Program                                                    11/05/2001   08/30/2002     Note 2

2002-CH-1801   Housing Authority of the City of Evansville, IN                                                       01/29/2002   05/18/2002   05/15/2005

2002-FO-0002   Federal Housing Administration, Audit of Fiscal Years 2001 and 2000 Financial Statements              02/22/2002   05/30/2002   12/31/2006

2002-NY-0001   Nationwide Audit, Asset Control Area Program, Single Family Housing                                   02/25/2002   06/17/2002   10/15/2004

2002-FO-0003   U.S. Department of HUD, Audit of Fiscal Years 2001 and 2000 Financial Statements                      02/27/2002   08/16/2002   07/31/2004

2002-PH-1001   City of Williamsport, PA, CDBG and Home Investment Partnership Programs                               03/19/2002   09/04/2002     Note 1

2002-BO-1001   City of Worcester, MA, CDBG Program                                                                   03/27/2002   08/29/2002   07/01/2005

2002-BO-1003   Newport, RI, Resident Council, Inc.                                                                   04/30/2002   09/16/2002   01/15/2008

2002-AT-1002   Housing Authority of the City of Tupelo, MS, Housing Programs Operations                              07/03/2002   10/31/2002   04/30/2010

               National Scholarship Service and Veteran’s Opportunity and Resource Center, Atlanta, GA, Supportive
2002-AT-1003                                                                                                         07/25/2002   10/21/2002   02/28/2005
               Housing Program

2002-KC-0002   Nationwide Survey of HUD’s Office of Housing, Section 232 Nursing Home Program                        07/31/2002   11/22/2002   06/30/2004

2002-SF-0801   Home Investment Partnership Program, City of Stockton, CA, and San Joaquin County, CA                 07/31/2002   12/06/2002     Note 2

2002-FW-1002   Houma, LA Housing Authority, Low-Rent Housing Program, Cash and Procurement Controls                  09/18/2002   01/16/2003   08/01/2004

               Homeless and Housing Coalition of Kentucky, Inc., Frankfort, KY, Outreach and Training Assistance
2002-AT-1808                                                                                                         09/20/2002   03/31/2003     Note 2
               Grant
               Ironbound Community Corporation, Newark, NJ, Outreach and Training Assistance Grant and Public
2002-NY-1004                                                                                                         09/23/2002   03/31/2003     Note 2
               Entity Grants

2002-NY-1005   The Legal Aid Society, New York, NY, Outreach and Training Assistance Grant and Public Entity Grant   09/23/2002   03/31/2003     Note 2

2002-DE-1005   Crossroads Urban Center, Salt Lake City, UT, Outreach and Training Assistance Grants                  09/25/2002   03/31/2003     Note 2

               Community Development Bank, Los Angeles, CA, Economic Development Initiative Grant/Section 108
2002-SF-1003                                                                                                         09/25/2002   01/27/2003     Note 2
               Loan Guarantee Program

               North Carolina Low-Income Housing Coalition, Inc., Raleigh, NC, Outreach and Training Assistance
2002-AT-1005                                                                                                         09/27/2002   03/31/2003     Note 2
               Grant and Intermediary Training Assistance Grant

2002-AT-1006   Ridgeview Manor Apartments, Hopkins, SC                                                               09/30/2002   11/19/2002   09/30/2004

2002-BO-1004   Anti-Displacement Project, Springfield, MA, Outreach and Training Assistance Grant                    09/30/2002   03/31/2003     Note 2

               Affordable Housing and Homeless Alliance, Honolulu, HI, Outreach and Training Assistance Grant and
2002-DE-1002                                                                                                         09/30/2002   03/31/2003     Note 2
               Intermediary Outreach and Training Assistance Grant

               New Mexico Public Interest Education Fund, Albuquerque NM, Outreach and Training Assistance Grant
2002-FW-1003                                                                                                         09/30/2002   03/31/2003     Note 2
               and Public Entity Grant

2002-PH-1002   Virginia Poverty Law Center, Richmond, VA, Outreach and Training Assistance Grant                     09/30/2002   03/31/2003     Note 2

               Delaware Housing Coalition, Dover, DE, Outreach and Training Assistance Grant and Intermediary
2002-PH-1003                                                                                                         09/30/2002   03/31/2003     Note 2
               Training Assistance Grant

2002-PH-1004   Tenants’ Action Group of Philadelphia, PA, Outreach and Training Assistance Grant                     09/30/2002   03/31/2003     Note 2

2002-PH-1006   Legal Aid Bureau, Inc., Baltimore, MD, Outreach and Training Assistance Grant                         09/30/2002   03/31/2003     Note 2

2002-PH-1007   Legal Aid Bureau, Inc., Baltimore, MD, Outreach and Training Assistance Grant                         09/30/2002   03/31/2003     Note 2

2002-SF-1004   Low-Income Housing Fund, Oakland, CA, Intermediary Training Assistance Grant                          09/30/2002   03/31/2003     Note 2

2002-SF-1006   Legal Aid Society of Honolulu, HI, Outreach and Training Assistance Grant                             09/30/2002   03/31/2003     Note 2

2002-SF-1007   Southern Arizona People’s Law Center, Tucson, AZ, Outreach and Training Assistance Grant              09/30/2002   03/31/2003     Note 2

2003-DE-1002   Delta, CO Housing Authority, Low-Rent Housing and Section 8 Housing Assistance Payments Programs      10/07/2002   01/29/2003   12/31/2004
2003-DE-1001   Sicangu Wicoti Awanyakepe Corporation, Rosebud, SD, Indian Housing Block Grant Program         10/08/2002   02/28/2003   07/31/2005

2003-AT-1801   South Carolina Regional Housing Authority No. 3, Barnwell, SC                                  10/09/2002   02/06/2003   09/30/2004

2003-CH-1003   Tenants United for Housing, Inc., Chicago, IL, Outreach and Training Assistance Grants         10/29/2002   03/31/2003     Note 2

2003-DP-0801   Annual Evaluation of HUD’s Information Security Program                                        10/30/2002   01/21/2003     Note 2

2003-SE-1001   Community Alliance of Tenants, Portland, OR, Outreach and Training Assistance Grant            10/31/2002   03/31/2003     Note 2

2003-KC-1801   University Forest Nursing Care Center, University City, MO                                     11/14/2002   02/24/2003     Note 2

               Tenants Union, Seattle, WA, Outreach and Training Assistance Grant and Intermediary Training
2003-SE-1002                                                                                                  12/02/2002   03/31/2003     Note 2
               Assistance Grant

2003-AO-1001   National Center of Tenants Ownership, Washington, DC, Intermediary Training Assistance Grant   12/03/2002   03/31/2003     Note 2

2003-CH-1007   City of Minneapolis, MN, Empowerment Zone Program                                              01/03/2003   08/08/2003   06/08/2004

2003-AT-1001   Northwestern Regional Housing Authority, Boone, NC, Public Housing Programs                    01/09/2003   06/02/2003   01/09/2005

2003-FO-0002   Federal Housing Administration, Audit of Fiscal Years 2002 and 2001 Financial Statements       01/21/2003   05/22/2003     Note 1

2003-CH-1008   City of Cleveland Heights, OH, Housing Preservation Program                                    01/23/2003   06/10/2003   05/15/2004

2003-PH-1002   Philadelphia, PA Housing Authority, Contracting and Purchasing Activity                        01/27/2003   06/11/2003   04/30/2004

2003-CH-1009   City of Cincinnati, OH, Empowerment Zone Program                                               01/28/2003   08/08/2003   05/03/2004

2003-FO-0004   Audit of HUD’s Financial Statements, Fiscal Years 2002 and 2001                                01/31/2003   05/22/2003   02/28/2005

2003-NY-1001   Marion Scott Real Estate, Inc., Management Agent, New York, NY                                 02/12/2003   06/13/2003   06/04/2004

2003-FW-1001   Housing Authority of the City of Morgan City, LA, Low-Rent Program                             02/21/2003   06/20/2003   08/17/2004

2003-BO-1001   Farmington Health Care Center, Farmington, CT                                                  03/07/2003   07/15/2003   07/15/2004

2003-KC-1005   Choice Enterprises, Inc., Denver, CO                                                           03/10/2003   08/15/2003   08/13/2004

2003-BO-1002   People to End Homelessness, Providence, RI, Outreach and Training Assistance Grant             03/12/2003   03/31/2003     Note 2
2003-KC-0801   Inappropriate Homeownership Center Instructions, Denver, CO                                          03/18/2003   08/08/2003   05/18/2004

2003-AT-1002   Procurement of Management Agents, Puerto Rico Public Housing Administration, San Juan, PR            03/21/2003   07/17/2003   09/30/2004

2003-CH-1010   Coshocton, OH Metropolitan Housing Authority, Section 8 Housing Program                              03/21/2003   05/30/2003   06/30/2011

2003-AT-1003   Fairfield, AL Housing Authority, Housing Programs                                                    03/24/2003   07/22/2003   07/01/2004

2003-KC-1803   Richmond Terrace Retirement Center, Richmond Heights, MO                                             03/24/2003   06/19/2003   04/30/2004

2003-NY-1003   Empire State Development Corporation, New York, NY, CDBG Disaster Assistance Funds                   03/25/2003   07/16/2003   01/15/2005

2003-CH-1014   Coshocton, OH Metropolitan Housing Authority, Public Housing Program                                 03/28/2003   07/28/2003   04/30/2047

               HUD Office of Multifamily Housing Assistance Restructuring’s Oversight of the Section 514 Program
2003-DE-0001                                                                                                        03/31/2003   03/31/2003     Note 2
               Activities

2003-CH-1016   City of Cleveland, OH, Empowerment Zone Program                                                      04/25/2003   09/11/2003     Note 2

               Spanish Village Community Development Corporation, Houston, TX, Citizen Complaint, Upfront Grant &
2003-FW-1004                                                                                                        04/28/2003   08/18/2003   02/18/2005
               HOME Loan

2003-CH-0001   HUD’s Oversight of the Empowerment Zone Program                                                      05/07/2003   09/11/2003   09/30/2005

2003-BO-1003   City of Bridgeport, CT, Home Investment Partnership Program                                          05/16/2003   09/16/2003   09/16/2004

2003-FW-1804   Congressional Request, Housing Authority of the City of San Angelo, TX                               05/23/2003   09/05/2003   08/02/2004

               Seattle, WA Housing Authority’s Administration of the Welfare-to-Work Section 8 Tenant-Based
2003-SE-1003                                                                                                        05/29/2003   09/26/2003   06/30/2004
               Assistance Program

2003-AT-1004   Historic Westside Village, Section 108 Loan and Economic Development Initiative Grant, Atlanta, GA   06/06/2003   09/26/2003   03/31/2006

2003-CH-1017   Housing Continuum, Inc., Homebuyers Assistance Program, Geneva, IL                                   06/13/2003   10/10/2003   07/31/2004

2003-KC-0001   Survey of HUD’s Administration of Section 3 of the HUD Act of 1968                                   06/24/2003   07/10/2003   12/31/2004

2003-KC-1006   Horizon Consulting, Inc., Lansdowne, VA                                                              06/24/2003   10/20/2003   05/31/2004

2003-FW-1806   Colonial Oaks Apartments, Houston, TX                                                                07/03/2003   07/03/2003   10/01/2004
                    Brockton, MA Housing Authority, Review of the Portability Features of the Section 8 Housing Choice
 2003-BO-1004                                                                                                                       07/17/2003    10/16/2003    09/15/2004
                    Voucher Program

 2003-CH-1018       Chicago, IL Housing Authority, Outsourced Property Management Contracts Review                                  07/18/2003    01/14/2004    12/31/2005

                    Safe Space, Inc., Housing Opportunities for Persons With AIDS and Supportive Housing Programs, New
 2003-NY-1802                                                                                                                       07/24/2003    11/21/2003    05/21/2004
                    York, NY

 2003-CH-1019       Fayette County Housing Authority, Section 8 Housing Program, Connersville, IN                                   07/25/2003    11/19/2003    07/23/2004

 2003-AT-1006       Puerto Rico Department of Housing, State Home Investment Partnership Program, San Juan, PR                      07/30/2003    12/24/2003    06/30/2004

 2003-KC-1007       Management Solutions of America, Inc., Atlanta, GA                                                              07/31/2003    10/20/2003    05/31/2004

 2003-AO-0004       Review of the Department of HUD’s Staffing 9/30 Initiative                                                      08/14/2003    11/03/2003    09/30/2004

 2003-DE-1006       Colorado Coalition for the Homeless, Supportive Housing Program Grants, Denver, CO                              08/26/2003    12/31/2003    04/15/2004

 2003-DP-0001       Public and Indian Housing Information Center (PIC) System                                                       09/10/2003    01/08/2004    10/29/2004

                    Housing Authority of the Seminole Nation of Oklahoma, Procurement of Housing Rehabilitation Services,
 2003-FW-1005                                                                                                                       09/10/2003    01/08/2004    12/29/2004
                    Land, and Mobile Homes, Wewoka, OK

                    MortgageStream Financial Services, LLC, Non-Supervised Direct Endorsement Lender, Greenwood
 2003-DE-1005                                                                                                                       09/15/2003    01/14/2004    04/30/2004
                    Village, CO

 2003-NY-1005       Empire State Development Corporation, CDBG Disaster Assistance Funds, New York, NY                              09/30/2003    01/28/2004    03/31/2007

 2003-NY-1006       Lower Manhattan Development Corporation, CDBG Disaster Assistance Funds, New York, NY                           09/30/2003    01/28/2004    04/30/2004




AUDITS EXCLUDED:                                                                  NOTES:

24 audits under repayment plans.                                                  1 Management did not meet the target date. Target date is over 1 year old.
21 audits under formal judicial review, investigation, or legislative solution.   2 Management did not meet the target date. Target date is under 1 year old.
                                                                                  3 No management decision.
                                                                             TABLE C
                                                      I NSPECTOR GENERAL ISSUED R EPORTS WITH
                                                   QUESTIONED AND UNSUPPORTED COSTS AT 03/31/04
                                                              (DOLLARS IN THOUSANDS )

                                                                                                                 Number of Audit          Questioned       Unsupported
                                                   Reports
                                                                                                                    Reports                 Costs             Costs
A1      For which no management decision had been made by the commencement of the reporting period                        21                    30,490         23,070
        For which litigation, legislation or investigation was pending at the commencement of the reporting
A2                                                                                                                         6                    13,149          4,799
        period
A3      For which additional costs were added to reports in beginning inventory                                                                  5,115              0

A4      For which costs were added to non-cost reports                                                                     0                         0              0

B1      Which were issued during the reporting period                                                                     32                    61,997         45,589

B2      Which were reopened during the reporting period                                                                    0                         0              0

                                                                                            Subtotals (A + B)             59                   110,751         73,458

C       For which a management decision was made during the reporting period                                              271                   39,797         23,730
        (1) Dollar value of disallowed costs:
                                                                                                                          152                   14,801          1,179
            Due HUD
                                                                                                                          15                    22,690         20,487
            Due Program Participants
        (2) Dollar value of costs not disallowed                                                                           43                    2,306          2,064
        For which management decision had been made not to determine costs until completion of litigation,
D                                                                                                                          6                    14,046          4,883
        legislation or investigation
                                                                                                                        26                     56,908         44,845
E       For which no management decision had been made by the end of the reporting period
                                                                                                                       <77> 4                 <23,329> 4     <13,337> 4

____________________

1
    9 audit reports also contain recommendations with funds to be put to better use.
2
    3 audit reports also contain recommendations with funds due program participants.
3
    4 audit reports also contain recommendations with funds agreed to by management.
4
    The figures in brackets represent data at the recommendation level as compared to the report level. See Explanations of Tables C and D.
                                                                             TABLE D
                                               I NSPECTOR GENERAL ISSUED R EPORTS
                                 WITH RECOMMENDATIONS THAT F UNDS B E PUT TO BETTER USE AT 03/31/04
                                                     (DOLLARS IN THOUSANDS )

                                                                                                                                    Number of Audit
                                                                                                                                                       Dollar Value
                                                             Reports                                                                   Reports
A1      For which no management decision had been made by the commencement of the reporting period                                              9           23,952

A2      For which litigation, legislation or investigation was pending at the commencement of the reporting period                              3          520,302

A3      For which additional costs were added to reports in beginning inventory                                                                            203,405

A4      For which costs were added to non-cost reports                                                                                          2           20,120

B1      Which were issued during the reporting period                                                                                          18        1,642,163

B2      Which were reopened during the reporting period                                                                                         0                0

                                                                                                              Subtotals (A + B)                32        2,409,942

C       For which a management decision was made during the reporting period                                                                   141         766,584
        (1) Dollar value of recommendations that were agreed to by management:
                                                                                                                                                92         539,567
            Due HUD
                                                                                                                                                7          226,598
            Due Program Participants
        (2) Dollar value of recommendations that were not agreed to by management                                                               13             419
        For which management decision had been made not to determine costs until completion of litigation, legislation or
D                                                                                                                                               2            6,302
        investigation
                                                                                                                                               16        1,637,056
E       For which no management decision had been made by the end of the reporting period
                                                                                                                                              <24> 4     <752,432> 4
____________________

1
    9 audit reports also contain recommendations with questioned costs.
2
    2 audit reports also contain recommendations with funds due program participants.
3
    1 audit report also contains recommendations with funds agreed to by management.
4
    The figures in brackets represent data at the recommendation level as compared to the report level. See Explanations of Tables C and D.
EXPLANATIONS OF TABLES C AND D
    The Inspector General Act Amendments of 1988 require Inspectors General and agency heads to report cost data on management decisions and final
actions on audit reports. The current method of reporting at the “report” level rather than at the individual audit “recommendation” level results in
misleading reporting of cost data. Under the Act, an audit “report” does not have a management decision or final action until all questioned cost items or
other recommendations have a management decision or final action. Under these circumstances, the use of the “report” based rather than the
“recommendation” based method of reporting distorts the actual agency efforts to resolve and complete action on audit recommendations. For example,
certain cost items or recommendations could have a management decision and repayment (final action) in a short period of time. Other cost items or
nonmonetary recommendation issues in the same audit report may be more complex, requiring a longer period of time for management’s decision or
final action. Although management may have taken timely action on all but one of many recommendations in an audit report, the current “all or
nothing” reporting format does not take recognition of their efforts.

    The closing inventory for items with no management decision on Tables C and D (Line E) reflects figures at the report level as well as the
recommendation level.
                                    HUD OIG Operations Telephone Listing

                                               Office of Audit

Headquarters Office of Audit, Washington, DC                               202-708-0364

Region I, Boston, MA                                                       617-994-8380
         Hartford, CT                                                      860-240-4800

Region II, New York, NY                                                    212-264-8000
         Albany, NY                                                        518-464-4200
         Buffalo, NY                                                       716-551-5755
         Newark, NJ                                                        973-622-7900

Region III, Philadelphia, PA                                               215-656-3401
         Baltimore, MD                                                     410-962-2520
         Pittsburgh, PA                                                    412-644-6372
         Richmond, VA                                                      804-771-2100

Region IV, Atlanta, GA                                                     404-331-5001
        Birmingham, AL                                                     205-731-2630
        Miami, FL                                                          305-536-5387
        Greensboro, NC                                                     336-547-4001
        Jacksonville, FL                                                   904-232-1777
        Knoxville, TN                                                      865-545-4400
        San Juan, PR                                                       787-766-5540

Region V, Chicago, IL                                                      312-353-6236
        Columbus, OH                                                       614-469-5737
        Detroit, MI                                                        313-226-6280

Region VI, Fort Worth, TX                                                  817-978-9309
        Houston, TX                                                        713-718-3199
        New Orleans, LA                                                    504-589-7267
        Oklahoma City, OK                                                  405-609-8606
        San Antonio, TX                                                    210-475-6895

Region VII, Kansas City, KS                                                913-551-5870
        St. Louis, MO                                                      314-539-6339

Region VIII, Denver, CO                                                    303-672-5452

Region IX, Los Angeles, CA                                                 213-894-8000
        Phoenix, AZ                                                        602-379-7250
        San Francisco, CA                                                  415-436-8101

Region X, Seattle, WA                                                      206-220-5360
                                     HUD OIG Operations Telephone Listing

                                              Office of Investigation

Headquarters Office of Investigation, Washington, DC                        202-708-0390

Region I, Boston, MA                                                        617-994-8450
         Manchester, NH                                                     603-666-7988
         Meriden, CT                                                        203-639-2810

Region II, New York, NY                                                     212-264-8000
         Buffalo, NY                                                        716-551-5755
         Newark, NJ                                                         973-622-7900

Region III, Philadelphia, PA                                                215-656-3410
         Baltimore, MD                                                      410-962-4502
         Pittsburgh, PA                                                     412-644-6598
         Richmond, VA                                                       804-771-2100
         Washington, DC                                                     202-501-0486

Region IV, Atlanta, GA                                                      404-331-5001
        Miami, FL                                                           305-536-3087
        Greensboro, NC                                                      336-547-4000
        Jacksonville, FL                                                    904-232-1777
        Memphis, TN                                                         901-544-0644
        Nashville, TN                                                       615-736-1013
        San Juan, PR                                                        787-766-5872
        Tampa, FL                                                           813-228-2026

Region V, Chicago, IL                                                       312-353-4196
        Cleveland, OH                                                       216-522-4421
        Columbus, OH                                                        614-469-6677
        Detroit, MI                                                         313-226-6280
        Indianapolis, IN                                                    317-226-5427
        Minneapolis-St. Paul, MN                                            612-370-3106

Region VI, Arlington, TX                                                    817-652-6980
        Albuquerque, NM                                                     505-346-7394
        Houston, TX                                                         713-718-3197
        Little Rock, AR                                                     501-324-5409
        New Orleans, LA                                                     504-589-6836
        Oklahoma City, OK                                                   405-609-8601
        San Antonio, TX                                                     210-475-6810

Region VII, Kansas City, KS                                                 913-551-5866
        Omaha, NE                                                           402-492-3159
        St. Louis, MO                                                       314-539-6559

Region VIII, Denver, CO                                                     303-672-5350
        Billings, MT                                                        406-247-4080
        Salt Lake City, UT                                                  801-524-6090

Region IX, Los Angeles, CA                                                  213-894-0219
        San Francisco, CA                                                   415-436-8108
        Phoenix, AZ                                                         602-379-7255
        Sacramento, CA                                                      916-498-5220
        Las Vegas, NV                                                       702-388-6141

Region X, Seattle, WA                                                       206-220-5380
        Portland, OR                                                        503-326-5404
       Report fraud, waste and mismanagement in
             HUD programs and operations by:



Calling the OIG Hotline: 1-800-347-3735


Faxing the OIG Hotline:      202-708-4829



Sending written information to:
               Department of Housing and Urban Development
               Inspector General Hotline (GFI)
               400 Virginia Ave., SW, Room C-120
               Washington, DC 20024




Emailing the OIG Hotline: hotline@hudoig.gov


Internet: http://www.hud.gov/complaints/fraud_waste.cfm


             All information is confidential and
                you may remain anonymous.
                                        U.S. Department of Housing and
Semiannual Report to Congress
as of March 31, 2004

www.hud.gov/offices/oig




                                              Urban Development



No. 51                HUD-2004-06-OIG
